No. _________

In The

Supreme Court of the United States
PARTS GALORE L.L.C. and
SOAVE ENTERPRISES L.L.C.,
Petitioners,

v.

JACQUELINE HARRISON,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

_____________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
_____________________
Michael F. Smith*
Counsel of Record
THE SMITH APPELLATE LAW FIRM
1717 Pennsylvania Avenue N.W.
Suite 1025
Washington, D.C. 20006
(202) 454-2860
smith@smithpllc.com

John J. O’Shea
LAW OFFICE OF JOHN J. O’SHEA P.L.C.
18000 Mack Avenue
Grosse Pointe, MI 48230
(313) 884-2000
oshealaw@att.net

Counsel for Petitioners

TABLE OF CONTENTS
Appendix
APPENDIX A

Page:

Opinion
U.S. Court of Appeals for the Sixth Circuit
No. 19-1176, Harrison v. Soave Enterprises L.L.C. and Parts Galore L.L.C.
entered September 10, 2020 ............................................................................. 1a
APPENDIX B
Opinion and Order
U.S. District Court for the Eastern District of Michigan, Southern Division
No. 16-14084, Harrison v. Soave Enterprises L.L.C. and Parts Galore L.L.C.
entered January 23, 2019 ............................................................................... 17a
APPENDIX C
Dismissal and Notice of Rights
U.S. Equal Employment Opportunity Commission
dated August 17, 2016 .................................................................................... 29a
APPENDIX D
Order Denying Petition for En Banc Rehearing
U.S. Court of Appeals for the Sixth Circuit
No. 19-1176, Harrison v. Soave Enterprises L.L.C. and Parts Galore LLC
entered October 13, 2020 ................................................................................ 31a
APPENDIX E
Americans with Disabilities Act of 1990, as Amended (excerpt)
Title 42 U.S.C. §§ 12101-12117 ................................................................................. 32a
APPENDIX F
Amicus Curiae Brief of U.S. Equal Employment Opportunity Commission
In Support of Plaintiff-Appellant
No. 19-1176, Harrison v. Soave Enterprises L.L.C. and Parts Galore L.L.C.
filed April 24, 2019 .......................................................................................... 53a
APPENDIX G
U.S. Equal Employment Opportunity Commission
29 CFR Part 1630; Regulations to Implement the
Equal Employment Provisions of the Americans With Disabilities Act,
as Amended; Final Rule
dated March 25, 2011.................................................................................... 115a
i

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 1

(3 of 18)

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0526n.06
No. 19-1176
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JACQUELINE HARRISON,
Plaintiff-Appellant
v.
SOAVE ENTERPRISES
GALORE L.L.C.

L.L.C.

Defendants-Appellees

and

)
)
)
)
)
)
PARTS
)
)
)

FILED

Sep 10, 2020
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE EASTERN
DISTRICT OF MICHIGAN

Before: GUY, BUSH, and MURPHY, Circuit Judges.
JOHN K. BUSH, Circuit Judge. The Americans with Disabilities Act (ADA), 42 U.S.C.
§§ 12101 et seq., celebrating its thirtieth anniversary this year, embodies our national commitment
to equality of opportunity in the workplace for the disabled. This appeal concerns the definition
of a qualifying “disability” in light of the 2008 amendments that broadened coverage under the
Act.
Jacqueline Harrison appeals the district court’s grant of summary judgment to Soave
Enterprises and Parts Galore (collectively, Defendants) on her ADA claim. The district court held
that Defendants might be “employers” subject to the requirements of the Act but granted them
summary judgment on the ground that Harrison failed to introduce direct evidence that she was
either “actually” disabled or “regarded as” disabled by those entities. We conclude that a dispute
of fact exists over whether Soave and Parts Galore can be liable to Harrison under the ADA, and
we disagree with the district court’s conclusion that Harrison failed to adduce sufficient evidence

1a

APPENDIX A

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 2

of an “actual” or “regarded-as” disability under the 2008 amendments to the ADA, known as the
ADA Amendments Act of 2008 (ADAAA). We thus REVERSE the district court’s grant of
summary judgment and REMAND for the district court’s assessment of the remaining elements
of Harrison’s ADA claim.
I.
In December 2005, Harrison became a manager of Parts Galore, a self-service used auto
parts salvage yard. In 2007, she moved to a second location, “Parts Galore II,” where she also
served as a manager. At these facilities customers can pay a two-dollar entrance fee, which allows
them to harvest and purchase parts from scrap cars and trucks located throughout many acres.
Harrison inspected the yard two to three times a day in a John Deere “Gator” vehicle. As part of
those inspections, she checked for improperly placed cars, monitored employees, and assessed
holes in the fence to help prevent theft.
In 2014, Parts Galore hired Stephan A. “Tony” Murell as Regional Manager. He prepared
a preliminary report that documented problems at Parts Galore II. The underperformance at the
facility included holes along the fence (linked to possible incidents of theft), poorly inspected
vehicles (with dangerous parts (i.e., jacks) not having been removed), slacking employees, and a
deficient video feed monitor.
Following the report, Murell mandated changes at Parts Galore II. Among other things, he
required Harrison to randomly spot-check five cars each day prior to their placement in the yard.
This was to ensure that all dangerous car parts had been properly removed. To conduct the spot
checks, Harrison had to look under each car’s hood and ensure that all of the engine fluids had
been drained, and then inspect beneath the vehicles to confirm the removal of the catalytic

2a

(4 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 3

converters. The latter duty required Harrison to physically kneel down and view the underbelly of
the car.
The new inspection procedure posed difficulties for Harrison, for in 2010 or 2011, Harrison
had suffered a torn ACL injury after falling in the shower. Knee surgery repaired her torn
meniscus, but she elected not to have her ACL repaired, as it would have required her to stop
taking medication that she needed and her doctor informed her that she could function without the
additional repair. Following her surgery Harrison continued to experience pain, which she
managed by taking medication as needed. However, she was no longer able to kneel to look
beneath the cars to perform the daily spot-check inspections.
To address Harrison’s inability to kneel, Parts Galore supplied her with a mirror on an
extension arm, which she used to view the undercarriage of cars and confirm that the catalytic
converter had been removed. The mirror allowed Harrison to perform all of her work-related
duties without any limitation. Harrison also testified that she could perform many personal
activities around her home and neighborhood. These included window washing, floor scrubbing,
cleaning toilets, picking up parts, picking up batteries, participating in the community, cleaning up
neighborhoods, and delivering turkey. Harrison never requested any other accommodation to
perform her duties at Part Galore. In fact, she declared in her deposition that “[t]here was no part
of my job that I could not do.” She also testified that at the time of her termination of employment
(August 26, 2015), she was neither being treated for her ACL injury by a medical professional,
nor had any doctor-imposed medical or physical restrictions on her activities.
A.

Harrison’s Termination

On her last day at Parts Galore, Murell indicated to Harrison that she was being “terminated
because [she] can no longer do [her] duties because [of] a torn ACL.” Murell offered no other

3a

(5 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 4

reason for the termination. In his deposition Murell admitted that he had told Harrison that her
ACL injury was the reason for her termination, but claimed that the actual reasons her employment
ended, which he did not tell her, were because of a “multitude of [her prior] offenses and incidents
of behavior.”
B.

Procedural History
1. Harrison’s EEOC Complaint

Following her termination, Harrison filed a charge with the Equal Employment
Opportunity Commission (EEOC) against Ferrous Processing and Trading Company, the party
responsible for her hiring at Parts Galore. She alleged that she was fired because of her race, sex,
and/or disability. Neither Soave nor Parts Galore was named on this complaint. The EEOC issued
Harrison a right-to-sue letter.
2. District Court Proceedings
Harrison then filed a two-count complaint in the Eastern District of Michigan against Soave
and Parts Galore. In Count I, Harrison alleged that her termination violated the ADA, classifying
her torn ACL and “medical obesity” as qualifying disabilities. In Count II, Harrison alleged that
Soave had violated the Elliott-Larsen Civil Rights Act (ELCRA), based on its alleged weight
discrimination against her. Central to Harrison’s claims was the statement Murell had made that
she “[could] no longer perform [her] managerial duties because [of a] torn ACL.”
Upon completion of discovery, Defendants moved for summary judgment on both counts.
They argued that (1) Harrison was directly employed by neither Soave nor Parts Galore; (2) she
was not a qualified person with a disability under the ADA; (3) she had not required, nor had she
requested, a reasonable accommodation for her alleged disability, which rendered her ADA claim

4a

(6 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 5

moot; and (4) her deposition admissions (relating to the fact she was never diagnosed as medically
obese) rendered her ELCRA claim moot.
The district court granted summary judgment for Defendants. The court concluded that
Ferrous, Parts Galore, and Soave were “so intertwined that they constitute[d] a single employer”
under the ADA and thus Parts Galore and Soave were capable of being named in the complaint.
Harrison v. Soave Enters., No. 16-14084, 2019 WL 296699, at *2 (E.D. Mich. Jan. 23, 2019)
(citing Swallows v. Barnes & Noble Book Stores, 128 F.3d 990, 993 (6th Cir. 1997)). Nonetheless,
the court granted summary judgment for several reasons. First, the court held that Harrison had
failed to present medical evidence of her knee condition as to create a genuine issue for trial that
she was either “actually disabled” or “regarded as” disabled under the ADA. Id. at *3. Second,
the court held that, even if Harrison had alleged a sufficient disability, she “extinguish[ed] any
potential claim of [her employer’s] refusal to accommodate,” given that she advanced “[no]
evidence that Defendants refused [her] requested accommodation.” Id. Third, although the court
concluded that Harrison had evidence for a prima facie case of weight discrimination under the
ELCRA, the court held that she failed to offer any proof that Murell’s legitimate rationale for her
firing—Harrison’s inconsistency in performing car spot checks—was pretextual. Id. at *4.
Harrison now appeals only her ADA claim. She argues that, in concluding that she was
not disabled under the ADA, the district court incorrectly applied an analysis from Black v.
Roadway Express, Inc., 297 F.3d 445, 450 (6th Cir. 2002), which has been superseded by the 2008
amendments to the ADA. Harrison further contends that the district court erred in its determination
that she failed to prove that Defendants “regarded” her as disabled and terminated her because of
that perception. Alternatively, Harrison argues that even if her claim based on direct evidence of
discrimination fails, the district court failed to conduct burden-shifting analysis based on indirect

5a

(7 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 6

evidence. See Ferrari v. Ford Motor Co., 826 F.3d 885, 891–92 (6th Cir. 2016), abrogated on
other grounds by Babb v. Maryville Anesthesiologists P.C., 942 F.3d 308, 319 (6th Cir. 2019)
(citing McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973)).
II.
We review de novo a district court’s grant of summary judgment under Rule 56 of the
Federal Rules of Civil Procedure. Chen v. Dow Chem. Co., 580 F.3d 394, 400 (6th Cir. 2009).
Summary judgment is appropriate if “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Under this standard, the moving party “bears the initial burden of establishing an absence of
evidence to support the non[-]moving party’s case.” Copeland v. Machulis, 57 F.3d 476, 478–79
(6th Cir. 1995) (citing Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986)). Here, Defendants bear
this burden as the parties moving for summary judgment. If they meet their burden of production,
the burden shifts to the non-moving party, to advance “significant probative evidence tending to
support the complaint.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249 (1986) (citation
omitted). We assess “the facts and any inferences [that can be] drawn from the facts in the light
most favorable to the non-moving party.” Chapman v. UAW Local 1005, 670 F.3d 677, 680 (6th
Cir. 2012) (en banc).
III.
A.

Harrison’s Employers

Parts Galore and Soave first argue that neither entity was an employer of Harrison, and
therefore neither may be held liable for her employment-related claims. The district court rejected
this argument, stating that although Harrison testified that neither Parts Galore nor Soave
Enterprises was her employer, “companies can be so intertwined that they constitute a single

6a

(8 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 7

employer.” Harrison, 2019 WL 296699, at *2. On appeal, Parts Galore and Soave Enterprises
argue that the evidence of corporate interwovenness cited by the district court was not enough to
allow a reasonable jury to find that those companies were also subject to liability given her
admission that she was employed only by Ferrous. We disagree.
Harrison testified only as to which business she considered to be her formal employer.
However, neither the ADA’s plain language nor our precedent limits liability solely to such formal
employers. Start with the statutory text. It states that no “covered entity shall discriminate against
a qualified individual on the basis of disability” in various terms and conditions of employment.
42 U.S.C. § 12112(a) (emphasis added). The ADA defines “covered entity” to include “an
employer.” Id. § 12111(2). And it defines “employer” as a “person engaged in an industry
affecting commerce” with a certain number of employees as well as “any agent of such person.”
Id. § 12111(5)(A). Nowhere does this statutory text require the “covered entity” that engages in
the illegal discrimination to be the formal employer of the disabled individual who is subjected to
the discrimination. Cf. Carparts Distribution Ctr., Inc. v. Automotive Wholesaler’s Ass’n of New
England, Inc., 37 F.3d 12, 16–18 (1st Cir. 1994).
Likewise, our case law has noted that an “employer” under the ADA is not always limited
to the company with whom the aggrieved employee has a direct employment relationship.
Swallows v. Barnes & Noble Book Stores, Inc., 128 F.3d 990, 993 (6th Cir. 1997) (noting that there
can be circumstances in “which a defendant that does not directly employ a plaintiff may still be
considered an ‘employer’ under [the ADA]”). In these situations, we follow three approaches to
examine whether two companies constitute one employer. Id. Under the first, we examine
“whether two entities are so interrelated that they may be considered a ‘single employer’ or an
‘integrated enterprise.’” Id.; see, e.g., York v. Tenn. Crushed Stone Ass’n, 684 F.2d 360 (6th Cir.

7a

(9 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 8

1982). The second approach “consider[s] whether one defendant has control over another
company’s employees sufficient to show that the two companies are acting as a ‘joint employer’
of those employees.” Swallows, 128 F.3d at 993; see, e.g., Carrier Corp. v. NLRB, 768 F.2d 778
(6th Cir. 1985). The third addresses “whether the person or entity that took the allegedly illegal
employment action was acting as the agent of another company, which may then be held liable as
the plaintiffs’ employer.” Swallows, 128 F.3d at 993; see, e.g., Deal v. State Farm Cnty. Mut. Ins.
Co. of Tex., 5 F.3d 117 (5th Cir. 1993).
We conclude that a reasonable jury could find that Soave and Parts Galore are subject to
liability under this framework. Among other evidence concerning the relationship between the
entities, the individuals who were involved in the decision to terminate Harrison (and thus who
engaged in the alleged “discriminat[ion] against” her, 42 U.S.C. § 12112(a)) actually worked for
Parts Galore or Soave, not Ferrous. Tony Murell, the primary person who made the decision to
fire Harrison, was employed by Parts Galore. See Harrison, 2019 WL 296699, at *3. And Marcia
Moss, who was present with Murell during Harrison’s termination, was employed by Soave as its
Human Resources Director. See id. Soave and Parts Galore make no claim that they do not
otherwise qualify as “employers” under the relevant statutory definition (which requires that they
be engaged in an industry affecting commerce and have the required number of employees). See
42 U.S.C. § 12111(5)(A). And the definition of employer encompasses an employer’s “agent”—
like Murell and Moss for Parts Galore and Soave, respectively. While Soave argues that Moss had
no role in the actual termination decision, a dispute of fact exists on that issue. And a factual
dispute exists over whether the different entities are “so interrelated” that they would be considered
a “single employer” or “integrated enterprise.” We therefore hold that Soave and Parts Galore are
potentially subject to liability under the ADA.

8a

(10 of 18)

Case: 19-1176

B.

Document: 52-2

Filed: 09/10/2020

Page: 9

Qualifying Disabilities

To prevail on a claim of discrimination under the ADA, a plaintiff must show that she “(1)
is disabled, (2) [is] otherwise qualified to perform the essential functions of the position, with or
without accommodation, and (3) suffered an adverse employment action because of…her
disability.” Ferrari, 826 F.3d at 891.
At issue in this appeal is the first element. Under this element, a plaintiff can prove a
qualifying “disability” by demonstrating that she (1) is “actually disabled,” meaning the individual
possesses “a physical or mental impairment that substantially limits one or more major life
activities of such individual”; (2) has “a record of such an impairment”; or, (3) is “regarded as
having such an impairment.” 42 U.S.C. § 12102(1), (3).
Harrison pursues the first and third avenues of element one—that she is “actually disabled”
or that she was “regarded” by Defendants “as having such an impairment.” Id. § 12102(1), (3).
The district court found Harrison’s evidence insufficient to create a jury issue under either
approach. However, in doing so, the district court erroneously relied on Black v. Roadway Express,
Inc., 297 F.3d 445, 450 (6th Cir. 2002), which applied a stricter standard for establishing disability
that no longer governs following the 2008 amendments to the ADA.
1. “Actually Disabled” under Section 12102(1)(A).
To prove that she is “actually disabled” under § 12102(1)(A), a plaintiff must show “a
physical or mental impairment that substantially limits one or more major life activities.” The
statute enumerates a non-exhaustive list of “major life activities,” which include “caring for
oneself, performing manual tasks, seeing, hearing, eating, sleeping, walking, standing, lifting,
bending, speaking, breathing, learning, reading, concentrating, thinking, communicating, and

9a

(11 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 10

working.” 42 U.S.C. § 12102(2)(A). And, importantly, in accordance with the directives offered
by the Code of Federal Regulations, this court has held that “the term ‘major’ shall not be
interpreted strictly to create a demanding standard.” Hostettler v. Coll. of Wooster, 895 F.3d 844,
853 (6th Cir. 2018) (quoting 29 C.F.R. § 1630.2(i)(2)). We adopted this less-strict interpretation
because, “[i]n keeping with the remedial purposes of the ADAAA, ‘[t]he definition of disability’
under the ADA ‘shall be construed in favor of broad coverage.’”

Id. (quoting 42 U.S.C.

§ 12102(4)(A)). “That is because the primary concern of the ADA is ‘whether covered entities
have complied with their obligations and whether discrimination has occurred,’ not whether an
individual’s impairment is a disability.” Id. (quoting 29 C.F.R. § 1630.2(j)(1)(iii)).
Under the applicable ADA regulations, we “determine whether a disability substantially
limits major life activities” through comparison of “the person claiming a disability to ‘most people
in the general population.’” Id. (quoting 29 C.F.R. § 1630.2(j)(1)(ii)). “‘An impairment need not
prevent, or significantly or severely restrict . . . a major life activity’ to be substantially limiting.”
Id. at 853–54 (quoting 29 C.F.R. § 1630.2(j)(1)(ii)). Similar to the term “major life activities,”
“[t]he term ‘substantially limits’ shall be construed broadly in favor of expansive coverage” and
“is not meant to be a demanding standard.” Id. at 854 (quoting 29 C.F.R. § 1630.2(j)(1)(i)).
Indeed, a plaintiff need not show that her disability renders her unable to work, see
Morrissey v. Laurel Health Care Co., 946 F.3d 292, 300 (6th Cir. 2019), and a plaintiff need not
even tell her employer about her specific diagnosis. See id. Rather, it is enough that a plaintiff
simply tells her employer that she has certain limitations in relation to her work “because she
suffer[s] from a disability as defined by the ADA.” Id. (“[Plaintiff] told [her employer] that she
could not work more than twelve hours per shift because she suffered from a disability as defined
by the ADA. That was enough.”); see also Hammon v. DHL Airways, Inc., 165 F.3d 441, 450 (6th

10a

(12 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 11

Cir. 1999) (“An employer has notice of the employee’s disability when the employee tells the
employer that he is disabled.” (citation omitted)); Cady v. Remington Arms Co, 665 F. App’x 413,
417 (6th Cir. 2016) (“[T]he employee need not use the word ‘disabled,’ but the employer must
know enough information about the employee’s condition to conclude that he is disabled. Relevant
information could include, among other things, a diagnosis, a treatment plan, apparent severe
symptoms, and physician-imposed work restrictions.” (internal citation omitted)).
Therefore, framed properly in light of post-2008 ADA law, “the question before us is
whether [Harrison] submitted enough evidence to show that she is substantially limited in her
ability to [kneel or walk].” Morrissey, 946 F.3d at 300. And, ultimately, based on our case law
that properly applies the post-2008 ADA standards for disability, we conclude that Harrison has
sufficient evidence to allow a reasonable jury to find “a physical or mental impairment that
substantially limits one or more major life activities.” 42 U.S.C. § 12102(1)(A).
In Morrissey, for instance, we concluded that the plaintiff had submitted enough evidence
to show that she was substantially limited in her ability to walk, stand, lift or bend, even with her
admission that she “did not have a specific limitation on the distance she could walk, the amount
of time she could stand, the amount of bending she could do, or the amount of weight she could
lift.” 946 F.3d at 300. It was enough that plaintiff alleged that, “after an eight-to twelve-hour
shift, she had difficulty walking, standing, lifting and bending,” and “she had so much trouble
bending over that it was difficult to put on her underwear.” Id. (emphasis added). We also found
significant that plaintiff’s daughter submitted an affidavit in which she stated that her mother “did
not walk at all or walked with a slight hunch and a pained expression after completing a day of
work.” Id.

11a

(13 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 12

Similarly, in Hostettler, we concluded that plaintiff had sufficiently shown that her mix of
postpartum depression and separation anxiety, which impeded her ability to work full-time and
required her to ask for a modified work schedule from her employer, constituted a “disability”
under the post-2008 ADA. 895 F.3d at 853–54. In doing so, we dismissed defendant’s contention
that because plaintiff’s panic attacks were limited to several minute spans at a time, they did not
substantially limit any major life activity. Id. at 854. Instead, we found the episodic nature of the
disability to “make[] no difference under the ADA,” as “long as the impairment ‘would
substantially limit a major life activity when active,” id. (quoting 42 U.S.C. § 12102(4)(D)); and
in that case, the attacks substantially limited plaintiff’s ability to “care for herself, sleep, walk, or
speak, among others.” Id.; see 42 U.S.C. § 12102(2).
Under the directives of our case law and based on the regulations that direct us to construct
the term “substantially limits” “broadly in favor of expansive coverage,” 29 C.F.R. §
1630.2(j)(1)(i), we conclude that Harrison has satisfied the first element of a prima facie case of
disability discrimination under the ADA. First, Harrison has shown that she has a “physical . . .
impairment.” 42 U.S.C. § 12102(1)(A). Namely, Harrison presented evidence that in 2010 she
suffered an injury to her right knee in the shower, resulting in a damaged meniscus and torn ACL.
Thereafter, Harrison was required to have surgery on her meniscus, though she elected not to have
her ACL repaired, as it would have required her to stop taking medication that she needed and her
doctor informed her she could function without the surgery. The meniscus surgery required her to
take two days off of work, undergo a full treatment of physical therapy, and be under the shortterm supervision from a physician. These circumstances qualify Harrison’s knee injury as a
physical impairment under the ADAAA. See 42 U.S.C. § 12102(4)(A); Barlia v. MWI Veterinary
Supply, Inc., 721 F. App’x 439, 445 (6th Cir. 2018) (“Congress amended the ADA in 2008 to state

12a

(14 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 13

that the term [disability] should be construed ‘in favor of broad coverage . . . , to the maximum
extent permitted by the [ADA’s] terms.’” (quoting 42 U.S.C. § 12102(4)(A)).
Second, similar to our evaluation of the plaintiffs’ evidence in Hostettler and Morrissey,
we conclude that Harrison has sufficient proof to show that her physical impairment “substantially
limits” a major life activity. 42 U.S.C. § 12102(1)(A), (2)(A). Namely, Harrison testified
categorically that because of her torn, unrepaired ACL, she cannot kneel to this day. Indeed, the
record shows that she was unable to kneel to look under cars, so she was provided a mirror for her
to undertake this task. The statute provides a non-exhaustive list of “major life activities,”
including “standing, lifting, [and] bending,” 42 U.S.C. § 12102(2)(A), and regulations add
“sitting” and “reaching” as additional examples, 29 C.F.R. § 1630.2(i)(1)(i).

Kneeling fits

comfortably within this list. Moreover, a reasonable juror could determine that the majority of the
general population can kneel and does not share Harrison’s physical limitation. 29 C.F.R. §
1630.2(j)(l)(v) (“The comparison of an individual’s performance of a major life activity to the
performance of the same major life activity by most people in the general population usually will
not require scientific, medical, or statistical analysis.”). Therefore, because Harrison’s physical
impairment—her knee injury—“substantially limits one or more major life activities,” the district
court erred in holding as a matter of law based on the record as it stands that Harrison was not
“actually disabled” under § 12102(1)(A). There is a genuine dispute regarding whether she was
“actually disabled” under § 12102(1)(A), which necessitates our reversal of the district court’s
summary judgment based on this issue.

13a

(15 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 14

2. “Regarded As” Disabled under Section 12102(1)(C).
Harrison also has sufficient evidence for a reasonable jury to find that she has a qualifying
ADA “disability” under the “regarded as having [] an impairment” by her employer prong, see 42
U.S.C. § 12102(1)(C)), given Defendants’ knowledge of her knee injury.
Through the 2008 amendments, Congress liberalized the “regarded as having an
impairment” avenue of proving a disability under § 12102. Prior to the 2008 amendments, a
plaintiff was required to show that her employer (1) “mistakenly believe[d] that [she] ha[d] a
physical impairment that substantially limits one or more major life activities” or, alternatively,
that the employer (2) “mistakenly believe[d] that an actual, nonlimiting impairment substantially
limits one or more major life activities.” Sutton v. United Air Lines, Inc., 527 U.S. 471, 489 (1999);
accord Daugherty v. Sajar Plastics, Inc., 544 F.3d 696, 704 (6th Cir. 2008). Under both scenarios,
it was “necessary that [an employer] entertain misperceptions about the individual;” or in other
words, the employer had to “believe either” that the employee “ha[d] a substantially limiting
impairment that [she] [did] not have or that [she] ha[d] a substantially limiting impairment when,
in fact, the impairment is not so limiting.” Sutton, 527 U.S. at 489; accord Daugherty, 544 F.3d
at 704. However, in 2008, Congress deliberately relaxed the standard “because it believed that
Sutton (among other Supreme Court decisions) unduly ‘narrowed the broad scope of protection
intended to be afforded by the ADA,’” and thereby “eliminat[ed] protection for many individuals
whom Congress intended to protect.” Babb v. Maryville Anesthesiologists P.C., 942 F.3d 308,
318 (6th Cir. 2019) (quoting ADA Amendments Act of 2008, Pub. L. 110-325, § 2(a)(4), 122 Stat.
3553 (2008)). Accordingly, the “regarded as” provision of the ADA now states that, for an
employee to make out a “regarded as” claim, the employee must establish: “that he or she has been
subjected to an action prohibited under this chapter because of an actual or perceived physical or

14a

(16 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 15

mental impairment whether or not the impairment limits or is perceived to limit a major life
activity.” 42 U.S.C. § 12102(3)(A) (emphasis added). There is a limitation to this provision,
however: “regarded as” impairments “shall not apply to impairments that are transitory and
minor.” Babb, 942 F.3d at 319 (quoting 42 U.S.C. § 12102(3)(B) (emphasis added)). Therefore,
the “transitory and minor” limitation acts as an affirmative defense of which the employer bears
the burden of proving. Id.
Ultimately then, “to state the threshold condition of a ‘regarded as’ ADA claim, an
employee need only show that [her] employer believed [she] had a ‘physical or mental
impairment,’ as that term is defined in federal regulations.” Id. “The employer may then rebut
this showing by pointing to objective evidence ‘that the impairment is (in the case of an actual
impairment) or would be (in the case of a perceived impairment) both transitory and minor.’” Id.
(quoting 29 C.F.R. § 1630.15(f)); see Baum v. Metro Restoration Servs., Inc., 764 F. App’x 543,
547 (6th Cir. 2019); Neely v. Benchmark Family Servs., 640 F. App’x 429, 435 (6th Cir. 2016);
Bailey v. Real Time Staffing Servs., 543 F. App’x 520, 523 (6th Cir. 2013).
Applying the clarified “regarded as” standard to Harrison’s case, we conclude that a
genuine dispute of material fact exists with respect to Harrison’s perceived disability, and her
employer’s perception of such. The record indicates that Harrison’s employers knew about her
injury because: (1) when requesting the accommodation for her injury—the mirror—Harrison
referenced her ACL injury to validate the request; and (2) during her firing, Murell referenced
Harrison’s ACL injury. This is more than enough evidence from which a reasonable juror could
find that in December 2015, Defendants genuinely believed that Harrison had a knee injury that
affected her ability to kneel and work—therefore, representing a disability that we deem would
qualify as a “physical impairment” under the ADA given it affected Harrison’s “musculoskeletal”

15a

(17 of 18)

Case: 19-1176

Document: 52-2

Filed: 09/10/2020

Page: 16

system. 29 C.F.R. § 1630.2(i)(1)(ii). Furthermore, given that Harrison testified that she injured
her knee in 2011, the five-year span between the injury and her termination suggests that the
impairment was neither “minor” nor “transitory.” 29 CFR § 1630.15(f). Although Defendants
highlight that (1) Harrison could perform other household tasks and (2) Harrison testified that she
had no other limitations across other activities, these facts do not necessarily rebut the notion that
Harrison’s employers still could have “perceived” her “as having an impairment” and fired her
because of that perceived limitation. This is particularly true, given the updated standard under
the ADA, which no longer requires the employer to believe the “impairment limits…a major life
activity.” 42 U.S.C. § 12102(3)(A).
In light of the above, we hold, in the alternative, that Harrison has sufficient evidence for
a reasonable jury to find that she satisfied the “regarded as” avenue of a qualifying ADA disability.
IV.
We conclude that a reasonable jury could find that Parts Galore and Soave are liable to
Harrison under the ADA. And given our holdings that Harrison has presented sufficient evidence
to create a genuine dispute of material fact regarding whether she is “actually disabled” or
“regarded as” disabled under § 12102(1)(A) and (C), we REVERSE the district court’s grant of
summary judgment in favor of Defendants. Therefore, we REMAND this case for further
proceedings consistent with this opinion.

16a

(18 of 18)

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.692

Page 1 of 12

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JACQUELINE HARRISON,
Plaintiff,
Civil Case No. 16-14084
Honorable Linda V. Parker

v.
SOAVE ENTERPRISES and
PARTS GALORE,
Defendants.
____________________________________/

OPINION AND ORDER GRANTING DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT (ECF NO. 22)
Plaintiff Jacqueline Harrison initiated this action against Defendants Soave
Enterprises and Parts Galore (collectively “Defendants”) for violations of the
Americans with Disabilities Act (“ADA”), 42 U.S.C.A. § 12101 et seq., and
Michigan’s Elliot-Larsen Civil Rights Act (“ELCRA”), Mich. Comp. Laws Ann. §
37.2101 et. seq., alleging discrimination based on her claimed disability and her
weight. (ECF No. 1.)
Presently before the Court is Defendants’ motion for summary judgment,
pursuant to Federal Rule of Civil Procedure 56. (ECF No. 22.) Finding the facts
and legal arguments sufficiently presented in the parties’ briefs, the Court is
dispensing with oral argument pursuant to Eastern District of Michigan Local Rule
7.1(f)(2). (ECF Nos. 22, 23, 24.)

17a

APPENDIX B

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

I.

PageID.693

Page 2 of 12

Factual Background
On or about December 20, 2005, Plaintiff Jacqueline Harrison began

working for or with Defendants Soave Enterprises and Parts Galore. (ECF No. 1 ¶
6.) Parts Galore maintains large vehicle yards and allows customers a self-service
opportunity to salvage parts from vehicles in the yard. (Id. ¶ 10.) Plaintiff served
as the Manager to the Warren Avenue Parts Galore operation. (Id. ¶ 7; ECF No. 22
¶ 5.) Her duties included, inter alia, spot checking five cars per day to ensure that
the vehicles were ready to be placed in the yard for customer use. (ECF No. 22 ¶¶
6–7.) This duty required Plaintiff to look under the hood of the vehicle and under
the vehicle itself to ensure that the catalytic converter had been removed. (Id. at ¶
8.) To examine under the vehicle itself, Plaintiff needed to kneel and look under
the car. (Id. ¶ 11.)
Plaintiff is obese, weighing 300 pounds at the time of her alleged
employment with Defendants, and suffers from a torn anterior cruciate ligament
(“ACL”). (ECF No. 23 at PgID 190; ECF No. 1 ¶ 11.) She alleges that her torn
ACL qualifies as a disability under the ADA and that it limits her mobility,
specifically her ability to kneel. (ECF No. 1 ¶ 11.) At some time in her
employment, Plaintiff claimed that she could not kneel to look underneath the
vehicles. (ECF No. 22 ¶ 12.) She requested that Defendant Parts Galore purchase
a mirror to aid her in inspecting the underside of the vehicles; Defendants

2

18a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.694

Page 3 of 12

purchased the mirror for Plaintiff, authorized by Tony Murell, Parts Galore
Regional Manager. (Id. ¶¶ 13–14.) Plaintiff later testified that, other than an
inability to kneel, she did not have any physical limitations that would preclude her
from performing her duties. (ECF No. 22-3 at PgID 107.) She also testified that,
at the time of her termination, no doctor had imposed any medical or physical
restrictions on her of any kind, and that she was not being treated for her ACL
injury. (Id. at PgID 102.) Plaintiff claims, however, that her ACL injury prevents
her from walking long distances and on certain terrains. (ECF No. 23-2 at PgID
215.) Although Plaintiff underwent knee surgery in or around 2011, she was not
given any limitations pertaining to her knee from her treating physician. (ECF No.
22-3 at PgID 102.) Other than the mirror, Plaintiff made no requests for
accommodations for her claimed disability from Defendants, and she believed that
no other accommodations were needed. (Id. at PgID 113.)
Plaintiff alleges that she was discriminated against because of her
disability—an ACL injury—arguing that: (1) Defendants refused to accommodate
her, and (2) Defendants terminated her due to her injury. She also alleges that she
was discriminated against because of her weight, arguing that Defendants
terminated her for that reason. Plaintiff testified that she was provided no other
reason for her termination and has no evidence of any reason other than
Defendants’ statements to her that she was terminated because of her ACL injury

3

19a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.695

Page 4 of 12

that limited her ability to perform her managerial duties. (ECF No. 22 ¶¶ 22–26;
ECF No. 22-3 at PgID 110, 112–113; ECF No. 1 ¶ 23.)
II.

Summary Judgment Standard
Summary judgment, pursuant to Federal Rule of Civil Procedure 56, is

appropriate “if the movant shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). The central inquiry is “whether the evidence presents a sufficient
disagreement to require submission to a jury or whether it is so one-sided that one
party must prevail as a matter of law.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 251-52 (1986). After adequate time for discovery and upon motion, Rule 56
mandates summary judgment against a party who fails to establish the existence of
an element essential to that party’s case and on which that party bears the burden
of proof at trial. Celotex Corp. v. Catrett, 477 U.S. 317, 322-23 (1986).
“A party asserting that a fact cannot be or is genuinely disputed” must
designate specifically the materials in the record supporting the assertion,
“including depositions, documents, electronically stored information, affidavits or
declarations, stipulations, admissions, interrogatory answers, or other materials.”
Fed. R. Civ. P. 56(c)(1). The court must accept as true the non-movant’s evidence
and draw “all justifiable inferences” in the non-movant's favor. See Liberty Lobby,
477 U.S. at 255.

4

20a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.696

Page 5 of 12

The movant has the initial burden of showing “the absence of a genuine
issue of material fact.” Id. at 323. Once the movant meets this burden, the
“nonmoving party must come forward with specific facts showing that there is a
genuine issue for trial.” Matsushita Electric Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986) (internal quotation marks and citation omitted). To
demonstrate a genuine issue, the nonmoving party must present sufficient evidence
upon which a jury could reasonably find for that party; a “scintilla of evidence” is
insufficient. See Liberty Lobby, 477 U.S. at 252.
III.

Applicable Law & Analysis

A. Plaintiff’s Employer
Defendants argue that neither Soave Enterprises nor Parts Galore employs
Plaintiff; rather, Plaintiff is employed by Ferrous Processing and Trading Company
(“FPT”). (ECF No. 22 at PgID 80.) Indeed, a claim of discrimination must be
lodged against the rightful employer. See 42 U.S.C.A §§ 12111(5), 12112(a); see
also Mich. Comp. Laws § 37.2202(1).
Although Plaintiff testified that FPT was her employer, companies can be so
intertwined that they constitute a single employer. (ECF No. 22-3 at PgID 100);
Swallows v. Barnes & Noble Book Stores, 128 F.3d 990, 993 (6th Cir. 1997).
Courts use three approaches to examine whether two companies may constitute
one employer: (1) courts examine whether two entities are so interrelated that they

5

21a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.697

Page 6 of 12

may be considered as one1, (2) courts consider whether one defendant has control
over another company's employees sufficient to show that the two companies are
acting as a “joint employer”, and (3) courts examine whether the person or entity
that took the allegedly illegal employment action was acting as the agent of another
company. Swallows, 128 F.3d at 992-93 (citations omitted).
Here, Plaintiff enumerates several facts that substantiate her claim that
Defendants should be considered her employer: (1) Bill Wild, Soave President of
Highway Auto Equipment, was her direct supervisor, ECF No. 23 at PgID 179, and
submitted the business plan to FPT to create Parts Galore, id. at PgID 183-84, (2)
Tony Murell, Parts Galore Regional Manager, also served as Plaintiff’s supervisor,
(3) FPT is a subsidiary of Soave, (4) FPT’s website states that it is owned by
Soave, (5) Mr. Murell decided and carried out Plaintiff’s termination, and (6)
Marcia Moss, Soave Human Resources Director, was present with Mr. Murell
during Plaintiff’s termination. Id. Given the shared management and supervision
between Soave and FPT and Soave’s ownership of FPT (which operates Parts

1

“In determining whether to treat two entities as a single employer, courts examine
the following four factors: (1) interrelation of operations, i.e., common offices,
common record keeping, shared bank accounts and equipment, (2) common
management, common directors and boards, (3) centralized control of labor
relations and personnel, and (4) common ownership and financial control.”
Swallows, 128 F.3d at 993-94 (citation omitted).

6

22a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.698

Page 7 of 12

Galore), the Court concludes that Defendant Soave Enterprises serves as Plaintiff’s
employer, subjecting it to potential liability under the ADA and ELCRA.
B. Disability Discrimination
To prove a prima facie case of disability discrimination, a plaintiff must
show that: (1) she is disabled, (2) she was otherwise qualified for the position, with
or without reasonable accommodation, (3) she suffered an adverse employment
decision, (4) Defendants knew or had reason to know of her disability, and (5) the
position remained open while Defendants sought other applicants. Ferrari v. Ford
Motor Co., 826 F.3d 885, 894 (6th Cir. 2016) (citing Monette v. Elec. Data Sys.
Corp., 90 F.3d 1173, 1186 (6th Cir. 1996))2. As to the first element, a “disability”
requires: (1) “a physical or mental impairment that substantially limits one or more
major life activities”, (2) “a record of such an impairment”, or (3) “being regarded
as having such an impairment.” 42 U.S.C.A § 12102(1). Major life activities
include, but are not limited to, “caring for oneself, performing manual tasks,
seeing, hearing, eating, sleeping, walking, standing, lifting, bending, speaking,
breathing, learning, reading, concentrating, thinking, communicating, and
working.” Id. § 12105(2).

2

Some Sixth Circuit cases use a three-element test, however, the five-element test
articulated in Monette remains the proper test. Ferrari, 826 F.3d at 895.

7

23a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.699

Page 8 of 12

Here, Plaintiff only claims one physical limitation—the ability to kneel. The
Sixth Circuit has previously affirmed that, although a knee injury constitutes a
physical impairment, “no reasonable jury could find that [a] knee injury
substantially limits … any major life activity.” Black v. Roadway Express, Inc.,
297 F.3d 445, 450 (6th Cir. 2002). Certainly, a knee injury impedes the ability to
walk. As in Black, however, Plaintiff’s “alleged inability to perform certain tasks
or functions on a repeated or prolonged basis is not enough, as a matter of law, for
[her] to meet the threshold requirement of proving that [she] is ‘disabled.’” Id. at
451 (citation omitted). Consequently, the Court holds that Plaintiff has not
established that she is disabled, and therefore, is not entitled to relief based on
disability discrimination.
Plaintiff raises two other arguments to support her disability discrimination
claim: (1) Defendants regarded her as disabled, and (2) Defendants refused to
accommodate her. First, Plaintiff supports her claim that she was regarded as
disabled solely on the fact that Defendants provided her a mirror when she
requested one. This act alone does not per se establish that Defendants regarded
Plaintiff as disabled3. Second, the Court has already concluded that Plaintiff is not

3

To prove that a plaintiff is regarded as disabled, she must either show that: (1)
Defendants mistakenly believed that she had an impairment limiting a major life
activity, or (2) Defendants mistakenly believed that an actual impairment limited a
(Cont’d . . .)

8

24a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.700

Page 9 of 12

disabled thereby extinguishing any potential claim of a refusal to accommodate.
Assuming that Plaintiff was disabled, however, her accomodation claim would still
fail because she has not provided any evidence that Defendants refused a requested
accommodation. Therefore, Plaintiff’s two arguments fail, and the Court
concludes that Plaintiff is not entitled to relief based on disability discrimination.
C. Weight Discrimination
To prove a prima facie case of weight discrimination under the ELCRA,
Plaintiff must prove that: (1) she belongs to a protected class, (2) she suffered an
adverse employment action, (3) she was qualified for the position, and (4) her
termination gives rise to an inference of unlawful discrimination. Sniecinski v.
Blue Cross & Blue Shield of Michigan, 666 N.W.2d 186, 193 (Mich. 2003)
(citation omitted). Once Plaintiff has presented a prima facie case of
discrimination, the burden then shifts to the Defendants to articulate a legitimate,
nondiscriminatory reason for the adverse employment action. Id. If Defendants
produce such evidence, the presumption is rebutted, and the burden shifts back to

major life activity. Talley v. Family Dollar Stores of Ohio, 542 F.3d 1099, 1106
(6th Cir. 2008). The evidence establishes that: (1) Plaintiff was impaired by her
ACL injury which limited her ability to kneel, and (2) Defendants were neither
mistaken about this impairment nor believed it to limit a major life activity. Thus,
Plaintiff fails to establish that she was regarded as disabled.
(Cont’d . . .)

9

25a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.701

Page 10 of 12

Plaintiff to show that Defendants’ reason was not the true reason, but a mere
pretext for discrimination. Id.
Plaintiff has demonstrated that: (1) she belongs to a protected class4, and (2)
she was terminated from her employment with FPT. Defendants have not argued
that Plaintiff was unqualified for the position. Additionally, Plaintiff performed
her managerial duties for some years while employed by FPT. However, she
eventually needed an accommodation to perform her duties. Defendants supplied
Plaintiff with an accommodation (although not required under the ADA because
her ACL injury is not recognized as a disability under the Act). This demonstrates
that Plaintiff was hindered from performing the full extent of her duties without an
accommodation. Regardless, the Court will recognize Plaintiff as qualified.
Finally, because the Court must draw “all justifiable inferences” in the nonmovant's favor5, the Court will infer that Plaintiff’s termination was based on, at
least in part, her weight.
Addressing Defendants’ reason for Plaintiff’s termination, Plaintiff testified
that the only reason articulated to her by Defendants was her ACL injury that
prevented her from performing her managerial duties. (ECF No. 22-3 at PgID
112.) In fact, Plaintiff further testified that: (1) she was never treated differently by

4

An employer shall not discharge an individual from employment because of
weight. See Mich. Comp. Laws Ann. § 37.2202(1)(a).
5
See Liberty Lobby, 477 U.S. at 255.

10

26a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.702

Page 11 of 12

any supervisor, (2) she never heard any supervisor refer to her weight at any time,
and (3) she has no other evidence that she was terminated because of her weight.
(Id. at PgID 112-113.) Thus, Defendants have provided a legitimate,
nondiscriminatory reason for her termination—an inability to perform her duties
because of a knee injury. Plaintiff, however, has failed to demonstrate and failed
to provide sufficient evidence that convinces the Court that Defendants’ reason
merely serves as pretext for discrimination. Therefore, the Court holds that
Plaintiff has failed to establish a claim of weight discrimination under the ELCRA
and is not entitled to relief on that basis.
IV.

Conclusion
For the reasons set forth above, the Court grants Defendants’ motion for

summary judgment, pursuant to Federal Rule of Civil Procedure 56.
Accordingly,
IT IS ORDERED that Defendants’ motion for summary judgment (ECF
No. 22) is GRANTED; and
IT IS FURTHER ORDERED that Plaintiff’s complaint (ECF No. 1) is
DISMISSED with prejudice.
s/ Linda V. Parker
LINDA V. PARKER
U.S. DISTRICT JUDGE
Dated: January 23, 2019

11

27a

Case 4:16-cv-14084-LVP-EAS ECF No. 25 filed 01/23/19

PageID.703

Page 12 of 12

I hereby certify that a copy of the foregoing document was mailed to counsel of
record and/or pro se parties on this date, January 23, 2019, by electronic and/or
U.S. First Class mail.
s/ R. Loury
Case Manager

12

28a

U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION

EEOC Fo,m 16 1 (1/08)

DISMISSAL AND NOTICE OF RIGHTS
Jacqueline M. Harrison
15235 Flanders Street
Southgate, Ml 48195

To:

D

From:

Detroit Field Office
477 Michigan AvenuR
Room 865
Detroit, Ml 48226

On behalf of person(s) aggrieved whose identity is
CONFIDENTIAL (29 CFR §1601 . 7(a))

EEOC Charge No.

EEOC Representative

Telephone No.

Doritha R. Brown,
471-2016-01002

Investigator

(313) 226-6339

THE EEOC IS CLOSING ITS FILE ON THIS CHARGE FOR THE FOLLOWING REASON:

D
D
D
D

The facts alleged in the charge fail to state a claim under any of the statutes enforced by the EEOC.
You r allegations did not involve a disability as defined by the America ns With Disabilities Act.
The Respondent employs less than the required number of employees or is not otherwise covered by the sta tutes.
Your charge was not timely filed with EEOC; in other words, you waited too long after the date(s) of the alleged
discrimination to file you r charge.
The EEOC issues the following determination: Based upon its investigation, the EEOC is unable to conclude that the
information obtained establishes violations of the statutes. This does not certify that the respondent is in compliance with
the statutes. No finding is made as to any other issues that might be construed as having been raised by this charge.

D
D

The EEOC has adopted the findings of the state or local fair employment practices agency that investigated this charge.
Other (briefly state)

- NOTICE OF SUIT RIGHTS (See the additional information attached to this form.)

Title VII , the Americans with Disabilities Act, the Genetic Information Nondiscrimination Act, or the Age
Discrimination in Employment Act: This will be the only notice of dismissal and of your right to sue that we will send
you . You may file a lawsuit against the respondent(s) under federal law based on th is charge in federal or state cou rt.
Your lawsuit must be filed WITHIN 90 DAYS of your receipt of this notice; or your rig ht to sue based on this charge
will be lost. (The time limit for fil ing suit based on a claim under state law may be different.)
Equal Pay Act (EPA) : EPA suits must be filed in federal or state court within 2 years (3 years for willful violations) of the
alleged EPA underpayment. This means that backpay due for any violations that occurred more than 2 years (3 years)
before you file suit may not be collectible

Enclosures(s)

cc:

-~., · {)' L. \tack Vasquez, Acting District Director

Marcia Moss
Human Resources Manager
Ferrous Processing & Trading Parts Galore
5970 West Warren Avenue
Detroit, Ml 48210

Bryant M. Frank, Senior Counsel
Ferrous Processing & Trading Co.
3400 East Lafayette
Detroit, Ml 48207

29a

(Date Mailed)

Joseph A. Golden, Attorney
Burgess Sharp & Golden PLLC
43260 Garfield, Suite #280
Clinton Township, Ml 48038

APPENDIX C

Enclosure with EEOC
Form 161 (1/08)

INFORMATION RELATED TO FILING SUIT
UNDER THE LAWS ENFORCED BY THE EEOC
(This information relates to filing suit 111 Federal or State court under Federal law.
ff you also plan to sue claiming violations of State law, please be aware that time limits and other
provisions of State law may be shorter or more limited than those described below.)

Title VII of the Civil Rights Act, the Americans with Disabilities Act (ADA),
or the Age Discrimination in Employment Act (ADEA):

PRIVATE SUIT RIGHTS

In order to pursue this matter further, you must file a lawsuit against the respondent(s) named in the charge within
90 days of the date you receive this Notice. Therefore, you should keep a record of this date. Once this 90day period is over, your right to sue based on the charge referred to in this Notice will be lost. If you intend to
consult an attorney, you should do so promptly. Give your attorney a copy of this Notice, and its envelope, and tell
him or her the date you received it. Furthermore, in order to avoid any question that you did not act in a timely
manner, it is prudent that your suit be filed within 90 days of the date this Notice was mailed to you (as
indicated where the Notice is signed) or the date of the postmark, if later.
Your lawsuit may be filed in U.S. District Court or a State court of competent jurisdiction. (Usually, the appropriate
State court is the general civil trial court.) Whether you file in Federal or State court is a matter for you to decide
after talking to your attorney. Filing this Notice is not enough. You must file a "complaint" that contains a short
statement of the facts of your case which shows that you are entitled to relief. Your suit may include any matter
alleged in the charge or, to the extent permitted by court decisions, matters like or related to the matters alleged in
the charge. Generally, suits are brought in the State where the alleged unlawful practice occurred, but in some
cases can be brought where relevant employment records are kept, where the employment would have been, or
where the respondent has its main office. If you have simple questions, you usually can get answers from the
office of the clerk of the court where you are bringing suit, but do not expect that office to write your complaint or
make legal strategy decisions for you.
PRIVATE SUIT RIGHTS

--

Equal Pay Act (EPA):

EPA suits must be filed in court within 2 years (3 years for willful violations) of the alleged EPA underpayment: back
pay due for violations that occurred more than 2 years (3 years) before you file suit may not be collectible. For
example, if you were underpaid under the EPA for work performed from 7/1/08 to 12/1/08, you should file suit
before 7/1/10 - not 12/1/10 -- in order to recover unpaid wages due for July 2008. This time limit for filing an EPA
suit is separate from the 90-day filing period under Title VII, the ADA or the ADEA referred to above. Therefore, if
you also plan to sue under Title VII, the ADA or the ADEA, in addition to suing on the EPA claim, suit must be filed
within 90 days of this Notice and within the 2- or 3-year EPA back pay recovery period.
ATTORNEY REPRESENTATION

Title VII and the ADA:

If you cannot afford or have been unable to obtain a lawyer to represent you, the U.S. District Court having jurisdiction
in your case may, in limited circumstances, assist you in obtaining a lawyer. Requests for such assistance must be
made to the U.S. District Court in the form and manner it requires (you should be prepared to explain in detail your
efforts to retain an attorney). Requests should be made well before the end of the 90-day period mentioned above,
because such requests do not relieve you of the requirement to bring suit within 90 days.
ATTORNEY REFERRAL AND EEOC ASSISTANCE

All Statutes:

You may contact the EEOC representative shown on your Notice if you need help in finding a lawyer or if you have any
questions about your legal rights, including advice on which U.S. District Court can hear your case. If you need to
inspect or obtain a copy of information in EEOC's file on the charge, please request it promptly in writing and provide
your charge number (as shown on your Notice). While EEOC destroys charge files after a certain time, all charge files
are kept for at least 6 months after our last action on the case. Therefore, if you file suit and want to review the charge
file, please make your review request within 6 months of this Notice. (Before filing suit, any request should be
made within the next 90 days.)
IF YOU FILE SUIT, PLEASE SEND A COPY OF YOUR COURT COMPLAINT TO THIS OFFICE.

30a

Case: 19-1176

Document: 58-1

Filed: 10/13/2020

Page: 1

No. 19-1176
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JACQUELINE HARRISON,
Plaintiff-Appellant,
v.
SOAVE ENTERPRISES L.L.C. and PARTS GALORE L.L.C.,
Defendants-Appellees.

FILED

Oct 13, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: GUY, BUSH, and MURPHY, Circuit Judges.
The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

31a

APPENDIX D

32a

APPENDIX E

.(e d) Religious entities .

.(tl e) List of infectious and communicable diseases.
Sec. 12114. Illegal use of drugs and alcohol. [Section 104]
(.!!)_Qualified individual with a disability~

.(h) Rules of construction.
.(_g_) AuthoritY. of covered entity~

.(~) TransP.ortation emP.lOY.ees.
Sec. 12115. Posting notices. [Section 105]
Sec. 12116. Regylations. [Section 106]
Sec. 12117. Enforcement. [Section 107]
(.!!) Powers, remedies, and P.rocedures .

.(h) Coordination.

SUBCHAPTER II - PUBLIC SERVICES [Title II]
PART A - Prohibition Against Discrimination and Other Generally Applicable Provisions [Subtitle A]
Sec. 12131. Definitions. [Section 201]
Sec. 12132. Discrimination. [Section 202]
Sec. 12133. Enforcement. [Section 203]
Sec. 12134. Regylations. [Section 204]
(.!!) In general.

.(h) RelationshiP. to other regylations .
.(_g_) Standards.

PART B -Actions Applicable to Public Transportation Provided by Public Entities Considered
Discriminatory [Subtitle B]
SUBPART I - Public Transportation Other Than by Aircraft or Certain Rail Operations [Part I]
Sec. 12141. Definitions. [Section 221]
Sec. 12142. Public entities OP.erating fixed route SY.Stems. [Section 222]
(.!!) Purchase and lease of new vehicles .

.(h) Purchase and lease of used vehicles.

33a

.(_g_) Remanufactured vehicles.
Sec. 12143. Paratransit as a comP-lement to fixed route service. [Section 223]
(f!) General rule .
.(b.) Issuance of regulations .
.(_g_)...R.e.guired contents of regulations .

.(.d) Review of P-lan .
.(e) "Discrimination" defined .

.(f) Statutozy. construction.
Sec. 12144. Public enti!Y. OP-erating a demand resP-onsive SY.Stem. [Section 224]
Sec. 12145. TemP-orazy. relief where lifts are unavailable. [Section 225]

(£!) Granting,
.(b.) Duration and notice to Congress .
.(_g_) Fraudulent aP-P-lication.
Sec. 12146. New facilities. [Section 226]
Sec. 12147. Alterations of existing facilities. [Section 227]
(f!) General rule .
.(b.)...SP-ecial rule for stations.
Sec. 12148. Public transP-ortation P-rograms and activities in existing facilities and one car P-er train rule.
[Section 228]
(f!) Public transP-ortation P-rograms and activities in existing facilities .
.(b.) One car P-er train rule.
Sec. 12149. Regulations. [Section 229]

.(b.) Standards.
Sec. 12150. Interim accessibili!Y. reguirements. [Section 230]
SUBPART II - Public Transportation by Intercity and Commuter Rail [Part II]
Sec. 12161. Definitions. [Section 241]
Sec. 12162. Interci!Y. and commuter rail actions considered discriminatozy.. [Section 242]

(£!) Interci!Y. rail transP-ortation.

34a

.(b.) Commuter rail transP-ortation.
(£) Used rail cars .

.(g) Remanufactured rail cars .
.(~) Stations.
Sec. 12163. Conformance of accessibilitY. standards. [Section 243]
Sec. 12164. Regylations. [Section 244]
Sec. 12165. Interim accessibilitY. reQuirements. [Section 245]
(f!) Stations.

SUBCHAPTER III - PUBLIC ACCOMMODATIONS AND SERVICES OPERATED BY PRIVATE
ENTITIES [Title III]
Sec. 12181. Definitions. [Section 301]
Sec. 12182. Prohibition of discrimination by_P-ublic accommodations. [Section 302]
(f!) General rule .

.(b.) Construction.
Sec. 12183. New construction and alterations in P-Ublic accommodations and commercial facilities. [Section
302]

fo) AP-P-lication of term .
.(b.) Elevator.
Sec. 12184. Prohibition of discrimination in SP-ecified P-Ublic transP-ortation services P-rovided by_P-rivate
entities. [Section 303]
(f!) General rule .

.(b.) Construction.
(£) Historical or antiQuated cars.
Sec. 12185. Study..,_[Section 305]

.(b.) Contents.
(£) Advisozy. committee .
.(g) Deadline .
.(~) Review.

35a

Sec. 12186. Regylations. [Section 306]
(!!) Transnortation nrovisions.

(Q) Other nrovisions.
(£) Consistency: with ATBCB gyidelines .
.(d) Interim accessibility: standards.
Sec. 12187. Exemntions for nrivate clubs and religious organizations. [Section 307]
Sec. 12188. Enforcement. [Section 308]
(.!!) In general.

.Ch) Enforcement by: Attorney: General.
Sec. 12189. Examinations and courses. [Section 309]

SUBCHAPTER IV MISCELLANEOUS PROVISIONS [Title V]
Sec. 12201. Construction. [Section 501]

fa) In general.
.(b.) RelationshiP- to other laws .
.(9.) Insurance .

.(g) Accommodations and services .
.(~). Benefits under State worker's comnensation laws .
.(0. Fundamental alteration .
.(g). Claims of no disability~

.(h) Reasonable accommodation and modifications.
Sec. 12202. State immunity...... [Section 502]
Sec. 12203. Prohibition against retaliation and coercion. [Section 503]
(.!!) Retaliation .

.(b.) Interference, coercion, or intimidation.
.(9.) Remedies and nrocedures.
Sec. 12204. Regylations by: the Architectural and TransP-ortation Barriers Comnliance Board. [Section 504]

fa) Issuance of gyidelines .
.(b.) Contents of gyidelines .
.(9.)_Qualified historic P-ronerties.

36a

Sec. 12205. Attorne):'.'s fees. [Section 505]

Sec. 12205a. Rule of construction regarding regulaton: authority..,,
Sec. 12206. Technical assistance. [Section 506]

(!!) Plan for assistance .

.(h) AgencY. and 12ublic assistance.
(£) Im12lementation .

.(g) Grants and contracts .
.(~) Failure to receive assistance.
Sec. 12207. Federal wilderness areas. [Section 507]

(.!!) Study.,.

.(h) Submission of re12ort.
(9.)...S12ecific wilderness access.
Sec. 12208. Transvestites. [Section 508]
Sec. 12209. Instrumentalities of Congress. [Section 509]
Sec. 12210. Illegal use of drug~[Section 510]

fa) In general.
.Ch) Rules of construction.
(£) Health and other services .
.(d) "Illegal use of drugs" defined.
Sec. 12211. Definitions. [Section 511]

(.!!) Homosexualizy. and bisexuality.,.

.(h) Certain conditions.
Sec. 12212. Alternative means of dis12ute resolution. [Section 512]
Sec. 12213. Severability. . . . [Section 513]

TITLE 47 - TELEGRAPHS, TELEPHONES, AND RADIOTELEGRAPHS
CHAPTER 5 - WIRE OR RADIO COMMUNICATION .
SUBCHAPTER II - COMMON CARRIERS
Part I - Common Carrier Regulation

37a

Sec. 225. Telecommunications services for hearing-imP-aired and SP-eech-imP-aired individuals [Section 401]

.(si) Definitions .
.(h) Availabilizy. of telecommunications relaY. services .
.(~) Provision of services .

.(d) Regulations .
.(~) Enforcement.

.(f) Certification.
.(g) ComP-laint.

TITLE 47 - TELEGRAPHS, TELEPHONES, AND RADIOTELEGRAPHS
CHAPTER 5 - WIRE OR RADIO COMMUNICATION .
SUBCHAPTER VI - MISCELLANEOUS PROVISIONS
Sec. 611. Closed-caP-tioning of P-ublic service announcements [Section 402]

TITLE 42 - THE PUBLIC HEALTH AND WELFARE

CHAPTER 126 - EQUAL OPPORTUNITY FOR INDIVIDUALS WITH DISABILITIES
Sec. 12101. Findings and purpose
(a) Findings
The Congress finds that

(1) some 43,000,000 Amerietlfts ktYte otte Of fflOfe physiea:l Of metttal disabilities, tlfta this fttffl'lbef
is ittefeasittg as the popttlatiott as a whole is growiflg olaef;
physical or mental disabilities in no way diminish a person's right to fully participate in all
aspects of society, yet many people with physical or mental disabilities have been precluded
from doing so because of discrimination; others who have a record of a disability or are
regarded as having a disability also have been subjected to discrimination;
(2) historically, society has tended to isolate and segregate individuals with disabilities, and,
despite some improvements, such forms of discrimination against individuals with disabilities
continue to be a serious and pervasive social problem;
(3) discrimination against individuals with disabilities persists in such critical areas as
employment, housing, public accommodations, education, transportation, communication,
recreation, institutionalization, health services, voting, and access to public services;
(4) unlike individuals who have experienced discrimination on the basis of race, color, sex,
national origin, religion, or age, individuals who have experienced discrimination on the basis of

38a

disability have often had no legal recourse to redress such discrimination;
(5) individuals with disabilities continually encounter various forms of discrimination, including
outright intentional exclusion, the discriminatory effects of architectural, transportation, and
communication barriers, overprotective rules and policies, failure to make modifications to
existing facilities and practices, exclusionary qualification standards and criteria, segregation, and
relegation to lesser services, programs, activities, benefits, jobs, or other opportunities;
(6) census data, national polls, and other studies have documented that people with disabilities, as
a group, occupy an inferior status in our society, and are severely disadvantaged socially,
vocationally, economically, and educationally;

(7) itttli-vidttals ·.vitlt disabilities are a diserete ftfl:d iflsttlar ffliflerity vthe have beeft: faeed with
restfietieft:s ftfl:d lifflitatiefls, sttbjeeted te a histeey ef f)ttfpeseful ttft:e€J:ttal tfeatffleft:t, ftfl6 relegated
te a f'Bsitieft: ef f'Blitieal 'Pe·.veriessft:ess ifl ettf seeiety, based eft: eharaeteristies that are beyeft:d the
eeft:ifel ef stteh ifldi-tidttals and resttltin-g ffl)ffl stereeiy'Pie assttffl:ptieft:s ft.et tfttly ifldieati-te ef the
ifltttvidttal ability ef Stteh ifldividttals te 'Partieif'ate ifl, 1t1td eeft:ifi-bttte te, seeiety;
(8- 7) the Nation's proper goals regarding individuals with disabilities are to assure equality of
opportunity, full participation, independent living, and economic self-sufficiency for such
individuals; and
(9 8) the continuing existence of unfair and unnecessary discrimination and prejudice denies
people with disabilities the opportunity to compete on an equal basis and to pursue those
opportunities for which our free society is justifiably famous, and costs the United States billions
of dollars in unnecessary expenses resulting from dependency and nonproductivity.
(b) Purpose

It is the purpose of this chapter
(1) to provide a clear and comprehensive national mandate for the elimination of discrimination
against individuals with disabilities;
(2) to provide clear, strong, consistent, enforceable standards addressing discrimination against
individuals with disabilities;
(3) to ensure that the Federal Government plays a central role in enforcing the standards
established in this chapter on behalf of individuals with disabilities; and
(4) to invoke the sweep of congressional authority, including the power to enforce the fourteenth
amendment and to regulate commerce, in order to address the major areas of discrimination faced
day-to-day by people with disabilities.

Sec. 12101 note: Findings and Purposes of ADA Amendments Act of 2008, Pub. L. 110-325, § 2, Sept.
25, 2008, 122 Stat. 3553, provided that:
(a) Findings
Congress finds that(1) in enacting the Americans with Disabilities Act of 1990 (ADA), Congress intended that
the Act "provide a clear and comprehensive national mandate for the elimination of
discrimination against individuals with disabilities" and provide broad coverage;

39a

(2) in enacting the ADA, Congress recognized that physical and mental disabilities in no
way diminish a person's right to fully participate in all aspects of society, but that people
with physical or mental disabilities are frequently precluded from doing so because of
prejudice, antiquated attitudes, or the failure to remove societal and institutional barriers;
(3) while Congress expected that the definition of disability under the ADA would be
interpreted consistently with how courts had applied the definition of a handicapped
individual under the Rehabilitation Act of 1973, that expectation has not been fulfilled;
(4) the holdings of the Supreme Court in Sutton v. United Air Lines, Inc., 527 U.S. 471
(1999) and its companion cases have narrowed the broad scope of protection intended to be
afforded by the ADA, thus eliminating protection for many individuals whom Congress
intended to protect;
(5) the holding of the Supreme Court in Toyota Motor Manufacturing, Kentucky, Inc. v.
Williams, 534 U.S. 184 (2002) further narrowed the broad scope of protection intended to be
afforded by the ADA;
(6) as a result of these Supreme Court cases, lower courts have incorrectly found in
individual cases that people with a range of substantially limiting impairments are not
people with disabilities;
(7) in particular, the Supreme Court, in the case of Toyota Motor Manufacturing, Kentucky,
Inc. v. Williams, 534 U.S. 184 (2002), interpreted the term "substantially limits" to require a
greater degree of limitation than was intended by Congress; and

(8) Congress finds that the current Equal Employment Opportunity Commission ADA
regulations defining the term "substantially limits" as "significantly restricted" are
inconsistent with congressional intent, by expressing too high a standard.
(b) Purposes

The purposes of this Act are(1) to carry out the ADA's objectives of providing "a clear and comprehensive national
mandate for the elimination of discrimination" and "clear, strong, consistent, enforceable
standards addressing discrimination" by reinstating a broad scope of protection to be
available under the ADA;
(2) to reject the requirement enunciated by the Supreme Court in Sutton v. United Air
Lines, Inc., 527 U.S. 471 (1999) and its companion cases that whether an impairment
substantially limits a major life activity is to be determined with reference to the
ameliorative effects of mitigating measures;
(3) to reject the Supreme Court's reasoning in Sutton v. United Air Lines, Inc., 527 U.S. 471
(1999) with regard to coverage under the third prong of the definition of disability and to
reinstate the reasoning of the Supreme Court in School Board of Nassau County v. Arline,
480 U.S. 273 (1987) which set forth a broad view of the third prong of the definition of
handicap under the Rehabilitation Act of 1973;
(4) to reject the standards enunciated by the Supreme Court in Toyota Motor
Manufacturing, Kentucky, Inc. v. Williams, 534 U.S. 184 (2002), that the terms
"substantially" and "major" in the definition of disability under the ADA "need to be
interpreted strictly to create a demanding standard for qualifying as disabled," and that to
be substantially limited in performing a major life activity under the ADA "an individual

40a

must have an impairment that prevents or severely restricts the individual from doing
activities that are of central importance to most people's daily lives";
(5) to convey congressional intent that the standard created by the Supreme Court in the
case of Toyota Motor Manufacturing, Kentucky, Inc. v. Williams, 534 U.S. 184 (2002) for
"substantially limits", and applied by lower courts in numerous decisions, has created an
inappropriately high level of limitation necessary to obtain coverage under the ADA, to
convey that it is the intent of Congress that the primary object of attention in cases brought
under the ADA should be whether entities covered under the ADA have complied with their
obligations, and to convey that the question of whether an individual's impairment is a
disability under the ADA should not demand extensive analysis; and
(6) to express Congress' expectation that the Equal Employment Opportunity Commission
will revise that portion of its current regulations that defines the term "substantially limits"
as "significantly restricted" to be consistent with this Act, including the amendments made
by this Act.

Sec. 12102. Demttietts Definition of disability
As used in this chapter:

(1) Affl(.iliaey aids attd setViees

Tlie teffli "affl(.iliaey aids and sefViees" ittelttdes
(A.) EJ:ttalified mieff't'eters er etlier effeetive ffletheds of ffltlffl:ttg attfally deltvefed fflatefials
available to ittdi-vidttals witli lietlfffl:g ifflpaiffllefl:ts;
(B) EJ:ttalified readers, taped texts, er etlief effeetive ffletlieds efffltlffl:fl:g v'isttally delivefed
fflatefials a·1ailable to ittdi-vidttals vtith visttal ifflpaimtems;
(C) ae€J:l:lisitiett er ffledifieatiett of eEJ:ttipfflefl:t er deviees; and
(D) ether siffliltlf serviees tlfl:6 aetietts.
[Note: the definition of "auxiliary aids and services" has been moved to Section 12103.J

(r 1) Disability
The term "disability" means, with respect to an individual

(I-A) a physical or mental impairment that substantially limits one or more major life
activities of such individual;
(tt B) a record of such an impairment; or

(tti C) being regarded as having such an impairment (as described in paragraph (3)).

(3) State
Tlie teffll "State" ffleatts eaeli of the several States, the Distfiet of Columbia, the Cefflfflett·.vealt:h
of Pttefte Riee, Gttftffl:, Amefietlfl: Sf:lffl6a, the Vifgi:H: Isltlfl:ds, the Tmst Temtory of the Paeifie
Isltlfl:ds, tlfl6 the Cefflffl:et•twealtli of the Nettltem Mariana Islands.
[Note: the definition of "state" has been moved to Section 12103.J

(2) Major Life Activities

41a

(A) In general
For purposes of paragraph (1), major life activities include, but are not limited to,
caring for oneself, performing manual tasks, seeing, hearing, eating, sleeping, walking,
standing, lifting, bending, speaking, breathing, learning, reading, concentrating,
thinking, communicating, and working.
(B) Major bodily functions

For purposes of paragraph (1), a major life activity also includes the operation of a
major bodily function, including but not limited to, functions of the immune system,
normal cell growth, digestive, bowel, bladder, neurological, brain, respiratory,
circulatory, endocrine, and reproductive functions.
(3) Regarded as having such an impairment
For purposes of paragraph (l)(C):
(A) An individual meets the requirement of "being regarded as having such an
impairment" if the individual establishes that he or she has been subjected to an action
prohibited under this chapter because of an actual or perceived physical or mental
impairment whether or not the impairment limits or is perceived to limit a major life
activity.
(B) Paragraph (l)(C) shall not apply to impairments that are transitory and minor. A
transitory impairment is an impairment with an actual or expected duration of 6
months or less.

(4) Rules of construction regarding the definition of disability
The definition of "disability" in paragraph (1) shall be construed in accordance with the
following:
(A) The definition of disability in this chapter shall be construed in favor of broad
coverage of individuals under this chapter, to the maximum extent permitted by the
terms of this chapter.
(B) The term "substantially limits" shall be interpreted consistently with the findings

and purposes of the ADA Amendments Act of 2008.
(C) An impairment that substantially limits one major life activity need not limit other
major life activities in order to be considered a disability.
(D) An impairment that is episodic or in remission is a disability if it would
substantially limit a major life activity when active.

(E)

(i) The determination of whether an impairment substantially limits a major life
activity shall be made without regard to the ameliorative effects of mitigating
measures such as
(I) medication, medical supplies, equipment, or appliances, low-vision devices

(which do not include ordinary eyeglasses or contact lenses), prosthetics
including limbs and devices, hearing aids and cochlear implants or other

42a

implantable hearing devices, mobility devices, or oxygen therapy equipment
and supplies;
(11) use of assistive technology;
(III) reasonable accommodations or auxiliary aids or services; or
(IV) learned behavioral or adaptive neurological modifications.

(ii) The ameliorative effects of the mitigating measures of ordinary eyeglasses or

contact lenses shall be considered in determining whether an impairment
substantially limits a major life activity.
(iii) As used in this subparagraph
(I) the term "ordinary eyeglasses or contact lenses" means lenses that are

intended to fully correct visual acuity or eliminate refractive error; and
(11) the term "low-vision devices" means devices that magnify, enhance, or
otherwise augment a visual image.
Sec. 12103. Additional definitions
As used in this chapter
(1) Auxiliary aids and services
The term "auxiliary aids and services" includes
(A) qualified interpreters or other effective methods of making aurally delivered
materials available to individuals with hearing impairments;
(B) qualified readers, taped texts, or other effective methods of making visually

delivered materials available to individuals with visual impairments;
(C) acquisition or modification of equipment or devices; and
(D) other similar services and actions.

(2) State
The term "State" means each of the several States, the District of Columbia, the Commonwealth of
Puerto Rico, Guam, American Samoa, the Virgin Islands of the United States, the Trust Territory of
the Pacific Islands, and the Commonwealth of the Northern Mariana Islands.
SUBCHAPTERI-EMPLOYMENT
Sec. 12111. Definitions
As used in this subchapter:
(1) Commission
The term "Commission" means the Equal Employment Opportunity Commission established by
section 2000e-4 of this title.
(2) Covered entity

43a

The term "covered entity" means an employer, employment agency, labor organization, or joint
labor-management committee.
(3) Direct threat
The term "direct threat" means a significant risk to the health or safety of others that cannot be
eliminated by reasonable accommodation.
(4) Employee
The term "employee" means an individual employed by an employer. With respect to
employment in a foreign country, such term includes an individual who is a citizen of the United
States.
(5) Employer
(A) In general
The term "employer" means a person engaged in an industry affecting commerce who has 15
or more employees for each working day in each of 20 or more calendar weeks in the current
or preceding calendar year, and any agent of such person, except that, for two years
following the effective date of this subchapter, an employer means a person engaged in an
industry affecting commerce who has 25 or more employees for each working day in each of
20 or more calendar weeks in the current or preceding year, and any agent of such person.
(B) Exceptions
The term "employer" does not include
(i) the United States, a corporation wholly owned by the government of the United
States, or an Indian tribe; or
(ii) a bona fide private membership club (other than a labor organization) that is exempt
from taxation under section 501(c) of title 26.
(6) Illegal use of drugs
(A) In general
The term "illegal use of drugs" means the use of drugs, the possession or distribution of
which is unlawful under the Controlled Substances Act [21 U.S.C. 801 et seq.]. Such term
does not include the use of a drug taken under supervision by a licensed health care
professional, or other uses authorized by the Controlled Substances Act or other provisions
of Federal law.
(B) Drugs
The term "drug" means a controlled substance, as defined in schedules I through V of
section 202 of the Controlled Substances Act [21 U.S.C. 812].
(7) Person, etc.
The terms "person", "labor organization", "employment agency", "commerce", and "industry
affecting commerce", shall have the same meaning given such terms in section 2000e of this title.
(8) Qualified individual vlith: a disability

44a

The term "qualified individual wi-tlt a disability" means an individual v;itlt a disability who, with
or without reasonable accommodation, can perform the essential functions of the employment
position that such individual holds or desires. For the purposes of this subchapter, consideration
shall be given to the employer's judgment as to what functions of a job are essential, and if an
employer has prepared a written description before advertising or interviewing applicants for the
job, this description shall be considered evidence of the essential functions of the job.
(9) Reasonable accommodation
The term "reasonable accommodation" may include
(A) making existing facilities used by employees readily accessible to and usable by
individuals with disabilities; and
(B) job restructuring, part-time or modified work schedules, reassignment to a vacant
position, acquisition or modification of equipment or devices, appropriate adjustment or
modifications of examinations, training materials or policies, the provision of qualified
readers or interpreters, and other similar accommodations for individuals with disabilities.
(10) Undue hardship
(A) In general
The term "undue hardship" means an action requiring significant difficulty or expense, when
considered in light of the factors set forth in subparagraph (B).
(B) Factors to be considered
In determining whether an accommodation would impose an undue hardship on a covered
entity, factors to be considered include
(i) the nature and cost of the accommodation needed under this chapter;
(ii) the overall financial resources of the facility or facilities involved in the provision
of the reasonable accommodation; the number of persons employed at such facility; the
effect on expenses and resources, or the impact otherwise of such accommodation upon
the operation of the facility;
(iii) the overall financial resources of the covered entity; the overall size of the business
of a covered entity with respect to the number of its employees; the number, type, and
location of its facilities; and
(iv) the type of operation or operations of the covered entity, including the composition,
structure, and functions of the workforce of such entity; the geographic separateness,
administrative, or fiscal relationship of the facility or facilities in question to the
covered entity.
Sec. 12112. Discrimination
(a) General rule
No covered entity shall discriminate against a qualified individual ·.vith: a disal,ility beeattse eftlte
disability ef stteh inei-1iettal on the basis of disability in regard to job application procedures, the
hiring, advancement, or discharge of employees, employee compensation, job training, and other
terms, conditions, and privileges of employment.

45a

(b) Construction
As used in subsection (a) of this section, the term "disefffll::ffl:ate" "discriminate against a qualified
individual on the basis of disability" includes
(1) limiting, segregating, or classifying a job applicant or employee in a way that adversely
affects the opportunities or status of such applicant or employee because of the disability of such
applicant or employee;
(2) participating in a contractual or other arrangement or relationship that has the effect of
subjecting a covered entity's qualified applicant or employee with a disability to the
discrimination prohibited by this subchapter (such relationship includes a relationship with an
employment or referral agency, labor union, an organization providing fringe benefits to an
employee of the covered entity, or an organization providing training and apprenticeship
programs);
(3) utilizing standards, criteria, or methods of administration
(A) that have the effect of discrimination on the basis of disability;
(B) that perpetuates the discrimination of others who are subject to common administrative
control;
(4) excluding or otherwise denying equal jobs or benefits to a qualified individual because of the
known disability of an individual with whom the qualified individual is known to have a
relationship or association;
(5)
(A) not making reasonable accommodations to the known physical or mental limitations of
an otherwise qualified individual with a disability who is an applicant or employee, unless
such covered entity can demonstrate that the accommodation would impose an undue
hardship on the operation of the business of such covered entity; or
(B) denying employment opportunities to a job applicant or employee who is an otherwise
qualified individual with a disability, if such denial is based on the need of such covered
entity to make reasonable accommodation to the physical or mental impairments of the
employee or applicant;
(6) using qualification standards, employment tests or other selection criteria that screen out or
tend to screen out an individual with a disability or a class of individuals with disabilities unless
the standard, test or other selection criteria, as used by the covered entity, is shown to be jobrelated for the position in question and is consistent with business necessity; and
(7) failing to select and administer tests concerning employment in the most effective manner to
ensure that, when such test is administered to a job applicant or employee who has a disability
that impairs sensory, manual, or speaking skills, such test results accurately reflect the skills,
aptitude, or whatever other factor of such applicant or employee that such test purports to
measure, rather than reflecting the impaired sensory, manual, or speaking skills of such employee
or applicant (except where such skills are the factors that the test purports to measure).
(c) Covered entities in foreign countries
( 1) In general

46a

It shall not be unlawful under this section for a covered entity to take any action that constitute
discrimination under this section with respect to an employee in a workplace in a foreign country
if compliance with this section would cause such covered entity to violate the law of the foreign
country in which such workplace is located.
(2) Control of corporation
(A) Presumption

If an employer controls a corporation whose place of incorporation is a foreign country, any
practice that constitutes discrimination under this section and is engaged in by such
corporation shall be presumed to be engaged in by such employer.
(B) Exception
This section shall not apply with respect to the foreign operations of an employer that is a
foreign person not controlled by an American employer.
(C) Determination
For purposes of this paragraph, the determination of whether an employer controls a
corporation shall be based on
(i) the interrelation of operations;
(ii) the common management;
(iii) the centralized control of labor relations; and
(iv) the common ownership or financial control of the employer and the corporation.
(d) Medical examinations and inquiries
(1) In general
The prohibition against discrimination as referred to in subsection (a) of this section shall include
medical examinations and inquiries.
(2) Preemployment
(A) Prohibited examination or inquiry
Except as provided in paragraph (3), a covered entity shall not conduct a medical
examination or make inquiries of a job applicant as to whether such applicant is an
individual with a disability or as to the nature or severity of such disability.
(B) Acceptable inquiry
A covered entity may make preemployment inquiries into the ability of an applicant to
perform job-related functions.
(3) Employment entrance examination
A covered entity may require a medical examination after an offer of employment has been made
to a job applicant and prior to the commencement of the employment duties of such applicant,
and may condition an offer of employment on the results of such examination, if

47a

(A) all entering employees are subjected to such an examination regardless of disability;
(B) information obtained regarding the medical condition or history of the applicant is
collected and maintained on separate forms and in separate medical files and is treated as a
confidential medical record, except that
(i) supervisors and managers may be informed regarding necessary restrictions on the
work or duties of the employee and necessary accommodations;
(ii) first aid and safety personnel may be informed, when appropriate, if the disability
might require emergency treatment; and
(iii) government officials investigating compliance with this chapter shall be provided
relevant information on request; and
(C) the results of such examination are used only in accordance with this subchapter.
(4) Examination and inquiry
(A) Prohibited examinations and inquiries
A covered entity shall not require a medical examination and shall not make inquiries of an
employee as to whether such employee is an individual with a disability or as to the nature
or severity of the disability, unless such examination or inquiry is shown to be job-related
and consistent with business necessity.
(B) Acceptable examinations and inquiries
A covered entity may conduct voluntary medical examinations, including voluntary medical
histories, which are part of an employee health program available to employees at that work
site. A covered entity may make inquiries into the ability of an employee to perform jobrelated functions.
(C) Requirement
Information obtained under subparagraph (B) regarding the medical condition or history of
any employee are subject to the requirements of subparagraphs (B) and (C) of paragraph (3).
Sec. 12113. Defenses
(a) In general

It may be a defense to a charge of discrimination under this chapter that an alleged application of
qualification standards, tests, or selection criteria that screen out or tend to screen out or otherwise
deny a job or benefit to an individual with a disability has been shown to be job- related and consistent
with business necessity, and such performance cannot be accomplished by reasonable accommodation,
as required under this subchapter.
(b) Qualification standards
The term "qualification standards" may include a requirement that an individual shall not pose a direct
threat to the health or safety of other individuals in the workplace.

(c) Qualification standards and tests related to uncorrected vision

48a

Notwithstanding section 12102(4)(E)(ii), a covered entity shall not use qualification standards,
employment tests, or other selection criteria based on an individual's uncorrected vision unless
the standard, test, or other selection criteria, as used by the covered entity, is shown to be jobrelated for the position in question and consistent with business necessity.
(e d) Religious entities
(1) In general
This subchapter shall not prohibit a religious corporation, association, educational institution, or
society from giving preference in employment to individuals of a particular religion to perform
work connected with the carrying on by such corporation, association, educational institution, or
society of its activities.
(2) Religious tenets requirement
Under this subchapter, a religious organization may require that all applicants and employees
conform to the religious tenets of such organization.
(ti e) List of infectious and communicable diseases

( 1) In general
The Secretary of Health and Human Services, not later than 6 months after July 26, 1990, shall
(A) review all infectious and communicable diseases which may be transmitted through
handling the food supply;
(B) publish a list of infectious and communicable diseases which are transmitted through
handling the food supply;
(C) publish the methods by which such diseases are transmitted; and
(D) widely disseminate such information regarding the list of diseases and their modes of
transmissibility to the general public.
Such list shall be updated annually.
(2) Applications
In any case in which an individual has an infectious or communicable disease that is transmitted
to others through the handling of food, that is included on the list developed by the Secretary of
Health and Human Services under paragraph ( 1), and which cannot be eliminated by reasonable
accommodation, a covered entity may refuse to assign or continue to assign such individual to a
job involving food handling.
(3) Construction
Nothing in this chapter shall be construed to preempt, modify, or amend any State, county, or
local law, ordinance, or regulation applicable to food handling which is designed to protect the
public health from individuals who pose a significant risk to the health or safety of others, which
cannot be eliminated by reasonable accommodation, pursuant to the list of infectious or
communicable diseases and the modes of transmissibility published by the Secretary of Health
and Human Services.
Sec. 12114. Illegal use of drugs and alcohol

49a

(a) Qualified individual with a disability
For purposes of this subchapter, tlte teffil: "q_ttalified iH:dividttal with a disability" shall a qualified
individual with a disability shall not include any employee or applicant who is currently engaging in
the illegal use of drugs, when the covered entity acts on the basis of such use.

(b) Rules of construction
Nothing in subsection (a) of this section shall be construed to exclude as a qualified individual with a
disability an individual who
(1) has successfully completed a supervised drug rehabilitation program and is no longer
engaging in the illegal use of drugs, or has otherwise been rehabilitated successfully and is no
longer engaging in such use;

(2) is participating in a supervised rehabilitation program and is no longer engaging in such use;
or
(3) is erroneously regarded as engaging in such use, but is not engaging in such use;
except that it shall not be a violation of this chapter for a covered entity to adopt or administer
reasonable policies or procedures, including but not limited to drug testing, designed to ensure
that an individual described in paragraph (1) or (2) is no longer engaging in the illegal use of
drugs.
(c) Authority of covered entity
A covered entity
(1) may prohibit the illegal use of drugs and the use of alcohol at the workplace by all employees;
(2) may require that employees shall not be under the influence of alcohol or be engaging in the
illegal use of drugs at the workplace;
(3) may require that employees behave in conformance with the requirements established under
the Drug-Free Workplace Act of 1988 (41 U.S.C. 701 et seq.);
(4) may hold an employee who engages in the illegal use of drugs or who is an alcoholic to the
same qualification standards for employment or job performance and behavior that such entity
holds other employees, even if any unsatisfactory performance or behavior is related to the drug
use or alcoholism of such employee; and
(5) may, with respect to Federal regulations regarding alcohol and the illegal use of drugs, require
that
(A) employees comply with the standards established in such regulations of the Department
of Defense, if the employees of the covered entity are employed in an industry subject to
such regulations, including complying with regulations (if any) that apply to employment in
sensitive positions in such an industry, in the case of employees of the covered entity who
are employed in such positions ( as defined in the regulations of the Department of Defense);
(B) employees comply with the standards established in such regulations of the Nuclear
Regulatory Commission, if the employees of the covered entity are employed in an industry
subject to such regulations, including complying with regulations (if any) that apply to
employment in sensitive positions in such an industry, in the case of employees of the

50a

covered entity who are employed in such positions (as defined in the regulations of the
Nuclear Regulatory Commission); and
(C) employees comply with the standards established in such regulations of the Department
of Transportation, if the employees of the covered entity are employed in a transportation
industry subject to such regulations, including complying with such regulations (if any) that
apply to employment in sensitive positions in such an industry, in the case of employees of
the covered entity who are employed in such positions (as defined in the regulations of the
Department of Transportation).
(d) Drug testing
(1) In general
For purposes of this subchapter, a test to determine the illegal use of drugs shall not be considered
a medical examination.
(2) Construction
Nothing in this subchapter shall be construed to encourage, prohibit, or authorize the conducting
of drug testing for the illegal use of drugs by job applicants or employees or making employment
decisions based on such test results.
(e) Transportation employees
Nothing in this subchapter shall be construed to encourage, prohibit, restrict, or authorize the
otherwise lawful exercise by entities subject to the jurisdiction of the Department of Transportation of
authority to
(1) test employees of such entities in, and applicants for, positions involving safety-sensitive
duties for the illegal use of drugs and for on-duty impairment by alcohol; and
(2) remove such persons who test positive for illegal use of drugs and on-duty impairment by
alcohol pursuant to paragraph (1) from safety-sensitive duties in implementing subsection (c) of
this section.
Sec. 12115. Posting notices
Every employer, employment agency, labor organization, or joint labor-management committee covered
under this subchapter shall post notices in an accessible format to applicants, employees, and members
describing the applicable provisions of this chapter, in the manner prescribed by section 2000e-10 of this
title.
Sec. 12116. Regulations
Not later than 1 year after July 26, 1990, the Commission shall issue regulations in an accessible format to
carry out this subchapter in accordance with subchapter II of chapter 5 of title 5.
Sec. 12117. Enforcement
(a) Powers, remedies, and procedures
The powers, remedies, and procedures set forth in sections 2000e-4, 2000e-5, 2000e-6, 2000e-8, and
2000e-9 of this title shall be the powers, remedies, and procedures this subchapter provides to the
Commission, to the Attorney General, or to any person alleging discrimination on the basis of

51a

disability in violation of any provision of this chapter, or regulations promulgated under section 12116
of this title, concerning employment.

(b) Coordination
The agencies with enforcement authority for actions which allege employment discrimination under
this subchapter and under the Rehabilitation Act of 1973 [29 U.S.C. 701 et seq.] shall develop
procedures to ensure that administrative complaints filed under this subchapter and under the
Rehabilitation Act of 1973 are dealt with in a manner that avoids duplication of effort and prevents
imposition of inconsistent or conflicting standards for the same requirements under this subchapter and
the Rehabilitation Act of 1973. The Commission, the Attorney General, and the Office of Federal
Contract Compliance Programs shall establish such coordinating mechanisms (similar to provisions
contained in the joint regulations promulgated by the Commission and the Attorney General at part 42
of title 28 and part 1691 of title 29, Code of Federal Regulations, and the Memorandum of
Understanding between the Commission and the Office of Federal Contract Compliance Programs
dated January 16, 1981 (46 Fed. Reg. 7435, January 23, 1981)) in regulations implementing this
subchapter and Rehabilitation Act of 1973 not later than 18 months after July 26, 1990.

SUBCHAPTER II - PUBLIC SERVICES
Part A - Prohibition Against Discrimination and Other Generally Applicable Provisions
Sec. 12131. Definitions
As used in this subchapter:

(1) Public entity
The term "public entity" means
(A) any State or local government;
(B) any department, agency, special purpose district, or other instrumentality of a State or
States or local government; and
(C) the National Railroad Passenger Corporation, and any commuter authority (as defined in
section 24102(4) of title 49).
(2) Qualified individual with a disability
The term "qualified individual with a disability" means an individual with a disability who, with
or without reasonable modifications to rules, policies, or practices, the removal of architectural,
communication, or transportation barriers, or the provision of auxiliary aids and services, meets
the essential eligibility requirements for the receipt of services or the participation in programs or
activities provided by a public entity.
Sec. 12132. Discrimination
Subject to the provisions of this subchapter, no qualified individual with a disability shall, by reason of such
disability, be excluded from participation in or be denied the benefits of services, programs, or activities of
a public entity, or be subjected to discrimination by any such entity.
Sec. 12133. Enforcement

52a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 1

No. 19-1176
_________________________________________
IN THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_________________________________________
JACQUELINE HARRISON,
Plaintiff - Appellant,
v.
SOAVE ENTERPRISES, LLC, et al.,
Defendants - Appellees.
_________________________________________
On Appeal from the United States District Court
for the Eastern District of Michigan, No. 4:16-cv-14084-LVP-EAS
Hon. Linda V. Parker, United States District Judge
_________________________________________
BRIEF OF THE EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION AS AMICUS CURIAE IN SUPPORT OF
PLAINTIFF-APPELLANT
_________________________________________
JAMES L. LEE
Deputy General Counsel
JENNIFER S. GOLDSTEIN
Associate General Counsel
ELIZABETH E. THERAN
Assistant General Counsel
JAMES M. TUCKER
Attorney

EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION
Office of General Counsel
131 M St. NE, Rm. 5NW10P
Washington, D.C. 20507
(202) 663-4870
Email: James.Tucker@EEOC.gov
Attorneys for amicus curiae
Equal Employment
Opportunity Commission

.

53a

APPENDIX F

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 2

Table of Contents
Table of Authorities ..................................................................................iii
Statement of Interest ................................................................................ 1
Statement of the Issues ............................................................................. 2
Statement of the Case ............................................................................... 2
Statement of Facts........................................................................... 2
District Court Decision .................................................................... 9
Argument ................................................................................................. 11
I.

In evaluating whether Harrison had a disability within
the meaning of the ADA, the district court failed to apply
the correct standards for coverage under the amended
statute. ....................................................................................... 12
A. The district court erroneously relied on outdated,
pre-ADAAA precedent in concluding that Harrison
failed to adduce sufficient evidence of an
actual disability ................................................................... 15
B. The district court erred by holding that Harrison could
not satisfy the amended ADA’s regarded-as definition
of disability. ........................................................................ .21

II.

The ADA does not require “medical evidence” to establish
that an impairment substantially limits one or more major
life activities .............................................................................. 24

III.

The district court applied the correct legal standard in
determining that the Parts Galore and Soave Enterprises
were Harrison’s employer. ......................................................... 29

54a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 3

Conclusion ............................................................................................... 31
Certificate of Compliance
Certificate of Service
Addendum
Designation of Relevant Documents ............................................ A1
ADA Amendments Act of 2008, Pub. L. No. 110-325,
122 Stat. 3553 (2008) .................................................................. A2
42 U.S.C. § 12101, Historical and Statutory Notes ..................... A9
42 U.S.C. § 12102 ....................................................................... A12
42 U.S.C. § 12205a ..................................................................... A14
29 C.F.R. § 1630.2....................................................................... A15
29 C.F.R. § 1630.9....................................................................... A21

55a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 4

Table of Authorities
Cases

Page(s)

Bailey v. Real Time Staffing Servs., Inc.,
543 F. App’x 520 (6th Cir. 2013) ................................................... 11
Barlia v. MWI Veterinary Supply, Inc.,
721 F. App’x 439 (6th Cir. 2018) ....................................... 13, 17, 25
Baum v. Metro Restoration Servs., Inc.,
No. 18-5699, 2019 WL 1569741 (6th Cir. Apr. 11, 2019) ........ 23, 27
Black v. Roadway Express, Inc.,
297 F.3d 445 (6th Cir. 2002).............................................. 10 ,19, 20
Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837 (1984) ....................................................................... 14
Leader v. Venture Indus. Corp.,
No. 97-cv-76021, 1999 U.S. Dist. LEXIS 15947
(E.D. Mich. 1999) ..................................................................... 25, 28
Minnix v. City of Chillicothe,
No. 98-4285, 2000 U.S. App. LEXIS 2099 (6th Cir. 2000) ...... 25, 28
Neely v. Benchmark Family Servs.,
640 F. Appx. 429 (6th Cir. 2016) ................................. 22, 25, 27, 28

56a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 5

Sanford v. Main St. Baptist Church Manor, Inc.,
449 F. App’x 488 (6th Cir. 2011) ................................................... 30
Summers v. Altarum Inst., Corp.,
740 F.3d 325 (4th Cir. 2014).......................................................... 14
Sutton v. United Air Lines, Inc.,
527 U.S. 471 (1999) ....................................................................... 21
Swallows v. Barnes & Noble Book Stores, Inc.,
128 F.3d 990 (6th Cir. 1997)................................................ 9, 29, 30
Talley v. Family Dollar Stores of Ohio, Inc.,
542 F.3d 1099 (6th Cir. 2008)............................................ 10, 21, 24
Toyota Motor Mfg., Ky., Inc. v. Williams,
534 U.S. 184 (2002) ....................................................................... 18
York v. Tenn. Crushed Stone Ass’n,
684 F.2d 360 (6th Cir. 1982).......................................................... 30
Statutes
42 U.S.C. §§ 12101 et seq........................................................................... 1
42 U.S.C. §§ 12101 note .................................................................. passim
42 U.S.C. § 12102(1)(A) ........................................................................... 12

57a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 6

42 U.S.C. § 12102(1)(C) ........................................................................... 12
42 U.S.C. § 12102(2)(A) ........................................................................... 14
42 U.S.C. § 12102(2)(B) ..................................................................... 14, 15
42 U.S.C. § 12102(3)(A) ..................................................................... 14, 15
42 U.S.C. § 12102(3)(B) ........................................................................... 14
42 U.S.C. § 12102(4) ................................................................................ 14
42 U.S.C. § 12102(4)(A) ........................................................................... 13
42 U.S.C. § 12102(4)(B) .......................................................................... 16
42 U.S.C. § 12102(4)(E)(i)(I) .................................................................... 17
42 U.S.C. § 12102(4)(E)(i)(II) .................................................................. 17
42 U.S.C. § 12102(4)(E)(i)(III) ................................................................. 17
42 U.S.C. § 12205a .................................................................................. 14
ADA Amendments Act of 2008, Pub. L. No. 110-325,
122 Stat. 3553 (2008) ..................................................................... 11
- § 2(a)(4) ......................................................................................... 21
- § 2(b)(3) ......................................................................................... 22
- § 2(b)(6) ......................................................................................... 14
- § 4 ................................................................................................. 13

58a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 7

Regulations
29 C.F.R. § 1630.2(h) ............................................................................... 26
29 C.F.R. § 1630.2(i)(1)(ii) ....................................................................... 15
29 C.F.R. § 1630.2(i)(2) ...................................................................... 13, 16
29 C.F.R. § 1630.2(j) ................................................................................ 18
29 C.F.R. § 1630.2(j)(1)(i) ........................................................................ 16
29 C.F.R. § 1630.2(j)(1)(ii) ................................................................. 17, 25
29 C.F.R. §§ 1630.2(j)(1)(iii) .................................................................... 13
29 C.F.R. § 1630.2(j)(1)(iv) ...................................................................... 17
29 C.F.R. § 1630.2(j)(1)(v) ........................................................... 17, 25, 27
29 C.F.R. § 1630.2(j)(1)(vi) ...................................................................... 17
29 C.F.R. § 1620.2(j)(2) ............................................................................ 22
29 C.F.R. § 1630.2(l)(1) ..................................................................... 22, 23
29 C.F.R. § 1630.9(e) ............................................................................... 22

59a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 8

Statement of Interest
The Equal Employment Opportunity Commission is charged by
Congress with enforcing federal prohibitions on employment
discrimination, including the Americans with Disabilities Act of 1990,
42 U.S.C. §§ 12101 et seq. (“ADA”). The district court in this case ruled
that the plaintiff could not pursue an ADA termination claim because
she had not shown she met the definition of disability. In so ruling, the
court applied standards in effect before Congress’s 2008 amendments to
the ADA, which upended the prior standards for both the actual and
regard-as prongs of the disability definition. Because this ruling, if
upheld, would undermine the effective enforcement of the ADA, the
Commission respectfully offers its views to the Court. As a federal
agency, the EEOC is authorized to participate as amicus curiae in the
courts of appeals. Fed. R. App. P. 29(a)(2).

60a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 9

Statement of the Issues
1. Whether the district court failed to apply the correct standards for
coverage under the amended ADA in holding that Harrison failed
to adduce sufficient evidence of an actual or regarded-as
disability.
2. Whether the ADA requires a plaintiff to adduce “medical
evidence” to establish that an impairment substantially limits one
or more major life activities.
3. Whether the district court applied the correct standard in
concluding that Soave Enterprises and Parts Galore were
Harrison’s employer for purposes of ADA liability because they
could be deemed an “integrated enterprise.”
Statement of the Case
A. Statement of Facts
The record on summary judgment, viewed in the light most
favorable to the plaintiff as nonmovant, reveals the following. In
December 2005, Jacqueline Harrison was hired by Ferrous Processing
and Trading Company to work at Parts Galore. Harrison deposition,
R.23-2 at 6, 26, 29, PageID#199, 219, 222. Both Ferrous Processing and

61a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 10

Parts Galore are subsidiaries of Soave Enterprises, L.L.C. 1 Murell
deposition, R.23-4 at 42, PageID#468. Parts Galore maintains large
vehicle yards and allows customers to salvage parts from vehicles on a
self-service basis. Complaint, R.1 at 2, PageID#2. Harrison was a
manager, and reported directly to Bill Wild, the president of Parts
Galore. Complaint, R.1 at 2, PageID#2; Harrison deposition, R.23-2 at
29, PageID#222. Prior to her hire by Parts Galore, Harrison had
worked for Wild as a manager at Highway Auto Equipment, a company
that Ferrous Processing purchased from Wild in 2003 or 2004 and
which subsequently became Parts Galore. Harrison deposition, R.23-2
at 26, 30, PageID#219, 223.
From 2007 on, Harrison primarily worked at the Parts Galore
facility in West Warren, Michigan, but she also performed management
duties at other Parts Galore locations. Harrison deposition, R.23-2 at
33, PageID#226. Her job duties included overseeing the yard,
communicating with yard personnel about how many loads were going
to go out each day, communicating with the processing area and tow

For the sake of simplicity, we refer to the defendants collectively as
“Parts Galore.”

1

62a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 11

truck drivers, and engaging in public outreach efforts. Harrison
deposition, R.23-2 at 31, 35, PageID#224, 228. Harrison would go out
into the yard to make sure that the facility’s processing area was
running properly. Harrison deposition, R.23-2 at 37, PageID#230.
Harrison was also responsible for monitoring the perimeter of the
facility to guard against theft. Harrison deposition, R.23-2 at 37-38,
PageID#230-31. The West Warren facility covered between twenty-five
and twenty-seven acres, and theft was a big problem. Harrison
deposition, R.23-2 at 37-38, PageID#230-31. Harrison would patrol the
perimeter two to three times a day, as well as when the facility opened
in the morning and closed in the evening. Harrison deposition, R.23-2
at 45-46, PageID#238-39. Claiming safety concerns, Wild had long
maintained an unwritten policy prohibiting female employees from
walking out into the yard. Harrison deposition, R.23-2 at 37,
PageID#230. Accordingly, prior to 2015, when Harrison would go out
into the yard she would do so in a John Deere Gator (a small utility
vehicle). Harrison deposition, R.23-2 at 37-38, 42-43, PageID#230-31,
235-36.

63a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 12

In 2010, Harrison suffered an injury to her right knee, resulting in
a damaged meniscus and a torn ACL. Harrison deposition, R.23-2 at
17, 20-21, PageID#210, 213-14. While she underwent surgery to repair
the meniscus, she elected not to have the ACL repaired because doing
so would have required her to discontinue other medication she was
taking at the time. Harrison deposition, R.23-2 at 18, PageID#211. As
a result of the torn ACL, Harrison is unable to kneel on her right knee,
walk long distances, or walk over rocks, and she must use caution when
walking up an incline. Harrison deposition, R.23-2 at 22, PageID#215.
She is not otherwise limited by her knee. Harrison deposition, R.23-2 at
22, PageID#215. Harrison did not have any other physical limitations
that would adversely affect her ability to perform her job duties. 2
Harrison deposition, R.23-2 at 110, PageID#303.
In August 2014, Tony Murell became the Regional Manager for
Parts Galore. Harrison deposition, R.23-2 at 41, PageID#234. Wild
now reported to Murell; Harrison still reported to Wild. Harrison

Harrison asserted in her complaint that her “disabilities” are her torn
ACL and that she is “medically obese.” Complaint, R.1 at 3, PageID#3.
On summary judgment, however, Harrison made no argument that her
obesity constituted a disability under the ADA. See generally summary
judgment response, R.23, PageID#170-91.
2

64a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 13

deposition, R.23-2 at 41, PageID#234. Beginning in early 2015, Murell
changed the policy regarding use of the one John Deere Gator at each
Parts Galore location. Harrison deposition, R.23-2 at 42-43,
PageID#235-36. Previously, the Gator had been reserved exclusively
for the manager’s use, but Murell instructed the yard employees to use
the Gator to perform various yard duties, which meant it was in
constant use and unavailable to Harrison. Id. In response, Harrison
began using her own personal vehicle in place of the Gator. Harrison
deposition, R.23-2 at 43, PageID#236.
Another of Harrison’s job duties was to spot-check cars to ensure
that the crew had processed them fully and properly; for example, she
would check whether they had removed the jack and the catalytic
converter. Harrison deposition, R.23-2 at 59-60, 110, PageID#252-53,
303. Murell instituted a policy requiring the manager at each facility to
perform a spot-check on five cars each day. Harrison deposition, R.23-2
at 101, PageID#294. However, Harrison testified, Murell told her that
she did not need to do this duty herself every day; some days another
employee could do it for her. Harrison deposition, R.23-2 at 101-02,
PageID#294-95. Accordingly, Harrison did the spot-checks three days a

65a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 14

week, and the other employee did them the other two days. Harrison
deposition, R.23-2 at 102, PageID#295.
At some point, Harrison told Murell that the only job duty she
could not do was to kneel down and look underneath cars to ensure that
the catalytic converter had been removed. Harrison deposition, R.23-2
at 110, 129-30, PageID#303, 322-23. Harrison asked Murell if she could
purchase “a wheeled mirror like the state police use to inspect trucks”
to look under cars and confirm the catalytic converter had been
removed, and he agreed to the request. Harrison deposition, R.23-2 at
110, PageID#303, 322. Harrison never sought or required any other
accommodation from Parts Galore. Harrison deposition, R.23-2 at 149,
PageID#342.
Harrison testified that, on August 26, 2015, Murell told her
“they’ve decided that [her] employment is terminated because [she] can
no longer do [her] duties because [she] ha[s] a torn ACL.” Harrison
deposition, R.23-2 at 128, PageID#321. According to Harrison, when
she asked Murell, “what part of my job haven’t I done?,” he responded,
“you don’t go out and do the five car checklist.” Harrison deposition,
R.23-2 at 128-30, 146, PageID#321, 339. When Harrison reminded

66a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 15

Murell that he had told her another employee could do some of the
checks, Murell denied ever saying that. Harrison deposition, R.23-2 at
130, PageID#323.
Harrison filed suit, alleging that Parts Galore failed to reasonably
accommodate her disability and that it terminated her because of her
disability. Complaint, R.1 at 6, PageID#6. She asserted that she was
covered under the ADA both based on her actual disability and because
Parts Galore regarded her as disabled. Complaint, R.1 at 6, PageID#6.
Parts Galore moved for summary judgment, arguing that because
Harrison had admitted that she was employed by Ferrous Processing
and Trading Company, Soave Enterprises and Parts Galore were not
her employers for purposes of ADA liability. Summary Judgment
Motion, R.22 at 15, PageID#80. Parts Galore also argued that Harrison
was not disabled within the meaning of the ADA and that she had
neither requested, nor been denied, reasonable accommodation.
Summary Judgment Motion, R.22 at 15-19, PageID#80-84. Parts
Galore further argued that Harrison’s claim failed because she did not
present “medical evidence” showing either that she had an impairment

67a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 16

or that any such impairment substantially limited a major life activity.
Summary Judgment Reply, R.24 at 3-4, PageID#630-31.
B. District Court Decision
The district court granted summary judgment to Parts Galore.
Opinion and Order (“Order”), R.25 at 11, PageID#702. As an initial
matter, the court rejected Parts Galore’s argument that Harrison was
not its employee. Order, R.25 at 5-7, PageID#696-98. Relying on
Swallows v. Barnes & Noble Book Stores, Inc., 128 F.3d 990, 992-94 (6th
Cir. 1997), in which this Court described how multiple entities may be
considered a single employer for purposes of the ADA, the court
concluded that Harrison could be deemed an employee of Parts Galore
and Soave Enterprises. Order, R.25 at 5-7, PageID#696-98.
As for coverage under the ADA, the court recognized that
Harrison was only claiming one physical limitation—her inability to
kneel—and then rejected her argument that her knee impairment
constituted an actual disability. Order, R.25 at 8, PageID#699. The
court reached this conclusion based on its interpretation of Sixth Circuit
authority as holding that “‘no reasonable jury could find that [a] knee
injury substantially limits . . . any major life activity.’” Order, R.25 at 8,

68a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 17

PageID#699 (quoting Black v. Roadway Express, Inc., 297 F.3d 445, 450
(6th Cir. 2002)) (alteration by district court). The court further
reasoned that “[a]s in Black, . . . Plaintiff’s alleged inability to perform
certain tasks or functions on a repeated or prolonged basis is not
enough, as a matter of law, for [her] to meet the threshold requirement
of proving that [she] is disabled.” Order, R.25 at 8, PageID#699
(quoting 297 F.3d at 451) (internal quotation marks omitted). The court
did not address Parts Galore’s argument that Harrison had failed to
present “medical evidence” in support of actual-disability coverage. See
Order, R.25 at 7-9, PageID#698-700.
The court next rejected Harrison’s argument that Parts Galore
regarded her as disabled. Order, R.25 at 8, PageID#699. Stating that
her regarded-as argument was supported solely by the fact that Parts
Galore provided her a mirror when she requested one, the court
concluded that this act did not “per se” establish that Parts Galore
regarded her as disabled. Order, R.25 at 8, PageID#699. The court
added that, as provided in Talley v. Family Dollar Stores of Ohio, Inc.,
542 F.3d 1099, 1106 (6th Cir. 2008), for Harrison to establish regardedas coverage she was required to show either that: “(1) Defendants

69a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 18

mistakenly believed that she had an impairment limiting a major life
activity, or (2) Defendants mistakenly believed that an actual
impairment limited a major life activity.” Order, R.25 at 8 n.3,
PageID#699-700. Under this standard, the court concluded, while
Harrison was impaired by her torn ACL, Parts Galore was “neither
mistaken about this impairment nor believed it to limit a major life
activity.” Order, R.25 at 8 n.3, PageID#699-700. Therefore, the court
ruled, Harrison could not establish regarded-as coverage. Order, R.25
at 8 n.3, PageID#699-700.
Argument
I.

In evaluating whether Harrison had a disability within the
meaning of the ADA, the district court failed to apply the correct
standards for coverage under the amended statute.
In 2008, Congress amended the ADA to broaden the coverage

provided by the statute’s definition of “disability.” ADA Amendments
Act of 2008, Pub. L. No. 110-325, 122 Stat. 3553 (2008) (“ADAAA”)
(attached at Addendum A2); see also, e.g., Bailey v. Real Time Staffing
Servs., Inc., 543 F. App’x 520, 523 (6th Cir. 2013) (same). Congress
concluded that courts were defining “disability” too narrowly and as a
result the ADA, as applied, was not achieving its purpose of protecting

70a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 19

individuals with disabilities from discrimination. See generally 42
U.S.C. § 12101 note, Findings and Purposes, at § (a) (attached at
Addendum A10). Accordingly, Congress amended the statute “to carry
out the ADA’s objectives of providing ‘a clear and comprehensive
national mandate for the elimination of discrimination’ and ‘clear,
strong, consistent, enforceable standards addressing discrimination’ by
reinstating a broad scope of protection to be available under the ADA.”
42 U.S.C. § 12101 note, Findings and Purposes, at § (b)(1) (attached at
Addendum A11).
Post-amendment, the ADA continues to define “disability” to
include, in relevant part, “a physical or mental impairment that
substantially limits one or more major life activities of such individual”
and “being regarded as having such an impairment.” 42 U.S.C.
§§ 12102(1)(A) (“actual disability”), 12102(1)(C) (attached at Addendum
A12). However, Congress significantly altered the standards for each
type of coverage.
First, because “courts had previously too heavily focused their
inquiries on the question of coverage,” Congress specified that “the
question of whether an individual’s impairment is a disability under the

71a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 20

[post-amendment] ADA should not demand extensive analysis.” 42
U.S.C. § 12101 note, Findings and Purposes, at § (b)(5) (attached at
Addendum A11); see also 29 C.F.R. § 1630.2(j)(1)(iii) (same) (attached at
Addendum A15). Instead, “the primary object of attention in cases
brought under the ADA should be whether entities covered under the
ADA have complied with their obligations.” 42 U.S.C. § 12101 note,
Findings and Purposes, at § (b)(5) (attached at Addendum A11); see also
29 C.F.R. § 1630.2(j)(1)(iii) (same) (attached at Addendum A17).
Second, because courts had “created an inappropriately high level
of limitation necessary to obtain coverage under the ADA,” Congress
specified that the definition of disability “shall be construed in favor of
broad coverage of individuals.” 42 U.S.C. § 12102(4)(A) (attached at
Addendum A13); see also 29 C.F.R. § 1630.2(i)(2) (new ADA coverage
standards are “not . . . demanding”) (attached at Addendum A16);
Barlia v. MWI Veterinary Supply, Inc., 721 F. App’x 439, 445 (6th Cir.
2018) (recognizing ADAAA meant to ensure broad coverage). To
achieve this goal, Congress redefined several key terms, including
“substantial limitation,” “major life activity,” and “being regarded as
having such an impairment.” See ADAAA § 4 (attached at Addendum

72a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 21

A3-A5); 42 U.S.C. §§ 12102(2)(A)-(B), (3)(A)-(B), (4) (attached at
Addendum A12-A13); see also ADAAA at § 2(b)(6) (ordering EEOC to
revise its regulations accordingly) (attached at Addendum A3).3 These
new definitions greatly expand the scope of coverage provided by the
statute.
In this case, Harrison argues that she satisfies the ADA’s
definition of “disability” both because she has an impairment that
substantially limits a major life activity (§ 12102(1)(A)) and because
Parts Galore regarded her as having such an impairment
(§ 12102(1)(C)). In its coverage analysis, the district court made no
mention of the amended ADA’s coverage standards, instead relying on
the same outdated standards that Congress explicitly rejected with the
ADAAA. This was error.

In the ADAAA, Congress authorized the Commission to issue
regulations “implementing the definitions of disability in section 12102
of this title (including rules of construction).” 42 U.S.C. § 12205a
(attached at Addendum A14). See also Summers v. Altarum Inst.,
Corp., 740 F.3d 325, 331-33 (4th Cir. 2014) (affording deference under
Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837 (1984),
to the Commission’s regulations on the revised definition of disability).
3

73a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 22

A. The district court erroneously relied on outdated, pre-ADAAA
precedent in concluding that Harrison failed to adduce
sufficient evidence of an actual disability.
The district court concluded that Harrison could not establish
coverage under the first prong of the ADA’s definition of disability—
that she had “a physical or mental impairment that substantially limits
one or more major life activities of such individual.” Order, R.25 at 8,
PageID#699; see also 42 U.S.C. § 12102(1)(A) (attached at Addendum
A12). But the district court analyzed the question in a manner
inconsistent with the amended ADA, and relied on this Court’s decision
in Black, which predates and is likewise incompatible with that statute.
Under the proper standards, the evidence of Harrison’s medical
condition is sufficient to establish, for summary judgment purposes,
that her physical impairment satisfies the ADA’s definition of a
disability under § 12102(1)(A).
The amended statute now states that “a major life activity . . .
includes the operation of a major bodily function.” 42 U.S.C.
§ 12102(2)(B) (attached at Addendum A12). The revised regulations
define “major bodily function[s]” to include “musculoskeletal” functions.
29 C.F.R. § 1630.2(i)(1)(ii) (attached at Addendum A16). The

74a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 23

regulations also explain that “[i]n determining other examples of major
life activities, the term ‘major’ shall not be interpreted strictly to create
a demanding standard for disability.” 29 C.F.R. § 1630.2(i)(2) (attached
at Addendum A16) (citing ADAAA § 2(b)(4) (Findings and Purposes)).
“Whether an activity is a ‘major life activity’ is not determined by
reference to whether it is of ‘central importance to daily life.’” Id.
The amended ADA also revised and relaxed the standards for
establishing whether an impairment constitutes a substantial
limitation, providing that the “substantially limits” requirement “shall
be interpreted consistently with the findings and purposes of the
[ADAAA].” 42 U.S.C. § 12102(4)(B) (attached at Addendum A13); see
also 29 C.F.R. § 1630.2(j)(1)(i) (phrase “substantially limits” is to be
“construed broadly in terms of extensive coverage”) (attached at
Addendum A17).
Accordingly, Congress provided in the amended ADA that “[t]he
determination of whether an impairment substantially limits a major
life activity shall be made without regard to the ameliorative effects of
mitigating measures” such as equipment, mobility devices, assistive
technology, reasonable accommodations or auxiliary aids or services. 42

75a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 24

U.S.C. § 12102(4)(E)(i)(I), (II), (III) (attached at Addendum A13); see
also 29 C.F.R. § 1630.2(j)(1)(vi) (same) (attached at Addendum A17).
This was one of the principal concerns Congress had in its sights in
amending the ADA. See 42 U.S.C. § 12101 note, Findings and
Purposes, § (b)(2) (attached at Addendum A11).
The revised ADA regulations similarly provide that the term
“substantially limits” “shall be interpreted and applied to require a
degree of functional limitation that is lower than the standard for
‘substantially limits’ applied prior to the ADAAA.” 29 C.F.R.
§ 1630.2(j)(1)(iv) (attached at Addendum A17). Post-amendment, “[a]n
impairment need not prevent, or significantly or severely restrict, the
individual from performing a major life activity in order to be
considered substantially limiting.” 29 C.F.R. § 1630.2(j)(1)(ii) (attached
at Addendum A17). In addition, “[t]he comparison of an individual’s
performance of a major life activity to the performance of the same
major life activity by most people in the general population usually will
not require scientific, medical, or statistical analysis.” 29 C.F.R.
§ 1630.2(j)(1)(v) (attached at Addendum A17); see also Barlia, 721 F.
App’x at 446 (same).

76a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 25

In this case, as explained supra at p.5, Harrison presented
evidence that in 2010 she suffered an injury to her right knee, resulting
in a damaged meniscus and a torn ACL. Harrison deposition, R.23-2 at
17, 21-22, PageID#209, 213-14. Because she could not have her ACL
repaired, Harrison is unable to kneel on her right knee, walk long
distances, or walk over rocks, and she must use caution when walking
up an incline. Harrison deposition, R.23-2 at 22, PageID#215. Under
the amended ADA’s broadened standards for determining “major life
activity,” this evidence is sufficient to permit a reasonable fact-finder to
conclude that Harrison’s torn ACL qualifies as an impairment that
affects the major life activity of musculoskeletal function. This evidence
is also sufficient to satisfy the post-ADAAA relaxed standard for
“substantial limitation,” given that most people in the general
population are able to kneel, walk over rocks, and walk up inclines
without taking any particular caution. See 29 C.F.R. § 1630.2(j)
(discussing proper standard for assessing whether impairment
substantially limits a major life activity).
In holding otherwise, the district court made no mention of the
amended ADA. Instead, it relied exclusively on its own

77a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 26

misinterpretation of this Court’s pre-ADAAA Black decision. Order,
R.25 at 8, PageID#699. In Black, this Court affirmed a grant of
summary judgment on the grounds that the plaintiff had failed to show
his knee injury substantially limited him in any major life activity. 297
F.3d at 448-51. But Black, which was decided in 2002, relied heavily on
pre-ADAAA standards for establishing “major life activity” and
“substantial limitation”—including the standard in Toyota Motor
Manufacturing, Kentucky, Inc. v. Williams, 534 U.S. 184 (2002), that
Congress expressly rejected in the ADAAA. See id. at 449-51 & n.4-8
(citing authorities); 42 U.S.C. § 12101 note, Findings and Purposes, at
§ (b)(4)-(6) (including among purposes of ADAAA “to reject the
standards enunciated by the Supreme Court in Toyota Motor
Manufacturing” regarding the ADA’s requirements of substantial
limitation and major life activity, and to express Congress’ expectation
that the Commission will revise its regulations concerning substantial
limitation) (attached at Addendum A11). Accordingly, Black’s outdated
legal analysis has no bearing on whether Harrison presently may
demonstrate that she is disabled under the amended ADA.

78a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 27

The district court further erred by interpreting Black as
announcing a categorical rule precluding ADA coverage for knee
impairments. According to the court, in Black this Court “previously
affirmed that, although a knee injury constitutes a physical
impairment, ‘no reasonable jury could find that [a] knee injury
substantially limits . . . any major activity.’” Order, R.25 at 8,
PageID#6699) (quoting Black, 297 F.3d at 450) (alteration by district
court). But the district court misquoted Black; the passage in question,
unaltered, actually states that “[t]he district court found that although
Black’s knee injury constitutes a physical impairment, no reasonable
jury could find that the knee injury substantially limits Black in any
major life activity.” Black, 297 F.3d at 450 (emphasis added). In other
words, the quoted portion of Black was simply a reiteration of the
district court’s conclusion about the facts of that particular case. It was
not a categorical announcement by this Court precluding knee-injurybased ADA actions.

79a

Case: 19-1176

B.

Document: 18

Filed: 04/24/2019

Page: 28

The district court erred by holding that Harrison could
not satisfy the amended ADA’s regarded-as definition
of disability.

Prior to the ADAAA, to establish coverage under the “regarded-as”
prong of the ADA’s definition of disability, a plaintiff was required to
show that “(1) a covered entity mistakenly believes that [she] has a
physical impairment that substantially limits one or more major life
activities, or (2) a covered entity mistakenly believes that an actual,
nonlimiting impairment substantially limits one or more major life
activities.” Sutton v. United Air Lines, Inc., 527 U.S. 471, 489 (1999);
see also Talley, 542 F.3d at 1106 (same). “In both cases, it is necessary
that a covered entity entertain misperceptions about the individual—it
must believe either that one has a substantially limiting impairment
that one does not have or that one has a substantially limiting
impairment when, in fact, the impairment is not so limiting.” Sutton,
527 U.S. at 489; see also Talley, 542 F.3d at 1106 (same).
With the ADAAA, however, Congress expressly rejected the
Sutton standard for regarded-as coverage. See ADAAA at §§ 2(a)(4)
(finding that “the holdings of the Supreme Court in [Sutton] and its
companion cases have narrowed the broad scope of protection intended

80a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 29

to be offered by the ADA, thus eliminating protection for many
individuals whom Congress intended to protect”) (attached at
Addendum A2), 2(b)(3) (purpose of ADAAA included “reject[ing] the
Supreme Court’s reasoning in [Sutton] with regard to coverage under
the [regarded-as] prong of the definition of disability”) (attached at
Addendum A3).
Post-ADAAA, to establish regarded-as coverage a plaintiff need
only show that the employer took action against her because of an
actual or perceived impairment. The level of perceived limitation is
irrelevant. The definition for regarded-as coverage now provides that
“[a]n individual meets the requirement of ‘being regarded as having
such an impairment’ if the individual establishes that he or she has
been subjected to an action prohibited under this chapter because of an
actual or perceived physical or mental impairment whether or not the
impairment limits or is perceived to limit a major life activity.” 42
U.S.C. § 12102(3)(A) (emphasis added) (attached at Addendum A12); see
also 29 C.F.R. §§ 1620.2(j)(2) (same) (attached at Addendum A17),
1630.2(l)(1) (same) (attached at Addendum A20); Neely v. Benchmark
Family Servs., 640 F. App’x 429, 435 (6th Cir. 2016) (recognizing that

81a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 30

the ADAAA “redefine[d] ‘regarded as having an impairment’ only to
require that a defendant took a prohibited action based on a perceived
impairment, regardless of whether the employer thought the
impairment was substantially limiting”).
Here, Harrison’s evidence squarely meets the correct regarded-as
standard. She testified that on August 26, 2015, Murell informed her
that he was firing her because, as a result of her ACL injury, she could
not perform all her job duties—specifically because she was not
performing the five-car spot-checks. Harrison Deposition, R.23-2 at
128, 146, PageID#321, 339. Viewed in the light most favorable to
Harrison, as required on summary judgment, this evidence establishes
that Parts Galore subjected her to an action prohibited under the ADA
because of her actual or perceived impairment. 4 See also Baum v. Metro
Restoration Servs., Inc., No. 18-5699, 2019 WL 1569741, at *3 (6th Cir.

Under the amended ADA, the regarded-as theory of coverage may
serve as a basis for Harrison’s unlawful termination claim but not her
failure-to-accommodate claim. See 29 C.F.R. §§ 1630.2(l)(1) (attached at
Addendum A20) (including termination as an action prohibited under
the regarded-as definition of disability), 1630.9(e) (attached at
Addendum A21) (“A covered entity . . . is not required to provide a
reasonable accommodation to an individual who meets the definition of
disability solely under the ‘regarded as’ prong (§ 1630.2(g)(1)(iii)).”).
4

82a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 31

Apr. 11, 2019) (reversing summary judgment as to plaintiff’s ADA
regarded-as-disabled claim; plaintiff’s testimony that employer stated it
fired him because of his “health issues and doctor’s appointments” was
sufficient, if believed by the jury, to establish both coverage and
liability).
The district court reached the opposite conclusion by, again,
applying outdated standards the ADAAA rejected. See Order, R.25 at 8
n.3, PageID#699 (citing Talley, 542 F.3d at 1106, for the proposition
that, “[t]o prove that a plaintiff is regarded as disabled, she must either
show that: (1) Defendants mistakenly believed that she had an
impairment limiting a major life activity, or (2) Defendants mistakenly
believed that an actual impairment limited a major life activity”). In so
doing, the district court erred.
II.

The ADA does not require “medical evidence” to establish that an
impairment substantially limits one or more major life activities.
While the district court did not reach the issue in its summary

judgment ruling, Parts Galore argued that Harrison’s ADA claim
should be dismissed because she did not submit “medical evidence”
showing either that she has a torn ACL or that her condition
substantially limits a major life activity. Summary Judgment Reply,

83a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 32

R.24 at 6, PageID#630 (citing Neely, 640 F. App’x at 433; Minnix v. City
of Chillicothe, No. 98-4285, 2000 U.S. App. LEXIS 2099 (6th Cir. 2000);
Leader v. Venture Indus. Corp., No. 97-cv-76021, 1999 U.S. Dist. LEXIS
15947 (E.D. Mich. 1999). Parts Galore is incorrect. Post-ADAAA,
establishing that an individual has an impairment, and that such
impairment substantially limits a major life activity, does not usually
require “medical evidence.”
The post-ADAAA regulations provide that “[a]n impairment is a
disability within the meaning of this section if it substantially limits the
ability of an individual to perform a major life activity as compared to
most people in the general population.” 29 C.F.R. § 1630.2(j)(1)(ii)
(attached at Addendum A17). The regulations further clarify that for
purposes of determining whether an impairment substantially limits
the individual in a major life activity, “[t]he comparison of an
individual’s performance of a major life activity to the performance of
the same major life activity by most people in the general population
usually will not require scientific, medical, or statistical analysis.” 29
C.F.R. § 1630.2(j)(1)(v) (attached at Addendum A17) (emphasis added);
see also Barlia, 721 F. App’x at 446 (same). Parts Galore fails to

84a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 33

acknowledge the effect of this ADA regulation on its contention that
Harrison was required to present “medical evidence” to establish
substantial limitation.
Nor does any “medical evidence” requirement attach to the burden
of showing that the individual has an impairment. In relevant part, the
ADA regulations define an “impairment” as “[a]ny physiological
disorder or condition, cosmetic disfigurement, or anatomical loss
affecting one or more body systems, such as . . . musculoskeletal.” 29
C.F.R. § 1630.2(h).
Neither the statute nor the regulations impose a heightened
evidentiary burden upon plaintiffs to provide specific “medical evidence”
of their impairment. This is consistent with the stated purpose of the
ADAAA to counteract courts’ overly strict interpretations of the ADA’s
coverage requirements, and to clarify that “the question of whether an
individual’s impairment is a disability under the [post-amendment]
ADA should not demand extensive analysis.” 42 U.S.C. § 12101 note,
Findings and Purposes, at § (b)(5) (attached at Addendum A11). A
heightened requirement of “medical evidence” to show an impairment
would contradict Congress’ express intent. It would also conflict with

85a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 34

this Court’s recognition that a medical diagnosis is not categorically
necessary to establish an impairment in an ADA case.5 Neely, 640 F.
App’x at 435.
Parts Galore relied on Neely to support its assertion that “medical
evidence” is required, but that decision provides no such support. In
Neely, the plaintiff claimed to suffer from sleep apnea, but medical
testing had ruled out various physiological causes for his sleep problems
and did not yield a diagnosis of sleep apnea, and he had declined
further testing. Neely, 640 F. App’x at 433-34. It was against this
backdrop that this Court stated, “‘[w]hile a diagnosis might not be
absolutely necessary [to establish a record of impairment], in this
situation, some diagnosis must explain the duration or severity of the

In Baum, this Court reiterated that the amended ADA and its
implementing regulations “set a low bar for proving actual disability.”
No. 18-5699, 2019 WL 1569741, at *2 (6th Cir. Apr. 11, 2019); see also
id. (noting that “the substantial-limitation inquiry ‘usually will not
require scientific, medical, or statistical analysis’” (citing 29 C.F.R.
§ 1630.2(j)(1)(v))). This Court ruled that, due to the rarity and
complexity of the plaintiff’s heart condition and his medical records, an
expert witness was required to make that evidence understandable to a
jury. Id. at *2-*3. There is no suggestion in Baum that this Court
intended for the exception it permitted there to swallow the general rule
applicable to most ADA cases, including the common knee problems
Harrison experienced due to her torn ACL. See generally id.
5

86a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 35

impairment.’ We therefore hold that Neely’s self-described symptoms to
his physicians, without corroborating medical evidence or any diagnosis
are insufficient to establish a substantial limitation on a major life
activity.” Id. at 435 (emphasis added, internal citation omitted).
Accordingly, Neely does not stand for the proposition that an ADA
plaintiff’s testimony about her condition is inadequate to establish
impairment or substantial limitation. This is particularly so in cases
like this one, where Harrison provided detailed deposition testimony
regarding the cause of her injury giving rise to her impairment; her
discussions with her physician regarding the injury and the possibility
of surgery to repair the injury; her physical rehabilitation; and the longterm limitations the impairment causes for her. See Harrison
deposition, R.23-2 at 17-22, PageID#210-15.
The other cases cited by Parts Galore are inapposite, as they
predate and have been superseded by the amended ADA, and otherwise
do not support Parts Galore’s assertion that medical evidence is
required to show an impairment. See Minnix, 205 F.3d 1341, 2000 WL
191828 (pre-ADAAA); Leader, 1999 U.S. Dist. LEXIS 15947 (preADAAA).

87a

Case: 19-1176

III.

Document: 18

Filed: 04/24/2019

Page: 36

The district court applied the correct legal standard in
determining that Parts Galore and Soave Enterprises
were Harrison’s employer.
Parts Galore argued on summary judgment—without any citation

to supporting authority—that Harrison could not establish that Parts
Galore or Soave Enterprises was her employer, as a matter of law,
based on her “admi[ssion]” that she was employed by Ferrous
Processing and Trading Company. Summary Judgment Motion, R.22 at
15, PageID#80. The district court rejected Parts Galore’s minimalist
argument, recognizing that “[a]lthough [Harrison] testified that
[Ferrous Processing and Trading Company] was her employer,
companies can be so intertwined that they constitute a single
employer.” Order, R.25 at 5, PageID#696.
The district court applied the correct legal standard to the
employer liability question presented, following Swallows v. Barnes &
Noble Book Stores, Inc., 128 F.3d 990, 992-94 (6th Cir. 1997). Order,
R.25 at 5-7, PageID#696-98. Swallows is controlling authority in this
circuit on the question of how courts should determine whether multiple
entities constitute a single, “integrated enterprise” for purposes of
liability as an employer under the ADA. In Swallows, this Court

88a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 37

identified four factors courts should examine: “(1) interrelation of
operations, i.e., common offices, common record keeping, shared bank
accounts and equipment; (2) common management, common directors
and boards; (3) centralized control of labor relations and personnel; and
(4) common ownership and financial control.” 128 F.3d at 994 (citing
York v. Tenn. Crushed Stone Ass’n, 684 F.2d 360, 362 (6th Cir. 1982)).
While “[n]one of these factors is conclusive, and all four need not be met
in every case,” “control over labor relations is a central concern.” Id.
(citations omitted); see also Sanford v. Main St. Baptist Church Manor,
Inc., 449 F. App’x 488, 493 n.5, 495 (6th Cir. 2011) (recognizing
Swallows as controlling authority on the question of “single employer”
or “integrated enterprise” employer liability—terms used
interchangeably for the same doctrine, which is “analytically distinct”
from the “joint employer” doctrine). The question of which entities were
named in Harrison’s contract has no bearing on any of the Swallows
integrated enterprise factors, which focus on the relationship between
corporate entities. See Swallows, 128 F.3d at 994.

89a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 38

Conclusion
For the foregoing reasons, the EEOC respectfully requests that
this Court vacate the district court’s grant of summary judgment to the
defendants and remand the case for further proceedings.
Respectfully submitted,
JAMES L. LEE
Deputy General Counsel
JENNIFER S. GOLDSTEIN
Associate General Counsel
ELIZABETH E. THERAN
Assistant General Counsel
s/ James M. Tucker
JAMES M. TUCKER
Attorney
EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION
131 M St. NE, Rm. 5NW10P
Washington, D.C. 20507
(202) 663-4870
James.Tucker@EEOC.gov
Attorneys for amicus curiae
Equal Employment
Opportunity Commission

90a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 39

Certificate of Compliance
I hereby certify that the foregoing brief complies with the typevolume requirements set forth in Federal Rules of Appellate Procedure
29(a)(5) and 32(a)(7)(B), and Sixth Circuit Rule 32(b)(1). This brief
contains 5,677 words, from the Statement of Interest through the
Conclusion, as determined by the Microsoft Word 2016 word processing
program, with 14-point proportionally spaced type for text and 14-point
proportionally spaced type for footnotes.

s/ James M. Tucker
JAMES M. TUCKER
Attorney
EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION
Office of General Counsel
131 M St. NE, Rm. 5NW10P
Washington, D.C. 20507
(202) 663-4870
Email: James.Tucker@EEOC.gov
Attorney for amicus curiae
Equal Employment
Opportunity Commission

.

91a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 40

Certificate of Service
I hereby certify that on April 24, 2019, I electronically filed the
foregoing brief with the Clerk of the Court for the United States Court
of Appeals for the Sixth Circuit by using the Court’s CM/ECF system. I
certify that all participants in the case are registered CM/ECF users
and that service will be accomplished by the CM/ECF system.

s/ James M. Tucker
JAMES M. TUCKER
Attorney
EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION
Office of General Counsel
131 M St. NE, Rm. 5NW10P
Washington, D.C. 20507
(202) 663-4870
Email: James.Tucker@EEOC.gov
Attorney for amicus curiae
Equal Employment
Opportunity Commission

.

92a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 41

ADDENDUM

.

93a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 42

Designation of Relevant Documents
Record Entry #

Description

Page ID #

R.1

Complaint

1-9

R.22

Summary Judgment motion

66-86

R.23

Summary Judgment response

170-192

R.23-2

Harrison deposition

194-370

R.23-4

Murell deposition

427-528

R.24

Summary Judgment reply

625-635

R.25

Opinion and Order

692-703

R.27

Notice of Appeal

706-707

.

94a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 43

PL 110–325, 2008 S 3406
PL 110–325, September 25, 2008, 122 Stat 3553

Page 1

PL 110–325, September 25, 2008, 122 Stat 3553
UNITED STATES PUBLIC LAWS
110th Congress - Second Session
Convening January 04, 2008
Additions and Deletions are not identified in this database.
Vetoed provisions within tabular material are not displayed
PL 110–325 (S 3406)
September 25, 2008
ADA AMENDMENTS ACT OF 2008
An Act To restore the intent and protections of the Americans with Disabilities Act of 1990.
Be it enacted by the Senate and House of Representatives of the United States of America in Congress
assembled,
<< 42 USCA § 12101 NOTE >>
SECTION 1. SHORT TITLE.
This Act may be cited as the “ADA Amendments Act of 2008”.
<< 42 USCA § 12101 NOTE >>
SEC. 2. FINDINGS AND PURPOSES.
(a) FINDINGS.—Congress finds that—
(1) in enacting the Americans with Disabilities Act of 1990 (ADA), Congress intended that the Act “provide a
clear and comprehensive national mandate for the elimination of discrimination against individuals with
disabilities” and provide broad coverage;
(2) in enacting the ADA, Congress recognized that physical and mental disabilities in no way diminish a
person's right to fully participate in all aspects of society, but that people with physical or mental disabilities are
frequently precluded from doing so because of prejudice, antiquated attitudes, or the failure to remove societal
and institutional barriers;
(3) while Congress expected that the definition of disability under the ADA would be interpreted consistently
with how courts had applied the definition of a handicapped individual under the Rehabilitation Act of 1973,
that expectation has not been fulfilled;
(4) the holdings of the Supreme Court in Sutton v. United Air Lines, Inc., 527 U.S. 471 (1999) and its
companion cases have narrowed the broad scope of protection intended to be afforded by the ADA, thus
eliminating protection for many individuals whom Congress intended to protect;
(5) the holding of the Supreme Court in Toyota Motor Manufacturing, Kentucky, Inc. v. Williams, 534 U.S. 184
(2002) further narrowed the broad scope of protection intended to be afforded by the ADA;
(6) as a result of these Supreme Court cases, lower courts have incorrectly found in individual cases that people

© 2014 Thomson Reuters. No Claim to Orig. US Gov. Works.

95a

Document:
PL 110–325, 2008Case:
S 3406 19-1176
PL 110–325, September 25, 2008, 122 Stat 3553

18

Filed: 04/24/2019

Page: 44

Page 2

with a range of substantially limiting impairments are not people with disabilities;
(7) in particular, the Supreme Court, in the case of Toyota Motor Manufacturing, Kentucky, Inc. v. Williams,
534 U.S. 184 (2002), interpreted the term “substantially limits” to require a greater degree of limitation than was
intended by Congress; and
(8) Congress finds that the current Equal Employment Opportunity Commission ADA regulations defining the
term “substantially limits” as “significantly restricted” are inconsistent with congressional intent, by expressing
too high a standard.
(b) PURPOSES.—The purposes of this Act are—
(1) to carry out the ADA's objectives of providing “a clear and comprehensive national mandate for the
elimination of discrimination” and “clear, strong, consistent, enforceable standards addressing discrimination”
by reinstating a broad scope of protection to be available under the ADA;
(2) to reject the requirement enunciated by the Supreme Court in Sutton v. United Air Lines, Inc., 527 U.S. 471
(1999) and its companion cases that whether an impairment substantially limits a major life activity is to be
determined with reference to the ameliorative effects of mitigating measures;
(3) to reject the Supreme Court's reasoning in Sutton v. United Air Lines, Inc., 527 U.S. 471 (1999) with regard
to coverage under the third prong of the definition of disability and to reinstate the reasoning of the Supreme
Court in School Board of Nassau County v. Arline, 480 U.S. 273 (1987) which set forth a broad view of the
third prong of the definition of handicap under the Rehabilitation Act of 1973;
(4) to reject the standards enunciated by the Supreme Court in Toyota Motor Manufacturing, Kentucky, Inc. v.
Williams, 534 U.S. 184 (2002), that the terms “substantially” and “major” in the definition of disability under
the ADA “need to be interpreted strictly to create a demanding standard for qualifying as disabled,” and that to
be substantially limited in performing a major life activity under the ADA “an individual must have an
impairment that prevents or severely restricts the individual from doing activities that are of central importance
to most people's daily lives”;
(5) to convey congressional intent that the standard created by the Supreme Court in the case of Toyota Motor
Manufacturing, Kentucky, Inc. v. Williams, 534 U.S. 184 (2002) for “substantially limits”, and applied by lower
courts in numerous decisions, has created an inappropriately high level of limitation necessary to obtain
coverage under the ADA, to convey that it is the intent of Congress that the primary object of attention in cases
brought under the ADA should be whether entities covered under the ADA have complied with their obligations,
and to convey that the question of whether an individual's impairment is a disability under the ADA should not
demand extensive analysis; and
(6) to express Congress' expectation that the Equal Employment Opportunity Commission will revise that
portion of its current regulations that defines the term “substantially limits” as “significantly restricted” to be
consistent with this Act, including the amendments made by this Act.
SEC. 3. CODIFIED FINDINGS.
Section 2(a) of the Americans with Disabilities Act of 1990 (42 U.S.C. 12101) is amended—
<< 42 USCA § 12101 >>
(1) by amending paragraph (1) to read as follows:
“(1) physical or mental disabilities in no way diminish a person's right to fully participate in all aspects of
society, yet many people with physical or mental disabilities have been precluded from doing so because of
discrimination; others who have a record of a disability or are regarded as having a disability also have been

© 2014 Thomson Reuters. No Claim to Orig. US Gov. Works.

96a

Document:
PL 110–325, 2008Case:
S 3406 19-1176
PL 110–325, September 25, 2008, 122 Stat 3553

18

Filed: 04/24/2019

Page: 45

Page 3

subjected to discrimination;”;
<< 42 USCA § 12101 >>
(2) by striking paragraph (7); and
<< 42 USCA § 12101 >>
(3) by redesignating paragraphs (8) and (9) as paragraphs (7) and (8), respectively.
SEC. 4. DISABILITY DEFINED AND RULES OF CONSTRUCTION.
<< 42 USCA § 12102 >>
(a) DEFINITION OF DISABILITY.—Section 3 of the Americans with Disabilities Act of 1990 (42 U.S.C.
12102) is amended to read as follows:
“SEC. 3. DEFINITION OF DISABILITY.
“As used in this Act:
“(1) DISABILITY.—The term ‘disability’ means, with respect to an individual—
“(A) a physical or mental impairment that substantially limits one or more major life activities of such
individual;
“(B) a record of such an impairment; or
“(C) being regarded as having such an impairment (as described in paragraph (3)).
“(2) MAJOR LIFE ACTIVITIES.—
“(A) IN GENERAL.—For purposes of paragraph (1), major life activities include, but are not limited to, caring
for oneself, performing manual tasks, seeing, hearing, eating, sleeping, walking, standing, lifting, bending,
speaking, breathing, learning, reading, concentrating, thinking, communicating, and working.
“(B) MAJOR BODILY FUNCTIONS.—For purposes of paragraph (1), a major life activity also includes the
operation of a major bodily function, including but not limited to, functions of the immune system, normal cell
growth, digestive, bowel, bladder, neurological, brain, respiratory, circulatory, endocrine, and reproductive
functions.
“(3) REGARDED AS HAVING SUCH AN IMPAIRMENT.—For purposes of paragraph (1)(C):
“(A) An individual meets the requirement of ‘being regarded as having such an impairment’ if the individual
establishes that he or she has been subjected to an action prohibited under this Act because of an actual or
perceived physical or mental impairment whether or not the impairment limits or is perceived to limit a major
life activity.
“(B) Paragraph (1)(C) shall not apply to impairments that are transitory and minor. A transitory impairment is an
impairment with an actual or expected duration of 6 months or less.
“(4) RULES OF CONSTRUCTION REGARDING THE DEFINITION OF DISABILITY.—The definition of
‘disability’ in paragraph (1) shall be construed in accordance with the following:
“(A) The definition of disability in this Act shall be construed in favor of broad coverage of individuals under
this Act, to the maximum extent permitted by the terms of this Act.
“(B) The term ‘substantially limits' shall be interpreted consistently with the findings and purposes of the ADA
Amendments Act of 2008.
“(C) An impairment that substantially limits one major life activity need not limit other major life activities in

© 2014 Thomson Reuters. No Claim to Orig. US Gov. Works.

97a

Document:
PL 110–325, 2008Case:
S 3406 19-1176
PL 110–325, September 25, 2008, 122 Stat 3553

18

Filed: 04/24/2019

Page: 46

Page 4

order to be considered a disability.
“(D) An impairment that is episodic or in remission is a disability if it would substantially limit a major life
activity when active.
“(E)(i) The determination of whether an impairment substantially limits a major life activity shall be made
without regard to the ameliorative effects of mitigating measures such as—
“(I) medication, medical supplies, equipment, or appliances, low-vision devices (which do not include ordinary
eyeglasses or contact lenses), prosthetics including limbs and devices, hearing aids and cochlear implants or
other implantable hearing devices, mobility devices, or oxygen therapy equipment and supplies;
“(II) use of assistive technology;
“(III) reasonable accommodations or auxiliary aids or services; or
“(IV) learned behavioral or adaptive neurological modifications.
“(ii) The ameliorative effects of the mitigating measures of ordinary eyeglasses or contact lenses shall be
considered in determining whether an impairment substantially limits a major life activity.
“(iii) As used in this subparagraph—
“(I) the term ‘ordinary eyeglasses or contact lenses' means lenses that are intended to fully correct visual acuity
or eliminate refractive error; and
“(II) the term ‘low-vision devices' means devices that magnify, enhance, or otherwise augment a visual image.”.
<< 42 USCA § 12103 >>
(b) CONFORMING AMENDMENT.—The Americans with Disabilities Act of 1990 (42 U.S.C. 12101 et seq.)
is further amended by adding after section 3 the following:
“SEC. 4. ADDITIONAL DEFINITIONS.
“As used in this Act:
“(1) AUXILIARY AIDS AND SERVICES.—The term ‘auxiliary aids and services' includes—
“(A) qualified interpreters or other effective methods of making aurally delivered materials available to
individuals with hearing impairments;
“(B) qualified readers, taped texts, or other effective methods of making visually delivered materials available to
individuals with visual impairments;
“(C) acquisition or modification of equipment or devices; and
“(D) other similar services and actions.
“(2) STATE.—The term ‘State’ means each of the several States, the District of Columbia, the Commonwealth
of Puerto Rico, Guam, American Samoa, the Virgin Islands of the United States, the Trust Territory of the
Pacific Islands, and the Commonwealth of the Northern Mariana Islands.”.
(c) AMENDMENT TO THE TABLE OF CONTENTS.—The table of contents contained in section 1(b) of the
Americans with Disabilities Act of 1990 is amended by striking the item relating to section 3 and inserting the
following items:
“Sec. 3. Definition of disability.
“Sec. 4. Additional definitions.”.
SEC. 5. DISCRIMINATION ON THE BASIS OF DISABILITY.
(a) ON THE BASIS OF DISABILITY.—Section 102 of the Americans with Disabilities Act of 1990 (42 U.S.C.
12112) is amended—

© 2014 Thomson Reuters. No Claim to Orig. US Gov. Works.

98a

Document:
PL 110–325, 2008Case:
S 3406 19-1176
PL 110–325, September 25, 2008, 122 Stat 3553

18

Filed: 04/24/2019

Page: 47

Page 5

<< 42 USCA § 12112 >>
(1) in subsection (a), by striking “with a disability because of the disability of such individual” and inserting “on
the basis of disability”; and
<< 42 USCA § 12112 >>
(2) in subsection (b) in the matter preceding paragraph (1), by striking “discriminate” and inserting
“discriminate against a qualified individual on the basis of disability”.
<< 42 USCA § 12113 >>
(b) QUALIFICATION STANDARDS AND TESTS RELATED TO UNCORRECTED VISION.—Section 103
of the Americans with Disabilities Act of 1990 (42 U.S.C. 12113) is amended by redesignating subsections (c)
and (d) as subsections (d) and (e), respectively, and inserting after subsection (b) the following new subsection:
“(c)
QUALIFICATION
STANDARDS
AND
TESTS
RELATED
TO
UNCORRECTED
VISION.—Notwithstanding section 3(4)(E)(ii), a covered entity shall not use qualification standards,
employment tests, or other selection criteria based on an individual's uncorrected vision unless the standard, test,
or other selection criteria, as used by the covered entity, is shown to be job-related for the position in question
and consistent with business necessity.”.
(c) CONFORMING AMENDMENTS.—
<< 42 USCA § 12111 >>
(1) Section 101(8) of the Americans with Disabilities Act of 1990 (42 U.S.C. 12111(8)) is amended—
(A) in the paragraph heading, by striking “WITH A DISABILITY”; and
(B) by striking “with a disability” after “individual” both places it appears.
<< 42 USCA § 12114 >>
(2) Section 104(a) of the Americans with Disabilities Act of 1990 (42 U.S.C. 12114(a)) is amended by striking
“the term ‘qualified individual with a disability’ shall” and inserting “a qualified individual with a disability
shall”.
SEC. 6. RULES OF CONSTRUCTION.
(a) Title V of the Americans with Disabilities Act of 1990 (42 U.S.C. 12201 et seq.) is amended—
<< 42 USCA § 12201 >>
(1) by adding at the end of section 501 the following:
“(e) BENEFITS UNDER STATE WORKER'S COMPENSATION LAWS.—Nothing in this Act alters the
standards for determining eligibility for benefits under State worker's compensation laws or under State and
Federal disability benefit programs.
“(f) FUNDAMENTAL ALTERATION.—Nothing in this Act alters the provision of section 302(b)(2)(A)(ii),
specifying that reasonable modifications in policies, practices, or procedures shall be required, unless an entity
can demonstrate that making such modifications in policies, practices, or procedures, including academic
requirements in postsecondary education, would fundamentally alter the nature of the goods, services, facilities,

© 2014 Thomson Reuters. No Claim to Orig. US Gov. Works.

99a

Document:
PL 110–325, 2008Case:
S 3406 19-1176
PL 110–325, September 25, 2008, 122 Stat 3553

18

Filed: 04/24/2019

Page: 48

Page 6

privileges, advantages, or accommodations involved.
“(g) CLAIMS OF NO DISABILITY.—Nothing in this Act shall provide the basis for a claim by an individual
without a disability that the individual was subject to discrimination because of the individual's lack of
disability.
“(h) REASONABLE ACCOMMODATIONS AND MODIFICATIONS.—A covered entity under title I, a public
entity under title II, and any person who owns, leases (or leases to), or operates a place of public accommodation
under title III, need not provide a reasonable accommodation or a reasonable modification to policies, practices,
or procedures to an individual who meets the definition of disability in section 3(1) solely under subparagraph
(C) of such section.”;
<< 42 USCA § 12205a >>
<< 42 USCA §§ 12206, 12207, 12208, 12209, 12210, 12211, 12212, 12213 >>
(2) by redesignating section 506 through 514 as sections 507 through 515, respectively, and adding after section
505 the following:
“SEC. 506. RULE OF CONSTRUCTION REGARDING REGULATORY AUTHORITY.
“The authority to issue regulations granted to the Equal Employment Opportunity Commission, the Attorney
General, and the Secretary of Transportation under this Act includes the authority to issue regulations
implementing the definitions of disability in section 3 (including rules of construction) and the definitions in
section 4, consistent with the ADA Amendments Act of 2008.”; and
<< 42 USCA § 12210 >>
(3) in section 511 (as redesignated by paragraph (2)) (42 U.S.C. 12211), in subsection (c), by striking
“511(b)(3)” and inserting “512(b)(3)”.
(b) The table of contents contained in section 1(b) of the Americans with Disabilities Act of 1990 is amended by
redesignating the items relating to sections 506 through 514 as the items relating to sections 507 through 515,
respectively, and by inserting after the item relating to section 505 the following new item:
“Sec. 506. Rule of construction regarding regulatory authority.”.
SEC. 7. CONFORMING AMENDMENTS.
Section 7 of the Rehabilitation Act of 1973 (29 U.S.C. 705) is amended—
<< 29 USCA § 705 >>
(1) in paragraph (9)(B), by striking “a physical” and all that follows through “major life activities”, and inserting
“the meaning given it in section 3 of the Americans with Disabilities Act of 1990 (42 U.S.C. 12102)”; and
<< 29 USCA § 705 >>
(2) in paragraph (20)(B), by striking “any person who” and all that follows through the period at the end, and
inserting “any person who has a disability as defined in section 3 of the Americans with Disabilities Act of 1990
(42 U.S.C. 12102).”.

© 2014 Thomson Reuters. No Claim to Orig. US Gov. Works.

100a

Document:
PL 110–325, 2008Case:
S 3406 19-1176
PL 110–325, September 25, 2008, 122 Stat 3553

18

Filed: 04/24/2019

Page: 49

<< 29 USCA § 705 NOTE >>
SEC. 8. EFFECTIVE DATE.
This Act and the amendments made by this Act shall become effective on January 1, 2009.
Approved September 25, 2008.
LEGISLATIVE HISTORY—S. 3406:
CONGRESSIONAL RECORD, Vol. 154 (2008):
Sept. 11, considered and passed Senate.
Sept. 17, considered and passed House.
PL 110–325, 2008 S 3406
PL 110–325, 2008 S 3406
END OF DOCUMENT

© 2014 Thomson Reuters. No Claim to Orig. US Gov. Works.

101a

Page 7

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 50

42 U.S.C.A. § 12101
§ 12101. Findings and purpose
Effective: January 1, 2009
....
HISTORICAL AND STATUTORY NOTES
Revision Notes and Legislative Reports
1990 Acts. House Report No. 101-485 (Parts I to IV), House Conference Report No. 101-596 , and Statement
by President, see 1990 U.S. Code Cong. and Adm. News, p. 267.
References in Text
This “chapter”, referred to in subsec. (b), was in the original this “Act”, meaning Pub.L. 101-336 , July 26,
1990, 104 Stat. 327, which enacted this chapter and section 225 of Title 47, and amended section 706 of Title 29,
and sections 152, 221, and 611 of Title 47. For complete classification of this Act to the Code, see Short Title of
1990 Acts note set out under this section and Tables.
Amendments
2008 Amendments. Subsec. (a)(1).
Pub.L. 110-325 , § 3(1), rewrote subsec. (a)(1), which formerly read:
“some 43,000,000 Americans have one or more physical or mental disabilities, and this number is increasing as
the population as a whole is growing older;”.
Subsec. (a)(7) to (a)(9).
Pub.L. 110-325 , § 3(2), (3), struck out par. (7) and redesignated former pars. (8)
and (9) as pars. (7) and (8), respectively. Prior to deletion, par. (7) read: “individuals with disabilities are a
discrete and insular minority who have been faced with restrictions and limitations, subjected to a history of
purposeful unequal treatment, and relegated to a position of political powerlessness in our society, based on
characteristics that are beyond the control of such individuals and resulting from stereotypic assumptions not
truly indicative of the individual ability of such individuals to participate in, and contribute to, society;”.
Effective and Applicability Provisions
2008 Acts. Pub.L. 110-325 and the amendments made by such Act shall take effect on Jan. 1, 2009, see
Pub.L. 110-325 , § 8, set out as an Effective and Applicability Provisions note under 29 U.S.C.A. § 705 .
Short Title
2008 Acts. Pub.L. 110-325 , § 1, Sept. 25, 2008, 122 Stat. 3553, provided that: “This Act [enacting 42
U.S.C.A. §§ 12103 , and 12205a , amending 29 U.S.C.A. § 705 , and 42 U.S.C.A. §§ 12101 , 12102 ,
12111 to 12114 , 12201 , and 12210 , redesignating 42 U.S.C.A. §§ 12206 to 12213 , and
enacting provisions set out as a note under this section, and 29 U.S.C.A. § 705 ] may be cited as the ‘ADA
Amendments Act of 2008’. ”
1990 Acts. Section 1(a) of Pub.L. 101-336 provided that: “This Act [enacting this chapter and section 225 of
Title 47, amending section 706 of Title 29, Labor, and sections 152, 221, and 611 of Title 47, and enacting
provisions set out as notes under sections 12111, 12131, 12141, 12161, and 12181 of this title] may be cited as the
‘Americans with Disabilities Act of 1990’. ”
.

102a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 51

Study by General Accounting Office [now Government Accountability Office] of Existing
Disability-Related Employment Incentives
Pub.L. 106-170, Title III, § 303(a) , Dec. 17, 1999, 113 Stat. 1903, provided that:
“(1) Study. --As soon as practicable after the date of the enactment of this Act [Dec. 17, 1999], the Comptroller
General of the United States shall undertake a study to assess existing tax credits and other disability-related
employment incentives under the Americans with Disabilities Act of 1990 ( 42 U.S.C. 12101 et seq. ) and other
Federal laws. In such study, the Comptroller General shall specifically address the extent to which such credits
and other incentives would encourage employers to hire and retain individuals with disabilities.
“(2) Report. --Not later than 3 years after the date of the enactment of this Act [Dec. 17, 1999], the Comptroller
General shall transmit to the Committee on Ways and Means of the House of Representatives and the Committee
on Finance of the Senate a written report presenting the results of the Comptroller General’s study conducted
pursuant to this subsection, together with such recommendations for legislative or administrative changes as the
Comptroller General determines are appropriate.”
Findings and Purposes
Pub.L. 110-325 , § 2, Sept. 25, 2008, 122 Stat. 3553, provided that:
“(a) Findings. --Congress finds that-“(1) in enacting the Americans with Disabilities Act of 1990 (ADA) [ Pub.L. 101-336 , July 26, 1990, 104 Stat.
327, which enacted this chapter and 47 U.S.C.A. § 225 , amended 29 U.S.C.A. § 706 , and 47 U.S.C.A.
§§ 152 , 221 , and 611 ; for complete classification, see Short Title note set out under this section and
Tables], Congress intended that the Act [this chapter] ‘provide a clear and comprehensive national mandate for
the elimination of discrimination against individuals with disabilities’ and provide broad coverage;
“(2) in enacting the ADA, Congress recognized that physical and mental disabilities in no way diminish a
person’s right to fully participate in all aspects of society, but that people with physical or mental disabilities are
frequently precluded from doing so because of prejudice, antiquated attitudes, or the failure to remove societal
and institutional barriers;
“(3) while Congress expected that the definition of disability under the ADA would be interpreted consistently
with how courts had applied the definition of a handicapped individual under the Rehabilitation Act of 1973 [
Pub.L. 93-112 , Sept. 26, 1973, 87 Stat. 355, which is principally classified to chapter 16 of Title 29, 29 U.S.C.A.
§ 701 et seq. ; for complete classification, see Short Title note set out under 29 U.S.C.A. § 701 and Tables],
that expectation has not been fulfilled;
“(4) the holdings of the Supreme Court in Sutton v. United Air Lines, Inc., 527 U.S. 471 (1999) and its
companion cases have narrowed the broad scope of protection intended to be afforded by the ADA, thus
eliminating protection for many individuals whom Congress intended to protect;
“(5) the holding of the Supreme Court in Toyota Motor Manufacturing, Kentucky, Inc. v. Williams, 534 U.S.
184 (2002) further narrowed the broad scope of protection intended to be afforded by the ADA;
“(6) as a result of these Supreme Court cases, lower courts have incorrectly found in individual cases that people
with a range of substantially limiting impairments are not people with disabilities;
“(7) in particular, the Supreme Court, in the case of Toyota Motor Manufacturing, Kentucky, Inc. v. Williams,
534 U.S. 184 (2002) , interpreted the term ‘substantially limits’ to require a greater degree of limitation than was
intended by Congress; and
.

103a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 52

“(8) Congress finds that the current Equal Employment Opportunity Commission ADA regulations defining the
term ‘substantially limits’ as ‘significantly restricted’ are inconsistent with congressional intent, by expressing too
high a standard.
“(b) Purposes. --The purposes of this Act [ADA Amendments Act of 2008, Pub.L. 110-325 , Sept. 25, 2008,
122 Stat. 3553, enacting 42 U.S.C.A. §§ 12103 and 12205a , amending this section, and 29 U.S.C.A. §
705 , 42 U.S.C.A. §§ 12102 , 12111 to 12114 , 12201 , and 12210 , redesignating 42 U.S.C.A.
§§ 12206 to 12213 , and enacting provisions set out as notes under this section and 29 U.S.C.A. § 705 ]
are-“(1) to carry out the ADA’s objectives of providing ‘a clear and comprehensive national mandate for the
elimination of discrimination’ and ‘clear, strong, consistent, enforceable standards addressing discrimination’ by
reinstating a broad scope of protection to be available under the ADA;
“(2) to reject the requirement enunciated by the Supreme Court in Sutton v. United Air Lines, Inc., 527 U.S.
471 (1999) and its companion cases that whether an impairment substantially limits a major life activity is to be
determined with reference to the ameliorative effects of mitigating measures;
“(3) to reject the Supreme Court’s reasoning in Sutton v. United Air Lines, Inc., 527 U.S. 471 (1999) with
regard to coverage under the third prong of the definition of disability and to reinstate the reasoning of the
Supreme Court in School Board of Nassau County v. Arline, 480 U.S. 273 (1987) which set forth a broad view
of the third prong of the definition of handicap under the Rehabilitation Act of 1973;
“(4) to reject the standards enunciated by the Supreme Court in Toyota Motor Manufacturing, Kentucky, Inc.
v. Williams, 534 U.S. 184 (2002) , that the terms ‘substantially’ and ‘major’ in the definition of disability under
the ADA ‘need to be interpreted strictly to create a demanding standard for qualifying as disabled,’ and that to be
substantially limited in performing a major life activity under the ADA ‘an individual must have an impairment
that prevents or severely restricts the individual from doing activities that are of central importance to most
people’s daily lives’;
“(5) to convey congressional intent that the standard created by the Supreme Court in the case of Toyota
Motor Manufacturing, Kentucky, Inc. v. Williams, 534 U.S. 184 (2002) for ‘substantially limits”, and applied by
lower courts in numerous decisions, has created an inappropriately high level of limitation necessary to obtain
coverage under the ADA, to convey that it is the intent of Congress that the primary object of attention in cases
brought under the ADA should be whether entities covered under the ADA have complied with their obligations,
and to convey that the question of whether an individual’s impairment is a disability under the ADA should not
demand extensive analysis; and
“(6) to express Congress’ expectation that the Equal Employment Opportunity Commission will revise that
portion of its current regulations that defines the term ‘substantially limits’ as ‘significantly restricted’ to be
consistent with this Act, including the amendments made by this Act [ADA Amendments Act of 2008, Pub.L.
110-325 , Sept. 25, 2008, 122 Stat. 3553, enacting 42 U.S.C.A. §§ 12103 and 12205a , amending this
section, and 29 U.S.C.A. § 705 , 42 U.S.C.A. §§ 12102 , 12111 to 12114 , 12201 , and 12210 ,
redesignating 42 U.S.C.A. §§ 12206 to 12213 , and enacting provisions set out as notes under this section
and 29 U.S.C.A. § 705 ]. ”
[ Pub.L. 110-325 and the amendments made by such Act shall take effect on Jan. 1, 2009, see Pub.L.
110-325 , § 8, set out as an Effective and Applicability Provisions note under 29 U.S.C.A. § 705 .]

.

104a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 53

42 U.S.C.A. § 12102
§ 12102. Definition of disability
Effective: January 1, 2009
As used in this chapter:
(1) Disability
The term “disability” means, with respect to an individual-(A) a physical or mental impairment that substantially limits one or more major life activities of such individual;
(B) a record of such an impairment; or
(C) being regarded as having such an impairment (as described in paragraph (3)).
(2) Major life activities
(A) In general
For purposes of paragraph (1), major life activities include, but are not limited to, caring for oneself, performing manual
tasks, seeing, hearing, eating, sleeping, walking, standing, lifting, bending, speaking, breathing, learning, reading,
concentrating, thinking, communicating, and working.
(B) Major bodily functions
For purposes of paragraph (1), a major life activity also includes the operation of a major bodily function, including but
not limited to, functions of the immune system, normal cell growth, digestive, bowel, bladder, neurological, brain,
respiratory, circulatory, endocrine, and reproductive functions.
(3) Regarded as having such an impairment
For purposes of paragraph (1)(C):
(A) An individual meets the requirement of “being regarded as having such an impairment” if the individual establishes
that he or she has been subjected to an action prohibited under this chapter because of an actual or perceived physical or
mental impairment whether or not the impairment limits or is perceived to limit a major life activity.
(B) Paragraph (1)(C) shall not apply to impairments that are transitory and minor. A transitory impairment is an
impairment with an actual or expected duration of 6 months or less.

.

105a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 54

(4) Rules of construction regarding the definition of disability
The definition of “disability” in paragraph (1) shall be construed in accordance with the following:
(A) The definition of disability in this chapter shall be construed in favor of broad coverage of individuals under this
chapter, to the maximum extent permitted by the terms of this chapter.
(B) The term “substantially limits” shall be interpreted consistently with the findings and purposes of the ADA
Amendments Act of 2008.
(C) An impairment that substantially limits one major life activity need not limit other major life activities in order to be
considered a disability.
(D) An impairment that is episodic or in remission is a disability if it would substantially limit a major life activity when
active.

(E)(i) The determination of whether an impairment substantially limits a major life activity shall be made without regard
to the ameliorative effects of mitigating measures such as-(I) medication, medical supplies, equipment, or appliances, low-vision devices (which do not include ordinary
eyeglasses or contact lenses), prosthetics including limbs and devices, hearing aids and cochlear implants or other
implantable hearing devices, mobility devices, or oxygen therapy equipment and supplies;
(II) use of assistive technology;
(III) reasonable accommodations or auxiliary aids or services; or
(IV) learned behavioral or adaptive neurological modifications.
(ii) The ameliorative effects of the mitigating measures of ordinary eyeglasses or contact lenses shall be considered in
determining whether an impairment substantially limits a major life activity.
(iii) As used in this subparagraph-(I) the term “ordinary eyeglasses or contact lenses” means lenses that are intended to fully correct visual acuity or
eliminate refractive error; and
(II) the term “low-vision devices” means devices that magnify, enhance, or otherwise augment a visual image.

.

106a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 55

42 U.S.C.A. § 12205a

§ 12205a. Rule of construction regarding regulatory authority
The authority to issue regulations granted to the Equal Employment Opportunity Commission, the
Attorney General, and the Secretary of Transportation under this chapter includes the authority to issue
regulations implementing the definitions of disability in section 12102 of this title (including rules of
construction) and the definitions in section 12103 of this title, consistent with the ADA Amendments Act
of 2008.

.

107a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 56

29 C.F.R. § 1630.2
§ 1630.2 Definitions.
(a) Commission means the Equal Employment Opportunity Commission established by section 705 of
the Civil Rights Act of 1964 (42 U.S.C. 2000e–4).
(b) Covered Entity means an employer, employment agency, labor organization, or joint labor
management committee.
(c) Person, labor organization, employment agency, commerce and industry affecting commerce shall
have the same meaning given those terms in section 701 of the Civil Rights Act of 1964 (42 U.S.C.
2000e).
(d) State means each of the several States, the District of Columbia, the Commonwealth of Puerto Rico,
Guam, American Samoa, the Virgin Islands, the Trust Territory of the Pacific Islands, and the
Commonwealth of the Northern Mariana Islands.
(e) Employer—
(1) In general. The term employer means a person engaged in an industry affecting commerce who has
15 or more employees for each working day in each of 20 or more calendar weeks in the current or
preceding calendar year, and any agent of such person, except that, from July 26, 1992 through July 25,
1994, an employer means a person engaged in an industry affecting commerce who has 25 or more
employees for each working day in each of 20 or more calendar weeks in the current or preceding year
and any agent of such person.
(2) Exceptions. The term employer does not include—
(i) The United States, a corporation wholly owned by the government of the United States, or an Indian
tribe; or
(ii) A bona fide private membership club (other than a labor organization) that is exempt from taxation
under section 501(c) of the Internal Revenue Code of 1986.
(f) Employee means an individual employed by an employer.
(g) Definition of “disability.”
(1) In general. Disability means, with respect to an individual—
(i) A physical or mental impairment that substantially limits one or more of the major life activities of
such individual;
(ii) A record of such an impairment; or
(iii) Being regarded as having such an impairment as described in paragraph (l) of this section. This
means that the individual has been subjected to an action prohibited by the ADA as amended because
of an actual or perceived impairment that is not both “transitory and minor.”

.

108a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 57

(2) An individual may establish coverage under any one or more of these three prongs of the definition
of disability, i.e., paragraphs (g)(1)(i) (the “actual disability” prong), (g)(1)(ii) (the “record of” prong),
and/or (g)(1)(iii) (the “regarded as” prong) of this section.
(3) Where an individual is not challenging a covered entity's failure to make reasonable accommodations
and does not require a reasonable accommodation, it is generally unnecessary to proceed under the
“actual disability” or “record of” prongs, which require a showing of an impairment that substantially
limits a major life activity or a record of such an impairment. In these cases, the evaluation of coverage
can be made solely under the “regarded as” prong of the definition of disability, which does not require
a showing of an impairment that substantially limits a major life activity or a record of such an
impairment. An individual may choose, however, to proceed under the “actual disability” and/or “record
of” prong regardless of whether the individual is challenging a covered entity's failure to make
reasonable accommodations or requires a reasonable accommodation.
Note to paragraph (g): See § 1630.3 for exceptions to this definition.
(h) Physical or mental impairment means—
(1) Any physiological disorder or condition, cosmetic disfigurement, or anatomical loss affecting one or
more body systems, such as neurological, musculoskeletal, special sense organs, respiratory (including
speech organs), cardiovascular, reproductive, digestive, genitourinary, immune, circulatory, hemic,
lymphatic, skin, and endocrine; or
(2) Any mental or psychological disorder, such as an intellectual disability (formerly termed “mental
retardation”), organic brain syndrome, emotional or mental illness, and specific learning disabilities.
(i) Major life activities—
(1) In general. Major life activities include, but are not limited to:
(i) Caring for oneself, performing manual tasks, seeing, hearing, eating, sleeping, walking, standing,
sitting, reaching, lifting, bending, speaking, breathing, learning, reading, concentrating, thinking,
communicating, interacting with others, and working; and
(ii) The operation of a major bodily function, including functions of the immune system, special sense
organs and skin; normal cell growth; and digestive, genitourinary, bowel, bladder, neurological, brain,
respiratory, circulatory, cardiovascular, endocrine, hemic, lymphatic, musculoskeletal, and reproductive
functions. The operation of a major bodily function includes the operation of an individual organ within
a body system.
(2) In determining other examples of major life activities, the term “major” shall not be interpreted
strictly to create a demanding standard for disability. ADAAA section 2(b)(4) (Findings and Purposes).
Whether an activity is a “major life activity” is not determined by reference to whether it is of “central
importance to daily life.”
(j) Substantially limits—
(1) Rules of construction. The following rules of construction apply when determining whether an
impairment substantially limits an individual in a major life activity:

.

109a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 58

(i) The term “substantially limits” shall be construed broadly in favor of expansive coverage, to the
maximum extent permitted by the terms of the ADA. “Substantially limits” is not meant to be a
demanding standard.
(ii) An impairment is a disability within the meaning of this section if it substantially limits the ability of
an individual to perform a major life activity as compared to most people in the general population. An
impairment need not prevent, or significantly or severely restrict, the individual from performing a
major life activity in order to be considered substantially limiting. Nonetheless, not every impairment
will constitute a disability within the meaning of this section.
(iii) The primary object of attention in cases brought under the ADA should be whether covered entities
have complied with their obligations and whether discrimination has occurred, not whether an
individual's impairment substantially limits a major life activity. Accordingly, the threshold issue of
whether an impairment “substantially limits” a major life activity should not demand extensive analysis.
(iv) The determination of whether an impairment substantially limits a major life activity requires an
individualized assessment. However, in making this assessment, the term “substantially limits” shall be
interpreted and applied to require a degree of functional limitation that is lower than the standard for
“substantially limits” applied prior to the ADAAA.
(v) The comparison of an individual's performance of a major life activity to the performance of the
same major life activity by most people in the general population usually will not require scientific,
medical, or statistical analysis. Nothing in this paragraph is intended, however, to prohibit the
presentation of scientific, medical, or statistical evidence to make such a comparison where appropriate.
(vi) The determination of whether an impairment substantially limits a major life activity shall be made
without regard to the ameliorative effects of mitigating measures. However, the ameliorative effects of
ordinary eyeglasses or contact lenses shall be considered in determining whether an impairment
substantially limits a major life activity.
(vii) An impairment that is episodic or in remission is a disability if it would substantially limit a major life
activity when active.
(viii) An impairment that substantially limits one major life activity need not substantially limit other
major life activities in order to be considered a substantially limiting impairment.
(ix) The six-month “transitory” part of the “transitory and minor” exception to “regarded as” coverage in
§ 1630.15(f) does not apply to the definition of “disability” under paragraphs (g)(1)(i) (the “actual
disability” prong) or (g)(1)(ii) (the “record of” prong) of this section. The effects of an impairment lasting
or expected to last fewer than six months can be substantially limiting within the meaning of this
section.
(2) Non-applicability to the “regarded as” prong. Whether an individual's impairment “substantially
limits” a major life activity is not relevant to coverage under paragraph (g)(1)(iii) (the “regarded as”
prong) of this section.
(3) Predictable assessments—

.

110a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 59

(i) The principles set forth in paragraphs (j)(1)(i) through (ix) of this section are intended to provide for
more generous coverage and application of the ADA's prohibition on discrimination through a
framework that is predictable, consistent, and workable for all individuals and entities with rights and
responsibilities under the ADA as amended.
(ii) Applying the principles set forth in paragraphs (j)(1)(i) through (ix) of this section, the individualized
assessment of some types of impairments will, in virtually all cases, result in a determination of
coverage under paragraphs (g)(1)(i) (the “actual disability” prong) or (g)(1)(ii) (the “record of” prong) of
this section. Given their inherent nature, these types of impairments will, as a factual matter, virtually
always be found to impose a substantial limitation on a major life activity. Therefore, with respect to
these types of impairments, the necessary individualized assessment should be particularly simple and
straightforward.
(iii) For example, applying the principles set forth in paragraphs (j)(1)(i) through (ix) of this section, it
should easily be concluded that the following types of impairments will, at a minimum, substantially
limit the major life activities indicated: Deafness substantially limits hearing; blindness substantially
limits seeing; an intellectual disability (formerly termed mental retardation) substantially limits brain
function; partially or completely missing limbs or mobility impairments requiring the use of a wheelchair
substantially limit musculoskeletal function; autism substantially limits brain function; cancer
substantially limits normal cell growth; cerebral palsy substantially limits brain function; diabetes
substantially limits endocrine function; epilepsy substantially limits neurological function; Human
Immunodeficiency Virus (HIV) infection substantially limits immune function; multiple sclerosis
substantially limits neurological function; muscular dystrophy substantially limits neurological function;
and major depressive disorder, bipolar disorder, post-traumatic stress disorder, obsessive compulsive
disorder, and schizophrenia substantially limit brain function. The types of impairments described in this
section may substantially limit additional major life activities not explicitly listed above.
(4) Condition, manner, or duration—
(i) At all times taking into account the principles in paragraphs (j)(1)(i) through (ix) of this section, in
determining whether an individual is substantially limited in a major life activity, it may be useful in
appropriate cases to consider, as compared to most people in the general population, the condition
under which the individual performs the major life activity; the manner in which the individual performs
the major life activity; and/or the duration of time it takes the individual to perform the major life
activity, or for which the individual can perform the major life activity.
(ii) Consideration of facts such as condition, manner, or duration may include, among other things,
consideration of the difficulty, effort, or time required to perform a major life activity; pain experienced
when performing a major life activity; the length of time a major life activity can be performed; and/or
the way an impairment affects the operation of a major bodily function. In addition, the nonameliorative effects of mitigating measures, such as negative side effects of medication or burdens
associated with following a particular treatment regimen, may be considered when determining
whether an individual's impairment substantially limits a major life activity.
(iii) In determining whether an individual has a disability under the “actual disability” or “record of”
prongs of the definition of disability, the focus is on how a major life activity is substantially limited, and
not on what outcomes an individual can achieve. For example, someone with a learning disability may

111a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 60

achieve a high level of academic success, but may nevertheless be substantially limited in the major life
activity of learning because of the additional time or effort he or she must spend to read, write, or learn
compared to most people in the general population.
(iv) Given the rules of construction set forth in paragraphs (j)(1)(i) through (ix) of this section, it may
often be unnecessary to conduct an analysis involving most or all of these types of facts. This is
particularly true with respect to impairments such as those described in paragraph (j)(3)(iii) of this
section, which by their inherent nature should be easily found to impose a substantial limitation on a
major life activity, and for which the individualized assessment should be particularly simple and
straightforward.
(5) Examples of mitigating measures—Mitigating measures include, but are not limited to:
(i) Medication, medical supplies, equipment, or appliances, low-vision devices (defined as devices that
magnify, enhance, or otherwise augment a visual image, but not including ordinary eyeglasses or
contact lenses), prosthetics including limbs and devices, hearing aid(s) and cochlear implant(s) or other
implantable hearing devices, mobility devices, and oxygen therapy equipment and supplies;
(ii) Use of assistive technology;
(iii) Reasonable accommodations or “auxiliary aids or services” (as defined by 42 U.S.C. 12103(1));
(iv) Learned behavioral or adaptive neurological modifications; or
(v) Psychotherapy, behavioral therapy, or physical therapy.
(6) Ordinary eyeglasses or contact lenses—defined. Ordinary eyeglasses or contact lenses are lenses that
are intended to fully correct visual acuity or to eliminate refractive error.
(k) Has a record of such an impairment—
(1) In general. An individual has a record of a disability if the individual has a history of, or has been
misclassified as having, a mental or physical impairment that substantially limits one or more major life
activities.
(2) Broad construction. Whether an individual has a record of an impairment that substantially limited a
major life activity shall be construed broadly to the maximum extent permitted by the ADA and should
not demand extensive analysis. An individual will be considered to have a record of a disability if the
individual has a history of an impairment that substantially limited one or more major life activities
when compared to most people in the general population, or was misclassified as having had such an
impairment. In determining whether an impairment substantially limited a major life activity, the
principles articulated in paragraph (j) of this section apply.
(3) Reasonable accommodation. An individual with a record of a substantially limiting impairment may
be entitled, absent undue hardship, to a reasonable accommodation if needed and related to the past
disability. For example, an employee with an impairment that previously limited, but no longer
substantially limits, a major life activity may need leave or a schedule change to permit him or her to
attend follow-up or “monitoring” appointments with a health care provider.

112a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 61

(l) “Is regarded as having such an impairment.” The following principles apply under the “regarded as”
prong of the definition of disability (paragraph (g)(1)(iii) of this section) above:
(1) Except as provided in § 1630.15(f), an individual is “regarded as having such an impairment” if the
individual is subjected to a prohibited action because of an actual or perceived physical or mental
impairment, whether or not that impairment substantially limits, or is perceived to substantially limit, a
major life activity. Prohibited actions include but are not limited to refusal to hire, demotion, placement
on involuntary leave, termination, exclusion for failure to meet a qualification standard, harassment, or
denial of any other term, condition, or privilege of employment
(2) Except as provided in § 1630.15(f), an individual is “regarded as having such an impairment” any time
a covered entity takes a prohibited action against the individual because of an actual or perceived
impairment, even if the entity asserts, or may or does ultimately establish, a defense to such action.
(3) Establishing that an individual is “regarded as having such an impairment” does not, by itself,
establish liability. Liability is established under title I of the ADA only when an individual proves that a
covered entity discriminated on the basis of disability within the meaning of section 102 of the ADA, 42
U.S.C. 12112.

113a

Case: 19-1176

Document: 18

Filed: 04/24/2019

Page: 62

29 C.F.R. § 1630.9
§ 1630.9 Not making reasonable accommodation.

(a) It is unlawful for a covered entity not to make reasonable accommodation to the known physical or mental limitations of
an otherwise qualified applicant or employee with a disability, unless such covered entity can demonstrate that the
accommodation would impose an undue hardship on the operation of its business.

(b) It is unlawful for a covered entity to deny employment opportunities to an otherwise qualified job applicant or employee
with a disability based on the need of such covered entity to make reasonable accommodation to such individual’s physical or
mental impairments.

(c) A covered entity shall not be excused from the requirements of this part because of any failure to receive technical
assistance authorized by section 507 of the ADA, including any failure in the development or dissemination of any technical
assistance manual authorized by that Act.

(d) An individual with a disability is not required to accept an accommodation, aid, service, opportunity or benefit which
such qualified individual chooses not to accept. However, if such individual rejects a reasonable accommodation, aid, service,
opportunity or benefit that is necessary to enable the individual to perform the essential functions of the position held or
desired, and cannot, as a result of that rejection, perform the essential functions of the position, the individual will not be
considered qualified.

(e) A covered entity is required, absent undue hardship, to provide a reasonable accommodation to an otherwise qualified
individual who meets the definition of disability under the “actual disability” prong (§ 1630.2(g)(1)(i)), or “record of” prong
(§ 1630.2(g)(1)(ii)), but is not required to provide a reasonable accommodation to an individual who meets the definition of
disability solely under the “regarded as” prong (§ 1630.2(g)(1)(iii)).

.

.

.

.

114a

Vol. 76

Friday,

No. 58

March 25, 2011

Part III

Equal Employment Opportunity Commission

erowe on DSK5CLS3C1PROD with RULES_2

29 CFR Part 1630
Regulations To Implement the Equal Employment Provisions of the
Americans With Disabilities Act, as Amended; Final Rule

.

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

PO 00000

Frm 00001

Fmt 4717

Sfmt 4717

115a

E:\FR\FM\25MRR2.SGM

25MRR2

APPENDIX G

16978

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION
29 CFR Part 1630
RIN 3046–AA85

Regulations To Implement the Equal
Employment Provisions of the
Americans With Disabilities Act, as
Amended
Equal Employment
Opportunity Commission (EEOC).
ACTION: Final Rule.
AGENCY:

The Equal Employment
Opportunity Commission (the
Commission or the EEOC) issues its
final revised Americans with
Disabilities Act (ADA) regulations and
accompanying interpretive guidance in
order to implement the ADA
Amendments Act of 2008. The
Commission is responsible for
enforcement of title I of the ADA, as
amended, which prohibits employment
discrimination on the basis of disability.
Pursuant to the ADA Amendments Act
of 2008, the EEOC is expressly granted
the authority to amend these
regulations, and is expected to do so.
DATES: Effective Date: These final
regulations will become effective on
May 24, 2011.
FOR FURTHER INFORMATION CONTACT:
Christopher J. Kuczynski, Assistant
Legal Counsel, or Jeanne Goldberg,
Senior Attorney Advisor, Office of Legal
Counsel, U.S. Equal Employment
Opportunity Commission at (202) 663–
4638 (voice) or (202) 663–7026 (TTY).
These are not toll-free-telephone
numbers. This document is also
available in the following formats: Large
print, Braille, audio tape, and electronic
file on computer disk. Requests for this
document in an alternative format
should be made to the Office of
Communications and Legislative Affairs
at (202) 663–4191 (voice) or (202) 663–
4494 (TTY) or to the Publications
Information Center at 1–800–669–3362.
SUPPLEMENTARY INFORMATION:
SUMMARY:

erowe on DSK5CLS3C1PROD with RULES_2

Introduction
The ADA Amendments Act of 2008
(the Amendments Act) was signed into
law by President George W. Bush on
September 25, 2008, with a statutory
effective date of January 1, 2009.
Pursuant to the Amendments Act, the
definition of disability under the ADA,
42 U.S.C. 12101, et seq., shall be
construed in favor of broad coverage to
the maximum extent permitted by the
terms of the ADA as amended, and the
determination of whether an individual
has a disability should not demand

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

extensive analysis. The Amendments
Act makes important changes to the
definition of the term ‘‘disability’’ by
rejecting the holdings in several
Supreme Court decisions and portions
of the EEOC’s ADA regulations. The
effect of these changes is to make it
easier for an individual seeking
protection under the ADA to establish
that he or she has a disability within the
meaning of the ADA. Statement of the
Managers to Accompany S. 3406, The
Americans with Disabilities Act
Amendments Act of 2008 (2008 Senate
Statement of Managers); Committee on
Education and Labor Report together
with Minority Views (to accompany
H.R. 3195), H.R. Rep. No. 110–730 part
1, 110th Cong., 2d Sess. (June 23, 2008)
(2008 House Comm. on Educ. and Labor
Report); Committee on the Judiciary
Report together with Additional Views
(to accompany H.R. 3195), H.R. Rep. No.
110–730 part 2, 110th Cong., 2d Sess.
(June 23, 2008) (2008 House Judiciary
Committee Report).
The Amendments Act retains the
ADA’s basic definition of ‘‘disability’’ as
an impairment that substantially limits
one or more major life activities, a
record of such an impairment, or being
regarded as having such an impairment.
However, it changes the way that these
statutory terms should be interpreted in
several ways, therefore necessitating
revision of the prior regulations and
interpretive guidance contained in the
accompanying ‘‘Appendix to Part
1630—Interpretive Guidance on Title I
of the Americans with Disabilities Act,’’
which are published at 29 CFR part
1630 (the appendix).
Consistent with the provisions of the
Amendments Act and Congress’s
expressed expectation therein, the
Commission drafted a Notice of
Proposed Rulemaking (NPRM) that was
circulated to the Office of Management
and Budget for review (pursuant to
Executive Order 12866) and to federal
executive branch agencies for comment
(pursuant to Executive Order 12067).
The NPRM was subsequently published
in the Federal Register on September
23, 2009 (74 FR 48431), for a sixty-day
public comment period. The NPRM
sought comment on the proposed
regulations, which:
—Provided that the definition of
‘‘disability’’ shall be interpreted
broadly;
—Revised that portion of the regulations
defining the term ‘‘substantially
limits’’ as directed in the
Amendments Act by providing that a
limitation need not ‘‘significantly’’ or
‘‘severely’’ restrict a major life activity
in order to meet the standard, and by

PO 00000

Frm 00002

Fmt 4701

Sfmt 4700

116a

deleting reference to the terms
‘‘condition, manner, or duration’’
under which a major life activity is
performed, in order to effectuate
Congress’s clear instruction that
‘‘substantially limits’’ is not to be
misconstrued to require the ‘‘level of
limitation, and the intensity of focus’’
applied by the Supreme Court in
Toyota Motor Mfg., Ky., Inc. v.
Williams, 534 U.S. 184 (2002) (2008
Senate Statement of Managers at 6);
—Expanded the definition of ‘‘major life
activities’’ through two nonexhaustive lists:
—The first list included activities such
as caring for oneself, performing
manual tasks, seeing, hearing, eating,
sleeping, walking, standing, sitting,
reaching, lifting, bending, speaking,
breathing, learning, reading,
concentrating, thinking,
communicating, interacting with
others, and working, some of which
the EEOC previously identified in
regulations and sub-regulatory
guidance, and some of which
Congress additionally included in the
Amendments Act;
—The second list included major bodily
functions, such as functions of the
immune system, special sense organs,
and skin; normal cell growth; and
digestive, genitourinary, bowel,
bladder, neurological, brain,
respiratory, circulatory,
cardiovascular, endocrine, hemic,
lymphatic, musculoskeletal, and
reproductive functions, many of
which were included by Congress in
the Amendments Act, and some of
which were added by the Commission
as further illustrative examples;
—Provided that mitigating measures
other than ‘‘ordinary eyeglasses or
contact lenses’’ shall not be
considered in assessing whether an
individual has a ‘‘disability’’;
—Provided that an impairment that is
episodic or in remission is a disability
if it would substantially limit a major
life activity when active;
—Provided that the definition of
‘‘regarded as’’ be changed so that it
would no longer require a showing
that an employer perceived the
individual to be substantially limited
in a major life activity, and so that an
applicant or employee who is
subjected to an action prohibited by
the ADA (e.g., failure to hire, denial
of promotion, or termination) because
of an actual or perceived impairment
will meet the ‘‘regarded as’’ definition
of disability, unless the impairment is
both ‘‘transitory and minor’’;
—Provided that actions based on an
impairment include actions based on

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
symptoms of, or mitigating measures
used for, an impairment;
—Provided that individuals covered
only under the ‘‘regarded as’’ prong
are not entitled to reasonable
accommodation; and,
—Provided that qualification standards,
employment tests, or other selection
criteria based on an individual’s
uncorrected vision shall not be used
unless shown to be job related for the
position in question and consistent
with business necessity.
To effectuate these changes, the
NPRM proposed revisions to the
following sections of 29 CFR part 1630
and the accompanying provisions of the
appendix: § 1630.1 (added (c)(3) and
(4)); § 1630.2(g)(3) (added crossreference to 1630.2(l)); § 1630.2 (h)
(replaced the term ‘‘mental retardation’’
with the term ‘‘intellectual disability’’);
§ 1630.2(i) (revised definition of ‘‘major
life activities’’ and provided examples);
§ 1630.2(j) (revised definition of
‘‘substantially limits’’ and provided
examples); § 1630.2(k) (provided
examples of ‘‘record of’’ a disability);
§ 1630.2(l) (revised definition of
‘‘regarded as’’ having a disability and
provided examples); § 1630.2(m)
(revised terminology); § 1630.2(o)
(added (o)(4) stating that reasonable
accommodations are not available to
individuals who are only ‘‘regarded as’’
individuals with disabilities); § 1630.4
(renumbered section and added
§ 1630.4(b) regarding ‘‘claims of no
disability’’); § 1630.9 (revised
terminology in § 1630.9(c) and added
§ 1630.9(e) stating that an individual
covered only under the ‘‘regarded as’’
definition of disability is not entitled to
reasonable accommodation); § 1630.10
(revised to add provision on
qualification standards and tests related
to uncorrected vision); and § 1630.16(a)
(revised terminology).
These regulatory revisions were
explained in the proposed revised part
1630 appendix containing the
interpretive guidance. The Commission
originally issued the interpretive
guidance concurrent with the original
part 1630 ADA regulations in order to
ensure that individuals with disabilities
understand their rights under these
regulations and to facilitate and
encourage compliance by covered
entities. The appendix addresses the
major provisions of the regulations and
explains the major concepts. The
appendix as revised will be issued and
published in the Code of Federal
Regulations with the final regulations. It
will continue to represent the
Commission’s interpretation of the
issues discussed in the regulations, and

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

the Commission will be guided by it
when resolving charges of employment
discrimination under the ADA.
Summary and Response to Comments
The Commission received well over
600 public comments on the NPRM,
including, among others: 5 comments
from federal agencies that had not
previously commented during the interagency review process under E.O. 12067
or the Office of Management and Budget
review process under E.O. 12866; 61
comments from civil rights groups,
disability rights groups, health care
provider groups, and attorneys, attorney
associations, and law firms on their
behalf; 48 comments from employer
associations and industry groups, as
well as attorneys, attorney associations,
and law firms on their behalf; 4
comments from state governments,
agencies, or commissions, including one
from a state legislator; and 536
comments from individuals, including
individuals with disabilities and their
family members or other advocates.
Each of these comments was reviewed
and considered in the preparation of
this final rule. The Commission
exercised its discretion to consider
untimely comments that were received
by December 15, 2009, three weeks
following the close of the comment
period, and these tallies include 8 such
comments that were received. The
comments from individuals included
454 comments that contained similar or
identical content filed by or on behalf of
individuals with learning disabilities
and/or attention-deficit/hyperactivity
disorder (AD/HD), although many of
these comments also included an
additional discussion of individual
experiences.
Consistent with EO 13563, this rule
was developed through a process that
involved public participation. The
proposed regulations, including the
preliminary regulatory impact and
regulatory flexibility analyses, were
available on the Internet for a 60-day
public-comment period, and during that
time the Commission also held a series
of forums in order to promote the open
exchange of information. Specifically,
the EEOC and the U.S. Department of
Justice Civil Rights Division also held
four ‘‘Town Hall Listening Sessions’’ in
Oakland, California on October 26,
2009; in Philadelphia, Pennsylvania on
October 30, 2009, in Chicago, Illinois on
November 17, 2009, and in New
Orleans, Louisiana on November 20,
2009. During these sessions,
Commissioners heard in-person and
telephonic comments on the NPRM
from members of the public on both a
pre-registration and walk-in basis. More

PO 00000

Frm 00003

Fmt 4701

Sfmt 4700

117a

16979

than 60 individuals and representatives
of the business/employer community
and the disability advocacy community
from across the country offered
comments at these four sessions, a
number of whom additionally submitted
written comments.
All of the comments on the NPRM
received electronically or in hard copy
during the public comment period,
including comments from the Town
Hall Listening Sessions, may be
reviewed at the United States
Government’s electronic docket system,
http://www.regulations.gov, under
docket number EEOC–2009–0012. In
most instances, this preamble addresses
the comments by issue rather than by
referring to specific commenters or
comments by name.
In general, informed by questions
raised in the public comments, the
Commission throughout the final
regulations has refined language used in
the NPRM to clarify its intended
meaning, and has also streamlined the
organization of the regulation to make it
simpler to understand. As part of these
revisions, many examples were moved
to the appendix from the regulations,
and NPRM language repeatedly stating
that no negative implications should be
drawn from the citation to particular
impairments in the regulations and
appendix was deleted as superfluous,
given that the language used makes
clear that impairments are referenced
merely as examples. More significant or
specific substantive revisions are
reviewed below, by provision.
The Commission declines to make
changes requested by some commenters
to portions of the regulations and the
appendix that we consider to be
unaffected by the ADA Amendments
Act of 2008, such as to 29 CFR 630.3
(exceptions to definitions), 29 CFR
1630.2(r) (concerning the ‘‘direct threat’’
defense), 29 CFR 1630.8 (association
with an individual with a disability),
and portions of the appendix that
discuss the obligations of employers and
individuals during the interactive
process following a request for
reasonable accommodation. The
Commission has also declined to make
revisions requested by commenters
relating to health insurance, disability
and other benefit programs, and the
interaction of the ADA, the Family and
Medical Leave Act (FMLA), and
workers’ compensation laws. The
Commission believes the proposed
regulatory language was clear with
respect to any application it may have
to these issues.

E:\FR\FM\25MRR2.SGM

25MRR2

16980

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

Terminology
The Commission has made changes to
some of the terminology used in the
final regulations and the appendix. For
example, an organization that represents
individuals who have HIV and AIDS
asked that the regulations refer to ‘‘HIV
infection,’’ instead of ‘‘HIV and AIDS.’’
An organization representing persons
with epilepsy sought deletion or
clarification of references to ‘‘seizure
disorders’’ and ‘‘seizure disorders other
than epilepsy,’’ noting that ‘‘people who
have chronic seizures have epilepsy,
unless the seizure is due to [another
underlying impairment].’’ This revision
was not necessary since revisions to the
regulations resulted in deletion of
NPRM § 1630.2(j)(5)(iii) in which the
reference to ‘‘seizure disorder’’ appeared.
In addition, the Commission made
further revisions to conform the
regulations and appendix to the
statutory deletion of the term ‘‘qualified
individual with a disability’’ throughout
most of title I of the ADA. The
Commission did not make all changes in
terminology suggested by commenters,
for example declining to substitute the
term ‘‘challenges’’ for the terms
‘‘disability’’ and ‘‘impairment,’’ because
this would have been contrary to the
well-established terminology that
Congress deliberately used in the ADA
Amendments Act.

erowe on DSK5CLS3C1PROD with RULES_2

Section 1630.2(g): Disability
This section of the regulations
includes the basic three-part definition
of the term ‘‘disability’’ that was
preserved but redefined in the ADA
Amendments Act. For clarity, the
Commission has referred to the first
prong as ‘‘actual disability,’’ to
distinguish it from the second prong
(‘‘record of’’) and the third prong
(‘‘regarded as’’). The term ‘‘actual
disability’’ is used as short-hand
terminology to refer to an impairment
that substantially limits a major life
activity within the meaning of the first
prong of the definition of disability. The
terminology selected is for ease of
reference and is not intended to suggest
that individuals with a disability under
the first prong otherwise have any
greater rights under the ADA than
individuals whose impairments are
covered under the ‘‘record of’’ or
‘‘regarded as’’ prongs, other than the
restriction created by the Amendments
Act that individuals covered only under
the ‘‘regarded as’’ prong are not entitled
to reasonable accommodation.
Although an individual may be
covered under one or more of these
three prongs of the definition, it
appeared from comments that the

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

NPRM did not make explicit enough
that the ‘‘regarded as’’ prong should be
the primary means of establishing
coverage in ADA cases that do not
involve reasonable accommodation, and
that consideration of coverage under the
first and second prongs will generally
not be necessary except in situations
where an individual needs a reasonable
accommodation. Accordingly, in the
final regulations, § 1630.2(g) and (j) and
their accompanying interpretive
guidance specifically state that cases in
which an applicant or employee does
not require reasonable accommodation
can be evaluated solely under the
‘‘regarded as’’ prong of the definition of
‘‘disability.’’
Section 1630.2(h): Impairment
Some comments pointed out that the
list of body systems in the definition of
‘‘impairment’’ in § 1630.2(h) of the
NPRM was not consistent with the
description of ‘‘major bodily functions’’
in § 1630.2(i)(1)(ii) that was added due
to the inclusion in the Amendments Act
of ‘‘major bodily functions’’ as major life
activities. In response, the Commission
has added references to the immune
system and the circulatory system to
§ 1630.2(h), because both are mentioned
in the definition of ‘‘major bodily
functions’’ in § 1630.2(i)(1)(ii). Other
apparent discrepancies between the
definition of ‘‘impairment’’ and the list
of ‘‘major bodily functions’’ can be
accounted for by the fact that major
bodily functions are sometimes defined
in terms of the operation of an organ
within a body system. For example,
functions of the brain (identified in
§ 1630.2(i)) are part of the neurological
system and may affect other body
systems as well. The bladder, which is
part of the genitourinary system, is
already referenced in § 1630.2(h). In
response to comments, the Commission
has also made clear that the list of body
systems in § 1630.2(h)(1) is nonexhaustive, just as the list of mental
impairments in § 1630.2(h)(2) has
always made clear with respect to its
examples. The Commission has also
amended the final appendix to
§ 1630.2(h) to conform to these
revisions.
The Commission received several
comments seeking explanation of
whether pregnancy-related impairments
may be disabilities. To respond to these
inquiries, the final appendix states that
although pregnancy itself is not an
impairment, and therefore is not a
disability, a pregnancy-related
impairment that substantially limits a
major life activity is a disability under
the first prong of the definition.
Alternatively, a pregnancy-related

PO 00000

Frm 00004

Fmt 4701

Sfmt 4700

118a

impairment may constitute a ‘‘record of’’
a substantially limiting impairment, or
may be covered under the ‘‘regarded as’’
prong if it is the basis for a prohibited
employment action and is not
‘‘transitory and minor.’’
Section 1630.2(i): Major Life Activities
A number of comments, mostly on
behalf of individuals with disabilities,
suggested that the Commission add
more examples of major life activities,
particularly to the first non-exhaustive
list, including but not limited to typing,
keyboarding, writing, driving, engaging
in sexual relations, and applying fine
motor coordination. Other suggestions
ranged widely, including everything
from squatting and getting around
inside the home to activities such as
farming, ranching, composting,
operating water craft, and maintaining
an independent septic tank.
The Commission does not believe that
it is necessary to decide whether each
of the many other suggested examples is
in fact a major life activity, but we
emphasize again that the statutory and
regulatory examples are non-exhaustive.
We also note that some of the activities
that commenters asked to be added may
be part of listed major life activities, or
may be unnecessary to establishing that
someone is an individual with a
disability in light of other changes to the
definition of ‘‘disability’’ resulting from
the Amendments Act.
Some employer groups suggested that
major life activities other than those
specifically listed in the statute be
deleted, claiming that the EEOC had
exceeded its authority by including
additional ones. Specific concerns were
raised about the inclusion of
‘‘interacting with others’’ on behalf of
employers who believed that
recognizing this major life activity
would limit the ability to discipline
employees for misconduct.
Congress expressly provided that the
two lists of examples of major life
activities are non-exhaustive, and the
Commission is authorized to recognize
additional examples of major life
activities. The final regulations retain
‘‘interacting with others’’ as an example
of a major life activity, consistent with
the Commission’s long-standing
position in existing enforcement
guidance.
One disability rights group also asked
the Commission to delete the longstanding definition of major life
activities as those basic activities that
most people in the general population
‘‘can perform with little or no difficulty’’
and substitute a lower standard. Upon
consideration, we think that, while the
ability of most people to perform the

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
activity is relevant when evaluating
whether an individual is substantially
limited, it is not relevant to whether the
activity in question is a major life
activity. Consequently, the final rule,
like the statute itself, simply provides
examples of activities that qualify as
‘‘major life activities’’ because of their
relative importance.
Finally, some commenters asked that
the final rule state explicitly that the
standard from Toyota Motor Mfg., Ky.,
Inc. v. Williams, 534 U.S. 184 (2002), for
determining whether an activity
qualifies as a major life activity—that it
be of ‘‘central importance to most
people’s daily lives’’—no longer applies
after the ADA Amendments Act. The
Commission agrees and has added
language to this effect in the final
regulations.
We have provided this clarification in
the regulations, and, in the appendix,
we explain what this means with
respect to, for example, activities such
as lifting and performing manual tasks.
The final regulations also state that in
determining other examples of major
life activities, the term ‘‘major’’ shall not
be interpreted strictly to create a
demanding standard for disability, and
provide that whether an activity is a
‘‘major life activity’’ is not determined
by reference to whether it is of ‘‘central
importance to daily life.’’

easily be found to substantially limit a
major life activity. These are the same
impairments that were included as
examples in § 1630.2(j)(5) of the NPRM.
In response to comments (discussed
below), § 1630.2(j)(4) discusses the
concepts of ‘‘condition, manner, or
duration’’ that may be useful in
evaluating whether an individual is
substantially limited in a major life
activity in some cases. Section
1630.2(j)(5) in the final regulations
offers examples of mitigating measures,
and § 1630.2(j)(6) contains the definition
of ‘‘ordinary eyeglasses or contact
lenses.’’ The discussion of how to
determine whether someone is
substantially limited in working in
those rare cases where this may be at
issue now appears in the appendix
rather than the regulations, and has
been revised as explained below.
Finally, NPRM § 1630.2(j)(6), describing
certain impairments that may or may
not meet the definition of ‘‘substantially
limits,’’ and NPRM § 1630.2(j)(8),
describing certain impairments that
usually will not meet the definition of
‘‘substantially limits,’’ have been deleted
in favor of an affirmative statement in
both the final regulations and the
appendix that not every impairment
will constitute a disability within the
meaning of § 1630.2(j) (defining
‘‘substantially limits’’).

Section 1630.2(j): Substantially Limits

Meaning of ‘‘Substantially Limits’’
Many commenters asked that the
Commission more affirmatively define
‘‘substantially limits.’’ Suggestions for
further definitions of ‘‘substantial’’
included, among others, ‘‘ample,’’
‘‘considerable,’’ ‘‘more than moderately
restricts,’’ ‘‘discernable degree of
difficulty,’’ ‘‘makes achievement of the
activity difficult,’’ and ‘‘causes a material
difference from the ordinary processes
by which most people in the general
population perform the major life
activity.’’ The Commission has not
added terms to quantify ‘‘substantially
limits’’ in the final regulations. We
believe this is consistent with
Congress’s express rejection of such an
approach in the statute, which instead
simply indicates that ‘‘substantially
limits’’ is a lower threshold than
‘‘prevents’’ or ‘‘severely or significantly
restricts,’’ as prior Supreme Court
decisions and the EEOC regulations had
defined the term. The Commission
ultimately concluded that a new
definition would inexorably lead to
greater focus and intensity of attention
on the threshold issue of coverage than
intended by Congress. Therefore,
following Congress’s approach, the final
regulations provide greater clarity and
guidance by providing nine rules of

Overview
Although much of § 1630.2(j) of the
final regulations is substantively the
same as § 1630.2(j) of the NPRM, the
structure of the section is somewhat
different. Many of the examples that
were in the text of the proposed rule
have been relocated to the appendix.
Section 1630.2(j)(1) in the final
regulations lists nine ‘‘rules of
construction’’ that are based on the
statute itself and are essentially
consistent with the content of
§§ 1630.2(j)(1) through (4) of the NPRM.
Section 1630.2(j)(2) in the final
regulations makes clear that the
question of whether an individual is
substantially limited in a major life
activity is not relevant to coverage
under the ‘‘regarded as’’ prong. Section
1630.2(j)(3)(ii) in the final regulations
notes that some impairments will, given
their inherent nature, virtually always
be found to impose a substantial
limitation on a major life activity.
Therefore, with respect to these types of
impairments, the necessary
individualized assessment should be
particularly simple and straightforward.
In addition, § 1630.2(j)(3)(iii) includes
examples of impairments that should

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

PO 00000

Frm 00005

Fmt 4701

Sfmt 4700

119a

16981

construction that must be applied in
determining whether an impairment
substantially limits (or substantially
limited) a major life activity. These rules
are based on the provisions in the
Amendments Act, and will guide
interpretation of the term ‘‘substantially
limits.’’
Comparison to ‘‘Most People’’
The regulations say that in
determining whether an individual has
a substantially limiting impairment, the
individual’s ability to perform a major
life activity should be compared to that
of ‘‘most people in the general
population.’’ Both employer groups and
organizations writing on behalf of
individuals with disabilities said that
the concept of ‘‘intra-individual’’
differences (disparities between an
individual’s aptitude and expected
achievement versus the individual’s
actual achievement) that appears in the
discussion of learning disabilities in the
NPRM’s appendix is inconsistent with
the rule that comparison of an
individual’s limitations is always made
by reference to most people. However,
the Commission also received some
comments from disability groups
requesting that, in the assessment of
whether an individual is substantially
limited, the regulations allow for
comparisons between an individual’s
experiences with and without an
impairment, and comparisons between
an individual and her peers—in
addition to comparisons of the
individual to ‘‘most people.’’
The Commission agrees that the
reference to ‘‘intra-individual’’
differences, without further explanation,
may be misconstrued as at odds with
the agency’s view that comparisons are
always made between an individual and
most people. Therefore, the Commission
has added language to the discussion of
learning disabilities in the appendix, in
§ 1630.2(j)(1)(v), clarifying that although
learning disabilities may be diagnosed
in terms of the difference between an
individual’s aptitude and actual versus
expected achievement, a comparison to
‘‘most people’’ can nevertheless be
made. Moreover, the appendix provides
examples of ameliorative effects of
mitigating measures that will be
disregarded in making this comparison,
and notes legislative history rejecting
the assumption that an individual who
has performed well academically cannot
be substantially limited in activities
such as learning, reading, writing,
thinking, or speaking.

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

16982

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

Relevance of Duration of an
Impairment’s Limitations in Assessing
‘‘Substantially Limits’’
Many commenters expressed their
view that the NPRM failed to clarify, or
created confusion regarding, how long
an impairment’s limitation(s) must last
in order for the impairment to be
considered substantially limiting. Some
thought the Commission was saying that
impairments that are ‘‘transitory and
minor’’ under the third prong can
nevertheless be covered under the first
or second prong of the definition of
‘‘disability.’’ A few comments suggested
that the Commission adopt a minimum
duration of six months for an
impairment to be considered
substantially limiting, but more
commenters simply wanted the
Commission to specify whether, and if
so what, duration is necessary to
establish a substantial limitation.
In enacting the ADA Amendments
Act, Congress statutorily defined
‘‘transitory’’ for purposes of the
‘‘transitory and minor’’ exception to
newly-defined ‘‘regarded as’’ coverage as
‘‘an impairment with an actual or
expected duration of 6 months or less,’’
but did not include that limitation with
respect to the first or second prong in
the statute. 42 U.S.C. 12102(3)(B).
Moreover, prior to the Amendments
Act, it had been the Commission’s longstanding position that if an impairment
substantially limits, is expected to
substantially limit, or previously
substantially limited a major life activity
for at least several months, it could be
a disability under § 1630.2(g)(1) or a
record of a disability under
§ 1630.2(g)(2). See, e.g., EEOC
Compliance Manual Section 902,
‘‘Definition of the Term Disability,’’
§ 902(4)(d) (originally issued in 1995),
http://www.eeoc.gov/policy/docs/
902cm.html; EEOC Enforcement
Guidance on the Americans with
Disabilities Act and Psychiatric
Disabilities (1997), http://www.eeoc.gov/
policy/docs/psych.html. A six-month
durational requirement would represent
a more stringent standard than the
EEOC had previously required, not the
lower standard Congress sought to bring
about through enactment of the ADA
Amendments Act. Therefore, the
Commission declines to provide for a
six-month durational minimum for
showing disability under the first prong
or past history of a disability under the
second prong.
Additionally, the Commission has not
in the final regulations specified any
specific minimum duration that an
impairment’s effects must last in order
to be deemed substantially limiting.

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

This accurately reflects the intent of the
ADA Amendments Act, as conveyed in
the joint statement submitted by cosponsors Hoyer and Sensenbrenner.
That statement explains that the
duration of an impairment is only one
factor in determining whether the
impairment substantially limits a major
life activity, and impairments that last
only a short period of time may be
covered if sufficiently severe. See Joint
Hoyer-Sensenbrenner Statement on the
Origins of the ADA Restoration Act of
2008, H.R. 3195 at 5.
Mitigating Measures
The final regulations retain, as one of
the nine rules of construction, the
statutory requirement that mitigating
measures, other than ordinary
eyeglasses or contact lenses, must not be
considered in determining whether an
individual has a disability. Several
organizations representing persons with
disabilities suggested adding more
examples of mitigating measures,
including: job coaches, service animals,
personal assistants, psychotherapy and
other ‘‘human-mediated’’ treatments,
and some specific devices used by
persons who have hearing and/or vision
impairments.
In the final regulations, the
Commission has added psychotherapy,
behavioral therapy, and physical
therapy. In the appendix, the
Commission has explained why other
suggested examples were not included,
noting first that the list is nonexhaustive. Some suggested additional
examples of mitigating measures are
also forms of reasonable
accommodation, such as the right to use
a service animal or job coach in the
workplace. The Commission
emphasizes that its decision not to list
certain mitigating measures does not
create any inference that individuals
who use these measures would not meet
the definition of ‘‘disability.’’ For
example, as the appendix points out,
someone who uses a service animal will
still be able to demonstrate a substantial
limitation in major life activities such as
seeing, hearing, walking, or performing
manual tasks (depending on the reason
the service animal is used).
Several employer groups asked the
Commission to identify legal
consequences that follow from an
individual’s failure to use mitigating
measures that would alleviate the effects
of an impairment. For example, some
commenters suggested that such
individuals would not be entitled to
reasonable accommodation. The
Commission has included a statement in
the appendix pointing out that the
determination of whether or not an

PO 00000

Frm 00006

Fmt 4701

Sfmt 4700

120a

individual’s impairment substantially
limits a major life activity is unaffected
by whether the individual chooses to
forgo mitigating measures. For
individuals who do not use a mitigating
measure (including, for example,
medication or reasonable
accommodation that could alleviate the
effects of an impairment), the
availability of such measures has no
bearing on whether the impairment
substantially limits a major life activity.
The limitations imposed by the
impairment on the individual, and any
negative (non-ameliorative) effects of
mitigating measures used, determine
whether an impairment is substantially
limiting. The origin of the impairment,
whether its effects can be mitigated, and
any ameliorative effects of mitigating
measures in fact used may not be
considered in determining if the
impairment is substantially limiting.
However, the use or non-use of
mitigating measures, and any
consequences thereof, including any
ameliorative and non-ameliorative
effects, may be relevant in determining
whether the individual is qualified or
poses a direct threat to safety.
Commenters also asked for a clear
statement regarding whether the nonameliorative effects of mitigating
measures may be considered in
determining whether an impairment is
substantially limiting. Some also asked
for guidance regarding whether the
positive and negative effects of
mitigating measures can be taken into
account when determining whether an
individual needs a reasonable
accommodation.
The final regulations affirmatively
state that non-ameliorative effects may
be considered in determining whether
an impairment is substantially limiting.
The appendix clarifies, however, that in
many instances it will not be necessary
to consider the non-ameliorative effects
of mitigating measures to determine that
an impairment is substantially limiting.
For example, whether diabetes is
substantially limiting will most often be
analyzed by considering its effects on
endocrine functions in the absence of
mitigating measures such as
medications or insulin, rather than by
considering the measures someone must
undertake to keep the condition under
control (such as frequent blood sugar
and insulin monitoring and rigid
adherence to dietary restrictions).
Likewise, whether someone with kidney
disease has a disability will generally be
assessed by considering limitations on
kidney and bladder functions that
would occur without dialysis rather
than by reference to the burdens that
dialysis treatment imposes. The

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
appendix also states that both the
ameliorative and non-ameliorative
effects of mitigating measures may be
relevant in deciding non-coverage
issues, such as whether someone is
qualified, needs a reasonable
accommodation, or poses a direct threat.
Some commenters also asked for a
more precise definition than the
statutory definition of the term
‘‘ordinary eyeglasses or contact lenses.’’
For example, one commenter proposed
that ‘‘fully corrected’’ means visual
acuity of 20/20. Another commenter
representing human resources
professionals from large employers
suggested a rule that any glasses that
can be obtained from a ‘‘walk-in retail
eye clinic’’ would be considered
ordinary eyeglasses or contact lenses,
including bi-focal and multi-focal
lenses. An organization representing
individuals who are blind or have
vision impairments wanted us to say
that glasses that enhance or augment a
visual image but that may resemble
ordinary eyeglasses should not be
considered when determining whether
someone is substantially limited in
seeing.
The final regulations do not adopt any
of these approaches. The Commission
believes that the NPRM was clear that
the distinction between ‘‘ordinary
eyeglasses or contact lenses’’ on the one
hand and ‘‘low vision devices’’ on the
other is how they function, not how
they look or where they were
purchased. Whether lenses fully correct
visual acuity or eliminate refractive
error is best determined on the basis of
current and objective medical evidence.
The Commission emphasizes, however,
that even if such evidence indicates that
visual acuity is fully corrected or that
refractive error is eliminated, this means
only that the effect of the eyeglasses or
contact lenses shall be considered in
determining whether the individual is
substantially limited in seeing, not that
the individual is automatically excluded
from the law’s protection.
Numerous comments were made on
the proposed inclusion of surgical
interventions as mitigating measures.
Many asked the Commission to delete
the reference to surgical interventions
entirely; others wanted us to delete the
qualification that surgical interventions
that permanently eliminate an
impairment are not considered
mitigating measures. Some comments
proposed language that would exclude
from mitigating measures those surgical
interventions that ‘‘substantially correct’’
an impairment. Some comments
endorsed the definition as written, but
suggested we provide examples of

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

surgical interventions that would
permanently eliminate an impairment.
The Commission has eliminated
‘‘surgical interventions, except for those
that permanently eliminate an
impairment’’ as an example of a
mitigating measure in the regulation,
given the confusion evidenced in the
comments about how this example
would apply. Determinations about
whether surgical interventions should
be taken into consideration when
assessing whether an individual has a
disability are better assessed on a caseby-case basis.
Finally, some commenters asked the
Commission to address generally what
type of evidence would be sufficient to
establish whether an impairment would
be substantially limiting without the
ameliorative effects of a mitigating
measure that the individual uses. In
response to such comments, the
Commission has added to the appendix
a statement that such evidence could
include evidence of limitations that a
person experienced prior to using a
mitigating measure, evidence
concerning the expected course of a
particular disorder absent mitigating
measures, or readily available and
reliable information of other types.
Impairments That Are Episodic or in
Remission
One commenter suggested that the
regulatory provision on impairments
that are ‘‘episodic or in remission’’
should be clarified to eliminate from
coverage progressive impairments such
as Parkinson’s Disease on the ground
that they would not be disabilities in the
‘‘early stages.’’ The Commission declines
to make this revision, recognizing that
because ‘‘major bodily functions’’ are
themselves ‘‘major life activities,’’
Parkinson’s Disease even in the ‘‘early
stages’’ can substantially limit major life
activities, such as brain or neurological
functions. Some employer groups also
asked the Commission to provide
further guidance on distinguishing
between episodic conditions and those
that may, but do not necessarily,
become episodic, as indicated by
subsequent ‘‘flare ups.’’ As the
Commission has indicated in the
regulations and appendix provisions on
mitigating measures, these questions
may in some cases be resolved by
looking at evidence such as limitations
experienced prior to the use of the
mitigating measure or the expected
course of a disorder absent mitigating
measures. However, recognizing that
there may be various ways that an
impairment may be shown to be
episodic, we decline to address such

PO 00000

Frm 00007

Fmt 4701

Sfmt 4700

121a

16983

evidentiary issues with any greater
specificity in the rulemaking.
Predictable Assessments
Section 1630.2(j)(5) of the NPRM
provided examples of impairments that
would ‘‘consistently meet the definition
of disability’’ in light of the statutory
changes to the definition of
‘‘substantially limits.’’ Arguing that
§ 1630.2(j)(5) of the NPRM created a ‘‘per
se list’’ of disabilities, many
commenters, particularly
representatives of employers and
employer organizations, asked for the
section’s deletion, so that all
impairments would be subject to the
same individualized assessment.
Equally strong support for this section
was expressed by organizations
representing individuals with
disabilities, some of whom suggested
that impairments such as learning
disabilities, AD/HD, panic and anxiety
disorder, hearing impairments requiring
use of a hearing aid or cochlear implant,
mobility impairments requiring the use
of canes, crutches, or walkers, and
multiple chemical sensitivity be added
to the list of examples in NPRM
§ 1630.2(j)(5). Many of the commenters
who expressed support for this section
also asked that NPRM § 1630.2(j)(6)
(concerning impairments that may be
substantially limiting for some
individuals but not for others) be
deleted, as it seemed to suggest that
these impairments were of lesser
significance than those in NPRM § (j)(5).
In response to these concerns, the
Commission has revised this portion of
the regulations to make clear that the
analysis of whether the types of
impairments discussed in this section
(now § 1630.2(j)(3)) substantially limit a
major life activity does not depart from
the hallmark individualized assessment.
Rather, applying the various principles
and rules of construction concerning the
definition of disability, the
individualized assessment of some
types of impairments will, in virtually
all cases, result in a finding that the
impairment substantially limits a major
life activity, and thus the necessary
individualized assessment of these
types of impairments should be
particularly simple and straightforward.
The regulations also provide examples
of impairments that should easily be
found to substantially limit a major life
activity.
The Commission has also deleted
§ 1630.2(j)(6) that appeared in the
NPRM. However, the Commission did
not agree with those commenters who
thought it was necessary to include in
§ 1630.2(j)(3) of the final regulations all
the impairments that were the subject of

E:\FR\FM\25MRR2.SGM

25MRR2

16984

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

erowe on DSK5CLS3C1PROD with RULES_2

examples in NPRM § 1630.2(j)(6), or that
other impairments not previously
mentioned in either section should be
included in (j)(3). The Commission has
therefore declined to list additional
impairments in § 1630.2(j)(3) of the final
regulations. The regulations as written
permit courts to conclude that any of
the impairments mentioned in
§ 1630.2(j)(6) of the NPRM or other
impairments ‘‘substantially limit’’ a
major life activity.
Section 1630.2(j)(8) of the NPRM
provided examples of impairments that
‘‘are usually not disabilities.’’ Some
commenters asked for clarity concerning
whether, and under what
circumstances, any of the impairments
included in the examples might
constitute disabilities under the first or
second prong, or asked that the section
title be revised by replacing ‘‘usually’’
with ‘‘consistently.’’ Other commenters
asked whether the listed impairments
would be considered ‘‘transitory and
minor’’ for purposes of the ‘‘regarded as’’
definition, or wanted clarification that
the listed impairments were not
necessarily ‘‘transitory and minor’’ in all
instances. A few organizations
recommended deletion of certain
impairments from the list of examples,
such as a broken bone that is expected
to heal completely and a sprained joint.
In the final regulations, the Commission
deleted this section, again due to the
confusion it presented.
Condition, Manner, or Duration
Comments from both employers and
groups writing on behalf of individuals
with disabilities proposed that the
Commission continue to use the terms
‘‘condition, manner, or duration,’’ found
in the appendix accompanying EEOC’s
1991 ADA regulations, as part of the
definition of ‘‘substantially limits.’’
Many employer groups seemed to think
the concepts were relevant in all cases;
disability groups generally thought they
could be relevant in some cases, but do
not need to be considered rigidly in all
instances.
In response, the Commission has
inserted the terms ‘‘condition, manner,
or duration’’ as concepts that may be
relevant in certain cases to show how an
individual is substantially limited,
although the concepts may often be
unnecessary to conduct the analysis of
whether an impairment ‘‘substantially
limits’’ a major life activity. The
Commission has also included language
to illustrate what these terms mean,
borrowing from the examples in
§ 1630.2(j)(6) of the NPRM, which has
been deleted from the final regulations.
For example, ‘‘condition, manner, or
duration’’ might mean the difficulty or

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

effort required to perform a major life
activity, pain experienced when
performing a major life activity, the
length of time a major life activity can
be performed, or the way that an
impairment affects the operation of a
major bodily function.
Substantially Limited in Working
The proposed rule had replaced the
concepts of a ‘‘class’’ or ‘‘broad range’’ of
jobs from the 1991 regulations defining
substantial limitation in working with
the concept of a ‘‘type of work.’’ A
number of commenters asked the
Commission to restore the concepts of a
class or broad range of jobs. Many other
comments supported the ‘‘type of work’’
approach taken in the NPRM. Some
supporters of the ‘‘type of work’’
approach sought additional examples of
types of work (e.g., jobs requiring
working around chemical fumes and
dust, or jobs that require keyboarding or
typing), and requested that certain
statements in the appendix be moved
into the regulations.
In issuing the final regulations, the
Commission has moved the discussion
of how to analyze the major life activity
of working to the appendix, since no
other major life activity is singled out in
the regulations for elaboration. Rather
than attempting to articulate a new
‘‘type of work’’ standard that may cause
unnecessary confusion, the Commission
has retained the original part 1630 ‘‘class
or broad range of jobs’’ formulation in
the appendix, although we explain how
this standard must be applied
differently than it was prior to the
Amendments Act. We also provide a
more streamlined discussion and
examples of the standard to comply
with Congress’s exhortation in the
Amendments Act to favor broad
coverage and disfavor extensive analysis
(Section 2(b)(5) (Findings and
Purposes)).
Section 1630.2(k): Record of a Disability
Some commenters asked the
Commission to revise this section to
state that a ‘‘record’’ simply means a past
history of a substantially limiting
impairment, not necessarily that the
past history has to be established by a
specific document. Although some
commenters sought deletion of the
statement (in §§ 1630.2(o) and 1630.9)
that individuals covered under the
‘‘record of’’ prong may get reasonable
accommodations, others agreed that the
language of the Amendments Act is
consistent with the Commission’s longheld position and wanted examples of
when someone with a history of a
substantially limiting impairment
would need accommodation. Some

PO 00000

Frm 00008

Fmt 4701

Sfmt 4700

122a

comments recommended that the
Commission make the point that a
person with cancer (identified in one of
the NPRM examples) could also be
covered under the first prong.
The final regulations streamline this
section by moving the examples of
‘‘record of’’ disabilities to the appendix.
The Commission has also added a
paragraph to this section to make clear
that reasonable accommodations may be
required for individuals with a record of
an impairment that substantially limits
a major life activity, and has provided
an example of when a reasonable
accommodation may be required. The
Commission has not added language to
state explicitly that the past history of
an impairment need not be reflected in
a specific document; we believe that
this is clear in current law, and this
point is reflected in the appendix.
Section 1630.2(l): Regarded As
Many comments revealed confusion
as to both the new statutory and
proposed regulatory definition of the
‘‘regarded as’’ prong in general, and the
‘‘transitory and minor’’ exception in
particular. Other comments simply
requested clarification of the ‘‘transitory
and minor’’ exception. The final
regulations provide further clarification
and explanation of the scope of
‘‘regarded as’’ coverage.
The final regulations and appendix
make clear that even if coverage is
established under the ‘‘regarded as’’
prong, the individual must still
establish the other elements of the claim
(e.g., that he or she is qualified) and the
employer may raise any available
defenses. In other words, a finding of
‘‘regarded as’’ coverage is not itself a
finding of liability.
The final regulations and appendix
also explain that the fact that the
‘‘regarded as’’ prong requires proof of
causation in order to show that a person
is covered does not mean that proving
a claim based on ‘‘regarded as’’ coverage
is complex. As noted in the appendix,
while a person must show, both for
coverage under the ‘‘regarded as’’ prong
and for ultimate liability, that he or she
was subjected to a prohibited action
because of an actual or perceived
impairment, this showing need only be
made once. Thus, a person proceeding
under the ‘‘regarded as’’ prong may
demonstrate a violation of the ADA by
meeting the burden of proving that: (1)
He or she has an impairment or was
perceived by a covered entity to have an
impairment, and (2) the covered entity
discriminated against him or her
because of the impairment in violation
of the statute. Finally, the final
regulations make clear that an employer

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
may show that an impairment is
‘‘transitory and minor’’ as a defense to
‘‘regarded as’’ coverage. 29 CFR
1630.15(f).
The final regulations and appendix, at
§ 1630.2(j), also make clear that the
concepts of ‘‘major life activities’’ and
‘‘substantially limits’’ (relevant when
evaluating coverage under the first or
second prong of the definition of
‘‘disability’’) are not relevant in
evaluating coverage under the ‘‘regarded
as’’ prong. Thus, in order to have
regarded an individual as having a
disability, a covered entity need not
have considered whether a major life
activity was substantially limited, and
an individual claiming to have been
regarded as disabled need not
demonstrate that he or she is
substantially limited in a major life
activity.
Concerning specific issues with
which commenters disagreed, some
criticized examples of impairments that
the Commission said would be
considered transitory and minor—
specifically, a broken leg that heals
normally and a sprained wrist that
limits someone’s ability to type for three
weeks. These commenters claimed that
these impairments, though transitory,
are not minor. Consistent with its effort
to streamline the text of the final rule,
the Commission has deleted examples
that appeared in the NPRM, illustrating
how the ‘‘transitory and minor’’
exception applies. However, the
appendix to § 1630.2(l) as well as the
defense as set forth in § 1630.15(f)
include examples involving an
employer that takes a prohibited action
against an employee with bipolar
disorder that the employer claims it
believed was transitory and minor, and
an employer that takes a prohibited
action against an individual with a
transitory and minor hand wound that
the employer believes is symptomatic of
HIV infection. These examples are
intended to illustrate the point that
whether an actual or perceived
impairment is transitory and minor is to
be assessed objectively.
In response to a specific request in the
preamble to the NPRM, the Commission
received many comments about the
position in the proposed rule that
actions taken because of an
impairment’s symptoms or because of
the use of mitigating measures
constitute actions taken because of an
impairment under the ‘‘regarded as’’
prong. Individuals with disabilities and
organizations representing them for the
most part endorsed the position, noting
that the symptoms of, and mitigating
measures used for, an impairment are
part and parcel of the impairment itself,

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

and that this provision is necessary to
prevent employers from evading
‘‘regarded as’’ coverage by asserting that
the challenged employment action was
taken because of the symptom or
medication, not the impairment, even
when it knew of the connection between
the two. Others asked the Commission
to clarify that this interpretation applied
even where the employer had no
knowledge of the connection between
the impairment and the symptom or
mitigating measure. However,
employers and organizations
representing employers asked that this
language be deleted in its entirety. They
were particularly concerned that an
employer could be held liable under the
ADA for disciplining an employee for
violating a workplace rule, where the
violation resulted from an underlying
impairment of which the employer was
unaware.
In light of the complexity of this
issue, the Commission believes that it
requires a more comprehensive
treatment than is possible in this
regulation. Therefore, the final
regulations do not explicitly address the
issue of discrimination based on
symptoms or mitigating measures under
the ‘‘regarded as’’ prong. No negative
inference concerning the merits of this
issue should be drawn from this
deletion. The Commission’s existing
position, as expressed in its policy
guidance, court filings, and other
regulatory and sub-regulatory
documents, remains unchanged.
Finally, because the new law makes
clear that an employer regards an
individual as disabled if it takes a
prohibited action against the individual
because of an actual or perceived
impairment that was not ‘‘transitory and
minor,’’ whether or not myths, fears, or
stereotypes about disability motivated
the employer’s decision, the
Commission has deleted certain
language about myths, fears, and
stereotypes from the 1991 version of this
section of the appendix that might
otherwise be misconstrued when
applying the new ADA Amendments
Act ‘‘regarded as’’ standard.
Issues Concerning Evidence of Disability
The Commission also received
comments from both employer groups
and organizations writing on behalf of
people with disabilities asking that the
regulations address what kind of
information an employer may request
about the nature of an impairment (e.g.,
during the interactive process in
response to a request for reasonable
accommodation), and the amount and
type of evidence that would be
sufficient in litigation to establish the

PO 00000

Frm 00009

Fmt 4701

Sfmt 4700

123a

16985

existence of a disability. Some employer
groups, for example, asked the
Commission to emphasize that a person
requesting a reasonable accommodation
must participate in the interactive
process by providing appropriate
documentation where the disability and
need for accommodation are not
obvious or already known.
Organizations writing on behalf of
persons with disabilities asked the
Commission to state in the regulations
that a diagnosis of one of the
impairments in NPRM § 1630.2(j)(5) is
sufficient to establish the existence of a
disability; that the Commission should
emphasize, even more so than in the
NPRM, that proving disability is not an
onerous burden; that in many instances
the question of whether a plaintiff in
litigation has a disability should be the
subject of stipulation by the parties; and
that an impairment’s effects on major
bodily functions should be considered
before its effects on other major life
activities in determining whether an
impairment substantially limits a major
life activity. Both employer groups and
organizations submitting comments on
behalf of individuals with disabilities
asked the Commission to clarify the
statement in the NPRM that objective
scientific and medical evidence can be
used to establish the existence of a
disability.
The Commission believes that most of
these proposed changes regarding
evidentiary matters are either
unnecessary or not appropriate to
address in the regulations. For example,
the Commission has stated repeatedly in
numerous policy documents and
technical assistance publications that
individuals requesting accommodation
must provide certain supporting
medical information if the employer
requests it, and that the employer is
permitted to do so if the disability and/
or need for accommodation are not
obvious or already known. The ADA
Amendments Act does not alter this
requirement. The Commission also does
not think it appropriate to comment in
the regulations or the appendix on how
ADA litigation should be conducted,
such as whether parties should stipulate
to certain facts or whether use of certain
major life activities by litigants or courts
should be preferred.
However, based on the comments
received, the Commission has
concluded that clarification of language
in the NPRM regarding use of scientific
and medical evidence is warranted. The
final regulations, at § 1630.2(j)(1)(v),
state that the comparison of an
individual’s performance of a major life
activity to the performance of the same
major life activity by most people in the

E:\FR\FM\25MRR2.SGM

25MRR2

16986

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

general population usually will not
require scientific, medical, or statistical
analysis. However, the final regulations
also state that this provision is not
intended to prohibit the presentation of
scientific, medical, or statistical
evidence to make such a comparison
where appropriate. In addition, the
appendix discusses evidence that may
show that an impairment would be
substantially limiting in the absence of
the ameliorative effects of mitigating
measures.
Section 1630.2(m): Definition of
‘‘Qualified’’
The final regulations and
accompanying appendix make slight
changes to this section to eliminate use
of the term ‘‘qualified individual with a
disability,’’ consistent with the ADA
Amendments Act’s elimination of that
term throughout most of title I of the
ADA.
Section 1630.2(o): Reasonable
Accommodation
The Commission has added a new
provision (o)(4) in § 1630.2(o) of the
final regulations, providing that a
covered entity is not required to provide
a reasonable accommodation to an
individual who meets the definition of
disability solely under the ‘‘regarded as’’
prong (§ 1630.2(g)(1)(iii)). The
Commission has also made changes to
this section to eliminate use of the term
‘‘qualified individual with a disability,’’
consistent with the ADA Amendments
Act’s elimination of that term
throughout most of title I of the ADA.

erowe on DSK5CLS3C1PROD with RULES_2

Section 1630.4: Discrimination
Prohibited
The Commission has reorganized
§ 1630.4 of the final regulations, adding
a new provision in § 1630.4(b) to
provide, as stated in the Amendments
Act, that nothing in this part shall
provide the basis for a claim that an
individual without a disability was
subject to discrimination because of his
lack of disability, including a claim that
an individual with a disability was
granted an accommodation that was
denied to an individual without a
disability.
Section 1630.9: Not Making Reasonable
Accommodation
The final regulations include a
technical revision to § 1630.9(c) to
conform citations therein to the
amended ADA. In addition, a new
§ 1630.9(e) has been added stating again
that a covered entity is not required to
provide a reasonable accommodation to
an individual who meets the definition
of disability solely under the ‘‘regarded

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

as’’ prong (§ 1630.2(g)(1)(iii)). In
addition, the appendix to § 1630.9 is
amended to revise references to the term
‘‘qualified individual with a disability’’
in order to conform to the statutory
changes made by the Amendments Act.
Section 1630.10: Qualification
Standards, Tests, and Other Selection
Criteria.
The final regulations include a new
§ 1630.10(b) explaining the amended
ADA provision regarding qualification
standards and tests related to
uncorrected vision.
Section 1630.15: Defenses
The final regulations include a new
§ 1630.15(f), and accompanying
appendix section, explaining the
‘‘transitory and minor’’ defense to a
charge of discrimination where coverage
would be shown solely under the
‘‘regarded as’’ prong of the definition.
Section 1630.16: Specific Activities
Permitted
The final regulations include
terminology revisions to §§ 1630.16(a)
and (f) to conform to the statutory
deletion of the term ‘‘qualified
individual with a disability’’ in most
parts of title I.
Regulatory Procedures
Final Regulatory Impact Analysis
Executive Orders 12866 and 13563
The final rule, which amends 29 CFR
Part 1630 and the accompanying
interpretive guidance, has been drafted
and reviewed in accordance with EO
12866, 58 FR 51735 (Sept. 30, 1993),
Principles of Regulations, and EO
13563, 76 FR 3821, (Jan. 21, 2011),
Improving Regulation and Regulatory
Review. The rule is necessary to bring
the Commission’s prior regulations into
compliance with the ADA Amendments
Act of 2008, which became effective
January 1, 2009, and explicitly
invalidated certain provisions of the
prior regulations. The new final
regulations and appendix are intended
to add to the predictability and
consistency of judicial interpretations
and executive enforcement of the ADA
as now amended by Congress.
The final regulatory impact analysis
estimates the annual costs of the rule to
be in the range of $60 million to $183
million, and estimates that the benefits
will be significant. While those benefits
cannot be fully quantified and
monetized at this time, the Commission
concludes that consistent with EO
13563, the benefits (quantitative and
qualitative) will justify the costs. Also
consistent with EO 13563, we have

PO 00000

Frm 00010

Fmt 4701

Sfmt 4700

124a

attempted to ‘‘use the best available
techniques to quantify anticipated
present and future benefits and costs as
accurately as possible.’’ The
Commission notes, however, that the
rule and the underlying statute create
many important benefits that, in the
words of EO 13563, stem from ‘‘values
that are difficult or impossible to
quantify.’’ Consistent with EO 13563, in
addition to considering the rule’s
quantitative effects, the Commission has
considered the rule’s qualitative effects.
Some of the benefits of the ADA
Amendments Act (ADAAA or
Amendments Act) and this final rule are
monetary in nature, and likely involve
increased productivity, but cannot be
quantified at this time.
Other benefits, consistent with the
Act, involve values such as (in the
words of EO 13563) ‘‘equity, human
dignity, fairness, and distributive
impacts.’’ In its statement of findings in
the Act, Congress emphasized that ‘‘in
enacting the ADA, Congress recognized
that physical and mental disabilities in
no way diminish a person’s right to
fully participate in all aspects of society,
but that people with physical or mental
disabilities are frequently precluded
from doing so because of prejudice,
antiquated attitudes, or the failure to
remove societal and institutional
barriers.’’ One of the stated purposes of
the ADA Amendments Act is ‘‘to carry
out the ADA’s objectives of providing ‘a
clear and comprehensive national
mandate for the elimination of
discrimination’ and ‘clear, strong,
consistent, enforceable standards
addressing discrimination’ by
reinstating a broad scope of protection
under the ADA.’’ ADAAA Section
2(a)(1) and 2(b)(1). This rule implements
that purpose by establishing standards
for eliminating disability-based
discrimination in the workplace. It also
promotes inclusion and fairness in the
workplace; combats second-class
citizenship of individuals with
disabilities; avoids humiliation and
stigma; and promotes human dignity by
enabling qualified individuals to
participate in the workforce.
Introduction
I. Estimated Costs
A. Estimate of Increased Number of
Individuals Whose Coverage Is Clarified
through the ADAAA and the Final
Regulations
(1) Summary of Preliminary Analysis
(2) Comments on Preliminary Analysis
(3) Revised Analysis
(a) Number of Individuals Whose Coverage
Is Clarified
(b) Number of Individuals Whose Coverage
Is Clarified and Who Are Participating in
the Labor Force

E:\FR\FM\25MRR2.SGM

25MRR2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

erowe on DSK5CLS3C1PROD with RULES_2

B. Estimated Increase in Reasonable
Accommodation Requests and Costs
Attributable to the ADAAA and the Final
Regulations
(1) Summary of Preliminary Analysis
(2) Comments on Preliminary Analysis
(3) Revised Analysis
(a) Estimated Number of New
Accommodation Requests
(b) Factors Bearing on Reasonable
Accommodation Costs
(c) Calculation of Mean Costs of
Accommodations Derived From Studies
(d) Accommodation Cost Scenarios
C. Estimated Increase in Administrative
and Legal Costs Attributable to the
ADAAA and the Final Regulations
(1) Summary of Preliminary Analysis
(2) Comments on Preliminary Analysis
(3) Revised Analysis of Administrative
Costs
(4) Analysis of Legal Costs
II. Estimated Benefits
A. Benefits of Accommodations
Attributable to the ADAAA and the Final
Regulations
(1) Summary of Preliminary Analysis
(2) Comments on Preliminary Analysis
(3) Conclusions Regarding Benefits of
Accommodations Attributable to the
ADAAA and the Final Regulations
B. Other Benefits Attributable to the
ADAAA and the Final Regulations
(1) Efficiencies in Litigation
(2) Fuller Employment
(3) Non-discrimination and Other Intrinsic
Benefits
Conclusion

Introduction
In enacting the ADA Amendments
Act, Congress explicitly stated its
expectation that the EEOC would amend
its ADA regulations to reflect the
changes made by the statute. These
changes necessarily extend as well to
the Interpretive Guidance (also known
as the Appendix) that was published at
the same time as the original ADA
regulations and that provides further
explanation on how the regulations
should be interpreted.
The Amendments Act states that its
purpose is ‘‘to reinstate a broad scope of
protection’’ by expanding the definition
of the term ‘‘disability.’’ Congress found
that persons with many types of
impairments—including epilepsy,
diabetes, HIV infection, cancer, multiple
sclerosis, intellectual disabilities
(formerly called mental retardation),
major depression, and bipolar
disorder—had been unable to bring
ADA claims because they were found
not to meet the ADA’s definition of
‘‘disability.’’ Yet, Congress thought that
individuals with these and other
impairments should be covered and
revised the ADA accordingly. Congress
explicitly rejected certain Supreme
Court interpretations of the term
‘‘disability’’ and a portion of the EEOC
regulations that it found had

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

inappropriately narrowed the definition
of disability. These amended regulations
are necessary to implement fully the
requirements of the ADA Amendments
Act’s broader definition of ‘‘disability.’’
Our assessment of both the costs and
benefits of this rule was necessarily
limited by the data that currently exists.
Point estimates are not possible at this
time. For that reason, and consistent
with OMB Circular A–4, we have
provided a range of estimates in this
assessment.
The preliminary regulatory impact
analysis (‘‘preliminary analysis’’) set
forth in the NPRM reviewed existing
research and attempted to estimate the
costs and benefits of the proposed rule.
More specifically, the preliminary
analysis attempted to estimate the costs
employers would incur as the result of
providing accommodations to more
individuals with disabilities in light of
the Amendments Act, the prevalence of
accommodation already in the
workplace, the cost per accommodation,
the number of additional
accommodations that the Amendments
Act would need to generate to reach
$100 million in costs in any given year,
the administrative costs for firms with at
least 150 employees, and the reported
benefits of providing reasonable
accommodations.
The preliminary analysis concluded
that the costs of the proposed rule
would very likely be below $100
million, but did not provide estimates of
aggregated monetary benefits. Because
existing research measuring the relevant
costs and benefits is limited, the
Commission’s NPRM solicited public
comment on its data and analysis.
The Commission’s final regulatory
impact analysis is based on the
preliminary assessment but has changed
significantly based on comments
received during the public comment
period on the NPRM as well as the interagency comment period on the final
regulations under EO 12866.1 These
1 The Commission specifically undertook to
provide extensive opportunities for public
participation in this rulemaking process. In
addition to the more than 600 written comments
received during the 60-day public comment period
on the NPRM, the EEOC and the U.S. Department
of Justice Civil Rights Division during that period
also held four ‘‘Town Hall Listening Sessions’’ in
Oakland, California on October 26, 2009, in
Philadelphia, Pennsylvania on October 30, 2009, in
Chicago, Illinois on November 17, 2009, and in New
Orleans, Louisiana on November 20, 2009. For each
of these sessions, Commissioners offered to be
present all day to receive in-person or telephonic
comments on any aspect of the NPRM from
members of the public on both a pre-registration
and walk-in basis. More than 60 individuals and
representatives of the business/employer
community and the disability advocacy community
from across the country offered comments at these

PO 00000

Frm 00011

Fmt 4701

Sfmt 4700

125a

16987

changes are consistent with the public
participation provisions in EO 13563
and reflect the importance of having
engaged and informed public
participation. The limitations of the
preliminary analysis approach are
outlined below, and an alternative
approach is provided to illustrate the
range of benefits and costs.
These estimates are discussed
seriatim in the following sections of this
analysis.
I. Estimated Costs
A. Estimate of Increased Number of
Individuals Whose Coverage Is Clarified
by the ADAAA and the Final
Regulations
For those employers that have 15 or
more employees and are therefore
covered by the proposed regulations, the
potential costs of the rule stem from the
likelihood that, due to Congress’s
mandate that the definition of disability
be applied in a less restrictive manner,
more individuals will qualify for
coverage under the portion of the
definition of disability that entitles them
to request and receive reasonable
accommodations.2 Thus, we first
consider the number of individuals
whose coverage is clarified by the
ADAAA and the final rule as a result of
the changes made to the definition of
‘‘substantially limits a major life
activity.’’ 3 We then consider how many
such individuals are likely to be
participating in the labor force.
four sessions, a number of whom additionally
submitted written comments.
2 Individuals who are covered under the first two
prongs of the definition of disability are entitled to
reasonable accommodations, as well as to challenge
hiring, promotion, and termination decisions and
discriminatory terms and conditions of
employment. Individuals covered solely under the
third prong of the definition of disability are not
entitled to reasonable accommodations. As we
noted in the preliminary regulatory impact analysis,
the primary costs are likely to derive from increased
numbers of accommodations being provided by
employers—assuming an accommodation is
needed, an employee is qualified, and the
accommodation does not pose an undue hardship.
No comments challenged that assessment. Thus,
while we discuss proposed increases in litigation
costs below (which apply to claims brought by
individuals covered under any prong of the
definition), we focus our attention in this section on
those individuals whose coverage is clarified under
the first two prongs of the definition of disability.
3 Prior to the ADAAA, individuals with
impairments such as cancer, diabetes, epilepsy and
HIV infection were sometimes found to be covered
under the ADA, and sometimes not, depending on
how well they functioned with their impairments,
taking into account mitigating measures. Thus, it is
not appropriate to say that all such individuals are
‘‘newly covered’’ under the ADA. For that reason,
we refer to this group throughout this analysis as
a group whose ‘‘coverage has been clarified’’ under
the ADAAA.

E:\FR\FM\25MRR2.SGM

25MRR2

16988

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

erowe on DSK5CLS3C1PROD with RULES_2

(1) Summary of Preliminary Analysis
The preliminary regulatory impact
analysis relied on a variety of
demographic surveys conducted by the
U.S. government which are designed to
estimate the number of people with
disabilities in the labor force. The
resulting estimates differ somewhat
based on the survey design, the sample
size, the age range of the population
under study, who is actually being
surveyed (the household or the
individual), the mode of survey
administration, the definition of
disability used, and the time-frame used
to define employment status.
In attempting to estimate the
increased number of individuals whose
coverage was clarified by the ADAAA
and who might need and request
accommodation,4 the Commission’s
preliminary impact analysis examined
data from the following major
population-representative Federal
surveys that contain information about
people with disabilities and their
employment status: the Current
Population Survey (CPS), the American
Community Survey (ACS), the National
Health Interview Survey (NHIS), and the
Survey of Income and Program
Participation (SIPP). Noting the
limitations of this data as applied to
estimating the number of individuals
affected by the amended ADA, we
nevertheless estimated that there were
8,229,000 people with disabilities who
were working in 2007, and that between
2.2 million and 3.5 million workers
reported that they had disabilities that
caused difficulty in working.5
Both public comments and comments
received during the inter-agency review
process under EO 12866 highlighted a
variety of limitations in our analysis.
Indeed, the alternative that we later
present indicates that the figure of 8.2
million people with disabilities used in
the preliminary analysis significantly
underestimated the number of workers
4 The preliminary analysis focused on individuals
whose coverage would be clarified under the
ADAAA and who might need and request an
accommodation. For purposes of clarity, our final
assessment focuses first on the number of
individuals whose coverage will be clarified under
the ADAAA and who are participating in the labor
force. We then move to a separate analysis of how
many of those individuals might need and request
accommodations.
5 From 2003–07, the ACS included the following
question on ‘‘Employment Disability’’ asked of
persons ages 15 or older: ‘‘Because of a physical,
mental, or emotional condition lasting six months
or more, does this person have any difficulty in
doing any of the following activities: (b) working at
a job or business?’’ See ‘‘Frequently Asked
Questions,’’ Cornell University Disability Statistics,
Online Resource for U.S. Disability Statistics,
http://www.ilr.cornell.edu/edi/disabilitystatistics
faq.cfm.

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

with impairments whose coverage
under the law will now be clarified.
The indicator of ‘‘disability’’ used by
the ACS, CPS, and NIHS depends on a
series of six questions that address
functionality, including questions about
whether an individual has any of the
following: a severe vision or hearing
impairment; a condition that
substantially limits one or more basic
physical activities such as walking,
climbing stairs, reaching, lifting, or
carrying; a physical, mental, or
emotional condition lasting 6 months or
more that results in difficulty learning,
remembering, or concentrating; or a
severe disability that results in difficulty
dressing, bathing, getting around inside
the home, going outside the home alone
to shop or visit a doctor’s office, or
working at a job or business.
This survey definition clearly
captures only a subset of the group of
people with disabilities who would be
covered under the ADA as amended.
For example, among other things:
—With respect to both physical and
mental impairments, the survey
definition does not account for the
addition of the operation of major
bodily functions as major life
activities under the newly amended
law, such as functions of the immune
system, normal cell growth, and brain,
neurological, and endocrine
functions. This makes it especially
likely that the survey data is underinclusive as to individuals with
impairments such as HIV infection,
epilepsy, cancer, diabetes, and mental
impairments whose coverage is now
clarified under the ADA.
—Even with respect to major life
activities other than major bodily
functions, the survey definition
covers a narrower range of individuals
with mental impairments since it is
limited to mental or emotional
conditions that result in difficulty
learning, remembering, concentrating,
or a severe disability resulting in
difficulty doing specific self-care
activities.
—The survey definition overall reflects
an attempt to capture individuals
with impairments whose limitations
are considered ‘‘severe’’— a degree of
limitation which is no longer required
in order for an impairment to be
considered substantially limiting
under the ADA as amended.
—The survey definition expressly
excludes many individuals whose
impairments last fewer than 6
months, even though such
impairments may substantially limit a
major life activity under the ADA
prior to and after the ADA
Amendments.

PO 00000

Frm 00012

Fmt 4701

Sfmt 4700

126a

—The survey definition is limited to
impairments that currently
substantially limit a major life
activity, and therefore does not
capture individuals with a record of a
substantially limiting impairment
who may still need accommodation
arising from that past history.
In the preliminary analysis, we used
the number of employed individuals
who have functional disabilities (as
indicated by the six-question set
described above) as a surrogate for the
number of individuals with any
disability who are working. We then
tried to determine the subset of those
employed individuals with disabilities
whose coverage would be newly
clarified as a result of the Amendments
Act, acknowledging that some people
whose coverage would be potentially
clarified by the Amendments Act were
probably not included in this baseline.
We declined to use the subset of
workers with reported employment
related disabilities, because we assumed
that some of these individuals would
have been covered even under the preADAAA definition of ‘‘disability.’’
Instead, the preliminary analysis
examined the CDC’s analysis of the
Census/SIPP data on prevalence of
certain medical conditions in the
population of non-institutionalized
individuals ages 18–64. See ‘‘Main cause
of disability among civilian noninstitutionalized U.S. adults aged 18
years or older with self reported
disabilities, estimated affected
population and percentages, by sex—
United States, 2005,’’ http://
www.cdc.gov/mmwr/preview/
mmwrhtml/mm5816a2.htm (last visited
Mar. 1, 2010). We chose to focus on
those impairments in § 1630.2(j)(5) of
the NPRM (those impairments that we
believed would ‘‘consistently’’ meet the
definition of a substantially limiting
impairment), since we considered
individuals with such impairments to
be most likely to request
accommodations as a result of the
regulations due to a greater degree of
certainty that they would be covered.
We concluded that this data suggested
that 13 percent of civilian noninstitutionalized adults with disabilities
have the following conditions: Cancer
(2.2 percent), cerebral palsy (0.5
percent), diabetes (4.5 percent), epilepsy
(0.6 percent), AIDS or AIDS related
condition (0.2 percent), ‘‘mental or
emotional’’ impairment (4.9 percent).
We assumed in our preliminary
analysis that these impairments would
occur with the same degree of frequency
among employed adults who have
functional disabilities as they do among

E:\FR\FM\25MRR2.SGM

25MRR2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

erowe on DSK5CLS3C1PROD with RULES_2

the population of persons with
disabilities generally, and so multiplied
13% times 8,229,000 workers with
reported disabilities. We thus estimated
that approximately 1,000,000 workers
with disabilities had impairments that
were more likely to be covered as the
result of the ADAAA and the EEOC’s
regulations.
(2) Comments on Preliminary Analysis
The Commission received a number
of public comments from employer
associations arguing that our figures
underestimated the increase in the
number of individuals who would now
be covered under the ADAAA, as people
with disabilities. One employer
association specifically argued that the
Commission’s preliminary estimate that
13 percent of the workers with worklimitation disabilities would
consistently meet the definition of
disability under NPRM § 1630.2(j)(5) left
out a number of disabilities listed in
that section such as autism, multiple
sclerosis, and muscular dystrophy. This
comment cited Centers for Disease
Control (CDC) data that the prevalence
rate for autism spectrum disorder is
between 2 and 6 per 1,000 individuals,
or 89,000 to 267,000 civilian noninstitutionalized adults, as well as
National Multiple Sclerosis Society data
estimating that 400,000 Americans have
multiple sclerosis, and Muscular
Dystrophy Association statistics that
approximately 250,000 Americans have
muscular dystrophy. The commenter
argued that adding these estimates to
the 5.8 million non-institutionalized
adults ages 18–64 who have cancer,
cerebral palsy, diabetes, epilepsy, AIDS
or AIDS related condition, or a mental
or emotional impairment would
increase the percentage of workers who
would consistently meet the definition
of disability under proposed section
1630.2(j)(5) to 15.1 percent. The
commenter also noted that data from the
Families and Work Institute estimates
that 21 percent of workers are currently
receiving treatment for high blood
pressure, 7 percent have diabetes, and 4
percent are being treated for mental
health issues. Finally, this commenter
pointed out that a number of
impairments similar to those listed in
NPRM § 1630.2(j)(5), but not explicitly
identified in that section, would
presumably also meet the expanded
definition of disability. Based on these
observations, the commenter noted that
the percentage of workers with covered
disabilities could be 20 to 40 percent.
In contrast, some advocates for people
with disabilities urged the Commission
to delete any estimates at all of the
numbers of persons who may meet the

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

definition of ‘‘disability’’ as amended by
the ADA Amendments Act or who may
request reasonable accommodations.
These groups noted that the broad
purposes of the ADA, as compared to
the more limited purposes of most
existing data collections and the
different definitions of ‘‘disability’’ used
in those studies, made those estimates
so uncertain, conjectural, and anecdotal
as to be unhelpful and potentially
detrimental to the goals of the ADAAA.
In addition, these advocates disputed
the Commission’s willingness in the
preliminary analysis to allow that there
may be an increase in requests for
accommodation as a result of the
ADAAA or the regulations, and
therefore disagreed with the underlying
premise of attempting to estimate the
number of individuals with disabilities
generally or the increase in the number
of individuals whose coverage under the
ADA would now be clarified. Their
argument proceeded as follows:
Employers and employees alike have
generally been aware since title I of the
ADA took effect in 1992 that requested
accommodations needed by individuals
with disabilities must be provided
absent undue hardship, and that
notwithstanding court rulings to the
contrary, most employers and
employees have continued to believe
that disabilities include impairments
such as those examples set forth in
§ 1630.2(j)(5) of the NPRM, e.g.,
epilepsy, depression, post traumatic
stress disorder, multiple sclerosis, HIV
infection, cerebral palsy, intellectual
disabilities, bipolar disorder, missing
limbs, and cancer. Therefore, these
advocates argued, it is unlikely that
individuals with such impairments have
been refraining from requesting
accommodations up until now, or that
their requests for accommodation have
been denied because they did not meet
the legal definition of disability. This
was the practical reality, even if
improper denials by employers would
have been difficult to remedy in the
courts, given the pre-Amendments Act
interpretation of the definition of
disability.6

6 These groups also noted that some individuals
with covered disabilities will not seek work.
Finally, they disputed the utility of the attempt to
estimate the number of affected workers on the
grounds the ADAAA simply restores the original
interpretation of the definition of ‘‘disability,’’ and
there is no evidence that state or local laws with
equivalent or broader definitions of disability have
experienced a significant economic impact.

PO 00000

Frm 00013

Fmt 4701

Sfmt 4700

127a

16989

(3) Revised Analysis
(a) Number of Individuals Whose
Coverage Is Clarified and Who Are
Participating in the Labor Force
The Commission agrees with the
comments made by both employer
groups and advocates for people with
disabilities that the referenced survey
data regarding the numbers of workers
with disabilities or with specific
impairments—which, as noted in the
preliminary analysis, researchers
collected for other purposes—has
limited relevance to determining the
number of workers whose coverage has
been clarified by the ADAAA. This
conclusion qualifies any use of that data
in the preliminary analysis, as well as
in this final regulatory impact analysis.
In light of these limitations, we
believe the Commission’s preliminary
analysis significantly underestimated
the number of workers with disabilities
whose coverage is clarified as a result of
the ADAAA and the final regulations.
First, we did not account for several
impairments actually listed in
§ 1630.2(j)(3)(iii) of the final regulations,
such as autism, multiple sclerosis, and
muscular dystrophy. Second, as was
pointed out during inter-agency review
of the final regulations prior to
publication, because the CDC analysis of
the Census Data on the number of
workers with self-reported disabilities
was not derived in the same way as the
ACS data, it would be incorrect to
assume that CDC data on the prevalence
of the impairments in § 1630.2(j)(3)(iii)
reflects the frequency of those
impairments among the 8,229,000 noninstitutionalized workers with
disabilities aged 18–64 found by the
ACS. Moreover, as discussed below, the
figures in the CDC analysis of the
Census Data are obviously far lower
than reported data on the incidence of
these impairments in the population
overall.
Therefore, for purposes of this final
analysis, informed by both the public
comments and comments received
during the inter-agency review process
under EO 12866, we conclude that the
figure of 8.2 million people with
disabilities used in the preliminary
analysis, and the calculations made
with it, significantly underestimated the
number of workers with impairments
that will now be covered as having a
substantially limiting impairment or
record thereof under the ADAAA and
the final regulations.
Our revised analysis proceeds as
follows. In analyzing the available data,
we are mindful of the fact that the
Amendments Act was designed to make
it easier to meet the definition of

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

16990

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

disability under the ADA and to expand
the universe of people considered to
have disabilities. Prior to the
Amendments Act, the Supreme Court in
Sutton v. United Air Lines, Inc., 527
U.S. 471 (1999), used the ADA’s finding
that approximately 43 million
Americans had disabilities as part of its
reason for concluding that the benefits
of mitigating measures (e.g., medication,
corrective devices) an individual used
had to be taken into account when
determining whether a person had a
substantially limiting impairment. The
Amendments Act rejected this
restrictive definition of disability and
explicitly removed this finding from the
law. It also provided that the
ameliorative effects of mitigating
measures (except ordinary eyeglasses or
contact lenses) were not to be taken into
account in determining whether a
person’s impairment substantially
limited a major life activity.
Thus, based on the Amendments
Act’s rejection of Sutton alone—apart
from the many other changes it made to
the definition of a substantial limitation
in a major life activity—we know that
the number of people now covered
under the ADA as having a substantially
limiting impairment or a record thereof
should be significantly more than 43
million. (The Court surmised that the 43
million number was derived from a
National Council on Disability report,
Toward Independence (Feb. 1986),
available at http://www.ncd.gov/
newsroom/publications/1986/
toward.htm, which in turn was based on
Census Bureau data and other studies
that used ‘‘functional limitation’’
analyses of whether individuals were
limited in performing selected basic
activities.)
Under the ADA as amended, the
definition of an impairment that
substantially limits a major life activity
will obviously be broader than captured
by prior measures, since ‘‘substantial’’
no longer means ‘‘severe’’ or
‘‘significantly restricted,’’ major life
activities now include ‘‘major bodily
functions,’’ the ameliorative effects of
mitigating measures (other than
ordinary eyeglasses or contact lenses)
are disregarded, and conditions that are
episodic or in remission are
substantially limiting if they would be
when active. Based on the available
data, it is impossible to determine with
precision how many individuals have
impairments that will meet the current
definition of substantially limiting a
major life activity or a record thereof.
We do know, however, that, at a
minimum, this group should easily be
concluded to include individuals with
the conditions listed in § 1630.2(j)(3)(iii)

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

of the final regulations—including
autism, cancer, cerebral palsy, diabetes,
epilepsy, HIV infection, multiple
sclerosis, muscular dystrophy, and a
variety of mental impairments.
While it is true that, prior to the
Amendments Act, many of these
individuals were assumed to be covered
under the law by their employers, the
reality was that large numbers of
individuals with these conditions were
considered by the courts not to have
disabilities, based on an individualized
assessment of how well the individuals
were managing with their impairments,
taking into account mitigating measures.
Thus, for purposes of this regulatory
assessment, we consider individuals
with all of these impairments to be
individuals whose coverage has now
been clarified by the Amendments Act.
By contrast, we are not counting
individuals with certain conditions also
listed in § 1630.2(j)(3)(iii) of the final
regulations—mobility impairments
requiring use of a wheelchair, blindness,
deafness, and intellectual disabilities—
as individuals whose coverage has now
been clarified by the Amendments Act
since, notwithstanding some exceptions,
courts consistently found such
individuals to be covered under the
ADA even prior to the Amendments
Act.
Thus, we use as a starting point the
data reported by government agencies
and various organizations on the
number of individuals in the United
States with autism, cancer, cerebral
palsy, diabetes, epilepsy, HIV infection,
multiple sclerosis, muscular dystrophy,
and a variety of mental impairments.7
Adding these admittedly disparate and
potentially overlapping numbers (and
acknowledging that some of these
estimates include children and are not
restricted by employment status), we
can assume a rough estimate of the
number of individuals with these
impairments who would be found
substantially limited in a major life
activity as a result of the Amendments
Act, as follows:
—Autism—Approximately 1.5 million
individuals in the United States are
affected by autism.8
—Multiple Sclerosis—Approximately
400,000 Americans have multiple
7 We note that this approach was used by one of
the comments submitted by an employer
association.
8 See ‘‘What is Autism?’’ http://
www.autismspeaks.org/whatisit/index.php (last
visited Mar. 1, 2011); see also Centers for Disease
Control, ’’Prevalence of the Autism Spectrum
Disorders (ASDs) in Multiple Areas of the United
States, 2000 and 2002,’’ available at http://
www.cdc.gov/ncbddd/autism/documents/
AutismCommunityReport.pdf (various studies
regarding prevalence in children).

PO 00000

Frm 00014

Fmt 4701

Sfmt 4700

128a

sclerosis according to the National
Multiple Sclerosis Society.9
—Muscular Dystrophy—Approximately
250,000 Americans have muscular
dystrophy according to the Muscular
Dystrophy Association.10
—Cancer—In 2007, approximately
11,714,000 individuals were living
with cancer in the United States.11
—Diabetes—An estimated 18.8 million
adults in the United States have
diabetes according to the CDC.12
—Epilepsy—Approximately 3 million
Americans 13 (or subtracting
approximately 326,000
schoolchildren under 15, about 2.6
million people 15 or over) have
epilepsy, according to the Epilepsy
Foundation website, and an estimated
2 million people have epilepsy,
according to the CDC.
—Cerebral Palsy—Between 1.5 and 2
million children and adults have
cerebral palsy in the United States
according to the United Cerebral Palsy
Research and Educational
Foundation.14
—HIV Infection—The CDC estimates
that more than 1.1 million Americans
are living with HIV infection.15
—Mental Disabilities—Approximately
21 million individuals (6% or 1 in 17
Americans) have a serious mental
illness according to the National
Alliance on Mental Illness website
(citing National Institute of Mental
Health reports).16
Thus, based on this data, the number
of individuals with the impairments
cited in § 1630.2(j)(3(iii) could be at
least 60 million. In addition, we know
that people with many other
9 See ‘‘Who Gets MS?’’ http://
www.nationalmssociety.org/about-multiplesclerosis/what-we-know-about-ms/who-gets-ms/
index.aspx (last visited Mar. 1, 2011).
10 See ‘‘Answers to Frequently Asked Questions,’’
http://www.mda.org/news/
080804telethon_basic_info.html (last visited Mar. 1,
2011).
11 See ‘‘Cancer Prevalence: How Many People
Have Cancer?’’ http://www.cancer.org/cancer/
cancerbasics/cancer-prevalence (last visited Mar. 1,
2011).
12 See ‘‘2011 National Diabetes Fact Sheet’’
(released Jan. 26, 2011), http://www.diabetes.org/
diabetes-basics/diabetes-statistics/ (last visited Mar.
1, 2011).
13 See ‘‘Epilepsy and Seizure Statistics,’’ http://
www.epilepsyfoundation.org/about/statistics.cfm
(last visited Mar. 1, 2011); CDC, Epilepsy ‘‘Data and
Statistics,’’ http://www.cdc.gov/Epilepsy/.
14 See ‘‘Cerebral Palsy Fact Sheet,’’ http://
www.ucp.org/uploads/cp_fact_sheet.pdf (last
visited Mar. 1, 2011).
15 See ‘‘HIV in the United States,’’ http://
www.cdc.gov/hiv/topics/surveillance/resources/
factsheets/us_overview.htm (last visited Mar. 1,
2011).
16 ‘‘What is Mental Illness: Mental Illness Facts,’’
http://www.nami.org/
template.cfm?section=About_Mental_Illness (last
visited Mar. 1, 2011).

E:\FR\FM\25MRR2.SGM

25MRR2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

erowe on DSK5CLS3C1PROD with RULES_2

impairments will virtually always be
covered under the amended ADA
definition of an impairment that
substantially limits a major life activity
or record thereof.
We recognize that the above figures
on the prevalence of § 1630.2(j)(3)(iii)
impairments are over-inclusive as a
measure of the potential number of
workforce participants with these
impairments, since in some instances
they include people of all ages and
those who are not in the labor force.
Therefore, we must also identify how
many of these individuals are currently
participating in the labor force.
Again, we are faced with significant
limitations in the data available to us.
The newest data released in January
2011 by the Bureau of Labor Statistics
(BLS) estimates that 20 percent of
people with disabilities age 16 and older
participate in the labor force and, of
those, 13.6 percent are considered to be
unemployed.17 But the BLS uses a
functional limitation analysis to
determine who has a disability which,
as we have explained above, is
significantly different from the
definition of disability under the ADA
as amended. Hence, we must assume
this percentage is extremely underinclusive. The BLS data estimates that
the labor force participation rate for all
civilian non-institutionalized people 16
and older (including people with and
without disabilities) is 64 percent. We
can thus assume that somewhere
between 20 and 64 percent of
individuals with impairments identified
in § 1630.2(j)(3)(iii) will be participating
in the labor force.
Using the 60 million figure, if we
assume 20% of individuals with
impairments identified in
§ 1630.2(j)(3)(iii) of the final regulations
are participating in the labor force, then,
considering those impairments alone,
approximately 12 million individuals
whose coverage is now clarified under
the ADA are in the labor force (20%
times 60 million). If we assume 64% of
individuals with these disabilities are in
the labor force, then the number of labor
force participants whose coverage is
clarified under the ADA is
approximately 38.4 million.

17 Participants in the labor force include
individuals who currently have a job or are actively
looking for one. U.S. Department of Labor, Office
of Disability Employment Policy, Disability
Employment Statistics Q&A, http://www.dol.gov/
odep/categories/research/bls.htm.

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

B. Estimated Increase in Reasonable
Accommodation Requests and Costs
Attributable to the ADAAA and the
Final Regulations
(1) Summary of Preliminary Analysis
As noted above, our preliminary
analysis had concluded there would be
an additional one million people with
disabilities covered under the ADA, as
amended. The preliminary analysis then
attempted to estimate the subset of these
million workers who would actually
need reasonable accommodations,
relying on a study by Craig Zwerling et
al., Workplace Accommodations for
People with Disabilities: National
Health Interview Survey Disability
Supplement, 1994–1995, 45 J.
Occupational & Envtl. Med. 517 (2003).
According to the Zwerling et. al study,
16% of employees with impairments or
functional limitations surveyed said
they need one of 17 listed
accommodations. We assumed,
therefore, using the 16% taken from the
Zwerling study, that 16% of the one
million workers whom we identified
would also need accommodations, and
that the resulting 160,000 requests
would occur over a period of five years.
With regard to the potential costs of
accommodations, the preliminary
analysis set forth a review of the data
from a series of studies providing a wide
range of estimates of the mean and
median costs of reasonable
accommodation. The means cited in the
data ranged from as low as $45 to as
high as $1,434, based on a variety of
studies done by academic and private
researchers as well as the Job
Accommodation Network (JAN). The
$45 mean direct cost of accommodation
was reported in a study (Helen Schartz
et al., Workplace Accommodations:
Evidence-Based Outcomes 27 Work 345
(2006)) examining the costs and benefits
of providing reasonable
accommodations, using data from an
examination of costs at a major retailer
from 1978 to 1997 (P. D. Blanck, The
Economics of the Employment
Provisions of the Americans with
Disabilities Act: Part I—Workplace
Accommodations, 46 DePaul L. Rev. 877
(1997)). The $1,434 mean cost of
accommodation cited in the preliminary
analysis was derived from data
reviewed in JAN’s January 2009 issue of
its periodically updated study entitled
‘‘Workplace Accommodations: Low
Cost, High Impact,’’ which used 2008
data. The most recent JAN study, issued
September 1, 2010, reported a mean
accommodation cost of $1,183, based on
2009 data.
Using estimates of both the mean and
median cost of accommodations, the

PO 00000

Frm 00015

Fmt 4701

Sfmt 4700

129a

16991

preliminary analysis estimated that the
ADA Amendments Act and these
regulations would result in increased
costs of reasonable accommodation of
from $19,000,000 to $38,000,000
annually.
(2) Comments on Preliminary Analysis
The Commission received a number
of public comments from employer
associations arguing that because we
had underestimated the incremental
increase in the number of individuals
with disabilities, we had also
necessarily underestimated the number
of additional requests for
accommodation that could be
attributable to the Amendments Act and
the final regulations. Thus, one
commenter recommended using a figure
of 20% rather than 13% to represent the
number of individuals with just those
impairments identified in NPRM
§ 1630.2(j)(5) and then assumed that the
percentage of those individuals who
would request an accommodation
would be 49%. That commenter thus
concluded that a total of 576,000
individuals covered under § 1630.2(j)(5)
would request a reasonable
accommodation. This commenter also
noted that even this figure would likely
be too low because workers may move
from job to job and renew
accommodation requests, or a worker
might need more than one
accommodation.
The Commission also received
comments from employers on the
estimated costs of accommodations
attributable to the Amendments Act and
the regulations, primarily contending:
—The specific data on accommodation
costs cited by the Commission in the
preliminary analysis was too low (one
employer association asserted that the
cost will be at least $305.7 million for
the first year, with administrative
costs likely to exceed $101.9 million
per year on a recurring basis; a state
government entity commented that
the Commission should take into
account additional administrative
costs employers may bear in order to
comply, but did not attempt to
estimate these additional costs);
—Each additional accommodation
request will affect an employer’s
ability to cope with the overall
number of requests; and
—The undue hardship defense is
insufficient to address the financial
concerns of small employers.
By contrast, disability rights groups
asserted that even if the Commission’s
estimate of 160,000 additional workers
who would request accommodations as
a result of the ADA Amendments Act

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

16992

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

provided an outer estimate of the
number of affected workers, it was too
high of a number to gauge the impact of
the Amendments Act, in part because
the Amendments Act affected those
workers whom Congress had always
intended to be covered by the ADA and
because many employers were treating
them as covered.
With regard to the costs of
accommodations, a number of
comments from academics and
disability and civil rights organizations
concurred with our preliminary
conclusion that the cost would be below
$100 million and that no economic
impact analysis was required or feasible,
and/or argued that the Commission’s
preliminary analysis had overstated the
potential economic impact. Specifically,
they argued that the Commission’s
rough estimates of the number and cost
of accommodation requests were
speculative and were unnecessary to
conclude that the Act’s costs are less
than $100 million, since available
research overwhelmingly demonstrates
that accommodation costs are modest,
and because neither the Amendments
Act nor the proposed regulations change
the basic structure of the original ADA.
They also argued that the Commission’s
method of interpreting certain
reasonable accommodation data
resulted in overestimation of costs; that
many accommodations for specific
types of impairments have no or very
little cost; and that over time, ongoing
medical and technological advances can
be reasonably expected to reduce both
existing and new accommodation costs
associated with the ADA or the
Amendments Act.
Professor Peter Blanck of the Burton
Blatt Institute at Syracuse University, a
co-author of the 2006 ‘‘Workplace
Accommodations: Evidence-Based
Outcomes’’ study, filed public
comments offering a number of
clarifications specifically regarding
citation to his study’s data, and arguing
that the Commission had overstated the
cost of accommodations, because the
preliminary analysis used a ‘‘mean’’ (or
average, calculated by adding all values
in a dataset and dividing by the number
of points in the dataset), rather than a
‘‘median’’ (the middle point in a dataset).
Professor Blanck considered the
median a better measure of the cost of
accommodations because so many
accommodations have no cost. He
pointed out that based on his research,
49.4% of accommodations had zero
direct costs. For the 50.6% of
accommodations with a cost greater
than zero, the median cost in the first
calendar year was $600. Professor
Blanck further found that for all

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

accommodations, including those with a
zero cost, the median cost of
accommodations was found to be $25.
Of key importance, no public
comments contradicted the
Commission’s observation in the
preliminary analysis that there is a
paucity of data on the costs of providing
reasonable accommodation, and that
much of the existing data is obtained
either through limited sample surveys
or through surveys that collect limited
information. While some employer
groups disputed the Commission’s cost
estimates, none cited any research or
studies on actual accommodation costs.
(3) Revised Analysis
Our revised analysis of potential costs
for additional accommodations begins
with a revised estimate of the number of
new accommodation requests, based on
the upward adjustment of the number of
people with disabilities whose coverage
is clarified under the Amendments Act.
As we note above, that range is 12
million to 38.4 million people.
(a) Estimated Number of New
Accommodation Requests
Estimating the increase in expected
requests for reasonable accommodations
attributable to the Amendments Act and
the final rule is difficult because it
requires assuming that some number of
individuals with disabilities will now
perceive themselves as protected by the
law and hence ask for accommodation,
but had not previously assumed they
were covered and therefore had not
asked for accommodations. In reality,
individuals with disabilities such as
epilepsy, diabetes, cancer, and HIV
infection may have considered
themselves, and may have been treated
by their employers as, individuals who
could ask for accommodations such as
flexible scheduling or time off.
Moreover, in many cases, such
accommodations may have been
requested and provided without anyone
in the process even considering such
workplace changes as being required
reasonable accommodations under the
ADA.
Recognizing that it is impossible to
determine with precision the number of
individuals in the labor force whose
coverage is now clarified under the law
and who are likely to request and
require reasonable accommodations as a
result of that increased clarity, we have
tried to determine the number of such
individuals by taking the estimated
number of labor force participants
whose coverage has been clarified and
multiplying it by the percentage of
employees who report needing
accommodations.

PO 00000

Frm 00016

Fmt 4701

Sfmt 4700

130a

According to the Zwerling et al. study
cited in our preliminary analysis, 16%
of employees with impairments or
functional limitations surveyed said
they needed one of 17 listed
accommodations. Workplace
Accommodations for People with
Disabilities: National Health Interview
Survey Disability Supplement, 1994–
1995, 45 J. Occupational & Envtl. Med.
517 (2003)). This 16% figure may be an
overestimate of the percentage of those
employees whose coverage has been
clarified by the Amendments Act who
will actually need accommodations,
since of the 17 accommodations listed
in the study, a number of them would
more likely have been needed by
individuals whose coverage was not
questioned prior to the Amendments
Act. For example, these
accommodations include accessible
restrooms, automatic doors, installation
of a ramp or other means of physical
access, and the provision of sign
language interpreters or readers. These
are types of accommodations that would
apply specifically to individuals who
were clearly covered under the ADA,
even prior to the Amendments Act.
Only 10.2% of the employees surveyed
asked for accommodations such as break
times, reduced hours, or job redesign,
which are the more likely
accommodations to be requested by
those individuals whose coverage has
now been clarified. Nevertheless,
because the Zwerling study surveyed a
limited range of people with disabilities,
we will use the full 16% figure.
Applying the 16% figure to represent
the percentage of individuals whose
coverage has been clarified and who
would need reasonable
accommodations, the resulting increase
in reasonable accommodations
requested and required as a result of the
Amendments Act could range from
approximately 2 million (assuming 12
million labor force participants) to 6.1
million (assuming 38.4 million labor
force participants).
(b) Factors Bearing on Reasonable
Accommodation Costs
After fully considering the
preliminary analysis and the public
comments, and after further
consideration of the issues, the
Commission is persuaded of the
following facts concerning the costs of
accommodations:
—Of those reasonable accommodations
requested and required, only a subset
will have any costs associated with
them. The studies show that about
half of accommodations have zero or
no cost, and had findings regarding

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
the mean cost ranging from $45 and
$1,183. But most, if not all, of these
studies have included
accommodations for people who use
wheelchairs, who are deaf, or who are
blind. These tend to be the most
expensive accommodations (e.g.,
physical access changes such as
ramps, automatic doors, or accessible
bathrooms; sign language interpreters
and readers; Braille and/or computer
technology for reading). Passage of the
Amendments Act and promulgation
of these regulations do not affect these
individuals or render employers
newly responsible for providing such
accommodations, since there was
never any dispute, even prior to
enactment of the Amendments Act,
that people with these kinds of
impairments met the definition of
disability. Therefore, any estimate of
newly imposed costs of
accommodations should generally
exclude these types of higher-cost
accommodations.
—To the extent the calculation of any
mean accommodation cost is derived
from data that includes
accommodations that are purchased
for a one-time cost but will be used
over a period of years once owned by
the employer (either for that
employee’s tenure or for future
employees), the annual cost is
actually much lower than the onetime cost. For example, physical
renovations and accessibility
measures, equipment, furniture, or
technology, among other
accommodations, may be used over a
period of many years at no additional
cost to the employer.
—A small percentage of people whose
coverage has been clarified may need
some physical modifications to their
workspace—e.g., the person with mild
cerebral palsy who might need voice
recognition software for difficulty
with keyboarding, or the person
whose multiple sclerosis affects
vision who needs a large computer
screen.
—Most of the people who will benefit
from the amended law and
regulations are people with
conditions like epilepsy, diabetes,
cancer, HIV infection, and a range of
mental disabilities. The types of
accommodation these individuals will
most commonly need are changes in
schedule (arrival/departure times or
break times), swapping of marginal
functions, the ability to telework,
policy modifications (e.g., altering for
an individual with a disability when
or how a task is performed, or making
other types of exceptions to generallyapplicable workplace procedures),

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

reassignment to a vacant position for
which the individual is qualified,
time off for treatment or recuperation,
or other similar accommodations.
—Many of these accommodations will
not require significant financial
outlays. Some accommodations, such
as revising start and end times,
allowing employees to make up hours
missed from work, and creating
compressed workweek schedules,
may result in administrative or other
indirect costs. However, they may
also result in cost savings through
increased retention, engagement, and
productivity. Other accommodations,
such as providing special equipment
needed to work from home, will have
costs, but might also result in cost
savings (e.g., reduced transportation
costs, environmental benefits, etc.).
—Time off, both intermittent and
extended, may have attendant costs,
such as temporary replacement costs
and potential lost productivity. But
these, too, may be offset by increased
retention and decreased training costs
for new employees.
—With respect to those individuals
whose coverage has been clarified and
who both request and need
accommodation, employers will
sometimes provide whatever is
requested based on existing employer
policies and procedures (e.g., use of
accrued annual or sick leave or
employer unpaid leave policies,
employer short- or long-term
disability benefits, employer flexible
schedule options guaranteed by a
collective bargaining agreement,
voluntary transfer programs, or ‘‘early
return to work’’ programs), or under
another statute (e.g., the Family and
Medical Leave Act or workers’
compensation laws).
(c) Calculation of Mean Costs of
Accommodations Derived From Studies
We disagree with Professor Blanck’s
observation that the median cost is the
appropriate value for this analysis
because this analysis seeks to estimate
the total cost of new accommodations
across the entire economy resulting
from the Amendments Act and final
rule. Using the median value in this
case would not capture the total cost to
the nation’s economy.
For that reason, we will rely on the
range of mean costs of accommodations
derived from various studies and will
attempt to make a reasonable estimation
of the likely mean cost of
accommodation for those employees
whose coverage has been clarified as a
result of the Amendments Act. In so
doing, we again recognize that
references to this data must be qualified

PO 00000

Frm 00017

Fmt 4701

Sfmt 4700

131a

16993

by (1) the fact that high cost outlier
accommodations are not ones likely to
be requested by those whose coverage
has been clarified by the Amendments
Act and the final rule, and (2) the fact
that reasonable accommodations are not
needed, requested by, or provided for all
individuals with disabilities.
The Job Accommodation Network
(JAN) conducts an ongoing evaluation of
employers that includes accommodation
costs, using a questionnaire to collect
data from employers who have
consulted JAN for advice on providing
reasonable accommodation. As noted
above, the most recent JAN study
(Workplace Accommodations: Low
Cost, High Impact (JAN 2009 Data
Analysis) (Sept. 1, 2010)) found that the
median cost of reasonable
accommodations that had more than a
zero cost reported by JAN clients was
$600, and the mean cost was $1,183.18
JAN’s cumulative data from 2004–2009
shows that employers in their ongoing
study report that a high percentage
(56%) of accommodations cost nothing
to provide.
According to JAN,19 its calculation of
the $1,183 mean cost of accommodation
was derived from a survey of 424
employers. Two of those employers
reported outlying costs of $100,000
each, in both cases for the design and
purchase of information system
databases for proprietary information
that would be accessible to employees
with vision impairments. Such
employees would have likely been
covered by the ADA prior to the
Amendments Act, and the type of
higher-cost technological
accommodation at issue is not the type
of accommodation that will likely be
needed by most of those whose coverage
has been clarified by virtue of the
Amendments Act and final regulations.
Moreover, in each case, the database
was being developed for business
reasons, and not specifically as an
accommodation.20
According to JAN, if these two outlier
accommodations are deleted from the
18 Information provided to the EEOC by Beth Loy,
Ph.D., Job Accommodation Network.
19 Id.
20 Id. The survey data received by JAN did not
indicate whether the $100,000 reported cost was the
total cost of the database or the added cost of
accessibility. Significantly, one of these employers
is a federal agency that was required to purchase
an accessible database under section 508 of the
Rehabilitation Act of 1973, as amended, so would
have had to do so anyway. Therefore, it is not clear
that it would be appropriate to consider this a cost
of accommodating a single employee under section
501 of the Rehabilitation Act, as amended. The
other employer was a federal contractor, and may
therefore have had obligations under its contract
and/or section 503 of the Rehabilitation Act, as
amended, to include accessible features. Id.

E:\FR\FM\25MRR2.SGM

25MRR2

16994

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

erowe on DSK5CLS3C1PROD with RULES_2

data set, the mean cost of
accommodation based on the remaining
422 reported accommodations in the
survey drops to $715.21 Even this figure
may overestimate the mean cost of
accommodations needed for those
whose coverage has been clarified by
the Amendments Act, most of which we
believe will have less significant costs.
Nonetheless, we will use $715 as a
starting point for calculating the annual
mean cost of accommodations
attributable to the changes in the
definition of a substantially limiting
impairment.
The mean cost of $715 represents the
average one-time cost of providing a
reasonable accommodation. However,
JAN reports that many of these
accommodations reported in the study
involved ones that are then used by the
employee (or additional employees) on
an ongoing basis, in many cases
presumably for a period of years. These
included items such as software, chairs,
desks, stools, headsets, keyboards,
computer mice, sound absorption
panels, lifting devices, and carts.22
Given the nature of these items, their
useful life, and ever-advancing
technology, we assume for purposes of
this analysis a useful life of five years
for these items. If those
accommodations that can be used on an
ongoing basis are used for five years,
this would reduce the mean annual cost
to one-fifth of $715 (or $143, which we
will round to $150 for purposes of this
analysis) with respect to those
accommodations. In addition, the mean
of $715 includes one-time costs of more
expensive accommodations such as
equipment, technology, and physical
workplace accessibility for individuals
who were already covered, whereas we
believe the cost of the majority of
accommodations associated with those
whose coverage is clarified by the
Amendments Act will be lower.
Therefore, any estimate of the mean cost
of accommodations overall may
exaggerate the cost of accommodations
for such individuals. Thus, for purposes
of considering the annual impact
pursuant to EO 12866, we believe it is
appropriate to use the estimated lower
mean of $150.
(d) Accommodation Cost Scenarios
Using our estimates above regarding
the possible range of the number of
individuals whose coverage is clarified
under the definition of a substantially
limiting impairment or record thereof
and who are likely to request and
require accommodation, we can project

C. Estimated Increase in Administrative
and Legal Costs Attributable to the
ADAAA and the Final Regulations
(1) Summary of Preliminary Analysis
In the preliminary analysis, the
Commission posited that administrative
costs of complying with the ADA
Amendments Act might be estimated at
$681 in a human resource manager’s
time,23 plus the fees, if any, charged for
any training course attended.
With respect to training costs, we
noted that the EEOC provides a large
number of free outreach presentations
for employers, human resource
23 Occupational Outlook Handbook, 2008–09
Edition, http://stats.bls.gov/OCO/OCOS021.htm
(downloaded September 2, 2009).

21 Id.
22 Id.

VerDate Mar<15>2010

the following estimates of the likely
incremental cost of providing
reasonable accommodation attributable
to the Amendments Act and the final
rule, using a $150 mean annual cost of
accommodation. Since we would not
expect all of these new accommodation
requests to be made in a single year, we
will assume they will be made over a
period of five years, with estimated
costs as follows, using the abovediscussed estimate of the incremental
increase in reasonable accommodations
requested and required as a result of the
Amendments as ranging from 2 million
to 6.1 million:
400,000 new accommodations annually
(2 million over 5 years) × $150 =
$60 million annually
1.2 million new accommodations
annually (6.1 million over 5 years)
× $150 = $183 million annually
Thus, the lower-bound estimated cost
of the incremental increase in
accommodations attributable to the
Amendments Act and the final
regulations would be $60 million
annually, and the higher-bound
estimated cost would be $183 million.
The Commission recognizes that the
range of cost estimates is quite large.
However, given the lack of available
data and the limitations in existing data,
the resultant high level of uncertainty
about the number of individuals whose
coverage is clarified under the
Amendments Act, the uncertainty about
the number of such individuals who
would be newly asking for
accommodations, and the uncertainty
about the actual mean cost of the
accommodations that might be
requested by these individuals, we are
not able to provide more precise
estimates of the costs of new
accommodations attributable to the
ADA Amendments Act and the final
rule.

15:22 Mar 24, 2011

Jkt 223001

PO 00000

Frm 00018

Fmt 4701

Sfmt 4700

132a

managers, and their counsel, as well as
fee-based training sessions offered at
approximately $350. Therefore, the
preliminary analysis offered a rough
estimate of these administrative costs,
even if fee-based training were sought,
of $1,031. The preliminary analysis
assumed that these figures will
underestimate costs at large firms but
will overestimate costs at small firms
and at firms that do not have to alter
their policies. This would have resulted
in a one time cost of approximately $70
million, although the Commission was
unable to identify empirical research to
support these very rough estimates. This
figure assumed firms with fewer than
150 employees would incur no
administrative costs from this rule. The
preliminary analysis further assumed
that smaller entities are less likely to
have detailed reasonable
accommodation procedures containing
information relating to the definition of
disability that must be revised or
deleted. We posited in our preliminary
analysis that larger firms, such as the
18,000 firms with more than 500
employees, would be more likely to
have formal procedures that may need
to be revised.24
The preliminary analysis also found
that while there may be additional costs
associated with processing and
adjudicating additional requests for
accommodation, these costs may be
offset in part by the fact that application
of the revised definition of ‘‘disability’’
will decrease the time spent processing
accommodation requests generally.
There were no findings or assumptions
regarding increased or decreased
litigation costs in the preliminary
analysis.
(2) Comments on Preliminary Analysis
Various employer groups commented
that the definitional changes will cause
confusion and litigation, with associated
costs, and that the Commission’s
preliminary estimate of training and
related costs was not based on sufficient
research. Specifically, they commented
that the Commission had underestimated the costs that have been or
will be incurred by employers to update
internal policies and procedures to
reflect the broader definition of
disability and to train personnel to
ensure appropriate compliance with the
ADAAA and the final regulations, and
that the Commission should have taken
into account not just salaries but also
benefits paid to such individuals to
represent the cost of time spent on such
training. They also asserted that there
24 http://www.sba.gov/advo/research/us_06ss.pdf
(downloaded Sept. 2, 2009).

E:\FR\FM\25MRR2.SGM

25MRR2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
would be recurring costs of one-third of
first year costs (which they estimated
would be more than $305 million for all
employers).
By contrast, other commenters
asserted that the Commission’s
preliminary analysis overestimated
administrative costs because it failed to
account for administrative benefits.
They argued that costs associated with
needed updates to employer policies
and procedures will also have the
benefit of simplifying and streamlining
those policies and procedures and the
coverage determination part of the
interactive process.

erowe on DSK5CLS3C1PROD with RULES_2

(3) Revised Analysis of Administrative
Costs
The Commission concludes that it
inappropriately assessed the additional
training costs that would be incurred by
employers with 150 or more employees.
Employers of this size are likely to
receive training on both the ADAAA
and the final regulations as part of feebased or free periodic update training
on EEO topics that they otherwise
regularly attend. Our preliminary
analysis did not account for this fact,
but rather assumed that most or all such
employers would attend a training on
the regulations, at a cost of $350.00, that
they would not otherwise have
attended.
Even if some larger employers decide
to attend an EEO training in a particular
year because of the issuance of the final
regulations (when they otherwise would
not have attended such a training),
information about the final regulations
is likely to account for only a fraction
of the training (typically the EEOC’s
one- and two-day training sessions
involve multiple topics). Therefore, only
a fraction of the $350.00 we assumed an
employer would spend on training can
be said to be a cost resulting from the
ADAAA or the final regulations.
The Commission also concludes that
it should have accounted for
administrative costs borne by employers
with 15 to 149 employees. These costs
are limited, however, by the fact that
such businesses generally tend to lack
formal reasonable accommodation
policies and usually avail themselves of
free resources (e.g., guidance and
technical assistance documents on the
EEOC’s Web site) in response to
particular issues that arise, rather than
receiving formal training on a regular
basis. Additionally, smaller employers
are called upon to process far fewer
reasonable accommodation requests and
may more easily be able to establish
undue hardship, even where an
accommodation is requested by

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

someone whose coverage has been
clarified under the ADAAA.
We also note that emphasizing the
anticipated ‘‘difference’’ in compliance
costs between smaller and larger entities
may overlook some specific benefits
incurred by smaller entities. For
example, the EEOC makes available
more free outreach and training
materials to employers than it does paid
trainings. Moreover, as noted above,
smaller entities are less likely to have
detailed reasonable accommodation
procedures containing information
relating to the definition of disability
that must be revised or deleted. The
EEOC expects to issue new or revised
materials for small businesses as part of
revisions made to all of our ADA
publications, which include dozens of
enforcement guidances and technical
assistance documents, some of which
are specifically geared toward small
business (e.g., ‘‘The ADA: A Primer for
Small Business,’’ http://www.eeoc.gov/
ada/adahandbook.html).
Notwithstanding the one-time costs to
some employers associated with making
and implementing those revisions to
their internal procedures, the
Commission notes that there will be
significant time savings that will be
achieved on an ongoing basis once
employers begin utilizing their newly
simplified procedures. Additionally,
after initial revision, subsequent
updates will not be needed more
frequently than they were prior to the
ADAAA and final regulations, and there
is no reason to anticipate recurring costs
of any significance.
(4) Analysis of Legal Costs
It is difficult to predict either the
increase or decrease in legal costs as a
result of the Amendments Act and the
final rule.
We anticipate that the legal fees and
litigation costs regarding whether an
individual is a person with a disability
within the meaning of the ADA will
significantly decrease in light of the
ADAAA and its mandate that coverage
be construed broadly. However, in those
cases where courts would previously
have declined to reach the merits of
ADA claims based on a determination
that a plaintiff did not have a disability,
legal fees and litigation costs regarding
the merits of the case—e.g., whether an
individual was subject to discrimination
on the basis of his or her disability,
whether an individual with a disability
is ‘‘otherwise qualified,’’ whether an
accommodation constitutes an ‘‘undue
hardship,’’ etc.—might increase as a
result of more cases proceeding to the
merits.

PO 00000

Frm 00019

Fmt 4701

Sfmt 4700

133a

16995

In addition, we anticipate that in light
of the ADAAA, including the expanded
‘‘regarded as’’ definition of disability
contained in the ADAAA, there will be
an increase in the number of EEOC
charges and lawsuits filed. In particular,
we anticipate that more individuals
with disabilities might file charges with
the Commission. Moreover, we
anticipate that plaintiffs’ lawyers, who
previously might not have filed an ADA
lawsuit because they believed that an
employee would not be covered under
the Supreme Court’s cramped reading of
the term ‘‘disability,’’ will now be more
inclined to file lawsuits in cases where
the lawyers believe that discrimination
on the basis of disability—broadly
defined—has occurred. As a result, we
believe that there may be additional
legal fees and litigation costs associated
with bringing and defending these
claims, but we have no basis on which
to estimate what those costs might be.
There will be costs to the Commission
primarily for increased charge
workload. The Congressional Budget
Office (CBO) estimated these costs based
on H.R. 3195, a prior version of the
legislation that became the ADAAA.
The CBO found that the bill would
increase this workload by no more than
10 percent in most years, or roughly
2,000 charges annually. Based on the
EEOC staffing levels needed to handle
the agency’s current caseload, CBO
expected that implementing H.R. 3195
would require 50 to 60 additional
employees. CBO estimated that the costs
to hire those new employees would
reach $5 million by fiscal year 2010,
subject to appropriation of the necessary
amounts. (H.R. 3195, ADA Amendments
Act of 2008, Congressional Budget
Office, June 23, 2008, at 2.)
Nevertheless, we note that although
charge data indicate an increase in ADA
charges over the period of time since the
Amendments Act became effective, this
increase may be attributable to factors
unrelated to the change in the ADA
definition of disability. For example,
government research has found a higher
incidence of termination of individuals
with disabilities than those without
disabilities during economic downturns.
Kaye, H. Steven, ‘‘The Impact of the
2007–09 Recession on Workers with
Disabilities,’’ Monthly Labor Review
Online (U.S. Dept. of Labor Bureau of
Labor Statistics, Oct. 2010, Vol. 133, No.
10), http://www.bls.gov/opub/mlr/2010/
10/art2exc.htm (last visited Mar. 1,
2010). We also note that ADA charges
were steadily rising over a period of
years even prior to enactment of the
ADA Amendments Act. To the extent
that factors other than the Amendments

E:\FR\FM\25MRR2.SGM

25MRR2

16996

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

Act explain or partially explain the
increase in ADA charges since the Act
took effect, the increase in charges
would not be attributable to the
Amendments Act or the final
regulations.
In sum, while there might be a
potential increase in legal fees
attributable to the ADAAA or the final
regulations, we are unable to attach any
dollar figure to what that increase might
be.
II. Estimated Benefits Attributable to
the ADAAA and the Final Regulations
A. Benefits of Accommodations
Attributable to the ADAAA and the
Final Regulations
(1) Summary of Preliminary Analysis
While the preliminary impact analysis
made reference to various benefits of the
rule in the discussion of assumptions
and its review of various projected
costs, it did not separately itemize,
review, or quantify these benefits.

erowe on DSK5CLS3C1PROD with RULES_2

(2) Comments on Preliminary Analysis
Commenters said that the EEOC did
not adequately account for the benefits
of reasonable accommodation. In
particular, Professor Peter Blanck
submitted seven of his studies and
argued that ‘‘research shows
accommodations yield measurable
benefits with economic value that
should be deducted from the cited costs
to yield a net value.’’ 25
25 Blanck, P.D. (1994), Communicating the
Americans with Disabilities Act: Transcending
Compliance—A case report on Sears Roebuck &
Co., The Annenberg Washington Program. (also in
J. Burns (Ed.), Driving Down Health Care Costs, at
209–241, New York, Panel Publishers; Blanck, P.D.
(1996); Communicating the Americans with
Disabilities Act: Transcending Compliance—1996:
Follow-up report on Sears, Roebuck & Co.
Washington, D.C.: The Annenberg Washington
Program. (also published as: Blanck, P.D. (1996),
Transcending Title I of the Americans with
Disabilities Act: A Case Report on Sears, Roebuck
& Co., Mental & Physical Disability Law Reporter,
20(2), 278–86) (mean cost was $45.20 on 71
accommodations made at Sears between 1993–
1995)); Blanck, P.D. & Steele, P. (1998), The
Emerging Role of the Staffing Industry in the
Employment of Persons with Disabilities—A Case
Report on Manpower Inc. Iowa City, IA: Iowa CEO
and Law, Health Policy and Disability Center (data
from 10 no-cost case studies of accommodation by
Manpower); Hendricks, D.J., Batiste, L., Hirsh, A.,
Dowler, D. Schartz, H., & Blanck, P. (Fall 2005),
Cost and Effectiveness of Accommodations in the
Workplace: Preliminary Results of a Nationwide
Study. Disability Studies Quarterly, Part I, 25(4);
Schartz, H., Schartz, K., Hendricks, D.J., & Blanck,
P. (2006), Workplace Accommodations: Empirical
Study of Current Employees, Mississippi Law
Journal, 75, 917–43 (for those employers providing
monetary estimates of benefits of accommodation,
81.3% reported benefits that offset the costs; 61.3%
reported benefits outweighing the cost, 20%
reported benefits that equaled the costs, and the
remaining 18.7% reported costs exceeding benefits);
Schartz, H., Hendricks, D.J., & Blanck, P. (2006),

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

Professor Blanck states that ‘‘research
shows employees who receive
accommodations are more productive
and valued members of their
organizations.’’ He asserts that the
contributions of accommodated
employees with disabilities show
measurable economic value for
organizations, and that the analysis of
economic impact must therefore take
into account both direct benefits and
indirect benefits as a potential offset to
any potential accommodation costs
reviewed in the preliminary analysis or
cited by the employer groups. Examples
of direct benefits reported by employers
in these research studies include the
ability to retain, hire, and promote
qualified personnel; increased employee
attendance (productivity); avoidance of
costs associated with
underperformance, injury, and turnover;
benefits from savings in workers’
compensation and related insurance;
and increased diversity. The authors
also note a number of indirect benefits:
Improved interactions with co-workers;
increased company morale,
productivity, and profitability;
improved interactions with customers;
increased workplace safety; better
overall company attendance; and
increased customer base.
Professor Blanck’s statement is that
based on the studies he has reviewed
and submitted, the quantified net
benefits of providing accommodations
are a significant offset to any cost
incurred and, indeed, result in a net
value. For example, he summarized the
specific accommodation benefit data
found in the 2006 ‘‘Workplace
Accommodations: Evidence-Based
Outcomes’’ study, as follows:
—Monetary estimates of direct benefits
were provided by 95 respondents and
are a median of $1,000 total when
zero benefit estimates are included.
When zero benefit estimates are
excluded, the median benefit is
$5,500 (based on 62 respondents).
Some respondents were unable to
provide exact estimates, but they
could provide estimates within ranges
(of 75 respondents, 66.4% reported
Workplace Accommodations: Evidence-Based
Outcomes, Work, 27, 345–354 (addressing
‘‘disability-related direct cost,’’ the amount of direct
cost that is more than the employer would have
paid for an employee in same position without a
disability); Schur, L., Kruse, D. Blasi, J, & Blanck,
P. (2009), Is Disability Disabling In All Workplaces?:
Disability, Workplace Disparities, and Corporate
Culture, Industrial Relations, 48(3), 381–410, July
(finding disability is linked to lower average pay,
job security, training, and participation in
decisions, and to more negative attitudes toward the
job and company, but finding no disability ‘‘attitude
gaps’’ in workplaces rated highly by all employees
for fairness and responsiveness).

PO 00000

Frm 00020

Fmt 4701

Sfmt 4700

134a

direct benefits greater than $1,000,
16.1% reported direct benefits
between $500 and $1,000, 10.2%
reported direct benefits between $100
and $500, and the remaining 7.3%
reported direct benefits less than
$100).
—Respondents were asked to estimate
the value of indirect benefits (e.g.,
improved interactions at work,
improved morale, and increased
company productivity, safety,
attendance, and profitability, etc.).
Out of 77 respondents who were able
to do so, 57.1% reported no indirect
benefits, but 33 respondents did
report indirect benefits greater than
zero, at a median value of $1,000. An
additional 58 respondents were able
to estimate the value of indirect
benefits categorically in ranges. When
combined with the 33 who reported
exact estimates, 48.4% reported
indirect benefits greater than $1,000,
18.7% reported a value between $500
and $1,000, 19.8% reported a value
between $100 and $500, and the
remaining 13.2% reported a value less
than $100.
—This study reports conservative
estimates of the Calendar Year Net
Benefit by obtaining the difference
between the First Calendar Year
Direct Cost and the Direct Benefit
estimates. This comparison was made
for 87 respondents; the mean benefit
was $11,335 and the median was
$1,000. For 59.8% the direct benefits
associated with providing the
accommodation more than offset the
direct costs, and for 21.8% benefits
and costs equaled each other (the
remaining 18.4% reported costs that
were greater than benefits).
(3) Conclusions Regarding Benefits of
Accommodations Attributable to the
ADAAA and the Final Regulations
We agree with the commenters who
noted the existence of surveys
documenting both tangible and
intangible benefits through the
provision of reasonable
accommodations. For example, in its
most recent survey of employers, the Job
Accommodation Network found that the
following percentage of respondents
reported the following benefits from
accommodations they had provided to
employees with disabilities:
Percent
Direct benefits:
Company retained a valued
employee ...........................
Increased the employee’s
productivity .........................

E:\FR\FM\25MRR2.SGM

25MRR2

89
71

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
increases productivity. See Council of
Economic Advisors, Work-Life Balance
and the Economics of Workplace
Flexibility (March 2010) (available at
60 http://www.whitehouse.gov/blog/2010/
03/31/economics-workplace-flexibility).
52
The Commission does not feel there is
43 sufficient data to state unequivocally, as
Professor Blank does, that there is
always a net value to providing
39 accommodations. However, it is
apparent from surveys conducted of
14
both employers and employees that
11 there are significant direct and indirect
benefits to providing accommodations
that may potentially be commensurate
68 with the costs.
The Commission also concludes that
62
there are potential additional benefits
59 regarding the provision of
accommodations made by the ADAAA.
47 Specifically:

Percent

erowe on DSK5CLS3C1PROD with RULES_2

Eliminated costs associated
with training a new employee ................................
Increased the employee’s attendance ............................
Increased diversity of the
company ............................
Saved workers’ compensation or other insurance
costs ...................................
Company hired a qualified
person with a disability ......
Company promoted an employee ................................
Indirect benefits:
Improved interactions with
co-workers .........................
Increased overall company
morale ................................
Increased overall company
productivity .........................
Improved interactions with
customers ..........................
Increased workplace safety ...
Increased overall company
attendance .........................
Increased profitability ............
Increased customer base ......

44

38
32
18

Job Accommodation Network
(Original 2005, Updated 2007, Updated
2009, Updated 2010). Workplace
Accommodations: Low Cost, High
Impact, http://AskJAN.org/media/
LowCostHighImpact.doc (last visited
Mar. 1, 2011).
The JAN study did not attempt to
attach numerical figures to the direct
benefits noted in the survey. However,
taking one of those benefits—increased
retention of workers—the Commission
notes that employers should experience
cost savings by retaining rather than
replacing a worker. According to data
from the Society for Human Resource
Management (SHRM), the average costper-hire for all industries in 2009 was
$1,978. Society for Human Resource
Management, SHRM 2010 Customized
Human Capital Benchmarking Report
(All Industries Survey) at 13 (2010).
Such costs increase for knowledge based
industries, such as high-tech where the
cost-per-hire was $3,045. Id.; Society for
Human Resource Management, SHRM
2010 Customized Human Capital
Benchmarking Report (High Tech
Industries Survey) at 13 (2010). In
addition, the time-to-fill for positions in
all industries was an average of 27 days,
but time to fill for high-tech positions
increased to an average of 35 days. Id.;
All Industries Survey at 13.
In addition, although limited, the
existing data shows that providing
flexible work arrangements such as
flexible scheduling and telecommuting
reduces absenteeism, lowers turnover,
improves the health of workers, and

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

—The changes made by the
Amendments Act and the clarity
regarding coverage provided by the
Act and the final regulations should
make the reasonable accommodation
process simpler for employers. For
example, to the extent employers may
have spent time before reviewing
medical records to determine whether
a particular individual’s diabetes or
epilepsy satisfied the legal definition
of a substantially limiting
impairment, there may be a cost
savings in terms of reduced time
spent by front-line supervisors,
managers, human resources staff, and
even employees who request
reasonable accommodation.
—The Amendments Act reverses at least
three courts of appeals decisions that
previously permitted individuals who
were merely ‘‘regarded as’’ individuals
with disabilities to be potentially
entitled to reasonable
accommodation. The Amendments
Act and the regulations clearly
provide that individuals covered only
under the ‘‘regarded as’’ prong of the
definition of disability will not be
entitled to reasonable
accommodation. This change benefits
employers by both clarifying and
limiting who is entitled to reasonable
accommodations under the ADA.
B. Other Benefits Attributable to the
ADAAA and the Final Regulations
Apart from specific benefits regarding
the provision of accommodations, the
Commission notes that a number of
monetary and non-monetary benefits
may result from the ADAAA and the
final regulations, including but not
limited to specifically the following:

PO 00000

Frm 00021

Fmt 4701

Sfmt 4700

135a

16997

(1) Efficiencies in Litigation
—The Amendments Act and final
regulations will make it clearer to
employers and employees what their
rights and responsibilities are under
the statute, thus decreasing the need
for litigation regarding the definition
of disability.
—To the extent that litigation remains
unavoidable in certain circumstances,
the Amendments Act and the final
regulations reduce the need for costly
experts to address ‘‘disability’’ and
streamline the issues requiring
judicial attention.
(2) Fuller Employment
—Fuller employment of individuals
with disabilities will provide savings
to the federal government and to
employers by potentially moving
individuals with disabilities into the
workforce who otherwise are or
would be collecting Social Security
Disability Insurance (SSDI) from the
government, or collecting short- or
long-term disability payments through
employer-sponsored insurance plans.
—Fuller employment of individuals
with disabilities will stimulate the
economy to the extent those
individuals will have greater
disposable income and enhance the
number of taxpayers and resulting
government revenue.
The Commission has not undertaken
to quantify these benefits in monetary
terms. However, we assume for
purposes of our analysis that the sum
total of these benefits will be significant.
(3) Non-discrimination and Other
Intrinsic Benefits
The Commission also concludes that
a wide range of qualitative, dignitary,
and related intrinsic benefits must be
considered. These benefits include the
values identified in EO 13563, such as
equity, human dignity, and fairness.
Specifically, the qualitative benefits
attributable to the ADA Amendments
Act and the final rule include but are
not limited to the following:
—Provision of reasonable
accommodation to workers who
would otherwise have been denied it
benefits workers and potential
workers with disabilities by
diminishing discrimination against
qualified individuals and by enabling
them to reach their full potential. This
protection against discrimination
promotes human dignity and equity
by enabling qualified workers to
participate in the workforce.
—Provision of reasonable
accommodation to workers who
would otherwise have been denied it

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

16998

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

reduces stigma, exclusion, and
humiliation, and promotes selfrespect.
—Interpreting and applying the ADA as
amended will further integrate and
promote contact with individuals
with disabilities, yielding third-party
benefits that include both (1)
diminishing stereotypes often held by
individuals without disabilities and
(2) promoting design, availability, and
awareness of accommodations that
can have general usage benefits and
also attitudinal benefits. See Elizabeth
Emens, Accommodating Integration,
156 U. Pa. L. Rev. 839, 850–59 (2008)
(explaining a wide range of potential
third-party benefits that may arise
from workplace accommodations).
—Provision of reasonable
accommodation to workers who
would otherwise have been denied it
benefits both employers and
coworkers in ways that may not be
subject to monetary quantification,
including increasing diversity,
understanding, and fairness in the
workplace.
—Provision of reasonable
accommodation to workers who
would otherwise have been denied it
benefits workers in general and
society at large by creating less
discriminatory work environments.

possible to accurately estimate any
decrease or increase in legal costs.
The Commission further concludes
that the Amendments Act and the final
regulations will have extensive
quantitative and qualitative benefits for
employers, government entities, and
individuals with and without
disabilities. Regardless of the number of
accommodations provided to additional
applicants or employees as a result of
the Amendments Act and these
regulations, the Commission believes
that the resulting benefits will be
significant and could be in excess of
$100 million annually. Therefore, the
rule will have a significant economic
impact within the meaning of EO 12866.
Consistent with Executive Order 13563,
the Commission concludes that the
benefits (quantitative and qualitative) of
the rule justify the costs.

Conclusion
In the foregoing final regulatory
impact analysis, the Commission
concludes that the approximate costs of
reasonable accommodations attributable
to the ADA Amendments Act and these
regulations will range greatly and in
some instances would exceed $100
million annually, depending on
assumptions made about the number of
individuals in the labor force whose
coverage has been clarified under the
ADAAA and the number of such
individuals who will receive reasonable
accommodation. We estimate that the
lower bound annual incremental cost of
accommodations would be
approximately $60 million, assuming
that 16% of 12 million individuals
whose coverage has been clarified
request reasonable accommodations
over five years at a mean cost of $150.
We also estimate that the upper bound
annual incremental cost of
accommodations would be
approximately $183 million, assuming
that 16% of 38.4 million individuals
whose coverage has been clarified
request reasonable accommodations
over five years at a mean cost of $150.
We do not believe that administrative
costs will add significantly to the
annual costs resulting from the final
regulations, and we believe it is not

Regulatory Flexibility Act
Title I of the ADA applies to all
employers with 15 or more employees,
approximately 822,000 of which are
small firms (entities with 15–500
employees) according to data provided
by the Small Business Administration
Office of Advocacy. See Firm Size Data
at http://sba.gov/advo/research/
data.html#us. The rule is expected to
apply uniformly to all such small
businesses.
The Commission certifies under 5
U.S.C. 605(b) that this final rule will not
have a significant economic impact on
a substantial number of small entities
because it imposes no reporting burdens
and because of the no-cost and low-cost
nature of the types of accommodations
that most likely will be requested and
required by those whose coverage has
been clarified under the amended
ADA’s definition of an impairment that
substantially limits a major life
activity.26

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

Unfunded Mandates Reform Act
The Commission notes that by its
terms the Unfunded Mandates Reform
Act does not apply to legislative or
regulatory provisions that establish or
enforce any ‘‘statutory rights that
prohibit discrimination on the basis of
race, color, religion, sex, national origin,
age, handicap, or disability.’’ 2 U.S.C.
658a. Accordingly, it does not apply to
this rulemaking.

26 This conclusion is consistent with the
Commission’s finding in the final regulatory impact
analysis that the costs imposed by the Amendments
Act and the final regulations may, depending on the
data used, impose a cost in excess of $100 million
annually for purposes of EO 12866. Unlike 12866,
the Regulatory Flexibility Act requires a
determination of whether a rule will have a
‘‘significant economic impact on a substantial
number of small entities,’’ which is not defined by

PO 00000

Frm 00022

Fmt 4701

Sfmt 4700

136a

In the public comments on the
preliminary assessment, one employer
organization submitted alternative
estimates of the number of individuals
who will be affected by the regulations,
arguing that a final regulatory flexibility
analysis is warranted, including
alternatives to reduce costs. The
organization estimated that 576,000
individuals will newly request
reasonable accommodations due to the
Amendments Act. Another employer
organization suggested that the
preliminary regulatory impact analysis
use of the CPS–ASEC might have
underestimated the number of people
that would be considered to have a
disability under these implementing
regulations. For the reasons explained
in the final regulatory impact analysis,
the Commission has significantly
revised upward its preliminary
estimates of the number of individuals
whose coverage has been clarified under
the ADAAA and who may request and
require accommodations, accounting for
alternative sources of data cited by
commenters and identified through the
inter-agency review process under EO
12866. However, the Commission has
also set forth in the final regulatory
impact analysis its rationale for
concluding that this incremental
increase in reasonable accommodations
will primarily entail accommodations
with no or little costs.
No comments suggested regulatory
alternatives that would be more suitable
for small businesses. As described
above, portions of the Commission’s
ADA regulations were rendered invalid
by the changes Congress made to the
ADA in enacting the Amendments Act,
and the Commission therefore had no
alternative but to conform its
regulations to the changes Congress
made in the statute to the definition of
disability. Therefore, the rationale for
this regulatory action is legislative
direction. However, even absent this
direction, the adopted course of action
is the most appropriate one, and it is the
Commission’s conclusion that the title I
a specific dollar threshold for purposes of the
Regulatory Flexibility Act. Rather, the Small
Business Administration (SBA) advises that
agencies tailor the level, scope, and complexity of
their analysis to the regulated small entity
community at issue in each rule. The SBA advises
that agencies should consider both adverse impacts
and beneficial impacts under the Regulatory
Flexibility Act, and can minimize an adverse
impact by including beneficial impacts in the
analysis, consistent with the legislative history of
the Act that provided examples of significant
impact to include adverse costs impact that is
greater than the value of the regulatory good. As set
forth in our final regulatory impact analysis, the
Commission believes the estimated benefits of the
Amendments Act and these final regulations will be
significant.

E:\FR\FM\25MRR2.SGM

25MRR2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
regulations are likely to have benefits far
exceeding costs.
In issuing these final regulations, the
Commission has considered and
complied with the provisions of the new
EO 13563, in particular emphasizing
public participation and inter-agency
coordination. The Commission’s
regulations explain and implement
Congress’s amendments to the statute,
but do not impinge on employer
freedom of choice regarding matters of
compliance. To the extent the final
regulations and appendix provide clear
explication of the new rules of
construction for the definition of
disability and examples of their
application, the regulations provide
information to the public in a form that
is clear and intelligible, and promote
informed decisionmaking.

erowe on DSK5CLS3C1PROD with RULES_2

Projected Reporting, Recordkeeping,
and Other Compliance Requirements of
the Final Rule
The rule does not include reporting
requirements and imposes no new
recordkeeping requirements.
Compliance costs are expected to stem
primarily from the costs of providing
reasonable accommodation for
individuals with substantially limiting
impairments who would request and
require accommodations. For all the
reasons stated in the foregoing
regulatory impact analysis, it is difficult
to quantify how many additional
requests for reasonable accommodation
might result from the ADA
Amendments Act and the final
regulations. We estimate that the lower
bound annual incremental cost of
accommodations would be
approximately $60 million, assuming
that 16% of 12 million individuals
whose coverage has been clarified
request reasonable accommodations
over five years at a mean cost of $150.
We also estimate that the upper bound
annual incremental cost of
accommodations would be
approximately $183 million, assuming
that 16% of 38.4 million individuals
whose coverage has been clarified
request reasonable accommodations
over five years at a mean cost of $150.
As explained in the final regulatory
impact analysis, these cost figures are
over-estimations for a multitude of
reasons. In particular, the figures are
based on a mean accommodation cost,
whereas almost half of all
accommodations impose no costs and
the types of accommodations most
likely needed by individuals whose
coverage has been clarified as a result of
the Amendments Act would most likely
be low and no-cost accommodations.

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

We do not believe that administrative
costs will add significantly to the
annual costs resulting from the final
regulations. We recognize that covered
employers may in some cases need to
revise internal policies and procedures
to reflect the broader definition of
disability under the Amendments Act
and train personnel to ensure
appropriate compliance with the
ADAAA and the revised regulations. In
addition, there will be costs associated
with reviewing and analyzing the final
regulations or publications describing
their effects and recommended
compliance practices.
Although these types of
administrative costs may be particularly
difficult for small businesses that
operate with a smaller margin, the
Commission will continue to take steps
to reduce that burden. The Commission
is issuing along with the final
regulations a user-friendly questionand-answer guide intended to educate
and promote compliance. The
Commission also expects to prepare a
small business handbook and to revise
all of its ADA publications, which
include dozens of enforcement
guidances and technical assistance
documents, some of which are
specifically geared toward small
business. Moreover, the Commission
also intends to continue the provision of
technical assistance to small business in
its outreach efforts. In fiscal year 2009
alone, compliance with ADA standards
was the main topic at 570 no-cost EEOC
outreach events, reaching more than
35,000 people, many of whom were
from small businesses.
Finally, any estimates of costs do not
take into account the offsetting benefits
noted by the research studies submitted
by commenters and reviewed above in
the final regulatory impact analysis. The
Commission believes the estimated
benefits of the Amendments Act and
these final regulations are significant.
For the foregoing reasons, the
Commission concludes that the
regulations will not have a significant
economic impact on a substantial
number of small entities.
Relevant Federal Rules That May
Duplicate, Overlap or Conflict With the
Proposed Rule
The Commission is unaware of any
duplicative, overlapping, or conflicting
federal rules.
Paperwork Reduction Act
These regulations contain no
information collection requirements
subject to review by the Office of
Management and Budget under the

PO 00000

Frm 00023

Fmt 4701

Sfmt 4700

137a

16999

Paperwork Reduction Act. See 44 U.S.C.
3501, et seq.
Congressional Review Act
To the extent this rule is subject to the
Congressional Review Act, the
Commission has complied with its
requirements by submitting this final
rule to Congress prior to publication in
the Federal Register.
List of Subjects in 29 CFR Part 1630
Equal employment opportunity,
Individuals with disabilities.
Dated: March 10, 2011.
For the commission.
Jacqueline A. Berrien,
Chair.

Accordingly, for the reasons set forth
in the preamble, the EEOC amends 29
CFR part 1630 as follows:
PART 1630—REGULATIONS TO
IMPLEMENT THE EQUAL
EMPLOYMENT PROVISIONS OF THE
AMERICANS WITH DISABILITIES ACT
1. Revise the authority citation for 29
CFR part 1630 to read as follows:

■

Authority: 42 U.S.C. 12116 and 12205a of
the Americans with Disabilities Act, as
amended.
■

2. Revise § 1630.1 to read as follows:

§ 1630.1 Purpose, applicability, and
construction.

(a) Purpose. The purpose of this part
is to implement title I of the Americans
with Disabilities Act (ADA), as amended
by the ADA Amendments Act of 2008
(ADAAA or Amendments Act), 42
U.S.C. 12101, et seq., requiring equal
employment opportunities for
individuals with disabilities. The ADA
as amended, and these regulations, are
intended to provide a clear and
comprehensive national mandate for the
elimination of discrimination against
individuals with disabilities, and to
provide clear, strong, consistent,
enforceable standards addressing
discrimination.
(b) Applicability. This part applies to
‘‘covered entities’’ as defined at
§ 1630.2(b).
(c) Construction—(1) In general.
Except as otherwise provided in this
part, this part does not apply a lesser
standard than the standards applied
under title V of the Rehabilitation Act
of 1973 (29 U.S.C. 790–794a, as
amended), or the regulations issued by
Federal agencies pursuant to that title.
(2) Relationship to other laws. This
part does not invalidate or limit the
remedies, rights, and procedures of any
Federal law or law of any State or
political subdivision of any State or

E:\FR\FM\25MRR2.SGM

25MRR2

17000

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

jurisdiction that provides greater or
equal protection for the rights of
individuals with disabilities than is
afforded by this part.
(3) State workers’ compensation laws
and disability benefit programs. Nothing
in this part alters the standards for
determining eligibility for benefits
under State workers’ compensation laws
or under State and Federal disability
benefit programs.
(4) Broad coverage. The primary
purpose of the ADAAA is to make it
easier for people with disabilities to
obtain protection under the ADA.
Consistent with the Amendments Act’s
purpose of reinstating a broad scope of
protection under the ADA, the
definition of ‘‘disability’’ in this part
shall be construed broadly in favor of
expansive coverage to the maximum
extent permitted by the terms of the
ADA. The primary object of attention in
cases brought under the ADA should be
whether covered entities have complied
with their obligations and whether
discrimination has occurred, not
whether the individual meets the
definition of disability. The question of
whether an individual meets the
definition of disability under this part
should not demand extensive analysis.
■ 3. Amend § 1630.2 as follows:
■ a. Revise paragraphs (g) through (m).
■ b. In paragraph (o)(1)(ii), remove the
words ‘‘a qualified individual with a
disability’’ and add, in their place, ‘‘an
individual with a disability who is
qualified’’.
■ c. In paragraph (o)(3), remove the
words ‘‘the qualified individual with a
disability’’ and add, in their place, ‘‘the
individual with a disability’’.
■ d. Add paragraph (o)(4).
The revisions and additions read as
follows:
§ 1630.2

Definitions.

erowe on DSK5CLS3C1PROD with RULES_2

*

*
*
*
*
(g) Definition of ‘‘disability.’’
(1) In general. Disability means, with
respect to an individual—
(i) A physical or mental impairment
that substantially limits one or more of
the major life activities of such
individual;
(ii) A record of such an impairment;
or
(iii) Being regarded as having such an
impairment as described in paragraph
(l) of this section. This means that the
individual has been subjected to an
action prohibited by the ADA as
amended because of an actual or
perceived impairment that is not both
‘‘transitory and minor.’’
(2) An individual may establish
coverage under any one or more of these
three prongs of the definition of

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

disability, i.e., paragraphs (g)(1)(i) (the
‘‘actual disability’’ prong), (g)(1)(ii) (the
‘‘record of’’ prong), and/or (g)(1)(iii) (the
‘‘regarded as’’ prong) of this section.
(3) Where an individual is not
challenging a covered entity’s failure to
make reasonable accommodations and
does not require a reasonable
accommodation, it is generally
unnecessary to proceed under the
‘‘actual disability’’ or ‘‘record of’’ prongs,
which require a showing of an
impairment that substantially limits a
major life activity or a record of such an
impairment. In these cases, the
evaluation of coverage can be made
solely under the ‘‘regarded as’’ prong of
the definition of disability, which does
not require a showing of an impairment
that substantially limits a major life
activity or a record of such an
impairment. An individual may choose,
however, to proceed under the ‘‘actual
disability’’ and/or ‘‘record of’’ prong
regardless of whether the individual is
challenging a covered entity’s failure to
make reasonable accommodations or
requires a reasonable accommodation.
Note to paragraph (g): See § 1630.3 for
exceptions to this definition.

(h) Physical or mental impairment
means—
(1) Any physiological disorder or
condition, cosmetic disfigurement, or
anatomical loss affecting one or more
body systems, such as neurological,
musculoskeletal, special sense organs,
respiratory (including speech organs),
cardiovascular, reproductive, digestive,
genitourinary, immune, circulatory,
hemic, lymphatic, skin, and endocrine;
or
(2) Any mental or psychological
disorder, such as an intellectual
disability (formerly termed ‘‘mental
retardation’’), organic brain syndrome,
emotional or mental illness, and specific
learning disabilities.
(i) Major life activities—(1) In general.
Major life activities include, but are not
limited to:
(i) Caring for oneself, performing
manual tasks, seeing, hearing, eating,
sleeping, walking, standing, sitting,
reaching, lifting, bending, speaking,
breathing, learning, reading,
concentrating, thinking,
communicating, interacting with others,
and working; and
(ii) The operation of a major bodily
function, including functions of the
immune system, special sense organs
and skin; normal cell growth; and
digestive, genitourinary, bowel, bladder,
neurological, brain, respiratory,
circulatory, cardiovascular, endocrine,
hemic, lymphatic, musculoskeletal, and
reproductive functions. The operation of

PO 00000

Frm 00024

Fmt 4701

Sfmt 4700

138a

a major bodily function includes the
operation of an individual organ within
a body system.
(2) In determining other examples of
major life activities, the term ‘‘major’’
shall not be interpreted strictly to create
a demanding standard for disability.
ADAAA Section 2(b)(4) (Findings and
Purposes). Whether an activity is a
‘‘major life activity’’ is not determined
by reference to whether it is of ‘‘central
importance to daily life.’’
(j) Substantially limits—
(1) Rules of construction. The
following rules of construction apply
when determining whether an
impairment substantially limits an
individual in a major life activity:
(i) The term ‘‘substantially limits’’
shall be construed broadly in favor of
expansive coverage, to the maximum
extent permitted by the terms of the
ADA. ‘‘Substantially limits’’ is not meant
to be a demanding standard.
(ii) An impairment is a disability
within the meaning of this section if it
substantially limits the ability of an
individual to perform a major life
activity as compared to most people in
the general population. An impairment
need not prevent, or significantly or
severely restrict, the individual from
performing a major life activity in order
to be considered substantially limiting.
Nonetheless, not every impairment will
constitute a disability within the
meaning of this section.
(iii) The primary object of attention in
cases brought under the ADA should be
whether covered entities have complied
with their obligations and whether
discrimination has occurred, not
whether an individual’s impairment
substantially limits a major life activity.
Accordingly, the threshold issue of
whether an impairment ‘‘substantially
limits’’ a major life activity should not
demand extensive analysis.
(iv) The determination of whether an
impairment substantially limits a major
life activity requires an individualized
assessment. However, in making this
assessment, the term ‘‘substantially
limits’’ shall be interpreted and applied
to require a degree of functional
limitation that is lower than the
standard for ‘‘substantially limits’’
applied prior to the ADAAA.
(v) The comparison of an individual’s
performance of a major life activity to
the performance of the same major life
activity by most people in the general
population usually will not require
scientific, medical, or statistical
analysis. Nothing in this paragraph is
intended, however, to prohibit the
presentation of scientific, medical, or
statistical evidence to make such a
comparison where appropriate.

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
(vi) The determination of whether an
impairment substantially limits a major
life activity shall be made without
regard to the ameliorative effects of
mitigating measures. However, the
ameliorative effects of ordinary
eyeglasses or contact lenses shall be
considered in determining whether an
impairment substantially limits a major
life activity.
(vii) An impairment that is episodic
or in remission is a disability if it would
substantially limit a major life activity
when active.
(viii) An impairment that
substantially limits one major life
activity need not substantially limit
other major life activities in order to be
considered a substantially limiting
impairment.
(ix) The six-month ‘‘transitory’’ part of
the ‘‘transitory and minor’’ exception to
‘‘regarded as’’ coverage in § 1630.15(f)
does not apply to the definition of
‘‘disability’’ under paragraphs (g)(1)(i)
(the ‘‘actual disability’’ prong) or
(g)(1)(ii) (the ‘‘record of’’ prong) of this
section. The effects of an impairment
lasting or expected to last fewer than six
months can be substantially limiting
within the meaning of this section.
(2) Non-applicability to the ‘‘regarded
as’’ prong. Whether an individual’s
impairment ‘‘substantially limits’’ a
major life activity is not relevant to
coverage under paragraph (g)(1)(iii) (the
‘‘regarded as’’ prong) of this section.
(3) Predictable assessments—(i) The
principles set forth in paragraphs
(j)(1)(i) through (ix) of this section are
intended to provide for more generous
coverage and application of the ADA’s
prohibition on discrimination through a
framework that is predictable,
consistent, and workable for all
individuals and entities with rights and
responsibilities under the ADA as
amended.
(ii) Applying the principles set forth
in paragraphs (j)(1)(i) through (ix) of this
section, the individualized assessment
of some types of impairments will, in
virtually all cases, result in a
determination of coverage under
paragraphs (g)(1)(i) (the ‘‘actual
disability’’ prong) or (g)(1)(ii) (the
‘‘record of’’ prong) of this section. Given
their inherent nature, these types of
impairments will, as a factual matter,
virtually always be found to impose a
substantial limitation on a major life
activity. Therefore, with respect to these
types of impairments, the necessary
individualized assessment should be
particularly simple and straightforward.
(iii) For example, applying the
principles set forth in paragraphs
(j)(1)(i) through (ix) of this section, it
should easily be concluded that the

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

following types of impairments will, at
a minimum, substantially limit the
major life activities indicated: Deafness
substantially limits hearing; blindness
substantially limits seeing; an
intellectual disability (formerly termed
mental retardation) substantially limits
brain function; partially or completely
missing limbs or mobility impairments
requiring the use of a wheelchair
substantially limit musculoskeletal
function; autism substantially limits
brain function; cancer substantially
limits normal cell growth; cerebral palsy
substantially limits brain function;
diabetes substantially limits endocrine
function; epilepsy substantially limits
neurological function; Human
Immunodeficiency Virus (HIV) infection
substantially limits immune function;
multiple sclerosis substantially limits
neurological function; muscular
dystrophy substantially limits
neurological function; and major
depressive disorder, bipolar disorder,
post-traumatic stress disorder, obsessive
compulsive disorder, and schizophrenia
substantially limit brain function. The
types of impairments described in this
section may substantially limit
additional major life activities not
explicitly listed above.
(4) Condition, manner, or duration—
(i) At all times taking into account the
principles in paragraphs (j)(1)(i) through
(ix) of this section, in determining
whether an individual is substantially
limited in a major life activity, it may be
useful in appropriate cases to consider,
as compared to most people in the
general population, the condition under
which the individual performs the
major life activity; the manner in which
the individual performs the major life
activity; and/or the duration of time it
takes the individual to perform the
major life activity, or for which the
individual can perform the major life
activity.
(ii) Consideration of facts such as
condition, manner, or duration may
include, among other things,
consideration of the difficulty, effort, or
time required to perform a major life
activity; pain experienced when
performing a major life activity; the
length of time a major life activity can
be performed; and/or the way an
impairment affects the operation of a
major bodily function. In addition, the
non-ameliorative effects of mitigating
measures, such as negative side effects
of medication or burdens associated
with following a particular treatment
regimen, may be considered when
determining whether an individual’s
impairment substantially limits a major
life activity.

PO 00000

Frm 00025

Fmt 4701

Sfmt 4700

139a

17001

(iii) In determining whether an
individual has a disability under the
‘‘actual disability’’ or ‘‘record of’’ prongs
of the definition of disability, the focus
is on how a major life activity is
substantially limited, and not on what
outcomes an individual can achieve. For
example, someone with a learning
disability may achieve a high level of
academic success, but may nevertheless
be substantially limited in the major life
activity of learning because of the
additional time or effort he or she must
spend to read, write, or learn compared
to most people in the general
population.
(iv) Given the rules of construction set
forth in paragraphs (j)(1)(i) through (ix)
of this section, it may often be
unnecessary to conduct an analysis
involving most or all of these types of
facts. This is particularly true with
respect to impairments such as those
described in paragraph (j)(3)(iii) of this
section, which by their inherent nature
should be easily found to impose a
substantial limitation on a major life
activity, and for which the
individualized assessment should be
particularly simple and straightforward.
(5) Examples of mitigating
measures—Mitigating measures include,
but are not limited to:
(i) Medication, medical supplies,
equipment, or appliances, low-vision
devices (defined as devices that
magnify, enhance, or otherwise augment
a visual image, but not including
ordinary eyeglasses or contact lenses),
prosthetics including limbs and devices,
hearing aid(s) and cochlear implant(s) or
other implantable hearing devices,
mobility devices, and oxygen therapy
equipment and supplies;
(ii) Use of assistive technology;
(iii) Reasonable accommodations or
‘‘auxiliary aids or services’’ (as defined
by 42 U.S.C. 12103(1));
(iv) Learned behavioral or adaptive
neurological modifications; or
(v) Psychotherapy, behavioral
therapy, or physical therapy.
(6) Ordinary eyeglasses or contact
lenses—defined. Ordinary eyeglasses or
contact lenses are lenses that are
intended to fully correct visual acuity or
to eliminate refractive error.
(k) Has a record of such an
impairment—
(1) In general. An individual has a
record of a disability if the individual
has a history of, or has been
misclassified as having, a mental or
physical impairment that substantially
limits one or more major life activities.
(2) Broad construction. Whether an
individual has a record of an
impairment that substantially limited a
major life activity shall be construed

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

17002

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

broadly to the maximum extent
permitted by the ADA and should not
demand extensive analysis. An
individual will be considered to have a
record of a disability if the individual
has a history of an impairment that
substantially limited one or more major
life activities when compared to most
people in the general population, or was
misclassified as having had such an
impairment. In determining whether an
impairment substantially limited a
major life activity, the principles
articulated in paragraph (j) of this
section apply.
(3) Reasonable accommodation. An
individual with a record of a
substantially limiting impairment may
be entitled, absent undue hardship, to a
reasonable accommodation if needed
and related to the past disability. For
example, an employee with an
impairment that previously limited, but
no longer substantially limits, a major
life activity may need leave or a
schedule change to permit him or her to
attend follow-up or ‘‘monitoring’’
appointments with a health care
provider.
(l) ‘‘Is regarded as having such an
impairment.’’ The following principles
apply under the ‘‘regarded as’’ prong of
the definition of disability (paragraph
(g)(1)(iii) of this section) above:
(1) Except as provided in § 1630.15(f),
an individual is ‘‘regarded as having
such an impairment’’ if the individual is
subjected to a prohibited action because
of an actual or perceived physical or
mental impairment, whether or not that
impairment substantially limits, or is
perceived to substantially limit, a major
life activity. Prohibited actions include
but are not limited to refusal to hire,
demotion, placement on involuntary
leave, termination, exclusion for failure
to meet a qualification standard,
harassment, or denial of any other term,
condition, or privilege of employment
(2) Except as provided in § 1630.15(f),
an individual is ‘‘regarded as having
such an impairment’’ any time a covered
entity takes a prohibited action against
the individual because of an actual or
perceived impairment, even if the entity
asserts, or may or does ultimately
establish, a defense to such action.
(3) Establishing that an individual is
‘‘regarded as having such an
impairment’’ does not, by itself,
establish liability. Liability is
established under title I of the ADA only
when an individual proves that a
covered entity discriminated on the
basis of disability within the meaning of
section 102 of the ADA, 42 U.S.C.
12112.
(m) The term ‘‘qualified,’’ with respect
to an individual with a disability, means

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

that the individual satisfies the requisite
skill, experience, education and other
job-related requirements of the
employment position such individual
holds or desires and, with or without
reasonable accommodation, can perform
the essential functions of such position.
See § 1630.3 for exceptions to this
definition.
(o) * * *
(4) A covered entity is required,
absent undue hardship, to provide a
reasonable accommodation to an
otherwise qualified individual who
meets the definition of disability under
the ‘‘actual disability’’ prong (paragraph
(g)(1)(i) of this section), or ‘‘record of’’
prong (paragraph (g)(1)(ii) of this
section), but is not required to provide
a reasonable accommodation to an
individual who meets the definition of
disability solely under the ‘‘regarded as’’
prong (paragraph (g)(1)(iii) of this
section).
*
*
*
*
*
■ 4. Revise § 1630.4 to read as follows:
§ 1630.4

Discrimination prohibited.

(a) In general—(1) It is unlawful for a
covered entity to discriminate on the
basis of disability against a qualified
individual in regard to:
(i) Recruitment, advertising, and job
application procedures;
(ii) Hiring, upgrading, promotion,
award of tenure, demotion, transfer,
layoff, termination, right of return from
layoff, and rehiring;
(iii) Rates of pay or any other form of
compensation and changes in
compensation;
(iv) Job assignments, job
classifications, organizational
structures, position descriptions, lines
of progression, and seniority lists;
(v) Leaves of absence, sick leave, or
any other leave;
(vi) Fringe benefits available by virtue
of employment, whether or not
administered by the covered entity;
(vii) Selection and financial support
for training, including: apprenticeships,
professional meetings, conferences and
other related activities, and selection for
leaves of absence to pursue training;
(viii) Activities sponsored by a
covered entity, including social and
recreational programs; and
(ix) Any other term, condition, or
privilege of employment.
(2) The term discrimination includes,
but is not limited to, the acts described
in §§ 1630.4 through 1630.13 of this
part.
(b) Claims of no disability. Nothing in
this part shall provide the basis for a
claim that an individual without a
disability was subject to discrimination

PO 00000

Frm 00026

Fmt 4701

Sfmt 4700

140a

because of his lack of disability,
including a claim that an individual
with a disability was granted an
accommodation that was denied to an
individual without a disability.
■ 5. Amend § 1630.9 as follows:
■ a. Revise paragraph (c).
■ b. In paragraph (d), in the first
sentence, remove the words ‘‘A qualified
individual with a disability’’ and add, in
their place, the words ‘‘An individual
with a disability’’.
■ c. In paragraph (d), in the last
sentence, remove the words ‘‘a qualified
individual with a disability’’ and add, in
their place, the word ‘‘qualified’’.
■ d. Add paragraph (e).
The revisions and additions read as
follows:
§ 1630.9 Not making reasonable
accommodation.

*

*
*
*
*
(c) A covered entity shall not be
excused from the requirements of this
part because of any failure to receive
technical assistance authorized by
section 507 of the ADA, including any
failure in the development or
dissemination of any technical
assistance manual authorized by that
Act.
*
*
*
*
*
(e) A covered entity is required,
absent undue hardship, to provide a
reasonable accommodation to an
otherwise qualified individual who
meets the definition of disability under
the ‘‘actual disability’’ prong
(§ 1630.2(g)(1)(i)), or ‘‘record of’’ prong
(§ 1630.2(g)(1)(ii)), but is not required to
provide a reasonable accommodation to
an individual who meets the definition
of disability solely under the ‘‘regarded
as’’ prong (§ 1630.2(g)(1)(iii)).
■ 6. Revise § 1630.10 to read as follows:
§ 1630.10 Qualification standards, tests,
and other selection criteria.

(a) In general. It is unlawful for a
covered entity to use qualification
standards, employment tests or other
selection criteria that screen out or tend
to screen out an individual with a
disability or a class of individuals with
disabilities, on the basis of disability,
unless the standard, test, or other
selection criteria, as used by the covered
entity, is shown to be job related for the
position in question and is consistent
with business necessity.
(b) Qualification standards and tests
related to uncorrected vision.
Notwithstanding § 1630.2(j)(1)(vi) of this
part, a covered entity shall not use
qualification standards, employment
tests, or other selection criteria based on
an individual’s uncorrected vision
unless the standard, test, or other

E:\FR\FM\25MRR2.SGM

25MRR2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
selection criterion, as used by the
covered entity, is shown to be job
related for the position in question and
is consistent with business necessity.
An individual challenging a covered
entity’s application of a qualification
standard, test, or other criterion based
on uncorrected vision need not be a
person with a disability, but must be
adversely affected by the application of
the standard, test, or other criterion.
■ 7. Amend § 1630.15 by redesignating
paragraph (f) as paragraph (g), and
adding new paragraph (f) to read as
follows:
§ 1630.15 Defenses.

erowe on DSK5CLS3C1PROD with RULES_2

*

*
*
*
*
(f) Claims based on transitory and
minor impairments under the ‘‘regarded
as’’ prong. It may be a defense to a
charge of discrimination by an
individual claiming coverage under the
‘‘regarded as’’ prong of the definition of
disability that the impairment is (in the
case of an actual impairment) or would
be (in the case of a perceived
impairment) ‘‘transitory and minor.’’ To
establish this defense, a covered entity
must demonstrate that the impairment
is both ‘‘transitory’’ and ‘‘minor.’’
Whether the impairment at issue is or
would be ‘‘transitory and minor’’ is to be
determined objectively. A covered
entity may not defeat ‘‘regarded as’’
coverage of an individual simply by
demonstrating that it subjectively
believed the impairment was transitory
and minor; rather, the covered entity
must demonstrate that the impairment
is (in the case of an actual impairment)
or would be (in the case of a perceived
impairment) both transitory and minor.
For purposes of this section, ‘‘transitory’’
is defined as lasting or expected to last
six months or less.
*
*
*
*
*
■ 8. Amend § 1630.16(a) by removing
from the last sentence the word
‘‘because’’ and adding, in its place, the
words ‘‘on the basis’’.
*
*
*
*
*
■ 9. Amend the Appendix to Part 1630
as follows:
■ A. Remove the ‘‘Background.’’
■ B. Revise the ‘‘Introduction.’’
■ C. Add ‘‘Note on Certain Terminology
Used’’ after the ‘‘Introduction.’’
■ D. Revise § 1630.1.
■ E. Revise Sections 1630.2(a) through
(f).
■ F. Revise § 1630.2(g).
■ G. Revise § 1630.2(h).
■ H. Revise § 1630.2(i).
■ I. Revise § 1630.2(j).
■ J. Add § 1630.2(j)(1), 1630.2(j)(3),
1630.2(j)(4), and 1630.2(j)(5) and (6).
■ K. Revise § 1630.2(k).

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

L. Revise § 1630.2(l).
M. Amend § 1630.2(m) by revising the
heading and first sentence.
■ N. Amend § 1630.2(o) as follows:
■ i. Remove the first paragraph and add,
in its place, three new paragraphs.
■ ii. Remove the words ‘‘a qualified
individual with a disability’’ wherever
they appear and add, in their place, ‘‘an
individual with a disability’’.
■ iii. Remove the words ‘‘the qualified
individual with a disability’’ wherever
they appear and add, in their place, ‘‘the
individual with a disability’’.
■ O. Revise § 1630.4.
■ P. Amend § 1630.5 by revising the
first paragraph.
■ Q. Amend § 1630.9 as follows:
■ i. Remove the words ‘‘a qualified
individual with a disability’’ wherever
they appear and add, in their place, ‘‘the
individual with a disability’’.
■ ii. Remove the words ‘‘the qualified
individual with a disability’’ wherever
they appear and add, in their place, ‘‘the
individual with a disability’’.
■ iii. Add new § 1630.9(e) after existing
§ 1630.9(d).
■ R. Revise § 1630.10.
■ S. Amend § 1630.15 by adding new
§ 1630.15(f) after existing § 1630.15(e).
■ T. Amend § 1630.16(a) by removing,
in the last sentence, the words
‘‘qualified individuals with disabilities’’
and adding, in their place, ‘‘individuals
with disabilities who are qualified and’’.
■ U. Amend § 1630.16(f) by removing,
in the last paragraph, the words ‘‘a
qualified individual with a disability’’
and adding, in their place, ‘‘an
individual with a disability who is
qualified’’.
The revisions and additions read as
follows:
■
■

Appendix to Part 1630—Interpretive
Guidance on Title I of the Americans
With Disabilities Act
Introduction
The Americans with Disabilities Act (ADA)
is a landmark piece of civil rights legislation
signed into law on July 26, 1990, and
amended effective January 1, 2009. See 42
U.S.C. 12101 et seq., as amended. In passing
the ADA, Congress recognized that
‘‘discrimination against individuals with
disabilities continues to be a serious and
pervasive social problem’’ and that the
‘‘continuing existence of unfair and
unnecessary discrimination and prejudice
denies people with disabilities the
opportunity to compete on an equal basis and
to pursue those opportunities for which our
free society is justifiably famous, and costs
the United States billions of dollars in
unnecessary expenses resulting from
dependency and nonproductivity.’’ 42 U.S.C.
12101(a)(2), (8). Discrimination on the basis
of disability persists in critical areas such as
housing, public accommodations, education,

PO 00000

Frm 00027

Fmt 4701

Sfmt 4700

141a

17003

transportation, communication, recreation,
institutionalization, health services, voting,
access to public services, and employment.
42 U.S.C. 12101(a)(3). Accordingly, the ADA
prohibits discrimination in a wide range of
areas, including employment, public
services, and public accommodations.
Title I of the ADA prohibits disabilitybased discrimination in employment. The
Equal Employment Opportunity Commission
(the Commission or the EEOC) is responsible
for enforcement of title I (and parts of title
V) of the ADA. Pursuant to the ADA as
amended, the EEOC is expressly granted the
authority and is expected to amend these
regulations. 42 U.S.C. 12205a. Under title I of
the ADA, covered entities may not
discriminate against qualified individuals on
the basis of disability in regard to job
application procedures, the hiring,
advancement or discharge of employees,
employee compensation, job training, or
other terms, conditions, and privileges of
employment. 42 U.S.C. 12112(a). For these
purposes, ‘‘discriminate’’ includes (1)
limiting, segregating, or classifying a job
applicant or employee in a way that
adversely affects the opportunities or status
of the applicant or employee; (2)
participating in a contractual or other
arrangement or relationship that has the
effect of subjecting a covered entity’s
qualified applicants or employees to
discrimination; (3) utilizing standards,
criteria, or other methods of administration
that have the effect of discrimination on the
basis of disability; (4) not making reasonable
accommodation to the known physical or
mental limitations of an otherwise qualified
individual with a disability, unless the
covered entity can demonstrate that the
accommodation would impose an undue
hardship on the operation of the business of
the covered entity; (5) denying employment
opportunities to a job applicant or employee
who is otherwise qualified, if such denial is
based on the need to make reasonable
accommodation; (6) using qualification
standards, employment tests or other
selection criteria that screen out or tend to
screen out an individual with a disability or
a class of individuals with disabilities unless
the standard, test or other selection criterion
is shown to be job related for the position in
question and is consistent with business
necessity; and (7) subjecting applicants or
employees to prohibited medical inquiries or
examinations. See 42 U.S.C. 12112(b), (d).
As with other civil rights laws, individuals
seeking protection under these antidiscrimination provisions of the ADA
generally must allege and prove that they are
members of the ‘‘protected class.’’ 1 Under the
1 Claims of improper disability-related inquiries
or medical examinations, improper disclosure of
confidential medical information, or retaliation may
be brought by any applicant or employee, not just
individuals with disabilities. See, e.g., Cossette v.
Minnesota Power & Light, 188 F.3d 964, 969–70 (8th
Cir. 1999); Fredenburg v. Contra Costa County Dep’t
of Health Servs., 172 F.3d 1176, 1182 (9th Cir.
1999); Griffin v. Steeltek, Inc., 160 F.3d 591, 594
(10th Cir. 1998). Likewise, a nondisabled applicant
or employee may challenge an employment action
that is based on the disability of an individual with

E:\FR\FM\25MRR2.SGM

Continued

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

17004

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

ADA, this typically means they have to show
that they meet the statutory definition of
‘‘disability.’’ 2008 House Judiciary Committee
Report at 5. However, ‘‘Congress did not
intend for the threshold question of disability
to be used as a means of excluding
individuals from coverage.’’ Id.
In the original ADA, Congress defined
‘‘disability’’ as (1) a physical or mental
impairment that substantially limits one or
more major life activities of an individual; (2)
a record of such an impairment; or (3) being
regarded as having such an impairment. 42
U.S.C. 12202(2). Congress patterned these
three parts of the definition of disability—the
‘‘actual,’’ ‘‘record of,’’ and ‘‘regarded as’’
prongs—after the definition of ‘‘handicap’’
found in the Rehabilitation Act of 1973. 2008
House Judiciary Committee Report at 6. By
doing so, Congress intended that the relevant
case law developed under the Rehabilitation
Act would be generally applicable to the term
‘‘disability’’ as used in the ADA. H.R. Rep.
No. 485 part 3, 101st Cong., 2d Sess. 27
(1990) (1990 House Judiciary Report or
House Judiciary Report); see also S. Rep. No.
116, 101st Cong., 1st Sess. 21 (1989) (1989
Senate Report or Senate Report); H.R. Rep.
No. 485 part 2, 101st Cong., 2d Sess. 50
(1990) (1990 House Labor Report or House
Labor Report). Congress expected that the
definition of disability and related terms,
such as ‘‘substantially limits’’ and ‘‘major life
activity,’’ would be interpreted under the
ADA ‘‘consistently with how courts had
applied the definition of a handicapped
individual under the Rehabilitation Act’’—
i.e., expansively and in favor of broad
coverage. ADA Amendments Act of 2008
(ADAAA or Amendments Act) at Section
2(a)(1)–(8) and (b)(1)–(6) (Findings and
Purposes); see also Senate Statement of the
Managers to Accompany S. 3406 (2008
Senate Statement of Managers) at 3 (‘‘When
Congress passed the ADA in 1990, it adopted
the functional definition of disability from
section 504 of the Rehabilitation Act of 1973,
in part, because after 17 years of
development through case law the
requirements of the definition were well
understood. Within this framework, with its
generous and inclusive definition of
disability, courts treated the determination of
disability as a threshold issue but focused
primarily on whether unlawful
discrimination had occurred.’’); 2008 House
Judiciary Committee Report at 6 & n.6 (noting
that courts had interpreted this
Rehabilitation Act definition ‘‘broadly to
include persons with a wide range of
physical and mental impairments’’).
That expectation was not fulfilled. ADAAA
Section 2(a)(3). The holdings of several
Supreme Court cases sharply narrowed the
broad scope of protection Congress originally
intended under the ADA, thus eliminating
protection for many individuals whom
Congress intended to protect. Id. For
example, in Sutton v. United Air Lines, Inc.,
527 U.S. 471 (1999), the Court ruled that
whether an impairment substantially limits a
major life activity is to be determined with
whom the applicant or employee is known to have
a relationship or association. See 42 U.S.C.
12112(b)(4).

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

reference to the ameliorative effects of
mitigating measures. In Sutton, the Court also
adopted a restrictive reading of the meaning
of being ‘‘regarded as’’ disabled under the
ADA’s definition of disability. Subsequently,
in Toyota Motor Mfg., Ky., Inc. v. Williams,
534 U.S. 184 (2002), the Court held that the
terms ‘‘substantially’’ and ‘‘major’’ in the
definition of disability ‘‘need to be
interpreted strictly to create a demanding
standard for qualifying as disabled’’ under the
ADA, and that to be substantially limited in
performing a major life activity under the
ADA, ‘‘an individual must have an
impairment that prevents or severely restricts
the individual from doing activities that are
of central importance to most people’s daily
lives.’’
As a result of these Supreme Court
decisions, lower courts ruled in numerous
cases that individuals with a range of
substantially limiting impairments were not
individuals with disabilities, and thus not
protected by the ADA. See 2008 Senate
Statement of Managers at 3 (‘‘After the Court’s
decisions in Sutton that impairments must be
considered in their mitigated state and in
Toyota that there must be a demanding
standard for qualifying as disabled, lower
courts more often found that an individual’s
impairment did not constitute a disability. As
a result, in too many cases, courts would
never reach the question whether
discrimination had occurred.’’). Congress
concluded that these rulings imposed a
greater degree of limitation and expressed a
higher standard than it had originally
intended, and coupled with the EEOC’s 1991
ADA regulations which had defined the term
‘‘substantially limits’’ as ‘‘significantly
restricted,’’ unduly precluded many
individuals from being covered under the
ADA. Id._(‘‘[t]hus, some 18 years later we are
faced with a situation in which physical or
mental impairments that would previously
have been found to constitute disabilities are
not considered disabilities under the
Supreme Court’s narrower standard’’ and
‘‘[t]he resulting court decisions contribute to
a legal environment in which individuals
must demonstrate an inappropriately high
degree of functional limitation in order to be
protected from discrimination under the
ADA’’).
Consequently, Congress amended the ADA
with the Americans with Disabilities Act
Amendments Act of 2008. The ADAAA was
signed into law on September 25, 2008, and
became effective on January 1, 2009. This
legislation is the product of extensive
bipartisan efforts, and the culmination of
collaboration and coordination between
legislators and stakeholders, including
representatives of the disability, business,
and education communities. See Statement
of Representatives Hoyer and Sensenbrenner,
154 Cong. Rec. H8294–96 (daily ed. Sept. 17,
2008) (Hoyer-Sensenbrenner Congressional
Record Statement); Senate Statement of
Managers at 1. The express purposes of the
ADAAA are, among other things:
(1) To carry out the ADA’s objectives of
providing ‘‘a clear and comprehensive
national mandate for the elimination of
discrimination’’ and ‘‘clear, strong, consistent,
enforceable standards addressing

PO 00000

Frm 00028

Fmt 4701

Sfmt 4700

142a

discrimination’’ by reinstating a broad scope
of protection under the ADA;
(2) To reject the requirement enunciated in
Sutton and its companion cases that whether
an impairment substantially limits a major
life activity is to be determined with
reference to the ameliorative effects of
mitigating measures;
(3) To reject the Supreme Court’s reasoning
in Sutton with regard to coverage under the
third prong of the definition of disability and
to reinstate the reasoning of the Supreme
Court in School Board of Nassau County v.
Arline, 480 U.S. 273 (1987), which set forth
a broad view of the third prong of the
definition of handicap under the
Rehabilitation Act of 1973;
(4) To reject the standards enunciated by
the Supreme Court in Toyota that the terms
‘‘substantially’’ and ‘‘major’’ in the definition
of disability under the ADA ‘‘need to be
interpreted strictly to create a demanding
standard for qualifying as disabled,’’ and that
to be substantially limited in performing a
major life activity under the ADA ‘‘an
individual must have an impairment that
prevents or severely restricts the individual
from doing activities that are of central
importance to most people’s daily lives’’;
(5) To convey congressional intent that the
standard created by the Supreme Court in
Toyota for ‘‘substantially limits,’’ and applied
by lower courts in numerous decisions, has
created an inappropriately high level of
limitation necessary to obtain coverage under
the ADA;
(6) To convey that it is the intent of
Congress that the primary object of attention
in cases brought under the ADA should be
whether entities covered under the ADA
have complied with their obligations, and to
convey that the question of whether an
individual’s impairment is a disability under
the ADA should not demand extensive
analysis; and
(7) To express Congress’ expectation that
the EEOC will revise that portion of its
current regulations that defines the term
‘‘substantially limits’’ as ‘‘significantly
restricted’’ to be consistent with the ADA as
amended.
ADAAA Section 2(b). The findings and
purposes of the ADAAA ‘‘give[] clear
guidance to the courts and * * * [are]
intend[ed] to be applied appropriately and
consistently.’’ 2008 Senate Statement of
Managers at 5.
The EEOC has amended its regulations to
reflect the ADAAA’s findings and purposes.
The Commission believes that it is essential
also to amend its appendix to the original
regulations at the same time, and to reissue
this interpretive guidance as amended
concurrently with the issuance of the
amended regulations. This will help to
ensure that individuals with disabilities
understand their rights, and to facilitate and
encourage compliance by covered entities
under this part.
Accordingly, this amended appendix
addresses the major provisions of this part
and explains the major concepts related to
disability-based employment discrimination.
This appendix represents the Commission’s
interpretation of the issues addressed within
it, and the Commission will be guided by this

E:\FR\FM\25MRR2.SGM

25MRR2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
appendix when resolving charges of
employment discrimination.
Note on Certain Terminology Used
The ADA, the EEOC’s ADA regulations,
and this appendix use the term ‘‘disabilities’’
rather than the term ‘‘handicaps’’ which was
originally used in the Rehabilitation Act of
1973, 29 U.S.C. 701–796. Substantively, these
terms are equivalent. As originally noted by
the House Committee on the Judiciary, ‘‘[t]he
use of the term ‘disabilities’ instead of the
term ‘handicaps’ reflects the desire of the
Committee to use the most current
terminology. It reflects the preference of
persons with disabilities to use that term
rather than ‘handicapped’ as used in
previous laws, such as the Rehabilitation Act
of 1973 * * *.’’ 1990 House Judiciary Report
at 26–27; see also 1989 Senate Report at 21;
1990 House Labor Report at 50–51.
In addition, consistent with the
Amendments Act, revisions have been made
to the regulations and this Appendix to refer
to ‘‘individual with a disability’’ and
‘‘qualified individual’’ as separate terms, and
to change the prohibition on discrimination
to ‘‘on the basis of disability’’ instead of
prohibiting discrimination against a qualified
individual ‘‘with a disability because of the
disability of such individual.’’ ‘‘This ensures
that the emphasis in questions of disability
discrimination is properly on the critical
inquiry of whether a qualified person has
been discriminated against on the basis of
disability, and not unduly focused on the
preliminary question of whether a particular
person is a ‘person with a disability.’ ’’ 2008
Senate Statement of Managers at 11.
The use of the term ‘‘Americans’’ in the title
of the ADA, in the EEOC’s regulations, or in
this Appendix as amended is not intended to
imply that the ADA only applies to United
States citizens. Rather, the ADA protects all
qualified individuals with disabilities,
regardless of their citizenship status or
nationality, from discrimination by a covered
entity.
Finally, the terms ‘‘employer’’ and
‘‘employer or other covered entity’’ are used
interchangeably throughout this Appendix to
refer to all covered entities subject to the
employment provisions of the ADA.
Section 1630.1
Construction

Purpose, Applicability and

erowe on DSK5CLS3C1PROD with RULES_2

Section 1630.1(a)

Purpose

The express purposes of the ADA as
amended are to provide a clear and
comprehensive national mandate for the
elimination of discrimination against
individuals with disabilities; to provide
clear, strong, consistent, enforceable
standards addressing discrimination against
individuals with disabilities; to ensure that
the Federal Government plays a central role
in enforcing the standards articulated in the
ADA on behalf of individuals with
disabilities; and to invoke the sweep of
congressional authority to address the major
areas of discrimination faced day-to-day by
people with disabilities. 42 U.S.C. 12101(b).
The EEOC’s ADA regulations are intended to
implement these Congressional purposes in
simple and straightforward terms.

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

Section 1630.1(b) Applicability
The EEOC’s ADA regulations as amended
apply to all ‘‘covered entities’’ as defined at
§ 1630.2(b). The ADA defines ‘‘covered
entities’’ to mean an employer, employment
agency, labor organization, or joint labormanagement committee. 42 U.S.C. 12111(2).
All covered entities are subject to the ADA’s
rules prohibiting discrimination. 42 U.S.C.
12112.
Section 1630.1(c) Construction
The ADA must be construed as amended.
The primary purpose of the Amendments Act
was to make it easier for people with
disabilities to obtain protection under the
ADA. See Joint Hoyer-Sensenbrenner
Statement on the Origins of the ADA
Restoration Act of 2008, H.R. 3195 (reviewing
provisions of H.R. 3195 as revised following
negotiations between representatives of the
disability and business communities) (Joint
Hoyer-Sensenbrenner Statement) at 2.
Accordingly, under the ADA as amended and
the EEOC’s regulations, the definition of
‘‘disability’’ ‘‘shall be construed in favor of
broad coverage of individuals under [the
ADA], to the maximum extent permitted by
the terms of [the ADA].’’ 42 U.S.C.
12102(4)(A); see also 2008 Senate Statement
of Managers at 3 (‘‘The ADA Amendments
Act * * * reiterates that Congress intends
that the scope of the [ADA] be broad and
inclusive.’’). This construction is also
intended to reinforce the general rule that
civil rights statutes must be broadly
construed to achieve their remedial purpose.
Id. at 2; see also 2008 House Judiciary
Committee Report at 19 (this rule of
construction ‘‘directs courts to construe the
definition of ‘disability’ broadly to advance
the ADA’s remedial purposes’’ and thus
‘‘brings treatment of the ADA’s definition of
disability in line with treatment of other civil
rights laws, which should be construed
broadly to effectuate their remedial
purposes’’).
The ADAAA and the EEOC’s regulations
also make clear that the primary object of
attention in cases brought under the ADA
should be whether entities covered under the
ADA have complied with their obligations,
not_whether the individual meets the
definition of disability. ADAAA Section
2(b)(5). This means, for example, examining
whether an employer has discriminated
against an employee, including whether an
employer has fulfilled its obligations with
respect to providing a ‘‘reasonable
accommodation’’ to an individual with a
disability; or whether an employee has met
his or her responsibilities under the ADA
with respect to engaging in the reasonable
accommodation ‘‘interactive process.’’ See
also 2008 Senate Statement of Managers at 4
(‘‘[L]ower court cases have too often turned
solely on the question of whether the
plaintiff is an individual with a disability
rather than the merits of discrimination
claims, such as whether adverse decisions
were impermissibly made by the employer
on the basis of disability, reasonable
accommodations were denied, or
qualification standards were unlawfully
discriminatory.’’); 2008 House Judiciary
Committee Report at 6 (‘‘An individual who

PO 00000

Frm 00029

Fmt 4701

Sfmt 4700

143a

17005

does not qualify as disabled * * * does not
meet th[e] threshold question of coverage in
the protected class and is therefore not
permitted to attempt to prove his or her claim
of discriminatory treatment.’’).
Further, the question of whether an
individual has a disability under this part
‘‘should not demand extensive analysis.’’
ADAAA Section 2(b)(5). See also House
Education and Labor Committee Report at 9
(‘‘The Committee intends that the
establishment of coverage under the ADA
should not be overly complex nor difficult.
* * *’’).
In addition, unless expressly stated
otherwise, the standards applied in the ADA
are intended to provide at least as much
protection as the standards applied under the
Rehabilitation Act of 1973.
The ADA does not preempt any Federal
law, or any State or local law, that grants to
individuals with disabilities protection
greater than or equivalent to that provided by
the ADA. This means that the existence of a
lesser standard of protection to individuals
with disabilities under the ADA will not
provide a defense to failing to meet a higher
standard under another law. Thus, for
example, title I of the ADA would not be a
defense to failing to prepare and maintain an
affirmative action program under section 503
of the Rehabilitation Act. On the other hand,
the existence of a lesser standard under
another law will not provide a defense to
failing to meet a higher standard under the
ADA. See 1990 House Labor Report at 135;
1990 House Judiciary Report at 69–70.
This also means that an individual with a
disability could choose to pursue claims
under a State discrimination or tort law that
does not confer greater substantive rights, or
even confers fewer substantive rights, if the
potential available remedies would be greater
than those available under the ADA and this
part. The ADA does not restrict an individual
with a disability from pursuing such claims
in addition to charges brought under this
part. 1990 House Judiciary Report at 69–70.
The ADA does not automatically preempt
medical standards or safety requirements
established by Federal law or regulations. It
does not preempt State, county, or local laws,
ordinances or regulations that are consistent
with this part and designed to protect the
public health from individuals who pose a
direct threat to the health or safety of others
that cannot be eliminated or reduced by
reasonable accommodation. However, the
ADA does preempt inconsistent requirements
established by State or local law for safety or
security sensitive positions. See 1989 Senate
Report at 27; 1990 House Labor Report at 57.
An employer allegedly in violation of this
part cannot successfully defend its actions by
relying on the obligation to comply with the
requirements of any State or local law that
imposes prohibitions or limitations on the
eligibility of individuals with disabilities
who are qualified to practice any occupation
or profession. For example, suppose a
municipality has an ordinance that prohibits
individuals with tuberculosis from teaching
school children. If an individual with
dormant tuberculosis challenges a private
school’s refusal to hire him or her on the
basis of the tuberculosis, the private school

E:\FR\FM\25MRR2.SGM

25MRR2

17006

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

would not be able to rely on the city
ordinance as a defense under the ADA.
Paragraph (c)(3) is consistent with language
added to section 501 of the ADA by the ADA
Amendments Act. It makes clear that nothing
in this part is intended to alter the
determination of eligibility for benefits under
state workers’ compensation laws or Federal
and State disability benefit programs. State
workers’ compensation laws and Federal
disability benefit programs, such as programs
that provide payments to veterans with
service-connected disabilities and the Social
Security Disability Insurance program, have
fundamentally different purposes than title I
of the ADA.
Section 1630.2 Definitions
Sections 1630.2(a)–(f) Commission, Covered
Entity, etc.

erowe on DSK5CLS3C1PROD with RULES_2

The definitions section of part 1630
includes several terms that are identical, or
almost identical, to the terms found in title
VII of the Civil Rights Act of 1964. Among
these terms are ‘‘Commission,’’ ‘‘Person,’’
‘‘State,’’ and ‘‘Employer.’’ These terms are to
be given the same meaning under the ADA
that they are given under title VII. In general,
the term ‘‘employee’’ has the same meaning
that it is given under title VII. However, the
ADA’s definition of ‘‘employee’’ does not
contain an exception, as does title VII, for
elected officials and their personal staffs. It
should further be noted that all State and
local governments are covered by title II of
the ADA whether or not they are also covered
by this part. Title II, which is enforced by the
Department of Justice, became effective on
January 26, 1992. See 28 CFR part 35.
The term ‘‘covered entity’’ is not found in
title VII. However, the title VII definitions of
the entities included in the term ‘‘covered
entity’’ (e.g., employer, employment agency,
labor organization, etc.) are applicable to the
ADA.
Section 1630.2(g) Disability
In addition to the term ‘‘covered entity,’’
there are several other terms that are unique
to the ADA as amended. The first of these is
the term ‘‘disability.’’ ‘‘This definition is of
critical importance because as a threshold
issue it determines whether an individual is
covered by the ADA.’’ 2008 Senate Statement
of Managers at 6.
In the original ADA, ‘‘Congress sought to
protect anyone who experiences
discrimination because of a current, past, or
perceived disability.’’ 2008 Senate Statement
of Managers at 6. Accordingly, the definition
of the term ‘‘disability’’ is divided into three
prongs: An individual is considered to have
a ‘‘disability’’ if that individual (1) has a
physical or mental impairment that
substantially limits one or more of that
person’s major life activities (the ‘‘actual
disability’’ prong); (2) has a record of such an
impairment (the ‘‘record of’’ prong); or (3) is
regarded by the covered entity as an
individual with a disability as defined in
§ 1630.2(l) (the ‘‘regarded as’’ prong). The
ADAAA retained the basic structure and
terms of the original definition of disability.
However, the Amendments Act altered the
interpretation and application of this critical
statutory term in fundamental ways. See

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

2008 Senate Statement of Managers at 1 (‘‘The
bill maintains the ADA’s inherently
functional definition of disability’’ but
‘‘clarifies and expands the definition’s
meaning and application.’’).
As noted above, the primary purpose of the
ADAAA is to make it easier for people with
disabilities to obtain protection under the
ADA. See Joint Hoyer-Sensenbrenner
Statement at 2. Accordingly, the ADAAA
provides rules of construction regarding the
definition of disability. Consistent with the
congressional intent to reinstate a broad
scope of protection under the ADA, the
ADAAA’s rules of construction require that
the definition of ‘‘disability’’ ‘‘shall be
construed in favor of broad coverage of
individuals under [the ADA], to the
maximum extent permitted by the terms of
[the ADA].’’ 42 U.S.C. 12102(4)(A). The
legislative history of the ADAAA is replete
with references emphasizing this principle.
See Joint Hoyer-Sensenbrenner Statement at
2 (‘‘[The bill] establishes that the definition
of disability must be interpreted broadly to
achieve the remedial purposes of the ADA’’);
2008 Senate Statement of Managers at 1 (the
ADAAA’s purpose is to ‘‘enhance the
protections of the [ADA]’’ by ‘‘expanding the
definition, and by rejecting several opinions
of the United States Supreme Court that have
had the effect of restricting the meaning and
application of the definition of disability’’);
id. (stressing the importance of removing
barriers ‘‘to construing and applying the
definition of disability more generously’’); id.
at 4 (‘‘The managers have introduced the
[ADAAA] to restore the proper balance and
application of the ADA by clarifying and
broadening the definition of disability, and to
increase eligibility for the protections of the
ADA.’’); id. (‘‘It is our expectation that
because the bill makes the definition of
disability more generous, some people who
were not covered before will now be
covered.’’); id. (warning that ‘‘the definition of
disability should not be unduly used as a tool
for excluding individuals from the ADA’s
protections’’); id. (this principle ‘‘sends a
clear signal of our intent that the courts must
interpret the definition of disability broadly
rather than stringently’’); 2008 House
Judiciary Committee Report at 5 (‘‘The
purpose of the bill is to restore protection for
the broad range of individuals with
disabilities as originally envisioned by
Congress by responding to the Supreme
Court’s narrow interpretation of the
definition of disability.’’).
Further, as the purposes section of the
ADAAA explicitly cautions, the ‘‘primary
object of attention’’ in cases brought under
the ADA should be whether entities covered
under the ADA have complied with their
obligations. As noted above, this means, for
example, examining whether an employer
has discriminated against an employee,
including whether an employer has fulfilled
its obligations with respect to providing a
‘‘reasonable accommodation’’ to an individual
with a disability; or whether an employee has
met his or her responsibilities under the ADA
with respect to engaging in the reasonable
accommodation ‘‘interactive process.’’
ADAAA Section 2(b)(5); see also 2008 Senate
Statement of Managers at 4 (‘‘[L]ower court

PO 00000

Frm 00030

Fmt 4701

Sfmt 4700

144a

cases have too often turned solely on the
question of whether the plaintiff is an
individual with a disability rather than the
merits of discrimination claims, such as
whether adverse decisions were
impermissibly made by the employer on the
basis of disability, reasonable
accommodations were denied, or
qualification standards were unlawfully
discriminatory.’’); 2008 House Judiciary
Committee Report (criticizing pre-ADAAA
court decisions which ‘‘prevented individuals
that Congress unquestionably intended to
cover from ever getting a chance to prove
their case’’). Accordingly, the threshold
coverage question of whether an individual’s
impairment is a disability under the ADA
‘‘should not demand extensive analysis.’’
ADAAA Section 2(b)(5).
Section 1630.2(g)(2) provides that an
individual may establish coverage under any
one or more (or all three) of the prongs in the
definition of disability. However, to be an
individual with a disability, an individual is
only required to satisfy one prong.
As § 1630.2(g)(3) indicates, in many cases
it may be unnecessary for an individual to
resort to coverage under the ‘‘actual
disability’’ or ‘‘record of’’ prongs. Where the
need for a reasonable accommodation is not
at issue—for example, where there is no
question that the individual is ‘‘qualified’’
without a reasonable accommodation and is
not seeking or has not sought a reasonable
accommodation—it would not be necessary
to determine whether the individual is
substantially limited in a major life activity
(under the actual disability prong) or has a
record of a substantially limiting impairment
(under the record of prong). Such claims
could be evaluated solely under the
‘‘regarded as’’ prong of the definition. In fact,
Congress expected the first and second
prongs of the definition of disability ‘‘to be
used only by people who are affirmatively
seeking reasonable accommodations * * *’’
and that ‘‘[a]ny individual who has been
discriminated against because of an
impairment—short of being granted a
reasonable accommodation * * *—should
be bringing a claim under the third prong of
the definition which will require no showing
with regard to the severity of his or her
impairment.’’ Joint Hoyer-Sensenbrenner
Statement at 4. An individual may choose,
however, to proceed under the ‘‘actual
disability’’ and/or ‘‘record of’’ prong
regardless of whether the individual is
challenging a covered entity’s failure to make
reasonable accommodation or requires a
reasonable accommodation.
To fully understand the meaning of the
term ‘‘disability,’’ it is also necessary to
understand what is meant by the terms
‘‘physical or mental impairment,’’ ‘‘major life
activity,’’ ‘‘substantially limits,’’ ‘‘record of,’’
and ‘‘regarded as.’’ Each of these terms is
discussed below.
Section 1630.2(h) Physical or Mental
Impairment
Neither the original ADA nor the ADAAA
provides a definition for the terms ‘‘physical
or mental impairment.’’ However, the
legislative history of the Amendments Act
notes that Congress ‘‘expect[s] that the
current regulatory definition of these terms,

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
as promulgated by agencies such as the U.S.
Equal Employment Opportunity Commission
(EEOC), the Department of Justice (DOJ) and
the Department of Education Office of Civil
Rights (DOE OCR) will not change.’’ 2008
Senate Statement of Managers at 6. The
definition of ‘‘physical or mental
impairment’’ in the EEOC’s regulations
remains based on the definition of the term
‘‘physical or mental impairment’’ found in the
regulations implementing section 504 of the
Rehabilitation Act at 34 CFR part 104.
However, the definition in EEOC’s
regulations adds additional body systems to
those provided in the section 504 regulations
and makes clear that the list is nonexhaustive.
It is important to distinguish between
conditions that are impairments and
physical, psychological, environmental,
cultural, and economic characteristics that
are not impairments. The definition of the
term ‘‘impairment’’ does not include physical
characteristics such as eye color, hair color,
left-handedness, or height, weight, or muscle
tone that are within ‘‘normal’’ range and are
not the result of a physiological disorder. The
definition, likewise, does not include
characteristic predisposition to illness or
disease. Other conditions, such as pregnancy,
that are not the result of a physiological
disorder are also not impairments. However,
a pregnancy-related impairment that
substantially limits a major life activity is a
disability under the first prong of the
definition. Alternatively, a pregnancy-related
impairment may constitute a ‘‘record of’’ a
substantially limiting impairment,’’ or may be
covered under the ‘‘regarded as’’ prong if it is
the basis for a prohibited employment action
and is not ‘‘transitory and minor.’’
The definition of an impairment also does
not include common personality traits such
as poor judgment or a quick temper where
these are not symptoms of a mental or
psychological disorder. Environmental,
cultural, or economic disadvantages such as
poverty, lack of education, or a prison record
are not impairments. Advanced age, in and
of itself, is also not an impairment. However,
various medical conditions commonly
associated with age, such as hearing loss,
osteoporosis, or arthritis would constitute
impairments within the meaning of this part.
See 1989 Senate Report at 22–23; 1990 House
Labor Report at 51–52; 1990 House Judiciary
Report at 28–29.
Section 1630.2(i) Major Life Activities
The ADAAA provided significant new
guidance and clarification on the subject of
‘‘major life activities.’’ As the legislative
history of the Amendments Act explains,
Congress anticipated that protection under
the ADA would now extend to a wider range
of cases, in part as a result of the expansion
of the category of major life activities. See
2008 Senate Statement of Managers at 8 n.17.
For purposes of clarity, the Amendments
Act provides an illustrative list of major life
activities, including caring for oneself,
performing manual tasks, seeing, hearing,
eating, sleeping, walking, standing, lifting,
bending, speaking, breathing, learning,
reading, concentrating, thinking,
communicating, and working. The ADA
Amendments expressly made this statutory

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

list of examples of major life activities nonexhaustive, and the regulations include
sitting, reaching, and interacting with others
as additional examples. Many of these major
life activities listed in the ADA Amendments
Act and the regulations already had been
included in the EEOC’s 1991 nowsuperseded regulations implementing title I
of the ADA and in sub-regulatory documents,
and already were recognized by the courts.
The ADA as amended also explicitly
defines ‘‘major life activities’’ to include the
operation of ‘‘major bodily functions.’’ This
was an important addition to the statute. This
clarification was needed to ensure that the
impact of an impairment on the operation of
a major bodily function would not be
overlooked or wrongly dismissed as falling
outside the definition of ‘‘major life
activities’’ under the ADA. 2008 House
Judiciary Committee Report at 16; see also
2008 Senate Statement of Managers at 8 (‘‘for
the first time [in the ADAAA], the category
of ‘major life activities’ is defined to include
the operation of major bodily functions, thus
better addressing chronic impairments that
can be substantially limiting’’).
The regulations include all of those major
bodily functions identified in the ADA
Amendments Act’s non-exhaustive list of
examples and add a number of others that are
consistent with the body systems listed in the
regulations’ definition of ‘‘impairment’’ (at
§ 1630.2(h)) and with the U.S. Department of
Labor’s nondiscrimination and equal
employment opportunity regulations
implementing section 188 of the Workforce
Investment Act of 1998, 29 U.S.C. 2801, et
seq. Thus, special sense organs, skin,
genitourinary, cardiovascular, hemic,
lymphatic, and musculoskeletal functions are
major bodily functions not included in the
statutory list of examples but included in
§ 1630.2(i)(1)(ii). The Commission has added
these examples to further illustrate the nonexhaustive list of major life activities,
including major bodily functions, and to
emphasize that the concept of major life
activities is to be interpreted broadly
consistent with the Amendments Act. The
regulations also provide that the operation of
a major bodily function may include the
operation of an individual organ within a
body system. This would include, for
example, the operation of the kidney, liver,
pancreas, or other organs.
The link between particular impairments
and various major bodily functions should
not be difficult to identify. Because
impairments, by definition, affect the
functioning of body systems, they will
generally affect major bodily functions. For
example, cancer affects an individual’s
normal cell growth; diabetes affects the
operation of the pancreas and also the
function of the endocrine system; and
Human Immunodeficiency Virus (HIV)
infection affects the immune system.
Likewise, sickle cell disease affects the
functions of the hemic system, lymphedema
affects lymphatic functions, and rheumatoid
arthritis affects musculoskeletal functions.
In the legislative history of the ADAAA,
Congress expressed its expectation that the
statutory expansion of ‘‘major life activities’’
to include major bodily functions (along with

PO 00000

Frm 00031

Fmt 4701

Sfmt 4700

145a

17007

other statutory changes) would lead to more
expansive coverage. See 2008 Senate
Statement of Managers at 8 n.17 (indicating
that these changes will make it easier for
individuals to show that they are eligible for
the ADA’s protections under the first prong
of the definition of disability). The House
Education and Labor Committee explained
that the inclusion of major bodily functions
would ‘‘affect cases such as U.S. v. Happy
Time Day Care Ctr. in which the courts
struggled to analyze whether the impact of
HIV infection substantially limits various
major life activities of a five-year-old child,
and recognizing, among other things, that
‘there is something inherently illogical about
inquiring whether’ a five-year-old’s ability to
procreate is substantially limited by his HIV
infection; Furnish v. SVI Sys., Inc, in which
the court found that an individual with
cirrhosis of the liver caused by Hepatitis B
is not disabled because liver function—
unlike eating, working, or reproducing—‘is
not integral to one’s daily existence;’ and
Pimental v. Dartmouth-Hitchcock Clinic, in
which the court concluded that the plaintiff’s
stage three breast cancer did not substantially
limit her ability to care for herself, sleep, or
concentrate. The Committee expects that the
plaintiffs in each of these cases could
establish a [substantial limitation] on major
bodily functions that would qualify them for
protection under the ADA.’’ 2008 House
Education and Labor Committee Report at 12.
The examples of major life activities
(including major bodily functions) in the
ADAAA and the EEOC’s regulations are
illustrative and non-exhaustive, and the
absence of a particular life activity or bodily
function from the examples does not create
a negative implication as to whether an
omitted activity or function constitutes a
major life activity under the statute. See 2008
Senate Statement of Managers at 8; see also
2008 House Committee on Educ. and Labor
Report at 11; 2008 House Judiciary
Committee Report at 17.
The Commission anticipates that courts
will recognize other major life activities,
consistent with the ADA Amendments Act’s
mandate to construe the definition of
disability broadly. As a result of the ADA
Amendments Act’s rejection of the holding in
Toyota Motor Mfg., Ky., Inc. v. Williams, 534
U.S. 184 (2002), whether an activity is a
‘‘major life activity’’ is not determined by
reference to whether it is of ‘‘central
importance to daily life.’’ See Toyota, 534
U.S. at 197 (defining ‘‘major life activities’’ as
activities that are of ‘‘central importance to
most people’s daily lives’’). Indeed, this
holding was at odds with the earlier Supreme
Court decision of Bragdon v. Abbott, 524 U.S.
624 (1998), which held that a major life
activity (in that case, reproduction) does not
have to have a ‘‘public, economic or daily
aspect.’’ Id. at 639.
Accordingly, the regulations provide that
in determining other examples of major life
activities, the term ‘‘major’’ shall not be
interpreted strictly to create a demanding
standard for disability. Cf. 2008 Senate
Statement of Managers at 7 (indicating that
a person is considered an individual with a
disability for purposes of the first prong
when one or more of the individual’s

E:\FR\FM\25MRR2.SGM

25MRR2

17008

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

erowe on DSK5CLS3C1PROD with RULES_2

‘‘important life activities’’ are restricted)
(citing 1989 Senate Report at 23). The
regulations also reject the notion that to be
substantially limited in performing a major
life activity, an individual must have an
impairment that prevents or severely restricts
the individual from doing ‘‘activities that are
of central importance to most people’s daily
lives.’’ Id.; see also 2008 Senate Statement of
Managers at 5 n.12.
Thus, for example, lifting is a major life
activity regardless of whether an individual
who claims to be substantially limited in
lifting actually performs activities of central
importance to daily life that require lifting.
Similarly, the Commission anticipates that
the major life activity of performing manual
tasks (which was at issue in Toyota) could
have many different manifestations, such as
performing tasks involving fine motor
coordination, or performing tasks involving
grasping, hand strength, or pressure. Such
tasks need not constitute activities of central
importance to most people’s daily lives, nor
must an individual show that he or she is
substantially limited in performing all
manual tasks.
Section 1630.2(j) Substantially Limits
In any case involving coverage solely
under the ‘‘regarded as’’ prong of the
definition of ‘‘disability’’ (e.g., cases where
reasonable accommodation is not at issue), it
is not necessary to determine whether an
individual is ‘‘substantially limited’’ in any
major life activity. See 2008 Senate Statement
of Managers at 10; id. at 13 (‘‘The functional
limitation imposed by an impairment is
irrelevant to the third ‘regarded as’ prong.’’).
Indeed, Congress anticipated that the first
and second prongs of the definition of
disability would ‘‘be used only by people
who are affirmatively seeking reasonable
accommodations * * * ’’ and that ‘‘[a]ny
individual who has been discriminated
against because of an impairment—short of
being granted a reasonable accommodation
* * *—should be bringing a claim under the
third prong of the definition which will
require no showing with regard to the
severity of his or her impairment.’’ Joint
Hoyer-Sensenbrenner Statement at 4. Of
course, an individual may choose, however,
to proceed under the ‘‘actual disability’’ and/
or ‘‘record of’’ prong regardless of whether the
individual is challenging a covered entity’s
failure to make reasonable accommodations
or requires a reasonable accommodation. The
concept of ‘‘substantially limits’’ is only
relevant in cases involving coverage under
the ‘‘actual disability’’ or ‘‘record of’’ prong of
the definition of disability. Thus, the
information below pertains to these cases
only.
Section 1630.2(j)(1) Rules of Construction
It is clear in the text and legislative history
of the ADAAA that Congress concluded the
courts had incorrectly construed
‘‘substantially limits,’’ and disapproved of the
EEOC’s now-superseded 1991 regulation
defining the term to mean ‘‘significantly
restricts.’’ See 2008 Senate Statement of
Managers at 6 (‘‘We do not believe that the
courts have correctly instituted the level of
coverage we intended to establish with the
term ‘substantially limits’ in the ADA’’ and

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

‘‘we believe that the level of limitation, and
the intensity of focus, applied by the
Supreme Court in Toyota goes beyond what
we believe is the appropriate standard to
create coverage under this law.’’). Congress
extensively deliberated over whether a new
term other than ‘‘substantially limits’’ should
be adopted to denote the appropriate
functional limitation necessary under the
first and second prongs of the definition of
disability. See 2008 Senate Statement of
Managers at 6–7. Ultimately, Congress
affirmatively opted to retain this term in the
Amendments Act, rather than replace it. It
concluded that ‘‘adopting a new, undefined
term that is subject to widely disparate
meanings is not the best way to achieve the
goal of ensuring consistent and appropriately
broad coverage under this Act.’’ Id. Instead,
Congress determined ‘‘a better way * * * to
express [its] disapproval of Sutton and
Toyota (along with the current EEOC
regulation) is to retain the words
‘substantially limits,’ but clarify that it is not
meant to be a demanding standard.’’ Id. at 7.
To achieve that goal, Congress set forth
detailed findings and purposes and ‘‘rules of
construction’’ to govern the interpretation
and application of this concept going
forward. See ADAAA Sections 2–4; 42 U.S.C.
12102(4).
The Commission similarly considered
whether to provide a new definition of
‘‘substantially limits’’ in the regulation.
Following Congress’s lead, however, the
Commission ultimately concluded that a new
definition would inexorably lead to greater
focus and intensity of attention on the
threshold issue of coverage than intended by
Congress. Therefore, the regulations simply
provide rules of construction that must be
applied in determining whether an
impairment substantially limits (or
substantially limited) a major life activity.
These are each discussed in greater detail
below.
Section 1630.2(j)(1)(i): Broad Construction;
not a Demanding Standard
Section 1630.2(j)(1)(i) states: ‘‘The term
‘substantially limits’ shall be construed
broadly in favor of expansive coverage, to the
maximum extent permitted by the terms of
the ADA. ‘Substantially limits’ is not meant
to be a demanding standard.’’
Congress stated in the ADA Amendments
Act that the definition of disability ‘‘shall be
construed in favor of broad coverage,’’ and
that ‘‘the term ‘substantially limits’ shall be
interpreted consistently with the findings
and purposes of the ADA Amendments Act
of 2008.’’ 42 U.S.C. 12101(4)(A)–(B), as
amended. ‘‘This is a textual provision that
will legally guide the agencies and courts in
properly interpreting the term ‘substantially
limits.’ ’’ Hoyer-Sensenbrenner Congressional
Record Statement at H8295. As Congress
noted in the legislative history of the
ADAAA, ‘‘[t]o be clear, the purposes section
conveys our intent to clarify not only that
‘substantially limits’ should be measured by
a lower standard than that used in Toyota,
but also that the definition of disability
should not be unduly used as a tool for
excluding individuals from the ADA’s
protections.’’ 2008 Senate Statement of
Managers at 5 (also stating that ‘‘[t]his rule of

PO 00000

Frm 00032

Fmt 4701

Sfmt 4700

146a

construction, together with the rule of
construction providing that the definition of
disability shall be construed in favor of broad
coverage of individuals sends a clear signal
of our intent that the courts must interpret
the definition of disability broadly rather
than stringently’’). Put most succinctly,
‘‘substantially limits’’ ‘‘is not meant to be a
demanding standard.’’ 2008 Senate Statement
of Managers at 7.
Section 1630.2(j)(1)(ii): Significant or Severe
Restriction Not Required; Nonetheless, Not
Every Impairment Is Substantially Limiting
Section 1630.2(j)(1)(ii) states: ‘‘An
impairment is a disability within the
meaning of this section if it substantially
limits the ability of an individual to perform
a major life activity as compared to most
people in the general population. An
impairment need not prevent, or significantly
or severely restrict, the individual from
performing a major life activity in order to be
considered substantially limiting.
Nonetheless, not every impairment will
constitute a ‘disability’ within the meaning of
this section.’’
In keeping with the instruction that the
term ‘‘substantially limits’’ is not meant to be
a demanding standard, the regulations
provide that an impairment is a disability if
it substantially limits the ability of an
individual to perform a major life activity as
compared to most people in the general
population. However, to be substantially
limited in performing a major life activity an
individual need not have an impairment that
prevents or significantly or severely restricts
the individual from performing a major life
activity. See 2008 Senate Statement of
Managers at 2, 6–8 & n.14; 2008 House
Committee on Educ. and Labor Report at 9–
10 (‘‘While the limitation imposed by an
impairment must be important, it need not
rise to the level of severely restricting or
significantly restricting the ability to perform
a major life activity to qualify as a
disability.’’); 2008 House Judiciary
Committee Report at 16 (similarly requiring
an ‘‘important’’ limitation). The level of
limitation required is ‘‘substantial’’ as
compared to most people in the general
population, which does not require a
significant or severe restriction. Multiple
impairments that combine to substantially
limit one or more of an individual’s major
life activities also constitute a disability.
Nonetheless, not every impairment will
constitute a ‘‘disability’’ within the meaning
of this section. See 2008 Senate Statement of
Managers at 4 (‘‘We reaffirm that not every
individual with a physical or mental
impairment is covered by the first prong of
the definition of disability in the ADA.’’)
Section 1630.2(j)(1)(iii): Substantial
Limitation Should Not Be Primary Object of
Attention; Extensive Analysis Not Needed
Section 1630.2(j)(1)(iii) states: ‘‘The
primary object of attention in cases brought
under the ADA should be whether covered
entities have complied with their obligations,
not whether an individual’s impairment
substantially limits a major life activity.
Accordingly, the threshold issue of whether
an impairment ‘substantially limits’ a major
life activity should not demand extensive
analysis.’’

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
Congress retained the term ‘‘substantially
limits’’ in part because it was concerned that
adoption of a new phrase—and the resulting
need for further judicial scrutiny and
construction—would not ‘‘help move the
focus from the threshold issue of disability to
the primary issue of discrimination.’’ 2008
Senate Statement of Managers at 7.
This was the primary problem Congress
sought to solve in enacting the ADAAA. It
recognized that ‘‘clearing the initial
[disability] threshold is critical, as
individuals who are excluded from the
definition ‘never have the opportunity to
have their condition evaluated in light of
medical evidence and a determination made
as to whether they [are] ‘otherwise
qualified.’ ’ ’’ 2008 House Judiciary
Committee Report at 7; see also id.
(expressing concern that ‘‘[a]n individual
who does not qualify as disabled does not
meet th[e] threshold question of coverage in
the protected class and is therefore not
permitted to attempt to prove his or her claim
of discriminatory treatment’’); 2008 Senate
Statement of Managers at 4 (criticizing preADAAA lower court cases that ‘‘too often
turned solely on the question of whether the
plaintiff is an individual with a disability
rather than the merits of discrimination
claims, such as whether adverse decisions
were impermissibly made by the employer
on the basis of disability, reasonable
accommodations were denied, or
qualification standards were unlawfully
discriminatory’’).
Accordingly, the Amendments Act and the
amended regulations make plain that the
emphasis in ADA cases now should be
squarely on the merits and not on the initial
coverage question. The revised regulations
therefore provide that an impairment is a
disability if it substantially limits the ability
of an individual to perform a major life
activity as compared to most people in the
general population and deletes the language
to which Congress objected. The Commission
believes that this provides a useful
framework in which to analyze whether an
impairment satisfies the definition of
disability. Further, this framework better
reflects Congress’s expressed intent in the
ADA Amendments Act that the definition of
the term ‘‘disability’’ shall be construed
broadly, and is consistent with statements in
the Amendments Act’s legislative history.
See 2008 Senate Statement of Managers at 7
(stating that ‘‘adopting a new, undefined
term’’ and the ‘‘resulting need for further
judicial scrutiny and construction will not
help move the focus from the threshold issue
of disability to the primary issue of
discrimination,’’ and finding that
‘‘ ‘substantially limits’ as construed
consistently with the findings and purposes
of this legislation establishes an appropriate
functionality test of determining whether an
individual has a disability’’ and that ‘‘using
the correct standard—one that is lower than
the strict or demanding standard created by
the Supreme Court in Toyota—will make the
disability determination an appropriate
threshold issue but not an onerous burden for
those seeking accommodations or
modifications’’).
Consequently, this rule of construction
makes clear that the question of whether an

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

impairment substantially limits a major life
activity should not demand extensive
analysis. As the legislative history explains,
‘‘[w]e expect that courts interpreting [the
ADA] will not demand such an extensive
analysis over whether a person’s physical or
mental impairment constitutes a disability.’’
Hoyer-Sensenbrenner Congressional Record
Statement at H8295; see id. (‘‘Our goal
throughout this process has been to simplify
that analysis.’’)
Section 1630.2(j)(1)(iv): Individualized
Assessment Required, But With Lower
Standard Than Previously Applied
Section 1630.2(j)(1)(iv) states: ‘‘The
determination of whether an impairment
substantially limits a major life activity
requires an individualized assessment.
However, in making this assessment, the
term ‘substantially limits’ shall be interpreted
and applied to require a degree of functional
limitation that is lower than the standard for
‘substantially limits’ applied prior to the
ADAAA.’’
By retaining the essential elements of the
definition of disability including the key
term ‘‘substantially limits,’’ Congress
reaffirmed that not every individual with a
physical or mental impairment is covered by
the first prong of the definition of disability
in the ADA. See 2008 Senate Statement of
Managers at 4. To be covered under the first
prong of the definition, an individual must
establish that an impairment substantially
limits a major life activity. That has not
changed—nor will the necessity of making
this determination on an individual basis. Id.
However, what the ADAAA changed is the
standard required for making this
determination. Id. at 4–5.
The Amendments Act and the EEOC’s
regulations explicitly reject the standard
enunciated by the Supreme Court in Toyota
Motor Mfg., Ky., Inc. v. Williams, 534 U.S.
184 (2002), and applied in the lower courts
in numerous cases. See ADAAA Section
2(b)(4). That previous standard created ‘‘an
inappropriately high level of limitation
necessary to obtain coverage under the ADA.’’
Id. at Section 2(b)(5). The Amendments Act
and the EEOC’s regulations reject the notion
that ‘‘substantially limits’’ should be
interpreted strictly to create a demanding
standard for qualifying as disabled. Id. at
Section 2(b)(4). Instead, the ADAAA and
these regulations establish a degree of
functional limitation required for an
impairment to constitute a disability that is
consistent with what Congress originally
intended. 2008 Senate Statement of Managers
at 7. This will make the disability
determination an appropriate threshold issue
but not an onerous burden for those seeking
to prove discrimination under the ADA. Id.
Section 1630.2(j)(1)(v): Scientific, Medical, or
Statistical Analysis Not Required, But
Permissible When Appropriate
Section 1630.2(j)(1)(v) states: ‘‘The
comparison of an individual’s performance of
a major life activity to the performance of the
same major life activity by most people in the
general population usually will not require
scientific, medical, or statistical analysis.
Nothing in this paragraph is intended,
however, to prohibit the presentation of

PO 00000

Frm 00033

Fmt 4701

Sfmt 4700

147a

17009

scientific, medical, or statistical evidence to
make such a comparison where appropriate.’’
The term ‘‘average person in the general
population,’’ as the basis of comparison for
determining whether an individual’s
impairment substantially limits a major life
activity, has been changed to ‘‘most people in
the general population.’’ This revision is not
a substantive change in the concept, but
rather is intended to conform the language to
the simpler and more straightforward
terminology used in the legislative history to
the Amendments Act. The comparison
between the individual and ‘‘most people’’
need not be exacting, and usually will not
require scientific, medical, or statistical
analysis. Nothing in this subparagraph is
intended, however, to prohibit the
presentation of scientific, medical, or
statistical evidence to make such a
comparison where appropriate.
The comparison to most people in the
general population continues to mean a
comparison to other people in the general
population, not a comparison to those
similarly situated. For example, the ability of
an individual with an amputated limb to
perform a major life activity is compared to
other people in the general population, not
to other amputees. This does not mean that
disability cannot be shown where an
impairment, such as a learning disability, is
clinically diagnosed based in part on a
disparity between an individual’s aptitude
and that individual’s actual versus expected
achievement, taking into account the
person’s chronological age, measured
intelligence, and age-appropriate education.
Individuals diagnosed with dyslexia or other
learning disabilities will typically be
substantially limited in performing activities
such as learning, reading, and thinking when
compared to most people in the general
population, particularly when the
ameliorative effects of mitigating measures,
including therapies, learned behavioral or
adaptive neurological modifications, assistive
devices (e.g., audio recordings, screen
reading devices, voice activated software),
studying longer, or receiving more time to
take a test, are disregarded as required under
the ADA Amendments Act.
Section 1630.2(j)(1)(vi): Mitigating Measures
Section 1630.2(j)(1)(vi) states: ‘‘The
determination of whether an impairment
substantially limits a major life activity shall
be made without regard to the ameliorative
effects of mitigating measures. However, the
ameliorative effects of ordinary eyeglasses or
contact lenses shall be considered in
determining whether an impairment
substantially limits a major life activity.’’
The ameliorative effects of mitigating
measures shall not be considered in
determining whether an impairment
substantially limits a major life activity.
Thus, ‘‘[w]ith the exception of ordinary
eyeglasses and contact lenses, impairments
must be examined in their unmitigated state.’’
See 2008 Senate Statement of Managers at 5.
This provision in the ADAAA and the
EEOC’s regulations ‘‘is intended to eliminate
the catch-22 that exist[ed] * * * where
individuals who are subjected to
discrimination on the basis of their
disabilities [we]re frequently unable to

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

17010

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

invoke the ADA’s protections because they
[we]re not considered people with
disabilities when the effects of their
medication, medical supplies, behavioral
adaptations, or other interventions [we]re
considered.’’ Joint Hoyer-Sensenbrenner
Statement at 2; see also 2008 Senate
Statement of Managers at 9 (‘‘This provision
is intended to eliminate the situation created
under [prior] law in which impairments that
are mitigated [did] not constitute disabilities
but [were the basis for discrimination].’’). To
the extent cases pre-dating the 2008
Amendments Act reasoned otherwise, they
are contrary to the law as amended. See 2008
House Judiciary Committee Report at 9 &
nn.25, 20–21 (citing, e.g., McClure v. General
Motors Corp., 75 F. App’x 983 (5th Cir. 2003)
(court held that individual with muscular
dystrophy who, with the mitigating measure
of ‘‘adapting’’ how he performed manual
tasks, had successfully learned to live and
work with his disability was therefore not an
individual with a disability); Orr v. Wal-Mart
Stores, Inc., 297 F.3d 720 (8th Cir. 2002)
(court held that Sutton v. United Air Lines,
Inc., 527 U.S. 471 (1999), required
consideration of the ameliorative effects of
plaintiff’s careful regimen of medicine,
exercise and diet, and declined to consider
impact of uncontrolled diabetes on plaintiff’s
ability to see, speak, read, and walk);
Gonzales v. National Bd. of Med. Examiners,
225 F.3d 620 (6th Cir. 2000) (where the court
found that an individual with a diagnosed
learning disability was not substantially
limited after considering the impact of selfaccommodations that allowed him to read
and achieve academic success); McMullin v.
Ashcroft, 337 F. Supp. 2d 1281 (D. Wyo.
2004) (individual fired because of clinical
depression not protected because of the
successful management of the condition with
medication for fifteen years); Eckhaus v.
Consol. Rail Corp., 2003 WL 23205042 (D.N.J.
Dec. 24, 2003) (individual fired because of a
hearing impairment was not protected
because a hearing aid helped correct that
impairment); Todd v. Academy Corp., 57 F.
Supp. 2d 448, 452 (S.D. Tex. 1999) (court
held that because medication reduced the
frequency and intensity of plaintiff’s
seizures, he was not disabled)).
An individual who, because of the use of
a mitigating measure, has experienced no
limitations, or only minor limitations, related
to the impairment may still be an individual
with a disability, where there is evidence that
in the absence of an effective mitigating
measure the individual’s impairment would
be substantially limiting. For example,
someone who began taking medication for
hypertension before experiencing substantial
limitations related to the impairment would
still be an individual with a disability if,
without the medication, he or she would now
be substantially limited in functions of the
cardiovascular or circulatory system.
Evidence showing that an impairment
would be substantially limiting in the
absence of the ameliorative effects of
mitigating measures could include evidence
of limitations that a person experienced prior
to using a mitigating measure, evidence
concerning the expected course of a
particular disorder absent mitigating

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

measures, or readily available and reliable
information of other types. However, we
expect that consistent with the Amendments
Act’s command (and the related rules of
construction in the regulations) that the
definition of disability ‘‘should not demand
extensive analysis,’’ covered entities and
courts will in many instances be able to
conclude that a substantial limitation has
been shown without resort to such evidence.
The Amendments Act provides an
‘‘illustrative but non-comprehensive list of
the types of mitigating measures that are not
to be considered.’’ See 2008 Senate Statement
of Managers at 9. Section 1630.2(j)(5) of the
regulations includes all of those mitigating
measures listed in the ADA Amendments
Act’s illustrative list of mitigating measures,
including reasonable accommodations (as
applied under title I) or ‘‘auxiliary aids or
services’’ (as defined by 42 U.S.C. 12103(1)
and applied under titles II and III).
Since it would be impossible to guarantee
comprehensiveness in a finite list, the list of
examples of mitigating measures provided in
the ADA and the regulations is nonexhaustive. See 2008 House Judiciary
Committee Report at 20. The absence of any
particular mitigating measure from the list in
the regulations should not convey a negative
implication as to whether the measure is a
mitigating measure under the ADA. See 2008
Senate Statement of Managers at 9.
For example, the fact that mitigating
measures include ‘‘reasonable
accommodations’’ generally makes it
unnecessary to mention specific kinds of
accommodations. Nevertheless, the use of a
service animal, job coach, or personal
assistant on the job would certainly be
considered types of mitigating measures, as
would the use of any device that could be
considered assistive technology, and whether
individuals who use these measures have
disabilities would be determined without
reference to their ameliorative effects. See
2008 House Judiciary Committee Report at
20; 2008 House Educ. & Labor Rep. at 15.
Similarly, adaptive strategies that might
mitigate, or even allow an individual to
otherwise avoid performing particular major
life activities, are mitigating measures and
also would not be considered in determining
whether an impairment is substantially
limiting. Id.
The determination of whether or not an
individual’s impairment substantially limits
a major life activity is unaffected by whether
the individual chooses to forgo mitigating
measures. For individuals who do not use a
mitigating measure (including for example
medication or reasonable accommodation
that could alleviate the effects of an
impairment), the availability of such
measures has no bearing on whether the
impairment substantially limits a major life
activity. The limitations posed by the
impairment on the individual and any
negative (non-ameliorative) effects of
mitigating measures used determine whether
an impairment is substantially limiting. The
origin of the impairment, whether its effects
can be mitigated, and any ameliorative effects
of mitigating measures in fact used may not
be considered in determining if the
impairment is substantially limiting.

PO 00000

Frm 00034

Fmt 4701

Sfmt 4700

148a

However, the use or non-use of mitigating
measures, and any consequences thereof,
including any ameliorative and nonameliorative effects, may be relevant in
determining whether the individual is
qualified or poses a direct threat to safety.
The ADA Amendments Act and the
regulations state that ‘‘ordinary eyeglasses or
contact lenses’’ shall be considered in
determining whether someone has a
disability. This is an exception to the rule
that the ameliorative effects of mitigating
measures are not to be taken into account.
‘‘The rationale behind this exclusion is that
the use of ordinary eyeglasses or contact
lenses, without more, is not significant
enough to warrant protection under the
ADA.’’ Joint Hoyer-Sensenbrenner Statement
at 2. Nevertheless, as discussed in greater
detail below at § 1630.10(b), if an applicant
or employee is faced with a qualification
standard that requires uncorrected vision (as
the plaintiffs in the Sutton case were), and
the applicant or employee who is adversely
affected by the standard brings a challenge
under the ADA, an employer will be required
to demonstrate that the qualification standard
is job related and consistent with business
necessity. 2008 Senate Statement of
Managers at 9.
The ADAAA and the EEOC’s regulations
both define the term ‘‘ordinary eyeglasses or
contact lenses’’ as lenses that are ‘‘intended to
fully correct visual acuity or eliminate
refractive error.’’ So, if an individual with
severe myopia uses eyeglasses or contact
lenses that are intended to fully correct
visual acuity or eliminate refractive error,
they are ordinary eyeglasses or contact
lenses, and therefore any inquiry into
whether such individual is substantially
limited in seeing or reading would be based
on how the individual sees or reads with the
benefit of the eyeglasses or contact lenses.
Likewise, if the only visual loss an individual
experiences affects the ability to see well
enough to read, and the individual’s ordinary
reading glasses are intended to completely
correct for this visual loss, the ameliorative
effects of using the reading glasses must be
considered in determining whether the
individual is substantially limited in seeing.
Additionally, eyeglasses or contact lenses
that are the wrong prescription or an
outdated prescription may nevertheless be
‘‘ordinary’’ eyeglasses or contact lenses, if a
proper prescription would fully correct
visual acuity or eliminate refractive error.
Both the statute and the regulations
distinguish ‘‘ordinary eyeglasses or contact
lenses’’ from ‘‘low vision devices,’’ which
function by magnifying, enhancing, or
otherwise augmenting a visual image, and
which are not considered when determining
whether someone has a disability. The
regulations do not establish a specific level
of visual acuity (e.g., 20/20) as the basis for
determining whether eyeglasses or contact
lenses should be considered ‘‘ordinary’’
eyeglasses or contact lenses. Whether lenses
fully correct visual acuity or eliminate
refractive error is best determined on a caseby-case basis, in light of current and objective
medical evidence. Moreover, someone who
uses ordinary eyeglasses or contact lenses is
not automatically considered to be outside

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
the ADA’s protection. Such an individual
may demonstrate that, even with the use of
ordinary eyeglasses or contact lenses, his
vision is still substantially limited when
compared to most people.
Section 1630.2(j)(1)(vii): Impairments That
Are Episodic or in Remission
Section 1630.2(j)(1)(vii) states: ‘‘An
impairment that is episodic or in remission
is a disability if it would substantially limit
a major life activity when active.’’
An impairment that is episodic or in
remission is a disability if it would
substantially limit a major life activity in its
active state. ‘‘This provision is intended to
reject the reasoning of court decisions
concluding that certain individuals with
certain conditions—such as epilepsy or post
traumatic stress disorder—were not protected
by the ADA because their conditions were
episodic or intermittent.’’ Joint HoyerSensenbrenner Statement at 2–3. The
legislative history provides: ‘‘This * * * rule
of construction thus rejects the reasoning of
the courts in cases like Todd v. Academy
Corp. [57 F. Supp. 2d 448, 453 (S.D. Tex.
1999)] where the court found that the
plaintiff’s epilepsy, which resulted in short
seizures during which the plaintiff was
unable to speak and experienced tremors,
was not sufficiently limiting, at least in part
because those seizures occurred episodically.
It similarly rejects the results reached in
cases [such as Pimental v. DartmouthHitchock Clinic, 236 F. Supp. 2d 177, 182–
83 (D.N.H. 2002)] where the courts have
discounted the impact of an impairment
[such as cancer] that may be in remission as
too short-lived to be substantially limiting. It
is thus expected that individuals with
impairments that are episodic or in remission
(e.g., epilepsy, multiple sclerosis, cancer)
will be able to establish coverage if, when
active, the impairment or the manner in
which it manifests (e.g., seizures)
substantially limits a major life activity.’’
2008 House Judiciary Committee Report at
19–20.
Other examples of impairments that may
be episodic include, but are not limited to,
hypertension, diabetes, asthma, major
depressive disorder, bipolar disorder, and
schizophrenia. See 2008 House Judiciary
Committee Report at 19–20. The fact that the
periods during which an episodic
impairment is active and substantially limits
a major life activity may be brief or occur
infrequently is no longer relevant to
determining whether the impairment
substantially limits a major life activity. For
example, a person with post-traumatic stress
disorder who experiences intermittent
flashbacks to traumatic events is
substantially limited in brain function and
thinking.
Section 1630.2(j)(1)(viii): Substantial
Limitation in Only One Major Life Activity
Required
Section 1630.2(j)(1)(viii) states: ‘‘An
impairment that substantially limits one
major life activity need not substantially
limit other major life activities in order to be
considered a substantially limiting
impairment.’’
The ADAAA explicitly states that an
impairment need only substantially limit one

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

major life activity to be considered a
disability under the ADA. See ADAAA
Section 4(a); 42 U.S.C. 12102(4)(C). ‘‘This
responds to and corrects those courts that
have required individuals to show that an
impairment substantially limits more than
one life activity.’’ 2008 Senate Statement of
Managers at 8. In addition, this rule of
construction is ‘‘intended to clarify that the
ability to perform one or more particular
tasks within a broad category of activities
does not preclude coverage under the ADA.’’
Id. To the extent cases pre-dating the
applicability of the 2008 Amendments Act
reasoned otherwise, they are contrary to the
law as amended. Id. (citing Holt v. Grand
Lake Mental Health Ctr., Inc., 443 F. 3d 762
(10th Cir. 2006) (holding an individual with
cerebral palsy who could not independently
perform certain specified manual tasks was
not substantially limited in her ability to
perform a ‘‘broad range’’ of manual tasks));
see also 2008 House Judiciary Committee
Report at 19 & n.52 (this legislatively corrects
court decisions that, with regard to the major
life activity of performing manual tasks,
‘‘have offset substantial limitation in the
performance of some tasks with the ability to
perform others’’ (citing Holt)).
For example, an individual with diabetes
is substantially limited in endocrine function
and thus an individual with a disability
under the first prong of the definition. He
need not also show that he is substantially
limited in eating to qualify for coverage
under the first prong. An individual whose
normal cell growth is substantially limited
due to lung cancer need not also show that
she is substantially limited in breathing or
respiratory function. And an individual with
HIV infection is substantially limited in the
function of the immune system, and therefore
is an individual with a disability without
regard to whether his or her HIV infection
substantially limits him or her in
reproduction.
In addition, an individual whose
impairment substantially limits a major life
activity need not additionally demonstrate a
resulting limitation in the ability to perform
activities of central importance to daily life
in order to be considered an individual with
a disability under § 1630.2(g)(1)(i) or
§ 1630.2(g)(1)(ii), as cases relying on the
Supreme Court’s decision in Toyota Motor
Mfg., Ky., Inc. v. Williams, 534 U.S. 184
(2002), had held prior to the ADA
Amendments Act.
Thus, for example, someone with an
impairment resulting in a 20-pound lifting
restriction that lasts or is expected to last for
several months is substantially limited in the
major life activity of lifting, and need not also
show that he is unable to perform activities
of daily living that require lifting in order to
be considered substantially limited in lifting.
Similarly, someone with monocular vision
whose depth perception or field of vision
would be substantially limited, with or
without any compensatory strategies the
individual may have developed, need not
also show that he is unable to perform
activities of central importance to daily life
that require seeing in order to be
substantially limited in seeing.

PO 00000

Frm 00035

Fmt 4701

Sfmt 4700

149a

17011

Section 1630.2(j)(1)(ix): Effects of an
Impairment Lasting Fewer Than Six Months
Can Be Substantially Limiting
Section 1630.2(j)(1)(ix) states: ‘‘The sixmonth ‘transitory’ part of the ‘transitory and
minor’ exception to ‘regarded as’ coverage in
§ 1630.2(l) does not apply to the definition of
‘disability’ under § 1630.2(g)(1)(i) or
§ 1630.2(g)(1)(ii). The effects of an
impairment lasting or expected to last fewer
than six months can be substantially limiting
within the meaning of this section.’’
The regulations include a clear statement
that the definition of an impairment as
transitory, that is, ‘‘lasting or expected to last
for six months or less,’’ only applies to the
‘‘regarded as’’ (third) prong of the definition
of ‘‘disability’’ as part of the ‘‘transitory and
minor’’ defense to ‘‘regarded as’’ coverage. It
does not apply to the first or second prong
of the definition of disability. See Joint
Hoyer-Sensenbrenner Statement at 3
(‘‘[T]here is no need for the transitory and
minor exception under the first two prongs
because it is clear from the statute and the
legislative history that a person can only
bring a claim if the impairment substantially
limits one or more major life activities or the
individual has a record of an impairment that
substantially limits one or more major life
activities.’’).
Therefore, an impairment does not have to
last for more than six months in order to be
considered substantially limiting under the
first or the second prong of the definition of
disability. For example, as noted above, if an
individual has a back impairment that results
in a 20-pound lifting restriction that lasts for
several months, he is substantially limited in
the major life activity of lifting, and therefore
covered under the first prong of the
definition of disability. At the same time,
‘‘[t]he duration of an impairment is one factor
that is relevant in determining whether the
impairment substantially limits a major life
activity. Impairments that last only for a
short period of time are typically not
covered, although they may be covered if
sufficiently severe.’’ Joint HoyerSensenbrenner Statement at 5.
Section 1630.2(j)(3) Predictable
Assessments
As the regulations point out, disability is
determined based on an individualized
assessment. There is no ‘‘per se’’ disability.
However, as recognized in the regulations,
the individualized assessment of some kinds
of impairments will virtually always result in
a determination of disability. The inherent
nature of these types of medical conditions
will in virtually all cases give rise to a
substantial limitation of a major life activity.
Cf. Heiko v. Columbo Savings Bank, F.S.B.,
434 F.3d 249, 256 (4th Cir. 2006) (stating,
even pre-ADAAA, that ‘‘certain impairments
are by their very nature substantially
limiting: the major life activity of seeing, for
example, is always substantially limited by
blindness’’). Therefore, with respect to these
types of impairments, the necessary
individualized assessment should be
particularly simple and straightforward.
This result is the consequence of the
combined effect of the statutory changes to
the definition of disability contained in the

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

17012

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

Amendments Act and flows from application
of the rules of construction set forth in
§§ 1630.2(j)(1)(i)–(ix) (including the lower
standard for ‘‘substantially limits’’; the rule
that major life activities include major bodily
functions; the principle that impairments
that are episodic or in remission are
disabilities if they would be substantially
limiting when active; and the requirement
that the ameliorative effects of mitigating
measures (other than ordinary eyeglasses or
contact lenses) must be disregarded in
assessing whether an individual has a
disability).
The regulations at § 1630.2(j)(3)(iii) provide
examples of the types of impairments that
should easily be found to substantially limit
a major life activity. The legislative history
states that Congress modeled the ADA
definition of disability on the definition
contained in the Rehabilitation Act, and said
it wished to return courts to the way they had
construed that definition. See 2008 House
Judiciary Committee Report at 6. Describing
this goal, the legislative history states that
courts had interpreted the Rehabilitation Act
definition ‘‘broadly to include persons with a
wide range of physical and mental
impairments such as epilepsy, diabetes,
multiple sclerosis, and intellectual and
developmental disabilities * * * even where
a mitigating measure—like medication or a
hearing aid—might lessen their impact on the
individual.’’ Id.; see also id. at 9 (referring to
individuals with disabilities that had been
covered under the Rehabilitation Act and
that Congress intended to include under the
ADA—‘‘people with serious health
conditions like epilepsy, diabetes, cancer,
cerebral palsy, multiple sclerosis, intellectual
and developmental disabilities’’); id. at n.6
(citing cases also finding that cerebral palsy,
hearing impairments, mental retardation,
heart disease, and vision in only one eye
were disabilities under the Rehabilitation
Act); id. at 10 (citing testimony from Rep.
Steny H. Hoyer, one of the original lead
sponsors of the ADA in 1990, stating that ‘‘we
could not have fathomed that people with
diabetes, epilepsy, heart conditions, cancer,
mental illnesses and other disabilities would
have their ADA claims denied because they
would be considered too functional to meet
the definition of disability’’); 2008 Senate
Statement of Managers at 3 (explaining that
‘‘we [we]re faced with a situation in which
physical or mental impairments that would
previously [under the Rehabilitation Act]
have been found to constitute disabilities
[we]re not considered disabilities’’ and citing
individuals with impairments such as
amputation, intellectual disabilities,
epilepsy, multiple sclerosis, diabetes,
muscular dystrophy, and cancer as
examples).
Of course, the impairments listed in
subparagraph 1630.2(j)(3)(iii) may
substantially limit a variety of other major
life activities in addition to those listed in the
regulation. For example, mobility
impairments requiring the use of a
wheelchair substantially limit the major life
activity of walking. Diabetes may
substantially limit major life activities such
as eating, sleeping, and thinking. Major
depressive disorder may substantially limit

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

major life activities such as thinking,
concentrating, sleeping, and interacting with
others. Multiple sclerosis may substantially
limit major life activities such as walking,
bending, and lifting.
By using the term ‘‘brain function’’ to
describe the system affected by various
mental impairments, the Commission is
expressing no view on the debate concerning
whether mental illnesses are caused by
environmental or biological factors, but
rather intends the term to capture functions
such as the ability of the brain to regulate
thought processes and emotions.
Section 1630.2(j)(4) Condition, Manner, or
Duration
The regulations provide that facts such as
the ‘‘condition, manner, or duration’’ of an
individual’s performance of a major life
activity may be useful in determining
whether an impairment results in a
substantial limitation. In the legislative
history of the ADAAA, Congress reiterated
what it had said at the time of the original
ADA: ‘‘A person is considered an individual
with a disability for purposes of the first
prong of the definition when [one or more of]
the individual’s important life activities are
restricted as to the conditions, manner, or
duration under which they can be performed
in comparison to most people.’’ 2008 Senate
Statement of Managers at 7 (citing 1989
Senate Report at 23). According to Congress:
‘‘We particularly believe that this test, which
articulated an analysis that considered
whether a person’s activities are limited in
condition, duration and manner, is a useful
one. We reiterate that using the correct
standard—one that is lower than the strict or
demanding standard created by the Supreme
Court in Toyota—will make the disability
determination an appropriate threshold issue
but not an onerous burden for those seeking
accommodations * * *. At the same time,
plaintiffs should not be constrained from
offering evidence needed to establish that
their impairment is substantially limiting.’’
2008 Senate Statement of Managers at 7.
Consistent with the legislative history, an
impairment may substantially limit the
‘‘condition’’ or ‘‘manner’’ under which a major
life activity can be performed in a number of
ways. For example, the condition or manner
under which a major life activity can be
performed may refer to the way an individual
performs a major life activity. Thus, the
condition or manner under which a person
with an amputated hand performs manual
tasks will likely be more cumbersome than
the way that someone with two hands would
perform the same tasks.
Condition or manner may also describe
how performance of a major life activity
affects the individual with an impairment.
For example, an individual whose
impairment causes pain or fatigue that most
people would not experience when
performing that major life activity may be
substantially limited. Thus, the condition or
manner under which someone with coronary
artery disease performs the major life activity
of walking would be substantially limiting if
the individual experiences shortness of
breath and fatigue when walking distances
that most people could walk without
experiencing such effects. Similarly,

PO 00000

Frm 00036

Fmt 4701

Sfmt 4700

150a

condition or manner may refer to the extent
to which a major life activity, including a
major bodily function, can be performed. For
example, the condition or manner under
which a major bodily function can be
performed may be substantially limited when
the impairment ‘‘causes the operation [of the
bodily function] to over-produce or underproduce in some harmful fashion.’’ See 2008
House Judiciary Committee Report at 17.
‘‘Duration’’ refers to the length of time an
individual can perform a major life activity
or the length of time it takes an individual
to perform a major life activity, as compared
to most people in the general population. For
example, a person whose back or leg
impairment precludes him or her from
standing for more than two hours without
significant pain would be substantially
limited in standing, since most people can
stand for more than two hours without
significant pain. However, a person who can
walk for ten miles continuously is not
substantially limited in walking merely
because on the eleventh mile, he or she
begins to experience pain because most
people would not be able to walk eleven
miles without experiencing some discomfort.
See 2008 Senate Statement of Managers at 7
(citing 1989 Senate Report at 23).
The regulations provide that in assessing
substantial limitation and considering facts
such as condition, manner, or duration, the
non-ameliorative effects of mitigating
measures may be considered. Such ‘‘nonameliorative effects’’ could include negative
side effects of medicine, burdens associated
with following a particular treatment
regimen, and complications that arise from
surgery, among others. Of course, in many
instances, it will not be necessary to assess
the negative impact of a mitigating measure
in determining that a particular impairment
substantially limits a major life activity. For
example, someone with end-stage renal
disease is substantially limited in kidney
function, and it thus is not necessary to
consider the burdens that dialysis treatment
imposes.
Condition, manner, or duration may also
suggest the amount of time or effort an
individual has to expend when performing a
major life activity because of the effects of an
impairment, even if the individual is able to
achieve the same or similar result as someone
without the impairment. For this reason, the
regulations include language which says that
the outcome an individual with a disability
is able to achieve is not determinative of
whether he or she is substantially limited in
a major life activity.
Thus, someone with a learning disability
may achieve a high level of academic
success, but may nevertheless be
substantially limited in the major life activity
of learning because of the additional time or
effort he or she must spend to read, write, or
learn compared to most people in the general
population. As Congress emphasized in
passing the Amendments Act, ‘‘[w]hen
considering the condition, manner, or
duration in which an individual with a
specific learning disability performs a major
life activity, it is critical to reject the
assumption that an individual who has
performed well academically cannot be

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
substantially limited in activities such as
learning, reading, writing, thinking, or
speaking.’’ 2008 Senate Statement of
Managers at 8. Congress noted that: ‘‘In
particular, some courts have found that
students who have reached a high level of
academic achievement are not to be
considered individuals with disabilities
under the ADA, as such individuals may
have difficulty demonstrating substantial
limitation in the major life activities of
learning or reading relative to ‘most people.’
When considering the condition, manner or
duration in which an individual with a
specific learning disability performs a major
life activity, it is critical to reject the
assumption that an individual who performs
well academically or otherwise cannot be
substantially limited in activities such as
learning, reading, writing, thinking, or
speaking. As such, the Committee rejects the
findings in Price v. National Board of
Medical Examiners, Gonzales v. National
Board of Medical Examiners, and Wong v.
Regents of University of California. The
Committee believes that the comparison of
individuals with specific learning disabilities
to ‘most people’ is not problematic unto
itself, but requires a careful analysis of the
method and manner in which an individual’s
impairment limits a major life activity. For
the majority of the population, the basic
mechanics of reading and writing do not pose
extraordinary lifelong challenges; rather,
recognizing and forming letters and words
are effortless, unconscious, automatic
processes. Because specific learning
disabilities are neurologically-based
impairments, the process of reading for an
individual with a reading disability (e.g.
dyslexia) is word-by-word, and otherwise
cumbersome, painful, deliberate and slow—
throughout life. The Committee expects that
individuals with specific learning disabilities
that substantially limit a major life activity
will be better protected under the amended
Act.’’ 2008 House Educ. & Labor Rep. at 10–
11.
It bears emphasizing that while it may be
useful in appropriate cases to consider facts
such as condition, manner, or duration, it is
always necessary to consider and apply the
rules of construction in § 1630.2(j)(1)(i)–(ix)
that set forth the elements of broad coverage
enacted by Congress. 2008 Senate Statement
of Managers at 6. Accordingly, while the
Commission’s regulations retain the concept
of ‘‘condition, manner, or duration,’’ they no
longer include the additional list of
‘‘substantial limitation’’ factors contained in
the previous version of the regulations (i.e.,
the nature and severity of the impairment,
duration or expected duration of the
impairment, and actual or expected
permanent or long-term impact of or
resulting from the impairment).
Finally, ‘‘condition, manner, or duration’’
are not intended to be used as a rigid threepart standard that must be met to establish
a substantial limitation. ‘‘Condition, manner,
or duration’’ are not required ‘‘factors’’ that
must be considered as a talismanic test.
Rather, in referring to ‘‘condition, manner, or
duration,’’ the regulations make clear that
these are merely the types of facts that may
be considered in appropriate cases. To the

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

extent such aspects of limitation may be
useful or relevant to show a substantial
limitation in a particular fact pattern, some
or all of them (and related facts) may be
considered, but evidence relating to each of
these facts may not be necessary to establish
coverage.
At the same time, individuals seeking
coverage under the first or second prong of
the definition of disability should not be
constrained from offering evidence needed to
establish that their impairment is
substantially limiting. See 2008 Senate
Statement of Managers at 7. Of course,
covered entities may defeat a showing of
‘‘substantial limitation’’ by refuting whatever
evidence the individual seeking coverage has
offered, or by offering evidence that shows an
impairment does not impose a substantial
limitation on a major life activity. However,
a showing of substantial limitation is not
defeated by facts related to ‘‘condition,
manner, or duration’’ that are not pertinent to
the substantial limitation the individual has
proffered.
Sections 1630.2(j)(5) and (6) Examples of
Mitigating Measures; Ordinary Eyeglasses or
Contact Lenses
These provisions of the regulations provide
numerous examples of mitigating measures
and the definition of ‘‘ordinary eyeglasses or
contact lenses.’’ These definitions have been
more fully discussed in the portions of this
interpretive guidance concerning the rules of
construction in § 1630.2(j)(1).
Substantially Limited in Working
The Commission has removed from the
text of the regulations a discussion of the
major life activity of working. This is
consistent with the fact that no other major
life activity receives special attention in the
regulation, and with the fact that, in light of
the expanded definition of disability
established by the Amendments Act, this
major life activity will be used in only very
targeted situations.
In most instances, an individual with a
disability will be able to establish coverage
by showing substantial limitation of a major
life activity other than working; impairments
that substantially limit a person’s ability to
work usually substantially limit one or more
other major life activities. This will be
particularly true in light of the changes made
by the ADA Amendments Act. See, e.g.,
Corley v. Dep’t of Veterans Affairs ex rel
Principi, 218 F. App’x. 727, 738 (10th Cir.
2007) (employee with seizure disorder was
not substantially limited in working because
he was not foreclosed from jobs involving
driving, operating machinery, childcare,
military service, and other jobs; employee
would now be substantially limited in
neurological function); Olds v. United Parcel
Serv., Inc., 127 F. App’x. 779, 782 (6th Cir.
2005) (employee with bone marrow cancer
was not substantially limited in working due
to lifting restrictions caused by his cancer;
employee would now be substantially
limited in normal cell growth); Williams v.
Philadelphia Hous. Auth. Police Dep’t, 380
F.3d 751, 763–64 (3d Cir. 2004) (issue of
material fact concerning whether police
officer’s major depression substantially
limited him in performing a class of jobs due

PO 00000

Frm 00037

Fmt 4701

Sfmt 4700

151a

17013

to restrictions on his ability to carry a
firearm; officer would now be substantially
limited in brain function).2
In the rare cases where an individual has
a need to demonstrate that an impairment
substantially limits him or her in working,
the individual can do so by showing that the
impairment substantially limits his or her
ability to perform a class of jobs or broad
range of jobs in various classes as compared
to most people having comparable training,
skills, and abilities. In keeping with the
findings and purposes of the Amendments
Act, the determination of coverage under the
law should not require extensive and
elaborate assessment, and the EEOC and the
courts are to apply a lower standard in
determining when an impairment
substantially limits a major life activity,
including the major life activity of working,
than they applied prior to the Amendments
Act. The Commission believes that the
courts, in applying an overly strict standard
with regard to ‘‘substantially limits’’
generally, have reached conclusions with
regard to what is necessary to demonstrate a
substantial limitation in the major life
activity of working that would be
inconsistent with the changes now made by
the Amendments Act. Accordingly, as used
in this section the terms ‘‘class of jobs’’ and
‘‘broad range of jobs in various classes’’ will
be applied in a more straightforward and
simple manner than they were applied by the
courts prior to the Amendments Act.3
Demonstrating a substantial limitation in
performing the unique aspects of a single
specific job is not sufficient to establish that
2 In addition, many cases previously analyzed in
terms of whether the plaintiff was ‘‘substantially
limited in working’’ will now be analyzed under the
‘‘regarded as’’ prong of the definition of disability as
revised by the Amendments Act. See, e.g., Cannon
v. Levi Strauss & Co., 29 F. App’x. 331 (6th Cir.
2002) (factory worker laid off due to her carpal
tunnel syndrome not regarded as substantially
limited in working because her job of sewing
machine operator was not a ‘‘broad class of jobs’’;
she would now be protected under the third prong
because she was fired because of her impairment,
carpal tunnel syndrome); Bridges v. City of Bossier,
92 F.3d 329 (5th Cir. 1996) (applicant not hired for
firefighting job because of his mild hemophilia not
regarded as substantially limited in working;
applicant would now be protected under the third
prong because he was not hired because of his
impairment, hemophilia).
3 In analyzing working as a major life activity in
the past, some courts have imposed a complex and
onerous standard that would be inappropriate
under the Amendments Act. See, e.g., Duncan v.
WMATA, 240 F.3d 1110, 1115 (DC Cir. 2001)
(manual laborer whose back injury prevented him
from lifting more than 20 pounds was not
substantially limited in working because he did not
present evidence of the number and types of jobs
available to him in the Washington area; testimony
concerning his inquiries and applications for truck
driving jobs that all required heavy lifting was
insufficient); Taylor v. Federal Express Corp., 429
F.3d 461, 463–64 (4th Cir. 2005) (employee’s
impairment did not substantially limit him in
working because, even though evidence showed
that employee’s injury disqualified him from
working in numerous jobs in his geographic region,
it also showed that he remained qualified for many
other jobs). Under the Amendments Act, the
determination of whether a person is substantially
limited in working is more straightforward and
simple than it was prior to the Act.

E:\FR\FM\25MRR2.SGM

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

17014

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

a person is substantially limited in the major
life activity of working.
A class of jobs may be determined by
reference to the nature of the work that an
individual is limited in performing (such as
commercial truck driving, assembly line jobs,
food service jobs, clerical jobs, or law
enforcement jobs) or by reference to jobrelated requirements that an individual is
limited in meeting (for example, jobs
requiring repetitive bending, reaching, or
manual tasks, jobs requiring repetitive or
heavy lifting, prolonged sitting or standing,
extensive walking, driving, or working under
conditions such as high temperatures or
noise levels).
For example, if a person whose job requires
heavy lifting develops a disability that
prevents him or her from lifting more than
fifty pounds and, consequently, from
performing not only his or her existing job
but also other jobs that would similarly
require heavy lifting, that person would be
substantially limited in working because he
or she is substantially limited in performing
the class of jobs that require heavy lifting.
Section 1630.2(k) Record of a Substantially
Limiting Impairment
The second prong of the definition of
‘‘disability’’ provides that an individual with
a record of an impairment that substantially
limits or limited a major life activity is an
individual with a disability. The intent of
this provision, in part, is to ensure that
people are not discriminated against because
of a history of disability. For example, the
‘‘record of’’ provision would protect an
individual who was treated for cancer ten
years ago but who is now deemed by a doctor
to be free of cancer, from discrimination
based on that prior medical history. This
provision also ensures that individuals are
not discriminated against because they have
been misclassified as disabled. For example,
individuals misclassified as having learning
disabilities or intellectual disabilities
(formerly termed ‘‘mental retardation’’) are
protected from discrimination on the basis of
that erroneous classification. Senate Report at
23; House Labor Report at 52–53; House
Judiciary Report at 29; 2008 House Judiciary
Report at 7–8 & n.14. Similarly, an employee
who in the past was misdiagnosed with
bipolar disorder and hospitalized as the
result of a temporary reaction to medication
she was taking has a record of a substantially
limiting impairment, even though she did not
actually have bipolar disorder.
This part of the definition is satisfied
where evidence establishes that an
individual has had a substantially limiting
impairment. The impairment indicated in the
record must be an impairment that would
substantially limit one or more of the
individual’s major life activities. There are
many types of records that could potentially
contain this information, including but not
limited to, education, medical, or
employment records.
Such evidence that an individual has a
past history of an impairment that
substantially limited a major life activity is
all that is necessary to establish coverage
under the second prong. An individual may
have a ‘‘record of’’ a substantially limiting
impairment—and thus be protected under

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

the ‘‘record of’’ prong of the statute—even if
a covered entity does not specifically know
about the relevant record. Of course, for the
covered entity to be liable for discrimination
under title I of the ADA, the individual with
a ‘‘record of’’ a substantially limiting
impairment must prove that the covered
entity discriminated on the basis of the
record of the disability.
The terms ‘‘substantially limits’’ and ‘‘major
life activity’’ under the second prong of the
definition of ‘‘disability’’ are to be construed
in accordance with the same principles
applicable under the ‘‘actual disability’’
prong, as set forth in § 1630.2(j).
Individuals who are covered under the
‘‘record of’’ prong will often be covered under
the first prong of the definition of disability
as well. This is a consequence of the rule of
construction in the ADAAA and the
regulations providing that an individual with
an impairment that is episodic or in
remission can be protected under the first
prong if the impairment would be
substantially limiting when active. See 42
U.S.C. 12102(4)(D); § 1630.2(j)(1)(vii). Thus,
an individual who has cancer that is
currently in remission is an individual with
a disability under the ‘‘actual disability’’
prong because he has an impairment that
would substantially limit normal cell growth
when active. He is also covered by the
‘‘record of’’ prong based on his history of
having had an impairment that substantially
limited normal cell growth.
Finally, this section of the EEOC’s
regulations makes it clear that an individual
with a record of a disability is entitled to a
reasonable accommodation currently needed
for limitations resulting from or relating to
the past substantially limiting impairment.
This conclusion, which has been the
Commission’s long-standing position, is
confirmed by language in the ADA
Amendments Act stating that individuals
covered only under the ‘‘regarded as’’ prong
of the definition of disability are not entitled
to reasonable accommodation. See 42 U.S.C.
12201(h). By implication, this means that
individuals covered under the first or second
prongs are otherwise eligible for reasonable
accommodations. See 2008 House Judiciary
Committee Report at 22 (‘‘This makes clear
that the duty to accommodate . . . arises only
when an individual establishes coverage
under the first or second prong of the
definition.’’). Thus, as the regulations
explain, an employee with an impairment
that previously substantially limited but no
longer substantially limits, a major life
activity may need leave or a schedule change
to permit him or her to attend follow-up or
‘‘monitoring’’ appointments from a health
care provider.
Section 1630.2(l) Regarded as Substantially
Limited in a Major Life Activity
Coverage under the ‘‘regarded as’’ prong of
the definition of disability should not be
difficult to establish. See 2008 House
Judiciary Committee Report at 17 (explaining
that Congress never expected or intended it
would be a difficult standard to meet). Under
the third prong of the definition of disability,
an individual is ‘‘regarded as having such an
impairment’’ if the individual is subjected to
an action prohibited by the ADA because of

PO 00000

Frm 00038

Fmt 4701

Sfmt 4700

152a

an actual or perceived impairment that is not
‘‘transitory and minor.’’
This third prong of the definition of
disability was originally intended to express
Congress’s understanding that ‘‘unfounded
concerns, mistaken beliefs, fears, myths, or
prejudice about disabilities are often just as
disabling as actual impairments, and [its]
corresponding desire to prohibit
discrimination founded on such
perceptions.’’ 2008 Senate Statement of
Managers at 9; 2008 House Judiciary
Committee Report at 17 (same). In passing
the original ADA, Congress relied extensively
on the reasoning of School Board of Nassau
County v. Arline 4 ‘‘that the negative reactions
of others are just as disabling as the actual
impact of an impairment.’’ 2008 Senate
Statement of Managers at 9. The ADAAA
reiterates Congress’s reliance on the broad
views enunciated in that decision, and
Congress ‘‘believe[s] that courts should
continue to rely on this standard.’’ Id.
Accordingly, the ADA Amendments Act
broadened the application of the ‘‘regarded
as’’ prong of the definition of disability. 2008
Senate Statement of Managers at 9–10. In
doing so, Congress rejected court decisions
that had required an individual to establish
that a covered entity perceived him or her to
have an impairment that substantially
limited a major life activity. This provision
is designed to restore Congress’s intent to
allow individuals to establish coverage under
the ‘‘regarded as’’ prong by showing that they
were treated adversely because of an
impairment, without having to establish the
covered entity’s beliefs concerning the
severity of the impairment. Joint HoyerSensenbrenner Statement at 3.
Thus it is not necessary, as it was prior to
the ADA Amendments Act, for an individual
to demonstrate that a covered entity
perceived him as substantially limited in the
ability to perform a major life activity in
order for the individual to establish that he
or she is covered under the ‘‘regarded as’’
prong. Nor is it necessary to demonstrate that
the impairment relied on by a covered entity
is (in the case of an actual impairment) or
would be (in the case of a perceived
impairment) substantially limiting for an
individual to be ‘‘regarded as having such an
impairment.’’ In short, to qualify for coverage
under the ‘‘regarded as’’ prong, an individual
is not subject to any functional test. See 2008
Senate Statement of Managers at 13 (‘‘The
functional limitation imposed by an
impairment is irrelevant to the third
‘regarded as’ prong.’’); 2008 House Judiciary
Committee Report at 17 (that is, ‘‘the
individual is not required to show that the
perceived impairment limits performance of
a major life activity’’). The concepts of ‘‘major
life activities’’ and ‘‘substantial limitation’’
simply are not relevant in evaluating whether
an individual is ‘‘regarded as having such an
impairment.’’
To illustrate how straightforward
application of the ‘‘regarded as’’ prong is, if
an employer refused to hire an applicant
because of skin graft scars, the employer has
regarded the applicant as an individual with
a disability. Similarly, if an employer
4 480

E:\FR\FM\25MRR2.SGM

U.S. at 282–83.

25MRR2

erowe on DSK5CLS3C1PROD with RULES_2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations
terminates an employee because he has
cancer, the employer has regarded the
employee as an individual with a disability.
A ‘‘prohibited action’’ under the ‘‘regarded
as’’ prong refers to an action of the type that
would be unlawful under the ADA (but for
any defenses to liability). Such prohibited
actions include, but are not limited to, refusal
to hire, demotion, placement on involuntary
leave, termination, exclusion for failure to
meet a qualification standard, harassment, or
denial of any other term, condition, or
privilege of employment.
Where an employer bases a prohibited
employment action on an actual or perceived
impairment that is not ‘‘transitory and
minor,’’ the employer regards the individual
as disabled, whether or not myths, fears, or
stereotypes about disability motivated the
employer’s decision. Establishing that an
individual is ‘‘regarded as having such an
impairment’’ does not, by itself, establish
liability. Liability is established only if an
individual meets the burden of proving that
the covered entity discriminated unlawfully
within the meaning of section 102 of the
ADA, 42 U.S.C. 12112.
Whether a covered entity can ultimately
establish a defense to liability is an inquiry
separate from, and follows after, a
determination that an individual was
regarded as having a disability. Thus, for
example, an employer who terminates an
employee with angina from a manufacturing
job that requires the employee to work
around machinery, believing that the
employee will pose a safety risk to himself
or others if he were suddenly to lose
consciousness, has regarded the individual as
disabled. Whether the employer has a
defense (e.g., that the employee posed a
direct threat to himself or coworkers) is a
separate inquiry.
The fact that the ‘‘regarded as’’ prong
requires proof of causation in order to show
that a person is covered does not mean that
proving a ‘‘regarded as’’ claim is complex.
While a person must show, for both coverage
under the ‘‘regarded as’’ prong and for
ultimate liability, that he or she was
subjected to a prohibited action because of an
actual or perceived impairment, this showing
need only be made once. Thus, evidence that
a covered entity took a prohibited action
because of an impairment will establish
coverage and will be relevant in establishing
liability, although liability may ultimately
turn on whether the covered entity can
establish a defense.
As prescribed in the ADA Amendments
Act, the regulations provide an exception to
coverage under the ‘‘regarded as’’ prong
where the impairment on which a prohibited
action is based is both transitory (having an
actual or expected duration of six months or
less) and minor. The regulations make clear
(at § 1630.2(l)(2) and § 1630.15(f)) that this
exception is a defense to a claim of
discrimination. ‘‘Providing this exception
responds to concerns raised by employer
organizations and is reasonable under the
‘regarded as’ prong of the definition because
individuals seeking coverage under this
prong need not meet the functional limitation
requirement contained in the first two prongs
of the definition.’’ 2008 Senate Statement of

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

Managers at 10; see also 2008 House
Judiciary Committee Report at 18 (explaining
that ‘‘absent this exception, the third prong of
the definition would have covered
individuals who are regarded as having
common ailments like the cold or flu, and
this exception responds to concerns raised by
members of the business community
regarding potential abuse of this provision
and misapplication of resources on
individuals with minor ailments that last
only a short period of time’’). However, as an
exception to the general rule for broad
coverage under the ‘‘regarded as’’ prong, this
limitation on coverage should be construed
narrowly. 2008 House Judiciary Committee
Report at 18.
The relevant inquiry is whether the actual
or perceived impairment on which the
employer’s action was based is objectively
‘‘transitory and minor,’’ not whether the
employer claims it subjectively believed the
impairment was transitory and minor. For
example, an employer who terminates an
employee whom it believes has bipolar
disorder cannot take advantage of this
exception by asserting that it believed the
employee’s impairment was transitory and
minor, since bipolar disorder is not
objectively transitory and minor. At the same
time, an employer that terminated an
employee with an objectively ‘‘transitory and
minor’’ hand wound, mistakenly believing it
to be symptomatic of HIV infection, will
nevertheless have ‘‘regarded’’ the employee as
an individual with a disability, since the
covered entity took a prohibited employment
action based on a perceived impairment (HIV
infection) that is not ‘‘transitory and minor.’’
An individual covered only under the
‘‘regarded as’’ prong is not entitled to
reasonable accommodation. 42 U.S.C.
12201(h). Thus, in cases where reasonable
accommodation is not at issue, the third
prong provides a more straightforward
framework for analyzing whether
discrimination occurred. As Congress
observed in enacting the ADAAA: ‘‘[W]e
expect [the first] prong of the definition to be
used only by people who are affirmatively
seeking reasonable accommodations or
modifications. Any individual who has been
discriminated against because of an
impairment—short of being granted a
reasonable accommodation or modification—
should be bringing a claim under the third
prong of the definition which will require no
showing with regard to the severity of his or
her impairment.’’ Joint Hoyer-Sensenbrenner
Statement at 6.
Section 1630.2(m) Qualified Individual
The ADA prohibits discrimination on the
basis of disability against a qualified
individual.’’ * * *

*

*

*

*

*

Section 1630.2(o) Reasonable
Accommodation
An individual with a disability is
considered ‘‘qualified’’ if the individual can
perform the essential functions of the
position held or desired with or without
reasonable accommodation. A covered entity
is required, absent undue hardship, to
provide reasonable accommodation to an
otherwise qualified individual with a

PO 00000

Frm 00039

Fmt 4701

Sfmt 4700

153a

17015

substantially limiting impairment or a
‘‘record of’’ such an impairment. However, a
covered entity is not required to provide an
accommodation to an individual who meets
the definition of disability solely under the
‘‘regarded as’’ prong.
The legislative history of the ADAAA
makes clear that Congress included this
provision in response to various court
decisions that had held (pre-Amendments
Act) that individuals who were covered
solely under the ‘‘regarded as’’ prong were
eligible for reasonable accommodations. In
those cases, the plaintiffs had been found not
to be covered under the first prong of the
definition of disability ‘‘because of the overly
stringent manner in which the courts had
been interpreting that prong.’’ 2008 Senate
Statement of Managers at 11. The legislative
history goes on to explain that ‘‘[b]ecause of
[Congress’s] strong belief that
accommodating individuals with disabilities
is a key goal of the ADA, some members [of
Congress] continue to have reservations
about this provision.’’ Id. However, Congress
ultimately concluded that clarifying that
individuals covered solely under the
‘‘regarded as’’ prong are not entitled to
reasonable accommodations ‘‘is an acceptable
compromise given our strong expectation
that such individuals would now be covered
under the first prong of the definition [of
disability], properly applied’’). Further,
individuals covered only under the third
prong still may bring discrimination claims
(other than failure-to-accommodate claims)
under title I of the ADA. 2008 Senate
Statement of Managers at 9–10.
In general, an accommodation is any
change in the work environment or in the
way things are customarily done that enables
an individual with a disability to enjoy equal
employment opportunities. There are three
categories of reasonable accommodation.
These are (1) accommodations that are
required to ensure equal opportunity in the
application process; (2) accommodations that
enable the employer’s employees with
disabilities to perform the essential functions
of the position held or desired; and (3)
accommodations that enable the employer’s
employees with disabilities to enjoy equal
benefits and privileges of employment as are
enjoyed by employees without disabilities. It
should be noted that nothing in this part
prohibits employers or other covered entities
from providing accommodations beyond
those required by this part.

*

*

*

Section 1630.4

*

*

Discrimination Prohibited

Paragraph (a) of this provision prohibits
discrimination on the basis of disability
against a qualified individual in all aspects
of the employment relationship. The range of
employment decisions covered by this
nondiscrimination mandate is to be
construed in a manner consistent with the
regulations implementing section 504 of the
Rehabilitation Act of 1973.
Paragraph (b) makes it clear that the
language ‘‘on the basis of disability’’ is not
intended to create a cause of action for an
individual without a disability who claims
that someone with a disability was treated
more favorably (disparate treatment), or was

E:\FR\FM\25MRR2.SGM

25MRR2

17016

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

provided a reasonable accommodation that
an individual without a disability was not
provided. See 2008 House Judiciary
Committee Report at 21 (this provision
‘‘prohibits reverse discrimination claims by
disallowing claims based on the lack of
disability’’). Additionally, the ADA and this
part do not affect laws that may require the
affirmative recruitment or hiring of
individuals with disabilities, or any
voluntary affirmative action employers may
undertake on behalf of individuals with
disabilities. However, part 1630 is not
intended to limit the ability of covered
entities to choose and maintain a qualified
workforce. Employers can continue to use
criteria that are job related and consistent
with business necessity to select qualified
employees, and can continue to hire
employees who can perform the essential
functions of the job.
The Amendments Act modified title I’s
nondiscrimination provision to replace the
prohibition on discrimination ‘‘against a
qualified individual with a disability because
of the disability of such individual’’ with a
prohibition on discrimination ‘‘against a
qualified individual on the basis of
disability.’’ As the legislative history of the
ADAAA explains: ‘‘[T]he bill modifies the
ADA to conform to the structure of Title VII
and other civil rights laws by requiring an
individual to demonstrate discrimination ‘on
the basis of disability’ rather than
discrimination ‘against an individual with a
disability’ because of the individual’s
disability. We hope this will be an important
signal to both lawyers and courts to spend
less time and energy on the minutia of an
individual’s impairment, and more time and
energy on the merits of the case—including
whether discrimination occurred because of
the disability, whether an individual was
qualified for a job or eligible for a service,
and whether a reasonable accommodation or
modification was called for under the law.’’
Joint Hoyer-Sensenbrenner Statement at 4;
see also 2008 House Judiciary Report at 21
(‘‘This change harmonizes the ADA with
other civil rights laws by focusing on
whether a person who has been
discriminated against has proven that the
discrimination was based on a personal
characteristic (disability), not on whether he
or she has proven that the characteristic
exists.’’).

erowe on DSK5CLS3C1PROD with RULES_2

Section 1630.5
Classifying

Limiting, Segregating and

This provision and the several provisions
that follow describe various specific forms of
discrimination that are included within the
general prohibition of § 1630.4. The
capabilities of qualified individuals must be
determined on an individualized, case by
case basis. Covered entities are also
prohibited from segregating qualified
employees into separate work areas or into
separate lines of advancement on the basis of
their disabilities.

*

*

*

*

*

Section 1630.9: Not Making Reasonable
Accommodation

*

*

*

VerDate Mar<15>2010

*

*

15:22 Mar 24, 2011

Jkt 223001

Section 1630.9(e)
The purpose of this provision is to
incorporate the clarification made in the
ADA Amendments Act of 2008 that an
individual is not entitled to reasonable
accommodation under the ADA if the
individual is only covered under the
‘‘regarded as’’ prong of the definition of
‘‘individual with a disability.’’ However, if
the individual is covered under both the
‘‘regarded as’’ prong and one or both of the
other two prongs of the definition of
disability, the ordinary rules concerning the
provision of reasonable accommodation
apply.
Section 1630.10 Qualification Standards,
Tests, and Other Selection Criteria
Section 1630.10(a)—In General
The purpose of this provision is to ensure
that individuals with disabilities are not
excluded from job opportunities unless they
are actually unable to do the job. It is to
ensure that there is a fit between job criteria
and an applicant’s (or employee’s) actual
ability to do the job. Accordingly, job criteria
that even unintentionally screen out, or tend
to screen out, an individual with a disability
or a class of individuals with disabilities
because of their disability may not be used
unless the employer demonstrates that those
criteria, as used by the employer, are job
related for the position to which they are
being applied and are consistent with
business necessity. The concept of ‘‘business
necessity’’ has the same meaning as the
concept of ‘‘business necessity’’ under section
504 of the Rehabilitation Act of 1973.
Selection criteria that exclude, or tend to
exclude, an individual with a disability or a
class of individuals with disabilities because
of their disability but do not concern an
essential function of the job would not be
consistent with business necessity.
The use of selection criteria that are related
to an essential function of the job may be
consistent with business necessity. However,
selection criteria that are related to an
essential function of the job may not be used
to exclude an individual with a disability if
that individual could satisfy the criteria with
the provision of a reasonable
accommodation. Experience under a similar
provision of the regulations implementing
section 504 of the Rehabilitation Act
indicates that challenges to selection criteria
are, in fact, often resolved by reasonable
accommodation.
This provision is applicable to all types of
selection criteria, including safety
requirements, vision or hearing requirements,
walking requirements, lifting requirements,
and employment tests. See 1989 Senate
Report at 37–39; House Labor Report at 70–
72; House Judiciary Report at 42. As
previously noted, however, it is not the
intent of this part to second guess an
employer’s business judgment with regard to
production standards. See § 1630.2(n)
(Essential Functions). Consequently,
production standards will generally not be
subject to a challenge under this provision.
The Uniform Guidelines on Employee
Selection Procedures (UGESP) 29 CFR part
1607 do not apply to the Rehabilitation Act
and are similarly inapplicable to this part.

PO 00000

Frm 00040

Fmt 4701

Sfmt 4700

154a

Section 1630.10(b)—Qualification Standards
and Tests Related to Uncorrected Vision
This provision allows challenges to
qualification standards based on uncorrected
vision, even where the person excluded by a
standard has fully corrected vision with
ordinary eyeglasses or contact lenses. An
individual challenging a covered entity’s
application of a qualification standard, test,
or other criterion based on uncorrected
vision need not be a person with a disability.
In order to have standing to challenge such
a standard, test, or criterion, however, a
person must be adversely affected by such
standard, test or criterion. The Commission
also believes that such individuals will
usually be covered under the ‘‘regarded as’’
prong of the definition of disability. Someone
who wears eyeglasses or contact lenses to
correct vision will still have an impairment,
and a qualification standard that screens the
individual out because of the impairment by
requiring a certain level of uncorrected vision
to perform a job will amount to an action
prohibited by the ADA based on an
impairment. (See § 1630.2(l); Appendix to
§ 1630.2(l).)
In either case, a covered entity may still
defend a qualification standard requiring a
certain level of uncorrected vision by
showing that it is job related and consistent
with business necessity. For example, an
applicant or employee with uncorrected
vision of 20/100 who wears glasses that fully
correct his vision may challenge a police
department’s qualification standard that
requires all officers to have uncorrected
vision of no less than 20/40 in one eye and
20/100 in the other, and visual acuity of 20/
20 in both eyes with correction. The
department would then have to establish that
the standard is job related and consistent
with business necessity.
Section 1630.15

Defenses

*

*

*

*

*

Section 1630.15(f) Claims Based on
Transitory and Minor Impairments Under the
‘‘Regarded As’’ Prong
It may be a defense to a charge of
discrimination where coverage would be
shown solely under the ‘‘regarded as’’ prong
of the definition of disability that the
impairment is (in the case of an actual
impairment) or would be (in the case of a
perceived impairment) both transitory and
minor. Section 1630.15(f)(1) explains that an
individual cannot be ‘‘regarded as having
such an impairment’’ if the impairment is
both transitory (defined by the ADAAA as
lasting or expected to last less than six
months) and minor. Section 1630.15(f)(2)
explains that the determination of ‘‘transitory
and minor’’ is made objectively. For example,
an individual who is denied a promotion
because he has a minor back injury would be
‘‘regarded as’’ an individual with a disability
if the back impairment lasted or was
expected to last more than six months.
Although minor, the impairment is not
transitory. Similarly, if an employer
discriminates against an employee based on
the employee’s bipolar disorder (an
impairment that is not transitory and minor),
the employee is ‘‘regarded as’’ having a

E:\FR\FM\25MRR2.SGM

25MRR2

Federal Register / Vol. 76, No. 58 / Friday, March 25, 2011 / Rules and Regulations

17017

disability even if the employer subjectively
believes that the employee’s disorder is
transitory and minor.

*

*

*

*

*

[FR Doc. 2011–6056 Filed 3–24–11; 8:45 am]

erowe on DSK5CLS3C1PROD with RULES_2

BILLING CODE P

.

VerDate Mar<15>2010

15:22 Mar 24, 2011

Jkt 223001

PO 00000

Frm 00041

Fmt 4701

Sfmt 9990

155a

E:\FR\FM\25MRR2.SGM

25MRR2

